APPENDIX

TABLE OF APPENDICES
Appendix A
Opinion, United States Court of
Appeals for the Fifth Circuit, Impax
Laboratories, Inc. v. FTC, No. 19-60394
(April 13, 2021) ............................................ App-1
Appendix B
Opinion, Federal Trade Commission, In
the Matter of Impax Laboratories, Inc.,
No. 9373 (March 28, 2019) ........................ App-31
Appendix C
Decision, Federal Trade Commission
Office of Administrative Law Judges, In
the Matter of Impax Laboratories, Inc.,
No. 9373 (May 18, 2018).......................... App-129
Appendix D
Constitutional and Statutory Provisions
Involved.................................................... App-395
15 U.S.C. §1 ...................................... App-395
21 U.S.C. §355 .................................. App-395
35 U.S.C. §271 .................................. App-526

App-1
Appendix A
UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
________________
No. 19-60394
________________
IMPAX LABORATORIES, INC.,
v.

Petitioner,

FEDERAL TRADE COMMISSION,
Respondent.
________________
Filed: April 13, 2021
________________
Before: SOUTHWICK, COSTA, and
DUNCAN, Circuit Judges.
________________
OPINION
________________
COSTA, Circuit Judge:
Normally, when lawsuits settle the defendant
pays the plaintiff. That makes sense as the defendant
is the party accused of wrongdoing.
But when a generic drug is poised to enter the
market and threaten the monopoly enjoyed by a
brand-name pharmaceutical, federal law can
incentivize a different type of settlement. The HatchWaxman Act delays the entry of the generic drug if the
brand-drug manufacturer files a patent infringement

App-2
suit against the generic. Those patent suits are
sometimes settled with the brand-drug plaintiff
paying the allegedly-infringing generic. In return for
the payment, the generic agrees to delay its market
entry beyond the date when the FDA would allow it to
compete. The result is an extension of the brand drug’s
monopoly.
Given the counterintuitive flow of money in this
scenario—to, rather than from, the alleged
wrongdoer—such deals are called “reverse payment
settlements.” The Supreme Court has held that these
settlements that extend the brand drug’s monopoly
can have anticompetitive effects that violate the
antitrust laws. FTC v. Actavis, 570 U.S. 136, 158
(2013). Reverse payment settlements, however, are
not automatically invalid; they are subject to the rule
of reason. Id. at 159.
In its first post-Actavis reverse payment case, the
Federal
Trade
Commission
charged
Impax
Laboratories with antitrust violations for accepting
payments ultimately worth more than $100 million to
delay the entry of its generic drug for more than two
years. The resulting administrative hearing included
testimony from 37 witnesses and over 1,200 exhibits.
Based on that record, the Commission conducted a
rule-of-reason analysis and unanimously concluded
that Impax violated antitrust law.
On appeal, we face a narrower task: determining
whether the Commission committed any legal errors
and whether substantial evidence supported its
factual findings. Concluding that the Commission’s
ruling passes muster on both fronts, we DENY the
petition for review.

App-3
I.
A.
Anyone who buys pharmaceuticals knows that
generic drugs are cheaper than their brand
counterparts. The first generic to enter the market
typically costs 10 to 25 percent less than the branded
drug; those discounts grow to between 50 and 80
percent once other generics enter.
To bring competition to the drug market, the
Hatch-Waxman Act promotes entry for these generics.
Actavis, 570 U.S. at 142. Rather than undergoing the
lengthy and costly approval process that a new drug
faces, generics can file an Abbreviated New Drug
Application with the Food and Drug Administration.
Id. at 142; 21 U.S.C. §355(j). If the generic drug is
biologically equivalent to a brand drug the FDA has
already approved, then the generic can essentially
“piggy-back on the pioneer’s approval efforts.” Actavis,
570 U.S. at 142; 21 U.S.C. §355(j)(2)(A)(i)-(iv). The Act
offers an additional carrot to the first generic
applicant: it can market its generic drug for 180 days
without competition from any other generic
manufacturer. Actavis, 570 U.S. at 143-44; 21 U.S.C.
§355(j)(5)(B)(iv). During this period of exclusivity, the
newly approved generic only faces competition from
the brand drug or a generic sold by the brand
manufacturer. Actavis, 570 U.S. at 143-44. In effect,
the statute allows a duopoly during those 180 days. A
firstto- file generic often realizes most of its profits,
potentially “several hundred million dollars,” during
this initial six-month period. Id. at 143 (quoting C.
Scott Hemphill, Paying for Delay: Pharmaceutical

App-4
Patent Settlement as a Regulatory Design Problem, 81
N.Y.U. L. Rev. 1553, 1579 (2006)).
Generic entry is not so easy when there is a patent
for the brand drug. The Hatch-Waxman Act also
addresses this common situation. If the brand
manufacturer asserts a patent in its initial drug
application, then the generic manufacturer must
certify in its application that the patent is invalid or
that its drug will not infringe the patent. 21 U.S.C.
§355(j)(2)(A)(vii)(IV). If the brand manufacturer
disagrees (it likely will), it may file a patent
infringement suit. 35 U.S.C. §271(e)(2)(A). And if it
does so within 45 days, the FDA is stayed from
approving the generic application until either 30
months have passed or the patent litigation concludes.
21 U.S.C. §355(j)(5)(B)(iii); see also Actavis, 570 U.S.
at 143 (describing these procedures). This delay for the
first generic’s entry also postpones the potential entry
of other generics. They must wait for the same 30month stay and then for the expiration of the first
generic’s 6-month exclusivity period before entering
the market.
What happens if the patent suit against the first
generic settles? The brand manufacturer no longer
faces an immediate threat of competition from new
generic entrants. The 30-month statutory stay
restarts if the brand maker brings a patent suit
against another generic that wishes to enter the
market. Actavis, 570 U.S. at 155 (citing 21 U.S.C.
§355(j)(5)(B)(iii)). Plus, any subsequent generic is not
entitled to the exclusivity period. Id. That greatly
reduces the potential benefit of challenging the brand
maker’s patent. Id. (noting that subsequent generics

App-5
“stand to win significantly less than the first if they
bring a successful” challenge to the patent).
These features of the Hatch-Waxman Act—the
period of exclusivity for the first generic; the 30-month
stay of the generic’s FDA application when the brand
maker sues for infringement; and the reduced
incentive a subsequent generic has to challenge the
brand maker’s patent—can lead the brand maker to
pay large sums for delaying entry of the first generic
maker. Actavis, 570 U.S. at 155 (recognizing that
these Hatch-Waxman “features together mean that a
reverse payment settlement with the first filer ...
‘removes from consideration the most motivated
challenger, and the one closest to introducing
competition” (quoting Hemphill, Paying for Delay,
supra, at 1586)).
B.
The facts of this case show those incentives in
action. The drug at issue is a type of oxymorphone,
which is an opioid. Endo, the brand-name drug maker
in this case, started selling an extended-release
formulation of oxymorphone called Opana ER in 2006.
An extended-release pain reliever provides medication
to the bloodstream over several hours, as opposed to
immediate-release opioids which are short-acting.
When it entered the market, Opana ER was the only
extended-release version of oxymorphone.
In late 2007, Impax filed the first application to
market generic extended-release oxymorphone. The
application did not result in prompt approval of the
generic, however, because Endo held patents for
Opana ER that would not expire until 2013. Endo sued
Impax for patent infringement in January 2008,

App-6
delaying any FDA approval of the generic for 30
months—until June 2010—unless the litigation
concluded earlier.
Early settlement talks failed, with Endo rejecting
Impax’s proposed entry dates of January 2011, July
2011, December 2011, or January 2012.
The June 2010 expiration of the Hatch-Waxman
stay loomed. Delaying Impax’s entry beyond the stay
period would save Endo millions. Endo had projected
that generic entry would cut Opana ER sales by 85
percent within three months and cost it $100 million
in revenue within six months.
But extending the period in which it could sell
Opana ER without competition was just one of Endo’s
priorities. The drug maker had something else in the
works: It planned to move consumers to a new
brandname drug that would not face competition for
years. Endo would remove the original Opana ER from
the market, replace it with a crush-resistant version
of the drug, and obtain new patents to protect the
reformulated drug. While Impax’s generic would still
eventually reach the market, it would not be
therapeutically equivalent to Endo’s new branded
drug and thus pharmacists would not be able to
automatically substitute the generic when filling
prescriptions. This automatic substitution of brand
drug prescriptions, promoted by state laws, is the
primary driver of generic sales. So, if Endo succeeded
in switching consumers to its reformulated drug,
which would be just different enough from the original
formulation to preclude substitution, the market for
Impax’s generic would shrink dramatically,
preserving Endo’s monopoly profits.

App-7
The success of this “product hop” 1 depended on
the reformulated Opana ER reaching the market
sufficiently in advance of Impax’s generic entry to
allow patients to move away from the original drug
before pharmacists started substituting the generic
version. This transition period to the reformulated
drug would take roughly six to nine months. A
successful transition to the reformulated Opana ER
before generic entry would mean millions to Endo. The
company projected that the reformulated Opana ER
would generate about $200 million in annual sales by
2016 if the market transitioned to the new drug before
the generic entered. But if the generic launched first,
then 2016 sales of the new formulation would fall to
$10 million.
The date when Impax could start selling its
generic was thus critical. The FDA tentatively
approved Impax’s application in May 2010. The
Hatch-Waxman stay would expire the next month.
There were signs that Impax was planning to launch
its generic soon thereafter. 2
With the possible launch date for generic entry
imminent, Endo restarted settlement negotiations
Product hopping can itself be anticompetitive. See generally
New York ex rel. Schneiderman v. Actavis PLC, 787 F.3d 638, 643
& n.2, 652-59 (2d Cir. 2015); Alan Devlin, Exclusionary Strategies
in the Hatch-Waxman Context, 2007 MICH. ST. L. REV. 631, 657673 (crediting Professor Hovenkamp with the “product hop”
term).
1

2 If Impax entered the market before resolution of the patent
litigation, it would risk paying any damages for its sales in the
event Endo later proved infringement. This is called “at risk”
entry. See In re Lipitor Antitrust Lit., 868 F.3d 231, 241 (3d Cir.
2017).

App-8
just three days after the FDA’s tentative approval of
the generic. The parties settled the patent litigation in
June 2010, just a few days after the patent trial began
and less than a week before the FDA fully approved
Impax’s application.
C.
Under the settlement, Impax agreed to delay
launching its generic until January 1, 2013—two and
a half years after Impax otherwise could have entered
“at-risk.” In turn, Endo agreed to not market its own
generic version of extended-release oxymorphone until
Impax’s 180-day Hatch-Waxman exclusivity period
concluded in July 2013. Additionally, Endo agreed to
pay Impax a credit if sales revenues for the original
formulation of Opana ER fell by more than 50 percent
between the dates of settlement and Impax’s entry.
This credit served as an insurance policy for Impax,
preserving the value of the settlement in case Endo
undermined the generic oxymorphone market by
transitioning consumers to the reformulated Opana
ER. Endo also provided Impax with a broad license to
Endo’s existing and future patents covering extendedrelease oxymorphone. Finally, Endo and Impax agreed
to collaboratively develop a new Parkinson’s disease
treatment, with Endo paying Impax $10 million
immediately and up to $30 million in additional
payments contingent on achieving sufficient
development and marketing progress.
Impax’s delayed entry allowed Endo to execute
the product hop. In March 2012, Endo introduced its
reformulated drug and withdrew the original drug. It
publicly stated that the original drug was unsafe,
though the FDA later disagreed that safety concerns

App-9
motivated the withdrawal. Predictably, the market for
the original Opana ER shriveled. So Endo had to pay
Impax $102 million in credits. Endo subsequently
succeeded in securing additional patents, and in 2015
and 2016 secured injunctions that prevented all
manufacturers, including Impax, from marketing
generic versions of the reformulated drug. But in 2017,
the FDA asked Endo to voluntarily withdraw the
reformulated Opana ER from the market due to safety
concerns, and it did.
For its part, Impax began marketing original
formulation generic oxymorphone in January 2013,
despite the damaged market Endo left behind.
Because of the injunctions Endo secured against other
generics and because Endo eventually withdrew the
reformulated Opana ER from the market, Impax’s
generic is the only extended-release oxymorphone
available to consumers today.
D.
The FTC brought separate actions against Endo
and Impax alleging that the settlement was an unfair
method of competition under the FTC Act and an
unreasonable restraint on trade under the Sherman
Act. Endo settled. Impax fought the charge and
successfully argued that the case should proceed in an
administrative proceeding rather than in federal
district court where the Commission had first filed.
An administrative law judge determined that the
agreement
restricted
competition
but
was
nevertheless lawful because its procompetitive
benefits outweighed the anticompetitive effects.
Reviewing both the facts and law de novo, 16 C.F.R.
§3.54(a), the Commission reached a different

App-10
conclusion. It found that Impax had failed to show that
the settlement had any procompetitive benefits.
Moreover, it determined that the purported benefits
Impax identified could have been achieved through a
less restrictive agreement. The Commission did not
impose any monetary sanctions. It did not even
invalidate Impax’s agreements with Endo or other
drug makers. Instead, it issued a cease-and-desist
order enjoining Impax from entering into similar
reverse payment settlements going forward.
Impax now petitions for review of the FTC’s order.
II.
We review the Commission’s ruling, not the ALJ’s.
N. Tex. Specialty Physicians v. FTC, 528 F.3d 346, 354
(5th Cir. 2008); cf. Shaikh v. Holder, 588 F.3d 861, 863
(5th Cir. 2009) (noting that we review the decision of
the BIA in immigration cases). Any legal conclusions
are reviewed de novo, though we “are to give some
deference to the [FTC]’s informed judgment that a
particular commercial practice is to be condemned as
‘unfair.’” N. Tex. Specialty, 528 F.3d at 354 (quoting
FTC v. Ind. Fed’n of Dentists, 476 U.S. 447, 454
(1986)).
The “findings of the Commission as to the facts, if
supported by evidence, shall be conclusive.” 15 U.S.C.
§45(c). That statutory command is “essentially
identical” to the substantial-evidence standard that
often governs judicial review of agency factfinding.
Ind. Fed’n of Dentists, 476 U.S. at 454. Substantial
evidence is “such relevant evidence as a reasonable
mind might accept as adequate to support a
conclusion.” Id. (quoting Universal Camera Corp. v.
NLRB, 340 U.S. 474, 477 (1951)). We must accept

App-11
findings supported by such evidence “even if
‘suggested alternative conclusions may be equally or
even more reasonable and persuasive.” N. Tex.
Specialty, 528 F.3d at 354 (quoting Colonial Stores,
Inc. v. FTC, 450 F.2d 733, 739 (5th Cir. 1971)). This
deferential review should be no more searching than
if we were evaluating a jury’s verdict. See District of
Columbia v. Pace, 320 U.S. 698, 702 (1944) (explaining
that substantial evidence review is less intrusive than
clear error review); 3 Steven Alan Childress & Martha
S. Davis, Federal Standards of Review §15.04 (same);
Robert L. Stern, Review of Findings of Administrators,
Judges and Juries: A Comparative Analysis, 58 Harv.
L. Rev. 70, 84-86 (1944) (analyzing Justice Jackson’s
opinion in Pace).
III.
A reverse payment settlement is a settlement of
patent litigation in which the patentholder gives the
alleged infringer cash or other valuable services or
property and the alleged infringer agrees not to
market its allegedly infringing product until some
later date. See Actavis, 570 U.S. at 140. These
horizontal agreements unlawfully restrain trade, see
15 U.S.C. §1, if they cause anticompetitive effects that
outweigh any procompetitive benefits. 3 See Actavis,
570 U.S. at 156-59.
This rule-of-reason inquiry uses a burden-shifting
framework. See Ohio v. Am. Express, 138 S. Ct. 2274,
3 Reverse-payment settlements are also sometimes called “pay
for delay” agreements. See FTC v. Watson Pharm., Inc., 677 F.3d
1298, 1301 (11th Cir. 2012), rev’d sub nom. FTC v. Actavis, 570
U.S. 136 (2013). Following the Supreme Court’s lead, we use the
term “reverse payment.”

App-12
2284 (2018). The initial burden is on the FTC to show
anticompetitive effects. Id. If the FTC succeeds in
doing so, the burden shifts to Impax to demonstrate
that the restraint produced procompetitive benefits.
Id. If Impax successfully proves procompetitive
benefits, then the FTC can demonstrate that any
procompetitive effects could be achieved through less
anticompetitive means. Id. Finally, if the FTC fails to
demonstrate a less restrictive alternative way to
achieve the procompetitive benefits, the court must
balance the anticompetitive and procompetitive
effects of the restraint. Apani Sw., Inc. v. Coca-Cola
Enters., Inc., 300 F.3d 620, 627 (5th Cir. 2002). If the
anticompetitive harms outweigh the procompetitive
benefits, then the agreement is illegal. Id.
A.
The first question is whether the agreement
caused anticompetitive effects or “created the
potential for anticompetitive effects.” Doctor’s Hosp. of
Jefferson, Inc. v. Se. Med. All., Inc., 123 F.3d 301, 310
(5th Cir. 1997); accord Retractable Techs, Inc. v.
Becton Dickinson & Co., 842 F.3d 883, 895 (5th Cir.
2016) (noting that an antitrust plaintiff must show
that a restraint “had the potential to eliminate, or did
in fact eliminate, competition”); see also Actavis, 570
U.S. at 157 (noting that the “relevant anticompetitive
harm” of a reverse payment settlement is
“prevent[ing] the risk of competition”). Such effects
may be proved “indirectly,” with “proof of market
power plus some evidence that the challenged

App-13
restraint harms competition.” 4 Am. Express Co., 138
S. Ct. at 2284.
Anticompetitive effects are those that harm
consumers. Think increased prices, decreased output,
or lower quality goods. Id. Eliminating potential
competition is, by definition, anticompetitive. See, e.g.,
United States v. Falstaff Brewing Corp., 410 U.S. 526,
532-33 (1973) (acquiring potential competitor was
anticompetitive both because of current pressure of
potential entry and potentially beneficial effects of
future entry). Indeed, paying a potential competitor
not to compete is so detrimental to competition that
normally it is a per se violation of the antitrust laws.
See Palmer v. BRG of Ga., Inc., 498 U.S. 46, 48-49
(1990); see also Blue Cross & Blue Shield United of
Wis. v. Marshfield Clinic, 65 F.3d 1406, 1415 (7th Cir.
1995) (Posner, C.J.) (suggesting that market
allocation agreements are even more pernicious than
price-fixing agreements because the former eliminates
all forms of competition); Joshua P. Davis & Ryan J.
McEwan, Deactivating Actavis: The Clash Between the
Supreme Court and (Some) Lower Courts, 67 Rutgers
U.L. Rev. 557, 559 (2015) (calling “an agreement
between horizontal competitors not to compete, the
bête noir of antitrust law”).
Actavis concluded that, in contrast to the typical
horizontal agreement to divvy up markets, reverse
payment settlements might produce both antiand
procompetitive effects. On the one hand, a brand
4 The FTC required that showing of market power to show
potential anticompetitive effect under Actavis. Impax does not
argue that it lacked market power—it held a patent after all—so
we need not address that issue further.

App-14
maker’s paying a generic to delay entry “in effect
amounts to a purchase by the patentee of the exclusive
right to sell its product, a right it already claims but
would lose if the patent litigation were to continue and
the patent were held invalid or not infringed by the
generic product.” 570 U.S. at 153-54. In fact, reverse
payment settlements may restrict competition even
more than typical market allocation agreements
because delaying entry of the first generic does not
just eliminate one competitor—it prolongs the
“bottleneck” that delays entry of other generic
competitors. In re Nexium (Esomeprazole) Antitrust
Lit., 842 F.3d 34, 41 (1st Cir. 2016). But the existence
of patent—a lawful monopoly if valid—points in the
other direction. If the patent is valid, then unlike
traditional market allocation agreements, a
settlement that allows generic entry after the FDA’s
approval of the drug but still earlier than the patent
expiration date may result in more competition than
would have existed absent the settlement. Actavis, 570
U.S. at 154. Given the potentially countervailing
impacts of reverse payment settlements, the Supreme
Court applied the rule of reason rather than automatic
invalidity. Id. at 159.
At this first step of the rule-of-reason analysis, we
are just focused on the anticompetitive side of the
equation. Actavis held that a “large and unjustified”
reverse payment creates a likelihood of “significant
anticompetitive effects.” Id. at 158. “[T]he likelihood of
a reverse payment bringing about anticompetitive
effects depends upon its size, its scale in relation to the
payor’s anticipated future litigation costs, its
independence from other services for which it might

App-15
represent payment, and the lack of any other
convincing justification.” Id. at 159.
In many reverse payment cases, the central
dispute is whether there was in fact a reverse
payment. HERBERT HOVENKAMP ET AL. IP &
ANTITRUST: AN ANALYSIS OF ANTITRUST PRINCIPLES
APPLIED TO INTELLECTUAL PROPERTY LAW §16.01
(2018 Supp.); see, e.g., In re Loestrin 24 Fe Antitrust
Litig., 814 F.3d 538, 550-51 (1st Cir. 2016) (citing
numerous post-Actvavis case addressing whether
nonmonetary benefits to a generic are reverse
payments). The settling party will often contend that
any settlement payments are for services rather than
for delayed entry. Id. That is not the case here. Impax
has not challenged the ALJ’s original determination
“that a large reverse payment helped induce
settlement or that the payment was linked to the
January 2013 entry date.”
That concession makes sense in light of the
valuable consideration Impax received in exchange for
delaying entry. 5 We will note two significant items.
First, Endo committed to not market an authorized
generic, which increased Impax’s projected profits by
$24.5 million. See King Drug Co. of Florence, 791 F.3d
388, 394 (3d Cir. 2015) (holding that brand
manufacturer commitments to not market a generic
drug during the 180-day exclusivity period are
“payments” under Actavis); see also Loestrin 24 Fe
Antitrust Litig., 814 F.3d at 549-53 (explaining that
Actavis recognized that a reverse payment could
5 The Commission also considered the payments to Impax for
the Parkinson’s research and the licenses Endo granted Impax.

App-16
include more than just an exchange of money). Second,
Endo would pay Impax credits for the shrunken
market the latter would inherit if, as expected, Endo
timely executed the product hop to the reformulated
Opana ER. The $102 million Endo ultimately paid is
likely a good approximation of the parties’ expected
value for these credits. The size of these payments is
comparable to other cases where courts have inferred
anticompetitive effect. See In re Wellbutrin XL
Antitrust Lit. Indirect Purchaser Class, 868 F.3d 132,
162 (3d Cir. 2017) (holding that $233 million paid to
three generic manufacturers is large under Actavis);
Nexium, 842 F.3d at 50, 54 (acknowledging jury
finding that a $300-$690 million payment was large);
accord Actavis, 570 U.S. at 145 (brand manufacturer
agreed to pay three generic manufacturers $12
million, $60 million, and an estimated $171-270
million over nine years).
The Commission rejected the argument that just
showing a large payment was enough to establish
anticompetitive harm. It reasoned that “[e]stablishing
that the payment is not otherwise justified is
necessary for demonstrating that the payment is
purchasing an exclusive right and preventing the risk
of competition.” See also Actavis, 570 U.S. at 158
(stating that “a reverse payment, where large and
unjustified, can bring with it the risk of significant
anticompetitive effects” (emphasis added)).
But the Commission correctly found no such
justification. A large reverse payment might be
justified if it represents “avoided litigation costs or fair
value for services.” Id. at 156. That is not the case
here. The FTC estimated the settlement saved Endo

App-17
only $3 million in litigation expenses, an amount in
the ballpark of the typical cost for litigating
pharmaceutical patents. See Fed. Trade Comm’n,
Authorized Generic Drugs: Short-Term Effects and
Long-Term Impact 111-12 & n.27 (2011) (estimating
average costs in the $5-10 million range based on
research from Morgan Stanley); Michael R. Herman,
Note, The Stay Dilemma: Examining Brand and
Generic Incentives for Delaying the Resolution of
Pharmaceutical Patent Litigation, 111 Colum. L. Rev.
1788, 1795 n.41 (2011) (noting that litigation expenses
can bring the costs of generic entry to about $10
million). Nor did the agreement involve any services
that the generic would provide to Endo that could
otherwise justify the large payment. Only the services
associated with the Parkinson’s collaboration could
plausibly provide an appropriate basis for the
payments. But even assuming that the collaboration
is relevant and that the $10 million Parkinson’s
research agreement constituted payment for services,
over $100 million of Endo’s payment remains
unjustified.
This large and unjustified payment generated
anticompetitive effects. The Commission explained
that there “was a real threat of competition from
Impax” snuffed out by Endo’s agreement to make the
reverse payments. The FDA had just approved
Impax’s generic, allowing it to sell the drug. Impax
had taken steps to do so, even though its market entry
would be “at risk” of infringement liability. Endo’s
known product-hop plans increased Impax’s incentive
to quickly enter the market. The Commission thus had
substantial evidence to conclude that the reverse

App-18
payments replaced the “possibility of competition with
the certainty of none.”
Impax argues that the Commission needed to do
more at this first stage of the rule of reason. Its
principal attack on the finding of anticompetitive
effect is that the Commission needed to evaluate “the
patent’s strength, which is the expected likelihood of
the brand manufacturer winning the litigation.”
Impax reasons that if it was highly likely that Endo
would win the patent suit, then the reverse payment
was not anticompetitive because it allowed the generic
to enter the market before the patent expired.
We disagree that Actavis requires the
Commission to assess the likely outcome of the patent
case in order to find anticompetitive effects. The fact
that generic competition was possible, and that Endo
was willing to pay a large amount to prevent that risk,
is enough to infer anticompetitive effect. Actavis, 570
U.S. at 157. In fact, Actavis squarely rejected Impax’s
argument: “[T]he size of the unexplained reverse
payment can provide a workable surrogate for a
patent’s weakness, all without forcing a court to
conduct a detailed exploration of the validity of the
patent itself.” Id. at 158; see also id. at 157 (“[I]t is
normally not necessary to litigate patent validity to
answer the antitrust question.”); id. at 158
(reiterating that a court can assess the
anticompetitiveness of a reverse payment “without
litigating the validity of the patent”); id. at 159
(stating yet again that the Commission need not
“litigate the patent’s validity” to establish
anticompetitive effects). The idea is that a large
reverse payment “itself would normally suggest that

App-19
the patentee has serious doubts about the patent’s
survival.” Id. at 157; see also Hovenkamp, supra,
§16.01[D] (explaining that a sizeable reverse payment
“raise[s] a strong inference that that the parties
believed ex ante that there was a significant chance
that the patent was invalid”).
Consider this settlement. If the parties thought
Endo was highly likely to win the infringement suit,
then Impax would have been happy with a deal giving
it nothing more than entry months in advance of the
likely-valid patent’s expiration. Cf. In re Cipro Cases I
& II, 348 P.3d 845, 865 (Cal. 2015) (noting that a
settlement postponing market entry, but not
accompanied by a reverse payment, would be a “fair
approximation” of the strength of the patent suit).
Reverse payments potentially worth nine figures
would have been a windfall. The need to add that
substantial enticement indicates that at least some
portion of that payment is “for exclusion beyond the
point that would have resulted, on average, from
simply litigating the case to its conclusion.” Id. at 867;
see also In re Aggrenox Antitrust Lit., 94 F. Supp. 3d
224, 240-41 (D. Conn. 2015) (explaining that a
plaintiff need not prove that the patent was weak
because a “large and unjustified reverse-payment” can
show that the parties perceived weakness with the
patent that would have made earlier entry likely).
“And that fact, in turn, suggests that the payment’s
objective is to maintain supracompetitive prices to be
shared among the patentee and the challenger rather
than face what might have been a competitive
market—the very anticompetitive consequence that

App-20
underlies the claim of antitrust unlawfulness.”
Actavis, 570 U.S. at 157 (emphasis added). 6
Impax also argues that the settlement does not
look anticompetitive in hindsight. After all, since the
settlement Endo has obtained more patents for Opana
ER and proven their validity in court. On top of that,
the product hop ended up failing once Endo had to
take reformulated Opana ER off the market due to
safety concerns. So Impax’s generic is now the only
version of Opana ER on the market.
But it is a basic antitrust principle that the impact
of an agreement on competition is assessed as of “the
time it was adopted.” See Polk Bros. v. Forest City
Enters., 776 F.2d 185, 189 (7th Cir. 1985)
(Easterbrook, J.); see also FTC & DOJ, ANTITRUST
GUIDELINES
FOR
COLLABORATIONS
AMONG
COMPETITORS §2.4 (2000) (stating that the agencies
“assess the competitive effects of a relevant agreement
as of the time of possible harm to competition”). That
approach also makes sense in reverse payment cases.
Valley Drug Co. v. Geneva Pharm., Inc., 344 F.3d 1294,
1306 (11th Cir. 2003) (refusing to consider
postagreement invalidation of patent because
“reasonableness of agreements under the antitrust
laws are to be judged at the time the agreements are
In addition to crediting these economic implications of a large
reverse payment, the Supreme Court recognized the difficulty of
trying a patent case within an antitrust case. Actavis, 570 U.S.
at 157 (discussing the Eleventh Circuit’s concern with
“litigat[ing] patent validity” in an antitrust case, but explaining
that is not needed for antitrust scrutiny). An Eleventh Circuit
colleague apparently familiar with Cajun cuisine called this the
“turducken” problem. Watson, 677 F.3d at 1315.
6

App-21
entered into”); Cipro, 348 P.3d at 870 (“Just as later
invalidation of a patent does not prove an agreement
when made was anticompetitive, later evidence of
validity will not automatically demonstrate an
agreement was procompetitive.”); 12 PHILLIP E.
AREEDA & HERBERT HOVENKAMP, ANTITRUST LAW
¶2046e1, at 399 (4th ed. 2019) (explaining that the
“reasonableness of a patent settlement agreement
cannot be made to depend on an ex post
determination” of validity or infringement).
So the focus is on the following facts as they
existed when the parties adopted the settlement. Endo
agreed to make large payments to the company that
was allegedly infringing its patents. In exchange,
Impax agreed to delay entry of its generic drug until
two-and-a-half years after the FDA approved the drug.
Neither the saved costs of forgoing a trial nor any
services Endo received justified these payments.
Substantial evidence supports the Commissions’
finding that the reverse payment settlement
threatened competition.
B.
The next rule-of-reason question is whether
Impax can show procompetitive benefits. Am. Express,
138 S. Ct. at 2284. The Commission concluded it could
not. Although the ALJ had recognized that the
settlement’s
license
and
covenant-not-to-sue
provisions benefited competition, the Commission
concluded that these procompetitive effects did not
flow from the challenged restraint—the reverse
payments themselves. As a result, the Commission did
not treat Impax’s ability to enter the market nine
months before the patents expired, and the protection

App-22
Impax secured against other patents Endo might
obtain, as benefits to be weighed against the
anticompetitive effects of the reverse payments. After
the Commission concluded that the reverse payments
lacked any procompetitive benefits, it followed that
they “constitute[d] an unreasonable restraint of
trade.”
The parties and amici vigorously contest the
Commission’s finding of “no nexus” between the
restraint and the procompetitive benefits Impax
asserts. That dispute turns largely on how to define
the restraint. Is it limited to the reverse payments or
does it extend to the entire settlement agreement?
We need not resolve this question because of an
alternative ruling the Commission made. Although
the Commission found the reverse payments
generated no procompetitive benefits, it went on to
assume arguendo that Impax could connect the
settlement’s purported procompetitive effects to the
challenged restraint. Even if that was so, the
Commission determined that “Impax could have
obtained the proffered benefits by settling without a
reverse payment for delayed entry—which is a
practical, less restrictive alternative.” If we conclude
that substantial evidence supported this finding of a
less restrictive alternative, we can also assume that
Impax has proven procompetitive benefits. So we will
turn to our review of the “less restrictive alternative”
finding.
C.
A restraint is unreasonable when any
procompetitive benefits it produces “could be
reasonably achieved through less anticompetitive

App-23
means.” Am. Express, 138 S. Ct. at 2284; see generally
11 AREEDA & HOVENKAMP, supra, ¶1913, at 395-402;
C. Scott Hemphill, Less Restrictive Alternatives in
Antitrust Law, 116 COLUM. L. REV. 927, 937-42 (2016).
The concept traces back to then-Circuit Judge Taft’s
opinion in United States v. Addyston Pipe & Steel Co.
Hemphill, Less Restrictive, supra, at 938 & n.53 (citing
85 F. 271, 282 (6th Cir. 1898) (holding that a restraint
of trade is unenforceable unless it is “ancillary to the
main purpose of a lawful contract[]and necessary to
protect the covenantee[’s] ... enjoyment of the
legitimate fruits of the contract” (emphasis added))).
The less-restrictive-alternative standard applies
across a range of antitrust claims and is included in
model antitrust jury instructions. Id. at 929, 938 &
n.50 (citing ABA SECTION OF ANTITRUST LAW, MODEL
JURY INSTRUCTIONS IN CIVIL ANTITRUST CASES A-10
(2005)). 7 The idea is that it is unreasonable to justify
a restraint of trade based on a purported benefit to
competition if that same benefit could be achieved
with less damage to competition. Focusing on the
existence of less restrictive alternatives may allow
courts to avoid difficult balancing of anticompetitive
and procompetitive effects and to “smoke out”
anticompetitive effects or pretextual justifications for
the restraint. Hemphill, Less Restrictive, supra, at
947-63. When a less restrictive alternative exists, a
party’s decision to nonetheless engage in conduct “that
7 The Fifth Circuit Pattern Jury Instructions does not include
circuit-specific antitrust instructions, but refer courts and parties
to two sources, including the ABA Antitrust Section’s proposed
instructions. FIFTH CIRCUIT PATTERN JURY INSTRUCTIONS (CIVIL
CASES) §6 (2020).

App-24
harms consumers” likely results from a desire “to gain
from the resulting consumer harm.” Id. at 968. The
question, in short, is whether “the good [could] have
been achieved equally well with less bad.” Id. at 929.
Actavis recognizes the possibility of less
restrictive
alternatives
to
reverse
payment
settlements. The Court noted that parties to
pharmaceutical patent litigation “may, as in other
industries, settle in other ways, for example, by
allowing the generic manufacturer to enter the
patentee’s market prior to the patent’s expiration,
without ... paying the challenger to stay out prior to
that point.” 570 U.S. at 158; see also 12 AREEDA &
HOVENKAMP, supra, ¶2046c2, at 381-82 (observing
that Actavis recognizes “that there are better, less
anticompetitive ways to settle these disputes”).
The Commission found that Impax could have
achieved just as much and likely more good (an entry
date even earlier than 2013) without the bad (Endo’s
agreement not to sell a competing generic during the
exclusivity period and to pay credits to Impax for the
decline of the Opana ER market while Endo executed
the product hop). The Commission explained that
“[h]olding everything else equal, Impax’s acceptance of
payment would normally be expected to result in a
later entry date than what Impax would have accepted
based on the strength of the patents alone.” To support
its view that Impax could have entered into a
settlement without reverse payments that would have
resulted in greater generic competition, the
Commission relied on industry practice, economic
analysis, expert testimony, and adverse credibility

App-25
findings discounting the testimony of Impax’s lead
settlement negotiator.
“[T]he existence of a viable less restrictive
alternative is ordinarily a question of fact.” 11 AREEDA
& HOVENKAMP, supra, ¶1913b, at 398; accord
O’Bannon v. NCAA, 802 F.3d 1049, 1074 (9th Cir.
2015) (applying clear-error review to district court’s
finding of less restrictive alternative). So the
substantial deference we owe the Commission’s
factfinding kicks in, in particular on its determination
that a no-payment settlement was feasible.
Impax nonetheless tries to lodge legal objections
to the finding of a less restrictive alternative. First, it
argues that the Commission only recognized what it
considers an equally restrictive alternative—the
possibility of a settlement with the same entry date
but no reverse payments. But the Commission
recognized the feasibility of no-payment settlements
with both the same 8 or an earlier entry date. Its
ultimate ruling relied on an agreement with an earlier
entry date as a less restrictive alternative: “A nopayment settlement allowing pre-2013 generic entry
would have been a practical alternative for both Impax
and Endo, but they chose instead to exchange sizeable
Even if Impax’s entry date were the same in a no-payment
settlement, the arrangement would be less anticompetitive than
the actual agreement because it would not include Endo’s
“payment” of not selling a generic competitor during Impax’s sixmonth exclusivity period. Thus, in a no-payment settlement,
there would have been greater price competition during at least
those six months. In any event, because the Commission’s
ultimate finding relied on the feasibility of a no-payment
settlement with an earlier entry date, we only consider that
agreement as a less restrictive alternative.
8

App-26
payment for a later entry date.” (emphasis added).
Impax does not dispute that an agreement with an
earlier entry date would be less restrictive.
Impax does argue that the Commission “flipped
the burden of proof” in finding that such a less
restrictive settlement was feasible. We disagree. The
Commission concluded that there was a “strong
showing” of the possibility of less restrictive
settlement, and only then asked whether Impax had
rebutted that evidence. That is a normal way of
evaluating whether a plaintiff has met its burden of
persuasion.
So we turn to whether substantial evidence
supports the Commission’s conclusion that Complaint
Counsel had established a less restrictive alternative.
First is the fact that most settlements between brand
and generic makers do not include reverse payments.
The Commission relied on an expert witness who
analyzed industry practice and studies showing that
from 2004-2009 “only 30 percent of the patent
settlements filed with the FTC involved both
compensation from the branded firm to the generic
firm and restrictions on generic entry.” In recent
years, reverse payment settlements may have become
even rarer; over 80 percent of brand-generic
settlements reached within the year following Actavis
did not include a reverse payment.
Impax suggests this evidence of industry practice
is not probative of whether it had the opportunity to
enter in a no-payment settlement. But leading
scholars have recognized that other parties’ “actual
experience in analogous situations” can help establish
the feasibility or practicality of a less restrictive

App-27
alternative. 11 AREEDA & HOVENKAMP, supra, ¶1913b,
at 398; accord Hemphill, Less Restrictive, supra, at
984 (“One useful indicia of practicality is that the
alternative has been implemented by this or other
firms in similar circumstances.”); see also Ind. Fed’n of
Dentists, 476 U.S. at 454 (recognizing the FTC’s
expertise about commercial practices). Showing that
the alternative is “rooted in real commercial
experience” may be especially compelling as the
defendant often will not want to acknowledge its
willingness to enter into an arrangement that would
not have included “the illicit profits arising from an
anticompetitive effect.” Id. at 984-85; see also Kevin B.
Soter, Note, Causation in Reverse Payment Antitrust
Claims, 70 Stan. L. Rev. 1295, 1336 (2018) (raising
concerns about rules that would “tell[] defendants that
all they need to do to avoid liability is to insist in
settlement talks that the only agreement they would
make is an illegal one”).
And the Commission did not rely on industry
practice alone. It acknowledged but refused to credit
the trial testimony of Impax’s chief negotiator, who
said that Endo was “adamant about preventing pre2013 entry.” 9 The Commission noted that this resolute
trial testimony was inconsistent with the witness’s
prior statements that he could not remember
discussing pre-2013 entry dates with Endo. In that
earlier testimony, the negotiator said he could not
remember if “Impax ever ‘tried to get a date earlier
than January of 2013’” or whether “Endo ever told
9 The Commission’s consideration of this testimony further
dispels Impax’s claim that the Commission did not find a
settlement with an earlier entry date to be a viable alternative.

App-28
Impax that it would ‘not settle the litigation’ with an
entry date before 2013.” Doubts about the negotiator’s
newfound certainty allowed the Commission not just
to reject his testimony but also to treat it as evidence
of the possibility of pre- 2013 entry. See Reeves v.
Sanderson Plumbing Prods., Inc., 530 U.S. 133, 147
(2000) (discussing the “general principle of evidence
law that the factfinder is entitled to consider a party’s
dishonesty about a material fact as ‘affirmative
evidence of guilt’”). The Commission further noted
that while early on Impax had unsuccessfully sought
entry dates during 2011 and even January 2012, a
significant time gap exists between those proposed
entry dates and the 2013 entry date in the final
agreement. The professed failure to consider other
possible 2012 entry dates thus casts doubt on the
notion that an agreement with pre-2013 entry was
unachievable. 10
Finally, economics support the Commission’s
finding that Endo would have entered into a
settlement with an earlier entry date if it could have
could have kept the more than $100 million it ended
up paying Impax. Hemphill, Less Restrictive, supra, at
984 (recognizing that a plaintiff could use “expert
testimony based on economic theory” to show a
likelihood that the parties would have entered into a
less restrictive alternative). If everything has a price,
The case-specific nature of this aspect of the FTC’s ruling
undermines Impax’s concern that the agency’s decision would
invalidate all reverse payment settlements. So does the FTC’s
enforcement record. During the first fifteen years of this century,
the agency challenged only 6 of the 1336 brand/generic
settlements entered into during that period. FTC BUREAU OF
COMPETITION, OVERVIEW OF AGREEMENTS FILED IN FY 2016, at 4.
10

App-29
then those large payments were the price for Impax’s
delayed entry. King Drug, 791 F.3d at 405 n.23; Cipro,
348 P.3d at 871. Such “fairly obvious” observations can
show the feasibility of a less restrictive alternative. 11
AREEDA & HOVENKAMP, supra, ¶1913b, at 398; see also
Ind. Fed’n of Dentists, 476 U.S. at 454 (holding that
deference is due FTC’s assessment of business
practices).
Three evidentiary legs—industry practice,
credibility
determinations
about
settlement
negotiations, and economic analysis—thus supported
the Commission’s conclusion that Endo would have
agreed to a less restrictive settlement. 11 AREEDA &
HOVENKAMP, supra, ¶1914c, at 410 (stating that a
finding of less restrictive alternative should be based
on alternatives “that are either quite obvious or a
proven success”). As for Impax’s side of things, of
course it would have preferred the settlement that
paid it over $100 million. But any reluctance Impax
had to agree to a no-payment settlement based on a
“desire to share in monopoly rents” cannot undermine
the Commission’s finding that a less restrictive
settlement was viable. See Hemphill, Less Restrictive,
supra, at 984-85; see also Soter, supra, at 1336.
Our question is not whether the Commission
could have reached a different result on the lessrestrictive-alternative question. It is whether there
was evidence that would allow a reasonable factfinder
to conclude that a no-payment settlement was
feasible. Ind. Fed’n of Dentists, 476 U.S. at 454; see
also Ripley v. Chater, 67 F.3d 552, 555 (5th Cir. 1995)
(noting that substantial evidence can even be less than
a preponderance). Because there was more than

App-30
enough evidence to support that unanimous view of
the Commissioners, we must uphold their view that a
less restrictive alternative was viable. And that means
the reverse payment settlement was an agreement to
preserve and split monopoly profits that was not
necessary to allow generic competition before the
expiration of Endo’s patent. As a result, Impax agreed
to an unreasonable restraint of trade.
*

*

*

The petition for review is DENIED.

App-31
Appendix B
UNITED STATES FEDERAL
TRADE COMMISSION
________________
No. 9373
________________
IN THE MATTER OF IMPAX LABORATORIES, INC.,
Respondent.
________________
Filed: March 28, 2019
________________
Commissioners: SIMONS, Joseph J.; PHILLIPS,
Joshua N.; CHOPRA, Rohit; SLAUGHTER,
Rebecca K.; WILSON, Christine S.
________________
OPINION
________________
PHILLIPS, J., Commissioner:
I. INTRODUCTION
The Constitution empowers Congress to “promote
the progress of science and useful arts” by creating
intellectual property rights, including patents. U.S.
CONST. art I, §8, cl. 8. Congress has done so since the
founding of our Republic and, today, the United States
leads the world in, among other things, the
development and manufacturing of pharmaceutical
drugs, which save and enhance lives around the world.
But Americans too often pay more than they
should for the prescription drugs they need.

App-32
In 1984, Congress sought to address this problem
by enacting the DRUG PRICE COMPETITION AND PATENT
TERM RESTORATION ACT OF 1984, Pub. L. No. 98-417,
98 Stat. 1585 (1984) (codified as amended at 21 U.S.C.
§355) (1994) (“Hatch-Waxman Act”), which created a
specialized process to encourage the market entry of
generic prescription pharmaceutical drugs. Generic
drugs contain the same active ingredients as branded
drugs, but typically at a much lower cost. The HatchWaxman Act, together with other legislation at the
federal and state levels, has facilitated a “dramatic
rise in sales of generic drugs,” making them more
widely available to Americans who would otherwise be
forced to pay higher branded drug prices. See
CONGRESSIONAL BUDGET OFFICE, HOW INCREASED
COMPETITION
FROM
GENERIC
DRUGS
HAS
AFFECTED
PRICES
AND
RETURNS
IN
THE
PHARMACEUTICAL
INDUSTRY
(July
1998),
https://www.cbo.gov/sites/default/files/105thcongress-1997-1998/reports/pharm.pdf. Under the
Hatch-Waxman Act, generic drugs with the same
active
pharmaceutical
ingredients
as,
and
bioequivalent to, branded drugs already approved by
the Food and Drug Administration (FDA) can take
advantage of an abbreviated regulatory review. If the
generic drug manufacturer is the first to seek
approval, the Hatch-Waxman Act can confer upon it
six months of exclusive sales. Abbreviating the
regulatory process and awarding the first filer an
exclusive sales period together have encouraged
competition in pharmaceutical drugs and, accordingly,
provided greater access to healthcare at lower prices.
As explained below, where a patent protects the
underlying drug and a generic manufacturer certifies

App-33
that patent is invalid, unenforceable, or will not be
infringed, 1 this certification automatically triggers the
patent holder’s ability to sue the generic. In this way,
the Hatch-Waxman Act strikes a balance to encourage
generic entry while protecting innovation, by giving
the branded drug manufacturer an opportunity to
assert its patent rights before the FDA approves the
sale of the generic drug. This right allows the
innovator to protect the congressionally authorized
fruits of its labor (to the extent its patents are valid),
maintaining the incentive to innovate that patent
protection creates.
For decades, the Federal Trade Commission
(“Commission”) has prioritized efforts to make
pharmaceutical drugs more affordable and accessible
to American consumers by fostering competition
between generic and branded drugs. That effort has
included policing anti-competitive abuses of the
regulatory process, and, as is relevant in this case,
settlements of litigation brought by branded drug
manufacturers against their generic competitors
seeking to come to market using the Hatch-Waxman
Act process.
This case involves a particular form of patent
litigation settlement between a branded patent-holder
and a generic challenger known as a “reverse
payment” settlement. In a reverse payment
settlement, the branded drug maker—the plaintiff in
the patent infringement action—pays the patent
challenger and alleged infringer—the defendant—to
1 Otherwise known as a Paragraph IV certification. See infra
Section II.A.

App-34
refrain from offering its generic drug for a period of
time as part of a settlement of patent litigation. The
value in the settlement flows in the opposite direction
of what one would ordinarily expect, where the
defendant and alleged infringer might pay the
plaintiff intellectual property (IP) rights holder for
allegedly violating those rights. See FTC v. Actavis,
570 U.S. 136, 152 (2013).
For years, the FTC challenged reverse payment
settlements as anticompetitive. 2 Early on, some courts
considering these settlements held that, so long as the
generic entry date was before the patent expired, the
settlement was within the “scope of the patent” and
therefore beyond the reach of the antitrust laws. See,
e.g., Schering-Plough Corp. v. FTC, 402 F.3d 1056
(11th Cir. 2005); In re Ciprofloxacin Hydrochloride
Antitrust Litig., 544 F.3d 1323, 1332-1337 (Fed. Cir.
2008); In re Tamoxifen Citrate Antitrust Litig., 466
F.3d 187, 212-213 (2nd Cir. 2006). Other courts agreed
with the FTC that such settlements raise valid
antitrust concerns, treating them as per se unlawful
or subject to truncated “quick look” review. See In re
Cardizem CD Antitrust Litig., 332 F.3d 896, 908 (6th
Cir. 2003); In re K-Dur Antitrust Litig., 686 F.3d 197,
214-218 (3d Cir. 2012), judgment vacated by 570 U.S.
913, 133 S. Ct. 2849 (2013), reinstatement granted by
2013 WL 5180857 (3d Cir. 2013). In FTC v. Actavis,
570 U.S. 136 (2013), the Supreme Court addressed
2 See generally, FTC Staff Study, Pay-for-Delay: How Drug
Company Pay-Offs Cost Consumers Billions (Jan. 2010),
https://wwwftc.gov/sites/default/files/documents/reports/paydelay-how-drug-company-pay-offs-cost-consumers-billionsfederal-trade-commission-staff-study/100112payfordelayrpt.pdf.

App-35
this circuit split and made clear that the magnitude
and direction of the reverse value flow in these
settlements raise a red flag, suggesting that the
parties may be using the settlement to split monopoly
rents by paying would-be generic competitors to stay
out of the market, and thereby insulating the brand
from the risk of competition that would otherwise
manifest. That led the Court to hold that reverse
payment settlements, even when they limit
competition within the scope of the patent, can still
violate the antitrust laws, and are to be analyzed
under the rule of reason. Id. at 158-60. This case
provides the Commission our first opportunity to
apply Actavis, and to develop the rule of reason
analysis that it directs.
As described below, the facts of this case make
clear that Respondent Impax Laboratories, Inc. (now
Impax Laboratories LLC) (“Impax” or “Respondent”)
contrived with Endo Pharmaceuticals, Inc. (“Endo”) to
accomplish precisely what led the Court in Actavis to
subject reverse payments settlements to antitrust
scrutiny—i.e., the elimination of the risk of
competition in return for sharing monopoly rents.
On January 19, 2017, the Commission issued an
Administrative Complaint alleging that Impax, a
generic manufacturer, had entered into an unlawful
reverse payment settlement with Endo, the maker of
Opana ER, an extended-release formulation of
oxymorphone, an opioid used to treat pain. 3 During

3 Endo is not before us in this case because it has settled the
FTC’s claims against it regarding its 2010 patent settlement for
Opana ER. See Stipulated Order for Permanent Injunction, FTC

App-36
the administrative trial, Complaint Counsel
submitted evidence that Endo agreed to pay Impax to
abandon its patent challenge and to forgo entering the
market with its lower-cost generic version of Opana
ER until January 2013. IDF 124, 127, 129; ID at 138;
Koch, Tr. 236, 239; RX364 at 0003-08, 0010-11
(definitions, patent settlement and license provisions
of the Settlement and License Agreement between
Endo and Impax (“SLA”)); see also CX3164 at 009-11
(Impax’s Responses to Requests for Admission No. 15
and 17). 4 Rather than a simple cash payment from
Endo to Impax, Complaint Counsel argued that the
reverse payment settlement involved an unlawful
transfer of value in several forms: (1) freedom from
generic competition during Impax’s first 180 days on
the market by virtue of Endo’s agreement to refrain
from offering an “authorized generic” version of Opana
ER (the “No-AG Commitment”); 5(2) a contingent
payment—ultimately worth $102 million—designed
v. Endo Pharm., Inc., No. 17-cv-00312-WHO (N.D. Cal., Feb. 2,
2017).
We use the following abbreviations in this opinion:
Compl.: Complaint
ID:
Initial Decision
IDF:
Initial Decision Finding of Fact
Stip:
Joint Stipulations of Jurisdiction, Law, Fact, and Authenticity
Second Stip:
Second Set of Joint Stipulations
CCAB: Complaint Counsel’s Brief on Appeal
RB:
Respondent’s Answering Brief to Complaint Counsel’s Appeal Brief
CCRB: Complaint Counsel’s Reply Brief on Appeal
5 An “authorized generic” drug typically refers to an approved
brand name drug that is marketed without the brand name on
its label. An authorized generic may be marketed by the brand
name drug company, or another company with the brand
company’s permission.
4

App-37
to ensure that Impax recouped the value of the No-AG
Commitment, in the event Endo destroyed the market
for oxymorphone ER; and (3) a payment to Impax of
$10-40 million, purportedly for an independent
development and co-promotion deal. RX364 at 000308, 0010-11; see also Koch, Tr. 234-39, 241; CX0326
(email attaching execution version of the Development
and Co-Promotion Agreement).
Complaint Counsel alleged that Impax’s conduct
denied patients the opportunity to purchase lower-cost
generic versions of Opana ER until at least January
2013, and forced them, instead, to pay hundreds of
millions of dollars a year more for Endo’s branded
product. Complaint Counsel concluded that, in so
doing, Impax violated Section 5 of the Federal Trade
Commission Act (“FTC Act”), 15 U.S.C. §45.
Impax denied that Endo agreed to pay or paid
Impax to abandon its patent challenge or to forgo
entering the market for generic Opana ER. Answer ¶3.
Among other defenses, Impax asserted that the
conduct had substantial procompetitive justifications,
benefited consumers and the public interest, and
avoided potential infringement of valid patents.
Answer, Affirmative Defenses ¶8.
The case went to a 12-day trial before Chief
Administrative Law Judge (“ALJ”) D. Michael
Chappell. Judge Chappell heard live testimony from
18 witnesses and admitted into evidence over 1250
exhibits. ID at 3. In a 162-page decision issued on May
11, 2018, Judge Chappell found that Complaint
Counsel had failed to prove a violation of Section 5 of
the FTC Act, and dismissed the Complaint. Complaint

App-38
Counsel filed a timely appeal. The Commission heard
the parties’ oral arguments on October 11, 2018.
For the reasons set out below, the Commission
reverses the Initial Decision, concludes that Impax
has violated Section 5 of the FTC Act, and enters a
cease and desist order.
II. LEGAL AND FACTUAL BACKGROUND
A. The Hatch-Waxman Act and the Actavis
Decision
Under the Hatch-Waxman Act, when a
manufacturer seeks to market a new prescription
drug, it must submit a New Drug Application and
undergo a long and costly testing process. The
manufacturer’s application must identify the “number
and the expiration date” of any relevant patents. 21
U.S.C. §355(b)(1). Once the FDA has approved the
drug, a manufacturer seeking to market a generic
version may file an Abbreviated New Drug
Application (ANDA) certifying that the product
contains the same ingredients as, and is biologically
equivalent to, the brand-name drug. 21 U.S.C.
§355(j)(2)(A)(ii), (iv). The ANDA process “allow[s] the
generic to piggy-back on the pioneer’s approval efforts”
rather than conducting its own rigorous testing
process. Actavis, 570 U.S. at 142.
To protect the branded manufacturer’s incentive
to innovate, when a generic manufacturer submits an
ANDA, it must assure the FDA that the generic drug
will not infringe any valid patents covering the
branded drug (as listed in the FDA’s official Orange
Book). If the branded manufacturer has listed
relevant,
non-expired
patents,
the
generic
manufacturer may file what is known as a “Paragraph

App-39
IV” certification declaring that those patents are
“invalid or will not be infringed by the manufacture,
use, or sale” of the generic drug. 6 21 U.S.C.
§355(j)(2)(A)(vii)(IV).
Filing a paragraph IV certification “automatically
counts as patent infringement” and entitles the brand
manufacturer to sue. Actavis, 570 U.S. at 143; see 35
U.S.C. §271(e)(2)(A). If the branded company files suit
within 45 days, the FDA may not approve the generic
drug for 30 months, while the parties litigate their
patent dispute. Actavis, 570 U.S. at 143. If the courts
resolve the patent litigation during this 30-month
period, the FDA follows that determination. Id. If the
patent case remains unresolved at the end of 30
months, the FDA may approve the generic. Id.; see 21
U.S.C. §355(j)(5)(B)(iii). The generic manufacturer
would then have the right to launch “at risk,” 7 with
the consequence that if the “court proceeding
ultimately determines that the patent was valid and
infringed, the generic manufacturer will be liable for
the brand-name manufacturer’s lost profits despite
the FDA’s approval.” In re Lipitor Antitrust Litig., 868
F.3d 231, 241 (3d Cir. 2017). These damages can be
significant.

A Paragraph IV certification is not the only avenue; ANDA
filers may also utilize Paragraphs I, II or III, certifying,
respectively, that: patent information has not been filed, the
relevant patent(s) have expired, or the date on which the
patent(s) expire. See 21 U.S.C. §355(j)(2)(A)(vii)(I)-(III).
6

7 An “at risk” launch occurs when a generic firm begins
marketing its product before a non-appealable decision in the
relevant patent litigation. IDF 451.

App-40
In adopting the Hatch-Waxman Act framework,
Congress sought to give generic manufacturers a
“special incentive” to be the first to file an ANDA
challenging a branded drug’s patents under
paragraph IV. See Actavis, 570 U.S. at 143. The first
filer “will enjoy a period of 180 days of exclusivity”
from other generic competition if it successfully brings
the product to market. Id. at 143-44; see 21 U.S.C.
§355(j)(5)(B)(iv).
The
Hatch-Waxman
Act
accomplishes this by preventing other ANDA filers
from entering the market during the exclusivity
period, whenever that occurs. See 21 U.S.C.
§355(j)(5)(B)(iv). The exclusivity period can be worth
hundreds of millions of dollars to a generic
manufacturer. Actavis, 570 U.S. at 144. Because the
Hatch-Waxman Act only prevents other ANDA filers
from entering, however, the branded manufacturer
may still distribute its own generic equivalent,
commonly known as an “authorized generic” or “AG.”
See King Drug Co. of Florence, Inc. v. SmithKline
Beecham Corp., 791 F.3d 388, 396 (3d Cir. 2015).
In Actavis, the Supreme Court considered the
antitrust implications of reverse payment settlement
agreements in which a branded drug manufacturer
pays a generic entrant to abandon its patent challenge
under the Hatch-Waxman Act and delay launching its
product. The Court held that reverse payment
settlements can have “significant adverse effects on
competition,” even if they allow a generic rival to
introduce its product before the end of the patent’s
term—i.e., within the temporal scope of the patent.
Actavis, 570 U.S. at 148. These settlements essentially
allow a branded manufacturer to buy “the exclusive
right to sell its product, a right it already claims but

App-41
would lose” were a court to declare the patent “invalid
or not infringed.” Id. at 153-54. The settlement may
keep drug prices at monopoly levels while “dividing
that return between the challenged patentee and the
patent challenger.” Id. at 154. In the process, “[t]he
patentee and the challenger gain; the consumer loses.”
Id. These “anticompetitive consequences will at least
sometimes prove unjustified.” Id. at 156.
In a lawsuit challenging a reverse payment under
Actavis, “offsetting or redeeming virtues are
sometimes present.” Id. For example, a reverse
payment may “amount to no more than a rough
approximation” of the branded company’s saved
litigation expenses or reflect “compensation for other
services that the generic has promised to perform—
such as distributing the patented item or helping to
develop a market for that item.” Id. at 156; see also id.
at 159. If a payment reflects such “traditional
settlement considerations ... there is not the same
concern that a patentee is using its monopoly profits
to avoid the risk of patent invalidation or a finding of
noninfringement.” Id. at 156.
But when a branded manufacturer makes a large,
unexplained payment to a generic challenger, this
“suggests that the payment’s objective is to maintain
supracompetitive prices to be shared among the
patentee and the challenger rather than face what
might have been a competitive market—the very
anticompetitive consequence that underlies the claim
of antitrust unlawfulness.” Id. at 157. The payment
“likely seeks to prevent the risk of competition,” which
constitutes the “relevant anticompetitive harm.” Id.
Preventing the risk of competition is the

App-42
anticompetitive harm at issue in Actavis, and a large
and unjustified payment from the plaintiff (the
branded manufacturer) to the defendant (the generic
manufacturer) triggers antitrust scrutiny because it
may reflect the plaintiff’s dividing its monopoly profits
to accomplish this goal.
The question presented in Actavis was whether a
reverse payment settlement “can sometimes
unreasonably diminish competition in violation of the
antitrust laws.” Id. at 141. The Court held that the
answer is yes. In so doing, it rejected abbreviated
analysis either for or against liability. The Court
rejected the “scope of the patent” test, which
essentially held that reverse payment settlements
were lawful so long as they did not prolong the life of
the patent. Id. at 158. And it likewise rejected the
Commission’s argument that reverse payment
settlements should be considered “presumptively
unlawful.” Id. at 158-59. The Court held that reverse
payment settlements are to be analyzed under
traditional rule of reason analysis. Id. Whether a
reverse payment is anticompetitive “depends upon its
size, its scale in relation to the payor’s anticipated
future litigation costs, its independence from other
services for which it might represent payment, and the
lack of any other convincing justification.” Id. at 159.
The Court “le[ft] to the lower courts the structuring of
the present rule-of-reason antitrust litigation,”
keeping in mind that the “basic question” in each case
is whether a given reverse payment settlement
agreement “unreasonably diminish[ed] competition in
violation of the antitrust laws.” Id. at 160, 141.

App-43
B. Opana ER
Competition

and

Potential

Generic

Impax develops, manufactures, and sells generic
drugs. IDF 3. This case considers its settlement of
patent litigation initiated by Endo, the manufacturer
of branded Opana ER. The settlement included a
reverse payment to Impax in exchange for Impax’s
agreement not to launch a competing generic drug
until January 2013. As developed below in Section
V.A.3, the reverse payment here consisted of the NoAG Commitment and the “Endo Credit,” a payment
Endo would make in the event the Opana ER market
declined in the two and a half years between the time
of settlement and Impax’s entry date. 8
In 2006, Endo received FDA approval for and
launched Opana ER, an extended-release formulation
of oxymorphone, an opioid used to treat pain. IDF 4147. In 2007, Impax filed an ANDA to market a generic
version of Opana ER and certified under paragraph IV
that Endo’s patents were invalid, unenforceable, or
would not be infringed. IDF 55-60. Impax was the first
generic manufacturer to file an ANDA and paragraph
IV certification for the five most popular dosage
strengths of Opana ER, which comprised over 95
percent of Opana ER sales. IDF 173; Second Stip. ¶7.
As discussed further infra Section V.A.3.c, the circumstances
surrounding the development and co-promotion agreement
suggest it may also have been a means of masking value
transferred in exchange for eliminating the risk of competition;
but we need not decide whether the arrangement was a bona fide
agreement for justified value. To the extent the $10 million
upfront payment under the agreement is unjustified, it simply
increases the value of the overall reverse payment we find to be
large and unjustified.
8

App-44
It was therefore entitled to 180 days of exclusivity
from competition with other ANDA filers at those
doses. IDF 174.
Endo timely sued Impax in January 2008,
claiming that Impax’s ANDA infringed two of its
patents, which expired in September 2013. IDF 53, 61,
68. The suit triggered the Hatch-Waxman Act’s 30month stay, precluding the FDA from finally
approving Impax’s ANDA until June 14, 2010 or until
the patent dispute was resolved in Impax’s favor. IDF
62-63. Endo and Impax first discussed settlement in
the fall of 2009, but Endo rejected Impax’s proposals
for a generic entry date in July 2011, December 2011,
or January 2012. IDF 112-18.
Endo reopened settlement talks with Impax on
May 17, 2010, approximately three days after learning
that the FDA tentatively approved Impax’s ANDA,
three weeks before the patent trial was scheduled to
begin, and one month before the 30-month stay would
have expired. IDF 119-23, 283; Koch, Tr. 340-41. Endo
recognized the possibility that Impax might launch its
generic at risk upon receiving final FDA approval—
expected the following month—or that Impax might
launch after completing the patent trial and any
relevant appeals “around June” of 2011. Stip. at 007
¶17 (30-month stay set to expire on June 14, 2010);
Koch, Tr. 340-41; Snowden, Tr. 417-18; CX4025
(Bingol Dep.) at 26; CX2564 at 094; CX2576 at 0001,
0003 (“If they wait for the appeal to play out, it will
happen around June of next year [i.e., 2011]”). Endo
sought a commitment from Impax that it would
instead refrain from launching its generic until 2013.
IDF 132, 147, 154, 156, 158.

App-45
Endo had a substantial financial interest in
delaying Impax’s generic entry. Endo forecast that, if
Impax launched its generic at risk, Endo would lose 85
percent of its branded Opana ER sales within three
months, and $100 million in sales revenue within six
months. IDF 133; see also CX1106 at 005 (Endo’s July
2009 Strategic Plan: “Each month that generics are
delayed beyond June 2010 is worth ~$20 million in net
sales per month.”). To prevent this, Endo planned to
remove original Opana ER from the market, replace it
with a reformulated, “crush-resistant” version, and
obtain additional patent protection and other
advantages for the reformulated drug that would fend
off competition. IDF 96-98, 102, 109. 9 Doing so would
move consumers to the reformulated version,
effectively destroying the market for original
oxymorphone ER, extending Endo’s market power and
negating the effect of Impax’s entry. Koch, Tr. 238;
CX5007 (Hoxie Rebuttal Report) ¶43 at 023; Mengler,
Tr. 527. At the time of the 2010 settlement
negotiations, Endo had not yet sought FDA approval
for the reformulated product, but was forecasting a
launch at some point in late 2010 or in 2011. See IDF
105.
In some circumstances, this strategy of avoiding generic
competition, commonly known as “product hopping,” can itself
violate the antitrust laws. See, e.g., New York ex rel.
Schneiderman v. Actavis PLC, 787 F.3d 638, 659 (2d Cir. 2015)
(“[W]e conclude that the combination of withdrawing a successful
drug from the market and introducing a reformulated version of
that drug, which has the dual effect of forcing patients to switch
to the new version and impeding generic competition, without a
legitimate business justification, violates §2 of the Sherman
Act.”).
9

App-46
Endo recognized that its reformulation plan could
succeed only if it beat Impax’s generic product to the
market with enough time to transition patients away
from original Opana ER. IDF 99-109. Patients cannot
switch long-acting opioids overnight; the process
instead requires careful supervision as physicians
adjust dosages. IDF 106. Endo understood that it
would take six to nine months to transition the market
to the reformulated product. Id. It sought to protect its
sales revenues from generic competition by completing
this transition before Impax could launch its generic
version of the original product; as developed below in
Section II.C, the settlement at issue here was key to
realizing this goal. IDF 97, 99-101, 103. Reformulating
Opana ER in time would significantly reduce demand
for Impax’s generic product, since pharmacists would
not be able automatically to substitute it for Endo’s
reformulated product, as they could for the original
product. IDF 202, 204. 10
Endo projected that its reformulation plan, if
successful, would generate hundreds of millions of
dollars in additional sales revenue for branded Opana
ER. It predicted that, if reformulated Opana ER beat
generics to the market, its peak-year sales would
exceed $199 million by 2016. IDF 99; CX2578 at 0008.
By contrast, if generics launched before Endo could
transition the market, Endo’s peak projected annual
Generics may be automatically substitutable under state law
for a branded drug only when they are therapeutically
equivalent. Impax’s generic was equivalent to the original
product (which Endo was planning to withdraw), not the
reformulated product. IDF 14, 29, 199-200. Automatic
substitution is the primary mechanism for generic companies’
sales. IDF 32.
10

App-47
sales in 2016 would be a mere $10 million. IDF 99;
CX2578 at 0008.
C. The Impax-Endo Patent Settlement
The trial in the Endo/Impax patent litigation
commenced on June 3, 2010. IDF 73. Just a few days
later, the parties settled. IDF 74. On June 8, 2010,
they simultaneously executed two agreements: a
Settlement and License Agreement and a
Development and Co-Promotion Agreement (“DCA”),
which was incorporated into the SLA. IDF 74, 245;
Stip. at 007-08 ¶¶18-19; Second Stip. ¶26. Under the
SLA, Impax agreed not to launch its generic Opana ER
until January 1, 2013, two and one-half years later.
IDF 124; RX364 at 0001-02, 0009 (SLA §§1.1, 4.1(a)).
The settlement thus gave Endo a “clear path (until
January 2013) to establish ... demand” for the
reformulated product. RX007 at 001 (Endo narrative
for 3Q 2010 Earnings Call).
In return, Endo agreed to the No-AG
Commitment, whereby it pledged not to sell an
authorized generic to compete with Impax’s five
dosage strengths of generic Opana ER during its 180day first-filer exclusivity period. IDF 127; RX364 at
0010-11 (SLA §4.1(c)). That concession would shield
Impax from all generic competition (not just the
competition from other ANDA filers that the 180-day
exclusivity period provides) for six months after its
January 2013 launch date. IDF 127, 130, 187. Impax
considered the No-AG Commitment to be extremely
valuable, since the absence of a generic rival meant
that Impax would be able to sell more of its product
and charge higher prices. IDF 172, 177, 179-83, 18891; CX2753-004 (projecting that Impax’s profits

App-48
during the exclusivity period would be $53 million
without an AG competitor but $28.5 million with an
AG).
The SLA contained a provision known as the
“Endo Credit,” which would protect Impax in the event
the Opana ER market declined in the two-and-a-half
years between the time of settlement and Impax’s
entry date. IDF 129. Impax feared—correctly, as it
turns out—that Endo was planning to shift patients to
a reformulated Opana ER before the generic launch
date, which would impair the market for Impax’s
generic product and “subvert the value of the deal.”
IDF 139-43, 148-49, 204-05. To ensure against that
possibility, Impax first sought an acceleration trigger
allowing it to enter the market before 2013 should
Endo sales fall below a certain threshold. IDF 137-39.
The concept was that, in the event sales began
dropping, Impax could enter the market early. This
would have allowed competition, benefiting
consumers. Endo rejected the acceleration trigger, but
instead agreed to make a cash payment to Impax (i.e.,
the Endo Credit) if Endo’s sales revenues for original
Opana ER fell by more than 50% between their
quarterly peak and the fourth quarter of 2012 (the
quarter before Impax’s launch date). IDF 129, 147,
195; see RX364 at 0003-06, 0012 (SLA §§1.1, 4.4). 11
The Endo Credit was designed to “back-up” the value
of the No-AG Commitment and provide Impax with
the profits it would have earned had Endo not shifted
11 Conversely, the SLA provided that if Endo’s Opana ER sales
grew by a certain percentage before Impax’s entry date, Impax
would need to pay royalties to Endo. IDF 128; RX364-0012 (SLA
§4.3).

App-49
the market away from original Opana ER. IDF 197215.
The SLA also provided Impax with a license to
Endo’s current and future patents covering original
Opana ER, and a covenant by Endo not to sue Impax
for infringing those patents. IDF 125-26, 567-68, 570,
592-93; RX364 at 0001-02, 0009-10 (SLA §§1.1, 4.1(a)(b)). At the time of the settlement, Impax knew that
Endo had additional pending patent applications
(whose outcomes were uncertain) and anticipated that
Endo could acquire other patents. IDF 167, 569, 572.
When negotiating settlements with brand companies,
Impax regularly sought licenses to future patents to
ensure that Impax’s generics had freedom to operate
without patent risk. IDF 565-66.
Under the DCA, Endo and Impax agreed to
collaborate regarding the development and marketing
of a potential Parkinson’s disease treatment known as
IPX-203. IDF 244, 246; RX365 (executed DCA). Endo
agreed to make a $10 million upfront payment to
Impax within five days, plus up to $30 million in
additional “Milestone Payments” contingent on
achieving certain benchmarks in developing and
commercializing the product. IDF 247-48; RX365 at
0009 (DCA §3.2). In addition, the parties agreed that
Impax would promote IPX-203 to neurologists, while
Endo would promote it to non-neurologists. IDF 249;
RX365 at 0010-11 (DCA §4.1). Endo would receive a
share of the profits—100 percent of gross margins on
sales resulting from prescriptions by nonneurologists—if IPX-203 ever reached the market.
IDF 250; RX365 at 0009-10 (DCA §3.4).

App-50
D. Developments
Agreement

after

the

Settlement

On June 14, 2010—six days after finalizing the
SLA and DCA—Impax received final FDA approval to
market its generic Opana ER at four dosage strengths.
IDF 66. 12 Had Impax not settled with Endo, it would
have been permitted to launch its generic product at
risk as of that date. IDF 451-52. Coupled with the
Hatch-Waxman Act, however, the settlement
effectively precluded entry by Impax and by other
generic manufacturers, which had to wait until
Impax, the first filer, entered the market in January
2013 and then completed its six-month exclusivity
period. IDF 449. See In re Nexium (Esomeprazole)
Antitrust Litig., 842 F.3d 34, 41 (1st Cir. 2016) (“[T]he
first filer may create a bottleneck, as all other generic
manufacturers must wait for the exclusivity period to
end before launching their own generics.”).
In March 2012, Endo introduced its reformulated
Opana ER and stopped selling original Opana ER (as
Impax had feared). IDF 110, 229-31. It then attempted
to undermine the market for the original formulation.
In August 2012, for instance, Endo publicly declared
that the original product was unsafe. IDF 233. 13
Impax received final approval for a fifth dosage strength on
July 22, 2010. IDF 67.
12

Endo filed multiple citizen petitions with the FDA asking it
to: (1) determine that original Opana ER was discontinued for
safety reasons; (2) refuse to approve any ANDAs to market a
generic version of the drug; and (3) withdraw its approval of
Impax’s generic. IDF 233; CX3203 (citizen petitions). In response,
the FDA determined that Endo did not withdraw original Opana
ER for safety reasons. IDF 235.
13

App-51
Because these actions effectively eliminated the
market for the branded original Opana ER, Endo was
required to pay Impax $102 million under the Endo
Credit. IDF 236-37.
Between 2012 and 2014, Endo obtained additional
patents related to Opana ER and asserted them
against generic manufacturers of both the original and
reformulated versions. IDF 575-77, 579-84. In 2015
and 2016, Endo won district court rulings enjoining
manufacturers other than Impax from selling their
generic versions of original Opana ER until as late as
2029, and enjoining all manufacturers, including
Impax, from selling generic versions of reformulated
Opana ER. IDF 578, 586-87. The Federal Circuit
recently affirmed one of those rulings. See Endo
Pharms., Inc. v. Teva Pharms. USA, Inc., 731 F. App’x
962 (Fed. Cir. 2018).
Impax has sold generic Opana ER continuously
since January 2013 and is the only generic
manufacturer that has not been enjoined from the
market. IDF 596-97. Even so, the SLA did not fully
protect Impax from the risk of litigation regarding
Endo’s patents. In May 2016, Endo sued Impax for
breaching the SLA by failing to negotiate a royalty for
the patents Endo acquired after the SLA and,
consequently, for infringing those patents. IDF 589;
CX2976 (Endo’s Complaint for breach of contract and
patent infringement). The parties settled that dispute
in August 2017. ID 590-91; CX3275 (Contract
Settlement Agreement), in camera.
In September 2017, Endo voluntarily withdrew its
reformulated Opana ER from the market in response
to a June 2017 FDA request. IDF 111. The FDA had

App-52
determined that the benefits of the reformulated
product no longer outweighed the risks that
consumers would abuse it via injection. CX6048-0001
(June 8, 2017 FDA news release). As a result of that
withdrawal and of Endo’s decision to withdraw its
original Opana ER product, Impax’s generic original
Opana ER is now the only extended-release
oxymorphone product available to consumers. IDF
598.
E. The FTC’s Complaint
In January 2017, the FTC issued an
administrative complaint against Impax, alleging that
its reverse-payment settlement with Endo was an
unfair method of competition in violation of Section
5(a) of the FTC Act. Compl. ¶¶101-02. The Complaint
charges that Impax agreed to abandon its challenge to
Endo’s patents and stay off the market for two and a
half years in exchange for a payment of at least $47
million (and potentially over $100 million). Compl.
¶¶1, 3, 62, 67. According to the Complaint, a payment
of this size could not be justified as either a reasonable
measure of saved litigation costs or the value of any
services that Impax provided. Compl. ¶¶68, 72-73. The
Complaint alleges that the payment was designed to,
and did, eliminate the risk that Impax would launch
its generic version of Opana ER before January 2013.
Compl. ¶94. Endo and Impax allegedly injured
competition by splitting Endo’s monopoly profits for
themselves, while depriving consumers of access to

App-53
generic drugs that could have saved them hundreds of
millions of dollars. Compl. ¶¶4, 95-97. 14
F.

The Initial Decision

The ALJ held that Endo “provided Impax with a
reverse payment, the purpose and effect of which was
to induce Impax to give up its patent challenge and
agree not to launch a generic Opana ER until January
2013.” ID at 6-7. However, he further found that the
“procompetitive
benefits”
of
the
agreement
“outweigh[ed] the anticompetitive harm.” Id. at 7. The
ALJ reached this conclusion by applying the rule of
reason burden-shifting framework.
The ALJ held that the first step of the rule of
reason analysis placed on Complaint Counsel the
burden of showing that the Endo-Impax Settlement
produced anticompetitive effects within the relevant
market. ID at 91. That, in turn, entailed a showing
that Endo provided “payment for delay, or, in other
words, payment to prevent the risk of competition.” Id.
at 98 (quoting Smithkline Beecham, 791 F.3d at 412).
The ALJ observed that, under Actavis, the relevant
anticompetitive harm from an unexplained reverse
payment is the loss of the risk of competition. Id. at

Prior to the evidentiary hearing before the ALJ, Complaint
Counsel moved for partial summary decision to preclude Impax
from offering certain procompetitive justifications for the
settlement. The Commission denied the motion as premature
because Impax had not received a full opportunity to articulate
its procompetitive justifications and because the parties had not
briefed the question of how the rule-of-reason inquiry should be
structured. See Impax Labs., Inc., 2017 WL 5171124, at *6, *9 &
n.16 (F.T.C. Oct. 27, 2017).
14

App-54
100 (citing Actavis, 570 U.S. at 157) (emphasis
supplied).
The ALJ held that the No-AG Commitment of the
SLA gave Impax a six month monopoly on generic
sales of Opana ER that was worth between $23 and
$33 million in additional projected sales revenue to
Impax, a value he assigned as part of the reverse
payment. ID at 106, 114. As for the Endo Credit, the
ALJ acknowledged that the provision eventually
resulted in a cash payment of $102 million to Impax;
but he held that the Endo Credit should be valued as
of the date of settlement. Id. at 113. At that point, the
value of the Endo Credit was “uncertain … and was
contingent on unknown future events that were
outside of Impax’s control.” Id. at 110. The ALJ thus
did not assign independent value to the Endo Credit; 15
instead, he found that the payment “fulfilled its
purpose” of providing Impax the profits that it would
have received during the 180-day exclusivity period
with no AG in the event of a sharp decline in the
market. Id. at 114. The ALJ then found that the value
of the No-AG Commitment of the SLA, as secured by
the Endo Credit, amounted to between $23 and $33
million. Id. The ALJ found that this amount
substantially exceeded Endo’s saved litigation costs,
The ALJ also rejected Complaint Counsel’s effort to prove a
value for the Endo Credit through testimony of their expert
economist, Dr. Roger Noll. ID at 111. Professor Noll calculated
values of the Endo Credit and No-AG Commitment under four
potential sales scenarios, id., and opined that the value ranged
from $16.5 to $62 million. Tr. 1473-77; CX5000 (Noll Expert
Report) App. F at 240. The ALJ opined that Professor Noll failed
to adequately describe or explain the bases for his assumptions
or calculations. ID at 111.
15

App-55
was unjustified, and that the parties agreed to the
provision as an inducement to compensate Impax for
giving up its patent challenge and committing not to
launch a generic Opana ER until January 2013. Id. at
116, 138. He found these facts demonstrated that the
SLA included a payment to prevent the risk of
competition. Id. at 138-39.
The ALJ found that the $10 million upfront
payment to Impax under the DCA was fair value for
the profit-sharing rights given to Endo, and that the
DCA was a bona fide product collaboration consistent
with Endo’s business interests. ID at 132, 138. He
found that the payment was therefore justified. Id. at
138.
The ALJ found that Endo possessed market
power. ID at 139. Pharmaceutical patents “by their
nature,” he explained, “often carry with them market
power” because they provide “‘the legal right to
exclude generic competition and the practical ability
to profitably charge higher prices than generic
competitors would charge.’” Id. (quoting In re
Aggrenox Antitrust Litig., 199 F. Supp. 3d 662, 668 (D.
Conn. 2016)). He also took the view that, in this case,
the “reverse payment settlement itself” was “strong
proof of Endo’s market power,” since a firm lacking
such power would have had no incentive to pay others
to keep out of the market. Id. at 139-40 (discussing
Actavis, 570 U.S. at 157). The ALJ further observed
that regulatory barriers under the Hatch-Waxman
Act, such as the 30-month stay on FDA approval of an
ANDA, can serve to protect market power. Id. at 140.
In the unique context of pharmaceutical reverse
payments, he ruled, “the appropriate market in which

App-56
to assess the anticompetitive effects ... [is] the branded
pharmaceutical product and its generic equivalents.”
Id. at 97. At the time of settlement, “Endo had a 100%
share of the market for oxymorphone ER,” id. at 140,
and therefore possessed market power in a relevant
market so defined. Id. at 139-40.
The ALJ held that, because Complaint Counsel
had shown anticompetitive harm, the burden shifted
to Respondent to demonstrate procompetitive
benefits, the second step in the rule of reason analysis.
See generally ID at 99, 141-47.
The ALJ rejected Complaint Counsel’s argument
that he should consider only those benefits that
justified the anticompetitive reverse payment itself,
and held instead that he should assess all
procompetitive effects of the Impax-Endo settlement
agreement. ID at 99-100 (finding that “to condemn an
agreement based on the reverse payment term alone
is an approach that is too abbreviated to permit proper
analysis” (internal quotation marks omitted)).
Viewing the settlement as whole, the ALJ concluded
that Impax had met its burden to show procompetitive
benefits. Id. at 146. The agreements settled litigation,
and the broad patent license that Impax obtained had
provided consumers with uninterrupted and
continuous access to generic Opana ER since January
2013. Id. Absent the broad license, Endo could have
asserted its later-acquired patents against Impax and
enjoined Impax from selling generic Opana ER, just as
Endo has enjoined other unlicensed generic
manufacturers. Id. at 145. The ALJ also considered
the fact that the SLA enabled Impax to enter the
market prior to the expiration of Endo’s Opana ER

App-57
patents, but noted this fact was “not dispositive.” Id.
at 146. The SLA enabled Impax to enter the market in
January 2013, nine months before expiration of the
initial Opana ER patents in September 2013, and
sixteen years before the expiration of Endo’s afteracquired patents in 2029. Id. Thus, the ALJ found that
Respondent met its burden of proving procompetitive
benefits of the SLA. Id.
Having found that the Respondent met its burden
to demonstrate procompetitive benefits, the ALJ
shifted the burden to Complaint Counsel to establish
that the benefits could have been achieved with a less
restrictive settlement agreement. ID at 146. The ALJ
determined that Complaint Counsel failed to meet
their burden. Id. at 147. He rejected Complaint
Counsel’s argument that the parties could have agreed
to the very same patent license without a payment. Id.
(finding that Complaint Counsel had not
demonstrated that a settlement without a payment
would have included the broad patent license). In
reaching this conclusion, the ALJ noted that Impax
twice proposed a settlement with a 2011 entry date
and no reverse payment, and Endo rejected each
proposal. Id. at 147, n.35.
The ALJ proceeded to assess the extent to which
the Endo-Impax settlement harmed competition by
actually delaying generic entry. ID at 150-58. He
found the anticompetitive effects of the reverse
payment to be “largely theoretical” because Impax
would have been “unlikely” to launch its generic
product before the agreement’s January 2013 entry
date in any event. Id. at 156-57. Impax would not have
launched at risk, he found, because it was a relatively

App-58
small firm (less than $1 billion in revenues) that could
have faced “bet the company” damages in the event of
an adverse patent ruling after entry. Id. at 150. The
ALJ found that Impax had no history of launching at
risk in analogous situations, and that its management
had not sought the approval of its board of directors
required for such a launch. Id. at 150-51.
Furthermore, he found, Impax’s hypothetical entry
after completion of the Endo-Impax litigation would
not have occurred until “November 2011 at the
earliest, and more likely […] a date close to January
2013,” id. at 156, even if Impax had been successful.
The ALJ based this finding on the opinion of E.
Anthony Figg, Respondent’s expert, who testified
regarding the time likely to be required for a
hypothetical district court decision and for resolution
of an appeal (and a possible remand) in the EndoImpax patent litigation. Id. at 155-56.
The ALJ found that the procompetitive benefits of
the SLA were, by contrast, “substantial,” because the
broad patent license has allowed Impax to sell generic
Opana ER “without interruption for more than five
years” and because Impax’s product is now the “only
available oxymorphone ER product” for consumers. Id.
at 157; IDF 596-98. The ALJ concluded that the
January 2013 entry date in the SLA, together with the
broad patent license, enabled Impax’s generic Opana
ER to enter the market eight months before Endo’s
original Opana ER patents expired and sixteen years
before Endo’s after-acquired patents expired. ID at
157. Impax was able to continue selling its product
without threat of patent infringement litigation due to
its broad license. Id. “These actual consumer benefits,”
the ALJ concluded, “outweigh the theoretical

App-59
anticompetitive harm demonstrated in this case.” Id.
Even if it were assumed that Impax would have
entered the market as early as June 2010, the ALJ
added, the benefits to consumers of uninterrupted
access to generic Opana ER for more than five years
(from 2013 through 2018) would still outweigh any
harm from two and a half years of delayed generic
entry. Id.
Accordingly, the ALJ found that the evidence
failed to demonstrate that the Endo-Impax settlement
was an unreasonable restraint of trade in violation of
Section 5 of the FTC Act, and he therefore dismissed
the Complaint. ID at 158. Before the Commission,
Complaint Counsel challenge the ALJ’s conclusions
that Impax met its burden to identify cognizable
procompetitive benefits and that the settlement at
issue was not anticompetitive. Impax challenges the
ALJ’s findings regarding market definition and power,
but it does not challenge the ALJ’s finding that it
received a large and unjustified payment.
III.

STANDARD OF REVIEW

Under the applicable regulations, the ALJ issues
an initial decision following administrative trial, 16
C.F.R. §3.51, and the Commission reviews the ALJ’s
findings of fact and conclusions of law de novo,
considering “such parts of the record as are cited or as
may be necessary to resolve the issues presented.” 16
C.F.R. §3.54(a). The Commission may “exercise all the
powers which it could have exercised if it had made
the initial decision.” Id.; see also 5 U.S.C. §557(b). The
de novo standard of review applies to both findings of
fact and inferences drawn from those facts. See
Realcomp II, Ltd., 2007 WL 6936319, at *16 n.11

App-60
(F.T.C. Oct. 30, 2009), aff’d, 635 F.3d 815 (6th Cir.
2011).
IV.

JURISDICTION

V.

ANALYSIS

Respondent does not dispute that the Commission
has jurisdiction over it and over the conduct
challenged in the Complaint. Section 5(a) of the FTC
Act grants the Commission authority to prevent
“unfair methods of competition in or affecting
commerce”
by
“persons,
partnerships,
or
corporations,” 15 U.S.C. §45(a)(1)-(2). Impax is a
corporation as “corporation” is defined in Section 4 of
the FTC Act, 15 U.S.C. §44, over which the
Commission has jurisdiction. See Stip. at 001-02 ¶¶4,
7. Impax’s acts and practices at issue are subject
matter over which the FTC has jurisdiction. Id. at ¶¶5,
7.
The Complaint alleges that the SLA and
associated acts and practices are an agreement to
restrain competition and constitute an unfair method
of competition in violation of Section 5 of the FTC Act.
Compl. ¶¶101-102. To determine whether this conduct
violates Section 5 of the FTC Act, we follow case law
that has developed under Section 1 of the Sherman
Act. 16
The Commission’s authority under Section 5 of the FTC Act
extends to conduct that violates the Sherman Act. See, FTC,
Statement of Enforcement Principles Regarding “Unfair Methods
of Competition” Under Section 5 of the FTC Act (Aug. 13, 2015),
https://www.ftc.gov/system/files/documents/public_statements/7
35201/150813section5enforcement.pdf; see also Actavis, 570 U.S.
at 145; Cal. Dental Ass’n, 526 U.S. at 762 & n.3; FTC v. Motion
Picture Advert. Serv. Co., 344 U.S. 392, 394-95 (1953); Fashion
16

App-61
In Actavis, the Supreme Court held that the rule
of reason applies to reverse payment settlement cases,
but explicitly left to the lower courts the task of
structuring the inquiry. 570 U.S. at 160. Citing its
holding in California Dental Association v. FTC, 526
U.S. 756 (1999), the Court directed trial courts to
“avoid, on the one hand, the use of antitrust theories
too abbreviated to permit proper analysis, and, on the
other, consideration of every possible fact or theory
irrespective of the minimal light it may shed on […]
the
presence
of
significant
anticompetitive
consequences.” Actavis, 570 U.S. at 159-60. This case
concerns a reverse payment settlement, the restraint
within it, and the relationship between the two.
With the Supreme Court’s Actavis guidance in
mind, we apply the burden-shifting analysis that
courts have used in other rule of reason cases, as
informed by the Supreme Court’s reasoning in Actavis.
Under this framework, the plaintiff has the burden to
prove that “the challenged restraint has a substantial
anticompetitive effect that harms consumers in the
relevant market.” See Ohio v. American Express, 138
S. Ct. 2274, 2284 (2018) (“Amex”); Todd v. Exxon
Corp., 275 F.3d 191, 206 (2d Cir. 2001) (“an actual
adverse effect on competition”); Law v. Nat’l Collegiate
Athletic Ass’n, 134 F.3d 1010, 1019 (10th Cir. 1998)
(“substantially adverse effect on competition”); United
States v. Brown Univ., 5 F.3d 658, 668 (3d Cir. 1993)
(“adverse, anti-competitive effects within the relevant
product and geographic markets”).
Originators’ Guild of Am., Inc. v. FTC, 312 U.S. 457, 463-64 & n.4
(1941). In this proceeding, our analysis under Section 5 is the
same as it would be under Section 1 of the Sherman Act.

App-62
Provided
the
plaintiff
demonstrates
anticompetitive harm, the burden shifts to the
defendant to show a procompetitive rationale for the
restraint. Amex, 138 S. Ct. at 2284; Law, 134 F.3d at
1019. If the defendant does so, then the burden shifts
back to the plaintiff to demonstrate that the
procompetitive efficiencies could reasonably be
achieved through less anticompetitive means. Amex,
138 S. Ct. at 2284. If the plaintiff carries this burden,
it prevails. 7 Areeda & Hovenkamp, ANTITRUST
LAW ¶1507c, at 448 (4th ed. 2017). If the plaintiff does
not, the adjudicator proceeds to weigh the harms and
benefits against each other to judge whether the
challenged behavior is, on balance, reasonable. See
Law v. NCAA, 134 F.3d at 1019 (citing Areeda &
Hovenkamp, supra ¶1502). Cases do not often reach
the balancing stage.
A. Complaint Counsel’s Prima Facie Case
under Actavis
Complaint Counsel’s first obligation is to make
out a prima facie case, proving that the challenged
restraint has a substantial anticompetitive effect in a
relevant market. In the Hatch-Waxman Act litigation
context, Actavis makes clear that a settlement
involving a large and unjustified reverse payment
raises a “red flag” that the parties may be agreeing to
eliminate the risk of competition. A plaintiff may thus
make out a prima facie case by proving a large,
unjustified payment was made in exchange for
deferring entry into the market or for abandoning a
patent suit, plus the existence of market power. See
Nexium, 842 F.3d at 59 (first step of rule of reason
framed for the jury as requiring market power plus a

App-63
large and unjustified payment). The ALJ found that
Impax received a large and unjustified payment as
part of the settlement at issue, and Impax does not
challenge that finding before the Commission.
We likewise find that Impax received a large and
unjustified payment. In addition, we conclude that
Complaint Counsel met their burden here. Complaint
Counsel successfully raised the inference that Endo
and Impax agreed to the large and unjustified
payment as an inducement to Impax to give up its
patent challenge and to commit not to launch a generic
Opana ER until January 2013—thereby eliminating
the risk of any generic entry until that time—and they
proved the requisite market power. See Actavis, 570
U.S. at 154. Complaint Counsel demonstrated that the
risk of earlier entry was real: there was a plausible
threat that Impax could have entered the market prior
to the agreed-upon entry date. See In re Aggrenox
Antitrust Litig., 94 F. Supp. 3d 224, 240 (D. Conn.
2015) (plaintiff must prove large, unjustified payment
“as part of [a] settlement in order to shore up some
perceived risk” of competition (emphasis added)). And
Actavis makes clear that eliminating the risk of
competition is a cognizable harm under the antitrust
laws. 570 U.S. at 157. Complaint Counsel further
demonstrated that the relevant product market
consisted of branded and generic oxymorphone ER,
and that Endo held market power.

App-64
1.

Large, Unjustified Payment Raises
Inference of Anticompetitive Harm

The Actavis Court described certain inferences
that can be drawn from a large, unexplained reverse
payment in a patent settlement. Such a payment
raises a red flag signaling that the parties may not
merely be settling valid claims, but may actually be
entering an unlawful agreement to maintain and to
share the brand’s monopoly profits. As the Court
explained, a large and unjustified reverse payment
“may ... provide strong evidence that the patentee
seeks to induce the generic challenger to abandon its
claim with a share of its monopoly profits that would
otherwise be lost in a competitive market.” 570 U.S. at
154. Such payments “would be an irrational act unless
the patentee believed that generic production would
cut into its profits.” Herbert Hovenkamp,
Anticompetitive Patent Settlements and the Supreme
Court’s Actavis Decision, 15 MINN. J. L. SCI. &TECH.
3, 25 (2014). The presence of a large and unjustified
payment may thus signal the presence of an unlawful
agreement yielding competitive harm. See Aaron
Edlin, et al., The Actavis Inference: Theory and
Practice, 67 RUTGERS U. L. REV. 585, 587, 591
(2015) (“The Court identified a large and unexplained
payment as a suspicious act that suggests the patent
holder is paying to limit competition.”); see, e.g.,
Smithkline Beecham, 791 F.3d at 394 (payment “may
represent an unusual, unexplained reverse transfer of
considerable value from the patentee to the alleged
infringer and may therefore give rise to the inference
that it is a payment to eliminate the risk of
competition”).

App-65
2.

Principles of Analysis for Evaluating
Large, Unjustified Payments

To make out a prima facie case, any antitrust
plaintiff must establish the existence or likelihood of
substantial anticompetitive harm. See Amex, 138 S.
Ct. at 2284; Law, 134 F.3d at 1019; Brown Univ., 5
F.3d at 668 (“adverse, anti-competitive effects within
the relevant product and geographic markets”). Under
Actavis, this includes a demonstration that a “large
and unjustified” reverse payment was made. 570 U.S.
at 158.
When analyzing the size of the “payment” in a
reverse payment case, factfinders should consider all
value—cash and otherwise—that the branded drug
manufacturer transfers to the generic through the
settlement (including any side agreements that
contemporaneous timing or other circumstances
indicate should be considered part of the same
transaction). See infra Section V.A.3; see generally
Smithkline Beecham, 791 F.3d at 403 (Actavis is not
limited to payments of cash and includes no-AG
clauses). 17 The Endo/Impax settlement included both
a cash payment under the DCA and non-cash or
contingent forms of value, including the No-AG
Commitment, the Endo Credit, and the licenses
granted to Impax, all of which should be considered in
As one district court wrote, “[a] settlement agreement may
be very simple or tremendously complex, and it may involve all
manner of consideration; and if, when viewed holistically, it
effects a large and unexplained net transfer of value from the
patent-holder to the alleged patent-infringer, it may fairly be
called a reverse-payment settlement.” Aggrenox, 94 F. Supp. 3d
at 243.
17

App-66
valuing the reverse payment. See In re Opana ER
Antitrust Litig., 162 F. Supp. 3d 704, 718 (N.D. Ill.
2016) (court should look at whether, “taken as a
whole,” the total payment Impax received under the
SLA, the No-AG Commitment, and the DCA was large
and unjustified). Any other result would ignore the
economic realities of the settlement by disregarding
forms of consideration that the brand conveyed. This
could create a perverse incentive for settling parties to
shield the sharing of the brand’s monopoly profits
through non-cash value transfers. See In re Loestrin
24 Fe Antitrust Litig., 814 F.3d 538, 549 (1st Cir. 2016)
(holding that non-monetary reverse payments are
subject to Actavis because the Supreme Court
contemplated that “a disguised above-market deal, in
which a brand manufacturer effectively overpays a
generic manufacturer for services rendered, may
qualify as a reverse payment”).
Contrary to Complaint Counsel’s argument that
demonstrating a payment is “large,” along with a
showing of market power, will establish a prima facie
case, CCAB at 39-41, plaintiffs also need show that the
reverse payment was “unjustified.” Actavis, 570 U.S.
at 158; Loestrin 24 Fe, 814 F.3d at 552.
Establishing that the payment is not otherwise
justified is necessary for demonstrating that the
payment is purchasing an exclusive right and
preventing the risk of competition. In other words, it
is the basis for attributing anticompetitive harm to the
patent settlement, and thus an essential part of
plaintiff’s case. As explained by Actavis, “the potential
for genuine adverse effects on competition” arises
when the reverse payment “amounts to a purchase by

App-67
the patentee of the exclusive right to sell its product,”
a right that would be lost if the patent proved to be
invalid or not infringed. 570 U.S. at 153-54 (internal
quotation omitted).
The concepts of “large” and “unjustified” are
closely linked, because the size of the payment must
be evaluated relative to the legitimate value that may
justify it. A “large” payment is one that exceeds the
value of the avoided litigation costs, plus any other
services the generic drug manufacturer provides to the
branded firm. See In re Lipitor Antitrust Litig., 46 F.
Supp. 3d 523, 543 (D.N.J. 2014), rev’d on other
grounds, 868 F.3d 231 (3d Cir. 2017). Meanwhile, a
payment is justified when it represents “traditional
settlement considerations, such as avoided litigation
costs or fair value for services.” Actavis, 570 U.S. at
156. Actavis directs us to look not merely at the
absolute value of a payment, but also at benchmarks
such as “[the payment’s] scale in relation to the payor’s
anticipated future litigation costs [and] its
independence from other services for which it might
represent payment[.]” Id. at 159. Actavis thus requires
that a plaintiff prove as part of its prima facie case
that a payment was both large and unjustified. As
discussed below, Complaint Counsel made that
showing here.
Placing the burden on Complaint Counsel to
demonstrate a “large and unjustified” payment in the
prima facie case also finds support in the limited postActavis case law. See, e.g., Nexium, 842 F.3d at 59
(upholding jury verdict form with “large and
unjustified” as part of prima facie case); Loestrin 24
Fe, 814 F.3d at 552 (to survive a motion to dismiss,

App-68
plaintiff “must allege facts sufficient to support the
legal conclusion that the settlement at issue involves
a large and unjustified reverse payment”); Smithkline
Beecham, 791 F.3d at 412 (requiring plaintiff to prove
a payment for delay, with the “likelihood of a reverse
payment bringing about anticompetitive effects”
dependent on the payment’s size, its scale in relation
to anticipated future litigation costs, and
independence from other services); In re Cipro Cases I
& II (“Cipro”), 348 P.3d 845, 865-66 (Cal. 2015)
(requiring plaintiff to show that the value of the
reverse payment exceeded the value of collateral
products or services provided by the generic to the
brand, plus anticipated future litigation costs); In re
Solodyn (Minocycline Hydrochloride) Antitrust Litig.,
2015 WL 5458570, at *7 (D. Mass. Sept. 16, 2015)
(plaintiff bears “initial burden” to show a large and
unjustified payment).
Complaint Counsel need not negate every
conceivable justification for the payment, nor preemptively refute evidence of value not in their
possession or control, to satisfy their prima facie
burden. 18 Cf. Lipitor, 868 F.3d at 255 (noting that in
Actavis, the FTC’s complaint “did not preemptively
The shifting burdens of production characteristic of antitrust
adjudication can address both plaintiffs’ information problem
and defendants’ right to adduce evidence of justification. See, e.g.,
Cipro, 348 P.3d at 867; K-Dur, 2016 WL 755623, at *13 (once
plaintiff shows that the payment was “large” in comparison to the
expected future litigation costs, the burden of production shifts
to the respondent to come forward with evidence that the value
of collateral products and services suffices to bring the
settlement’s value up to the value of the payment without
reference to the delayed entry).
18

App-69
negate justifications for the reverse payments”);
Cipro, 348 P.3d at 867 (a party’s own litigation costs
and the existence and value of any collateral products
or services provided in the settlement are “matters
about which the settling parties will necessarily have
superior knowledge”); In re K-Dur Antitrust Litig.,
2016 WL 755623, at *13 (D.N.J. Feb. 25, 2016) (same).
It suffices to show that the size of the payment
exceeded the payor’s anticipated saved litigation costs
plus the value to be rendered under the agreement
and that no other clear justification presents itself. See
In re Androgel Antitrust Litig. (No. II) (“Androgel II”),
2018 WL 2984873, at *9 (N.D. Ga. June 14, 2018)
(plaintiff’s burden is to show that “the settlement
payments are ... larger than what could reasonably be
expected to cover such traditional settlement concerns
as future litigation costs or the value of services
rendered”).
3.

Analyzing the Value Flow and
Determining the Reverse Payment

The Initial Decision found that the No-AG
Commitment of the SLA secured by the Endo Credit
was an “unjustified reverse payment,” ID at 138, “the
purpose and effect of which was to induce Impax to
give up its patent challenge and agree not to launch a
generic Opana ER until January 2013.” ID at 7. Impax
has not appealed the ALJ’s conclusion that a large
reverse payment helped induce settlement or that the
payment was linked to the January 2013 entry date,
see RB at 4 n.1, and we agree that Complaint Counsel
have borne their burden.
We reiterate that, to determine in the first
instance whether a settlement involves a suspicious

App-70
reverse payment, the factfinder should consider all
value flowing in the “reverse” direction, i.e., to the
generic. Not all of this value may properly be
attributed as part of a “large and unjustified”
payment, but whether it should be attributed as such
can only be discerned after examining it in the light of
the facts at hand. The value flowing to Impax in this
case came in several forms, discussed in turn below.
a.

The No-AG Commitment

First, Endo agreed to the No-AG Commitment,
which obligated Endo not to market an “authorized
generic” of Opana ER during the six months of Impax’s
exclusivity. Koch, Tr. 235-36; Snowden, Tr. 392-93. In
the wake of Actavis, several federal courts have held
that the rule of reason governs both cash and in-kind
payments—including no-AG commitments—arising
in reverse payment settlements. Such concessions can
be of “great monetary value” to the first-filing generic
drug manufacturer, which would then enjoy a “generic
monopoly instead of a generic duopoly” for those six
months. Smithkline Beecham, 791 F.3d at 404-05; see
also Loestrin 24 Fe, 814 F.3d at 549-52.
The No-AG Commitment here would allow Impax
to obtain greater revenues from its generic sales than
it would if Endo entered and competed with an
authorized generic. IDF at 187-89, 191. Impax valued
this commitment between $23-33 million in projected
revenue, IDF 193, and Endo approximated the
revenues it forwent to be $25 million. IDF 192. As
Complaint Counsel demonstrated, this value range
exceeded substantially a reasonable estimate of costs
saved from litigation ($5 million, $3 million of which

App-71
was attributable to Endo). 19 CX5000 (Noll Expert
Report) at ¶375; Noll, Tr. 1463; IDF 77-81; ID at 115
(value of the reverse payment “substantially exceeded
the estimated saved litigation costs”). 20
b.

The Endo Credit

Second, the reverse payment settlement provided
Impax significant value in the form of the Endo Credit,
which Impax would receive if Endo moved the market
away from original formulation Opana ER before
Impax entered. The evidence at trial demonstrated
that, at the time the parties entered the settlement,
Endo was planning a “product hop” that would destroy
the market for original Opana ER before Impax could
bring its generic to market. IDF 96-107; Koch, Tr. 23637; CX3205 at 001 (December 13, 2007 Endo memo:
“There is also a life cycle management (LCM)
imperative for Endo’s Opana ER franchise ... . To
ensure we continue to protect the franchise in the face
of loss of regulatory exclusivity in June 2009, a
[tamper resistant] formulation of ER will be important
Actavis indicates it is appropriate to compare the size of the
payment to the payor’s expected saved litigation costs, not the
combined savings, see 570 U.S. at 159 (“[T]he likelihood of a
reverse payment bringing about anticompetitive effects depends
upon its size, its scale in relation to the payor’s anticipated future
litigation costs ... .”). This makes sense because it is the excess of
Endo’s payment over its other savings or justified benefits that
should be understood as directed toward buying market
exclusivity. Whether we utilize the projected savings of Endo
alone or the joint savings of the parties, however, the size of the
reverse payment is unquestionably “large” by comparison.
19

20 The parties have not pled, and therefore we do not reach, the
separate question of whether all no-AG commitments are large
and unjustified payments under Actavis.

App-72
to secure. Without this LCM strategy, Opana ER is
expected to lose about 70% of its sales within six
months if generic entry occurs”); CX4010 (Mengler,
Investigative Hearing Transcript (“IHT”)) at 21
(Impax feared “that Endo had a strategy in place that
would have led to the elimination of the Opana ER
market, destroying ... all of [its] value and [its] ability
to sell the generic.”). Evidence suggests that Endo
negotiated for a later entry date to give it time to
execute this scheme. See CX4014 (Hsu Dep.) at 156-57
(“Obviously that’s their goal” to transfer the market to
a reformulated version before Impax could enter
under the SLA); CX2724 (Endo’s plan to reformulate
Opana ER and transition the market to the new
product would be adversely affected if Impax launched
its generic in June 2010). The evidence also showed
that Impax suspected the plot and, fearful that Endo
planned to destroy the value it had secured itself
through the No-AG Commitment, demanded what
became the Endo Credit. Mengler, Tr. 528, 531-35,
568. The credit would compensate Impax in the event
Endo’s Opana ER dollar sales fell by more than 50
percent of their quarterly peak prior to Impax’s
entering the market. RX364 at 0003-06, 0012 (SLA
§§1.1, 4.4). This dynamic underscores the fact that
Impax sought to share in the value created by
agreeing with Endo to eliminate the risk of
competition. In the event it launched as planned, there
would be no authorized generic. In the event plans
went awry, and any sale of Opana ER was foreclosed
or minimized, Impax still would profit from less
competition. The credit ultimately resulted in Endo
paying Impax $102 million.

App-73
c.

The DCA

Impax and Endo also entered into the DCA, a
distinct written agreement that was negotiated and
executed simultaneously with the SLA and
incorporated into it. IDF 244-45, 284, 306, 308; see also
ID at 124. Under the DCA, Endo agreed to make a $10
million upfront payment to Impax, with the possibility
of making $30 million more in milestone payments, for
the development of an early-stage Parkinson’s disease
drug known as IPX-203. IDF 244, 246-48. Under the
DCA, Impax and Endo agreed to share promotional
responsibilities for IPX-203 and Endo would be
entitled to a share of the profits if the drug were
successfully commercialized. IDF 249-50. The legal
and temporal links between the DCA and the SLA led
the ALJ to dete1mine that the DCA's value to Impax
should be included as pali of the payment from Endo
to Impax, and we agree. ID at 114; see also In re
Niaspan Antitrust Litig., 42 F. Supp. 3d 735, 752 (E.D.
Pa. 2014) (“the Licensing Agreement must be read in
conjunction with the CoPromotion and Manufacturing
Agreements executed that same day”).
The ALJ found, however, that the $10 million
payment in the DCA was fully justified by the benefits
to Endo that the agreement conferred. 21 In addition to
The ALJ found that the DCA was a bona fide product
development collaboration, and that the $10 million payment was
justified by the profit-sharing rights that the agreement gave to
Endo, ID at 132, relying on, inter alia, evidence that: (1) both
companies had a history of interest in Parkinson's disease
treatments, id.; (2) Impax needed outside funding to advance the
development ofIPX-203, id.; (3) Endo did not consider the $10
million upfront payment to be uncharacteristically large, and
projected a rate of retum of [redacted] percent on that payment,
21

App-74
the contemporaneity of the two agreements and the
DCA’s incorporation into the SLA, several additional
facts in the record call into question this conclusion.
First, the IPX-203 deal was evaluated on a timeline
shortened to line up with the settlement negotiations,
including an abbreviated analysis by Endo that
ignored obvious risks. See, e.g., Cobuzzi, Tr. 2592
(Endo group had two days to complete initial
evaluation); CX2625 at 001 (Impax recognized that
Endo was “on a tight time table” to complete the DCA
“if the wished to settle prior to June 17.”; RX072 at
0004, in camera [redacted] Secon, evidence suggests
that Endo was only willing to enter into the deal as
part of the settlement negotiations. See CXI 005 at 064
(in 2008, a third party market research group engaged
by Endo specifically rejected Impax’s relevant
Parkinson’s disease products from the list of potential
opportunities because generic versions of products
were already on the market). Third, Endo had never
previously made an upfront payment for a product on
such an abbreviated timeline. Cobuzzi, Tr. 2565. 22
nearly [redacted] Endo's minimum requirements for a codevelopment deal, id.; and (4) Impax continued its development
efforts regarding IPX-203 for years after executing the DCA,
investing over [redacted] employee hours in work on the
compound. Id. at 129.
Through the testimony of a pharmaceutical expert, Dr. John
Geltosky, Complaint Counsel describe numerous other
irregularities in the DCA, including, for example: (i) that Endo's
financial analysis did not assess the circumstances specific to the
compound actually agreed upon, IPX-203, instead using
commercial terms that related to a different compound in laterstage development, IPX-066, that Impax had originally
considered but then declined to offer, CX5003 (Geltosky Expert
Report) at ¶37; (ii) that Endo did not conduct a risk adjustment
22

App-75
Finally, in its business documents, Endo noted that
the license deal for the DCA added significant topline
revenue for Opana ER. CX1701-005. For its part,
Impax’s budget documents attribute the $10 million it
received under the DCA as [redacted] CX2701 at 004.
The peculiar circumstances surrounding the DCA
suggest that the agreement may have been a means of
masking value transferred in exchange for
eliminating the risk of competition. To the extent that
the $10 million upfront payment is unjustified,
however, it simply increases the value of the overall
reverse payment that we have found already to be
large and unjustified. 23 We thus need not decide
whether the DCA was a bona fide agreement for
justified value.
d.

The Freedom to Operate License

Endo also granted Impax a broad patent license
with respect to the oxymorphone ER products covered
by Impax’s ANDA. IDF 169-70; Figg, Tr. 1951-52. This
license covers “any patents and patent applications
owned by or licensed to Endo ... that cover or could
when calculating the net present value of the IPX-203
opportunity, Geltosky, Tr. 1084-85; (iii) that Endo failed to
compare the pharmacokinetic data ofIPX-203 with IPX-066, and
thus did not analyze whether the newer compound would offer
any benefits over the earlier one, CX5003 (Geltosky Expert
Report) at ¶42; and (iv) that Endo failed to conduct a freedom-tooperate analysis of IPX-203 that would have revealed the level of
intellectual property risk posed by the compound, id. at ¶¶49-50.
23 As explained below, infra Section V.B, because Impax failed
to meet its burden to connect the alleged procompetitive
justifications to the restraint at issue, leaving no need to balance
competitive harms and benefits, whether we include any value
from the DCA payment does not affect our ultimate conclusion.

App-76
potentially cover” Impax’s generic oxymorphone ER
product. IDF 169-70. Complaint Counsel did not plead
this term as part of the unlawful consideration for the
settlement (Compl. ¶62), nor submit evidence
attempting to value the license agreement. Noll, Tr.
1648.
Because the license granted Impax freedom to
operate once the January 2013 date was past and thus
provided value to Impax, it is correctly incorporated in
an initial assessment of whether the settlement
contained suspicious reverse payments. Although the
Commission will look at all aspects of the transaction
together for purposes of determining the size and
justification of the value flow, we recognize the
inherently procompetitive nature of the freedom to
operate conferred by patent licenses. Hatch-Waxman
Act
patent
litigation
cannot
be
settled
procompetitively without both an entry date and a
license for the generic, so a payment consisting only of
a license to operate in the relevant market—alone or
with other clearly procompetitive terms—will not
ordinarily trigger antitrust scrutiny, and so should not
be considered part of a “large and unjustified”
payment. See Actavis, 570 U.S. at 154 (distinguishing
between “settlement on terms permitting the patent
challenger to enter the market before the patent
expires” which, alone, would bring about competition
“to the consumer’s benefit,” and “payment in return for
staying out of the market [which] simply keeps prices
at patentee-set levels”); accord In re Actos End Payor
Antitrust Litig., 2015 WL 5610752, at *15-19
(S.D.N.Y. Sept. 22, 2015), rev’d in part on other
grounds, 848 F.3d 89 (2d Cir. 2017) (holding that
reverse payment did not include (i) acceleration

App-77
clauses that allowed the generic to enter the market
upon the entry of any other generic, and (ii) a license
to enter as an authorized generic on a date certain).
The parties have not argued that the licenses are part
of such a payment, and nothing in the record suggests
that it operated to enable Impax and Endo to split
monopoly rents.
4.

Restraint of Trade

The “large and unjustified payment” that triggers
antitrust scrutiny under Actavis is consideration in
exchange for a restraint of trade—which itself is a
requirement of any claim under Section 1 of the
Sherman Act. 15 U.S.C. §1. The ALJ concluded that
any competitive harm was “largely theoretical”
because, for a variety of reasons, 24 Impax was unlikely
to have introduced a generic Opana ER before
January 2013, the agreed-upon entry date under the
SLA. ID at 156-57. Complaint Counsel argue that the
ALJ answered the wrong question—i.e., that the harm
Actavis recognizes is the elimination of the risk of
competition, not proof that entry would actually or
probably have occurred earlier. CCRB at 14. They also
argue that the ALJ lacked a factual basis to draw the
conclusion he did regarding the likelihood of generic
competition. Id. Impax argues that Complaint Counsel
must prove that entry earlier than January 2013 was
reasonably probable in the absence of the challenged
agreement; and it contends that the risk of launching
24 The ALJ pointed to the length of time necessary to resolve
the patent litigation (ID at 156), the financial risk associated
with launching “at risk” (id. at 150), the fact that Impax’s board
had not approved doing so (id. at 151), and the company’s track
record of not doing so (id. at 150-51).

App-78
“at risk” coupled with the litigation delay made
competition before January 2013 unlikely. RB at 3537.
We agree with Complaint Counsel. The HatchWaxman Act context is unique, as are the reverse
payment settlements that arise within it. These
payments flowing in the “wrong” direction signal that
a settling party is being compensated for not
competing when it otherwise might. The Supreme
Court thus instructs us to inquire into whether and
how such reverse payments distort competition. In
Actavis, the Court recognized the inherently
probabilistic nature of the underlying facts
surrounding the settlement of Hatch-Waxman Act
litigation: patent validity; patent infringement; the
outcome of patent litigation; the willingness and
ability of the generic drug manufacturer to launch at
risk; and so on. Requiring a fact-finder later to
conclude whether and on what date competition would
have occurred asks too much. That is why Actavis
makes clear that the relevant anticompetitive harm in
a reverse payment case is “prevent[ion of] the risk of
competition.” Actavis, 570 U.S. at 157 (emphasis
added); see also Smithkline Beecham, 791 F.3d at 408
(the “antitrust problem” in Actavis “was that, as the
Court inferred, entry might have been earlier, and/or
the risk of competition not eliminated, had the reverse
payment not been tendered” (emphasis added)).
Antitrust liability can thus attach even where the
parties entered into the settlement without knowing
for certain that they were, in fact, eliminating
competition:

App-79
The patent here may or may not be valid, and
may or may not be infringed. A valid patent
excludes all except its owner from the use of
the protected process or product. ... But an
invalidated patent carries with it no such
right. ... The paragraph IV litigation in this
case put the patent’s validity at issue, as well
its actual preclusive scope. The parties’
settlement ended that litigation.
Actavis, 570 U.S. at 147 (internal quotation and
citation omitted). The Court considered eliminating
even a small risk of generic entry to be a cognizable
harm. See id. (“The owner of a particularly valuable
patent might contend, of course, that even a small risk
of invalidity justifies a large payment. But, be that as
it may, the payment (if otherwise unexplained) likely
seeks to prevent the risk of competition. And, as we
have said, that consequence constitutes the relevant
anticompetitive harm.”). See also Cipro, 348 P.3d at
864 (“Every restraint of trade condemned for
suppressing market entry involves uncertainties
about the extent to which competition would have
come to pass.”).
Three corollaries flow from the Actavis approach.
First, where the evidence establishes that competition
actually was eliminated—that a generic drug would
have been brought to market earlier but for the
agreement—a fortiori that establishes an antitrust
harm. Second, a clear impediment to generic launch,
such as a finding that the FDA had disapproved the
generic firm’s ANDA, would mean that no risk of
competition was lost and therefore that no liability
should lie. Third, and between those two poles, in a

App-80
reverse payment settlement case, the “relevant
anticompetitive harm,” occurs when the branded
manufacturer and its generic competitor replace the
possibility of competition with the certainty of none.
Actavis, 570 U.S. at 157. To establish such a harm in
this case, then, Complaint Counsel bear the burden of
proving that there was a risk of competition to
eliminate—i.e., that Impax would compete with Endo
for sales of branded Opana ER. They must
demonstrate facts to support that risk, but need not
prove—as the ALJ required—that competition was
likely. Put differently, our test for Sherman Act
liability is whether the generic drug manufacturer
might plausibly have entered the marketplace prior to
the agreed entry date. See Androgel II, 2018 WL
2984873, at *10 (“[Defendants] argue[d] that the FTC
failed to show that the settlements actually delayed
entry. That may well be true, but that is not what the
FTC needs to prove in order to show an antitrust
harm. As discussed above, the FTC only needs to prove
that the Defendants entered into the settlements in
order to avoid the risk of a competitive market.”).
In this case, ample evidence supports the
proposition that there was a real threat of competition
from Impax. The FDA approved the Impax ANDA in
June 2010, meaning Impax was permitted to launch a
generic Opana ER at risk. Senior management had
considered launching “at risk,” and the company had
taken a number of steps to prepare. 25 Impax’s
25 Impax executives identified a 2010 launch as a “key goal,”
repeatedly forecasting it. See, e.g., CX2562-002 (2010 Company
Key Goals); CX2824-001 and tab “Jan Forecast Bottles” (Jan.
2010 Monthly Forecast indicating launch date of June 2010);

App-81
incentive to do so was likely bolstered by Endo’s plans
to product hop. See Mengler, Tr. 527; Hoxie, Tr. 2707.
A large payment would be an “irrational act” unless
the patentee believed such a payment would preserve
its profits. Herbert Hovenkamp, Anticompetitive
Patent Settlements and the Supreme Court’s Actavis
Decision, 15 MINN. J. L. SCI. &TECH. 3, 25 (2014).
See also Androgel II, 2018 WL 2984873, at *9 (“Rather
than having to litigate the merits of any underlying
patent suits or establish a theory of causation, the
Supreme Court said that courts can look to the ‘size of
the payment ... [to] be able to assess its likely
anticompetitive effects ... .’”). We therefore find there
was a plausible risk that Impax could have entered
earlier than January 2013 but for the agreement. 26
The record makes clear that the SLA eliminated a
risk of competition from Impax. How likely it was to
launch, when, and precisely how much competition
CX2829 at tab “may 10 Forecast bottles” (May 2010 Monthly
Forecast - same); CX5000 (Noll Expert Report) at ¶371 and App.
D (summarizing 27 forecasts). Company executives repeatedly
presented “at risk” launch in June 2010 to the Board of Directors.
See CX2662-012; CX2663-001. And the company took steps to
prepare, getting DEA approvals, manufacturing product,
obtaining letters of intent, and completing process validation.
CX2882-001; IDF 537-40; Engle, Tr. 1758-62. The company
obtained “Quota”—the amount of a controlled substance, like
oxymorphone, that the DEA permits a company to purchase in a
particular year—from the DEA. See Camargo, Tr. 965-66.
This is not to say that Impax would have entered earlier but
for the agreement. As explained, the ALJ erred in asking whether
Impax would have entered earlier. The relevant question is
whether it was plausible Impax could enter earlier, which tells
us whether a risk of entry—the harm Actavis instructs us to
guard against—was eliminated.
26

App-82
was eliminated are difficult questions that may
require much speculation to resolve. Because we
resolve this case before reaching the weighing of
anticompetitive harms and procompetitive benefits,
we need not do so.
5.

Market Power

Under the rule of reason a plaintiff must generally
prove that the defendant possessed market power in
the relevant market. 27 See, e.g., Leegin Creative
Leather Prods., Inc. v. PSKS, Inc. 551 U.S. 877, 885-6
(2007) (rule of reason includes inquiry into the
existence of market power) (citations omitted); United
States v. Visa U.S.A., Inc., 344 F.3d 229, 237 (2d Cir.
2003) (plaintiff “must demonstrate that the defendant
conspirators have ‘market power’ in a particular
market for goods or services”); Gordon v. Lewistown
Hosp., 423 F.3d 184, 213 (3d Cir. 2005) (market power
necessary in order for court to presume
anticompetitive effects). We find, as did the ALJ, that
Endo possessed the requisite market power and,
accordingly, that Complaint Counsel met their
burden. See ID at 139-41.
a.

General Principles

Market power is the ability to charge prices above
what would prevail in a competitive market by
However, “[s]ince the purpose of the inquiries into market
definition and market power is to determine whether an
arrangement has the potential for genuine adverse effects on
competition, ‘proof of actual detrimental effect, such as a
reduction of output,’ can obviate the need for an inquiry into
market power, which is but a ‘surrogate for detrimental effect.’”
FTC v. Ind. Fed’n of Dentists, 476 U.S. 447, 460-61 (1986)
(quoting Areeda & Hovenkamp, supra ¶1511).
27

App-83
restricting output below competitive levels. See Nat’l
Collegiate Athletic Ass’n v. Bd. of Regents of the Univ.
of Okla. (“NCAA”), 468 U.S. 85, 109 n.38 (1984) (citing,
inter alia, Jefferson Parish Hosp. Dist. No. 2 v. Hyde,
466 U.S. 2, 27 & n.46 (1984)); Ball Mem’l Hosp., Inc. v.
Mutual Hosp. Ins., 784 F.2d 1325, 1335 (7th Cir. 1986)
(Easterbrook, J.) (“Market power comes from the
ability to cut back on the market’s total output and so
raise price”); 2B PHILLIP E. AREEDA, ET AL., ANTITRUST
LAW ¶501 at 109 (4th ed. 2014) (“Market power is the
ability to raise price profitably by restricting output.”).
Relatedly, courts have defined “monopoly power” as
the “power to control prices” by limiting output or to
“exclude competition.” See, e.g., United States v. E.I.
du Pont de Nemours & Co., 351 U.S. 377, 391 (1956);
Broadcom Corp. v. Qualcomm Inc., 501 F.3d 297, 307
(3d Cir. 2007) (citing United States v. Grinnell Corp.,
384 U.S. 563, 571 (1966)).
A plaintiff can prove market power directly
through evidence of control over prices and output or
the exclusion of competition; a court also can infer
such power from proof of a firm’s large percentage
share of the relevant market. Broadcom, 501 F.3d at
307; Geneva Pharms. Tech. Corp. v. Barr Labs. Inc.,
386 F.3d 485, 500 (2d Cir. 2004) (citing Tops Mkts.,
Inc. v. Quality Mkts., Inc., 142 F.3d 90, 98 (2d Cir.
1998)); New York ex rel. Schneiderman v. Actavis PLC,
787 F.3d 638, 652 (2d Cir. 2015); United States v.
Microsoft Corp., 253 F.3d 34, 51 (D.C. Cir. 2001) (per
curiam).
A valid patent may confer market power, but does
not always do so. See Ill. Tool Works Inc. v.
Independent Ink, Inc., 547 U.S. 28 (2006). There may

App-84
be so many equivalent substitutes for the patented
article that the patentee cannot exercise market
power. U.S. DEP’T OF JUSTICE & FED. TRADE COMM’N,
ANTITRUST GUIDELINES FOR THE LICENSING OF
INTELLECTUAL
PROPERTY
§2.2
(Jan.
2017).
Alternatively, there may be few economically close
substitutes such that ownership of the patent allows
the patentee to extract durable monopoly profits
during the patent’s life. See HERBERT HOVENKAMP, ET
AL., IP AND ANTITRUST, §4.02 (Nov. 2017).
To establish market power, a plaintiff typically
first defines the relevant antitrust market. See, e.g.,
City of New York v. Grp. Health Inc., 649 F.3d 151, 155
(2d Cir. 2011); Worldwide Basketball & Sport Tours,
Inc. v. NCAA, 388 F.3d 955, 962 (6th Cir. 2004). The
Actavis Court did not conduct a rule of reason
analysis, and did not define a relevant market. But its
decision recognized that a branded drug and its
generic equivalents could—and, in the reverse
payment context, often would—together constitute an
antitrust-relevant market. The Court noted that the
large size of a payment is a “strong indicator of power”
over prices, because a firm “without that power [is
unlikely] to pay ‘large sums’ to induce ‘others to stay
out of its market.’” Actavis, 570 U.S. at 157 (emphasis
added) (quoting 12 HERBERT HOVENKAMP, ANTITRUST
LAW ¶2046 at 351 (3d ed. 2012)); see also King Drug
Co. of Florence v. Cephalon, Inc., 88 F. Supp. 3d 402,
414 (E.D. Pa. 2015). As the district court in Aggrenox
observed, although it is “conceivable that the patented
drug
faced
such
fierce
competition
from
therapeutically similar drugs that it could not be sold
at supracompetitive prices,” it is “vanishingly

App-85
unlikely” that a large reverse payment would be made
in such a case. 199 F. Supp. 3d at 666.
b.

Analysis
and
Conclusions
Regarding Market Power

Based on a thorough review of the factual record,
we find that the relevant product market in this case
consists of branded and generic oxymorphone ER, not
all long acting opioids (“LAOs”), as Impax claims. 28 We
further find, as did the ALJ, that Endo possessed
market power. 29 See ID at 139-41.
The determination of what constitutes the
relevant product market “hinges ... on a determination
of those products to which consumers will turn, given
reasonable variations in price.” United Food &
Commercial Workers Local 1776 v. Teikoku Pharma
USA, 296 F. Supp. 3d 1142, 1167 (N.D. Cal. 2017)
(quoting
Lucas
Auto.
Eng’g,
Inc.
v.
Bridgestone/Firestone, Inc., 275 F.3d 762, 767 (9th
Cir. 2001)). Specifically, our goal in this market
definition exercise is to determine whether sufficient
users would switch away from oxymorphone ER in
response to a small but significant, non-transitory
The parties do not dispute that the relevant geographic
market is the United States.
28

Market definition and market power are always factintensive questions. Although in most cases arising in the Actavis
context, a brand and its generics will constitute the relevant
product market, this is not to suggest that a brand and its
generics will, in every case or context, necessarily constitute the
relevant product market. See, e.g., Mylan Pharms. Inc. v. Warner
Chilcott PLC, 838 F.3d 421, 437 (3d Cir. 2016) (finding the
relevant market consisted of all oral tetracyclines used to treat
acne).
29

App-86
price increase [a “SSNIP”] to make the increase
unprofitable. See FTC v. Whole Foods Mkt., Inc., 548
F.3d 1028, 1038 (D.C. Cir. 2008). This requires
examining whether products are close economic
substitutes. 30 See Areeda & Hovenkamp, supra ¶562a
at 390-92 (relevant market includes “close
substitutes” that exhibit high cross-elasticity of
demand). In conducting this examination, the relevant
question is how consumers respond to increases from
competitive pricing levels. 31 Evidence of competitive
effects may help to inform the inquiry. U.S. DEP’T OF
JUSTICE & FED. TRADE COMM’N, HORIZONTAL MERGER
GUIDELINES §4 (2010).
Complaint Counsel argued that branded and
generic oxymorphone ER comprise the antitrustrelevant market. In an effort to shed light on crosselasticities between various LAO products, Complaint
Counsel’s expert, Professor Noll, examined whether
events that affected prices and quantities in the sale
of one product were reflected in changes in prices and
quantities for the other product. Noll, Tr. 1374. If they
were not, he reasoned, then the products were not in
the same relevant market. Id. at 1375. Professor Noll
Due to data limitations, neither side’s economic expert was
able to conduct a SSNIP test directly or to measure crosselasticities through econometrics. See Noll, Tr. 1514-17; Addanki,
Tr. 2476-77.
30

If the allegedly anticompetitive conduct is already permitting
supracompetitive pricing, a larger percentage of consumers
might turn to alternatives in the face of additional price
increases than would do so if prices increased from a competitive
level—thereby artificially and erroneously inflating the apparent
size of the product market. See Areeda & Hovenkamp, supra
¶539.
31

App-87
examined the effects of entry of the generic drug on
the branded product at the time that entry occurred.
Id. at 1377. His review established that the entry of
the former correlated to a drop in the quantity sold of
the latter. Id. at 1380. Based on these results, he found
that generic and branded oxymorphone ER were in the
same relevant market. Professor Noll repeated the
process of examining entry effects for other candidate
LAOs (including extended release versions of
oxycodone, hydromorphone, morphine, tapentadol,
buprenorphine, fentanyl, and hydrocodone ER) on
Opana ER’s sales to determine if they were part of the
relevant market. Noll, Tr. 1386-87; CX5000-194 at
Exh. 4. In each case, he found that the abrupt rise and
fall in sales of Opana ER in 2010-2012 did not reflect
a parallel fall and rise in the sales of the other LAOs
and determined that the latter were not part of the
relevant market. CX5000 at ¶183; see also id. at
¶¶158, 161-64, 166-67, 169, 172, 175, 177, and 179.
Based on this analysis Professor Noll concluded that
oxymorphone ER (both generic and branded versions)
is a relevant product market.
Impax, on the other hand, argued the appropriate
market consists of all LAOs. Unlike Professor Noll,
Impax’s expert, Dr. Addanki, did not study the effects
that brand or generic entry in other LAOs had on
quantities sold of oxymorphone ER or vice versa.
Rather, Dr. Addanki based his view on other sources
of information including, inter alia: (1) clinical
guidelines for treatment of chronic pain, including
FDA labels and other resources such as data showing
that multiple LAOs are used for the same indication,
Addanki, Tr. 2241-43, 2247; (2) business documents
from Endo and other industry participants suggesting

App-88
that they viewed other LAOs as being in the same
market as Opana ER, id. at 2257-66; and (3) evidence
suggesting that competition existed between and
among various LAOs at the three levels of the market:
physicians, insurers, and patients, id. at 2253.
Professor Noll’s sales volume analysis addressed
economic substitution more directly than did Dr.
Addanki’s approach. Oxymorphone ER sales exhibited
large share shifts and price reductions in response to
generic entry—but not in response to entry by other
LAOs. Sales of Opana ER declined when generic
oxymorphone was introduced and as generic sales
increased. CX5000 (Noll Expert Report) at ¶119 and
Exhs. 2A1, 2A3, 2A5, 2A6 and 2A7. Sales of other
LAOs were either far less responsive, or not
responsive at all, to the introduction of oxymorphone
ER.
Id.
at
¶¶162-64
(OxyContin),
¶169
(hydromorphone
ER,
a.k.a.
Exalgo),
¶172
(buprenorphine ER, a.k.a. Butrans), ¶175 (fentanyl
ER), ¶179 (tapentadol ER, a.k.a. Nucynta ER). When
Professor Noll examined whether sales of other LAOs
affected sales of Opana ER (or vice versa), he found
that the drugs’ sales generally did not exhibit negative
correlations,
suggesting
that—unlike
generic
oxymorphone ER—they did not take sales from each
other. Id. at ¶¶162-63 (sales of OxyContin and
oxymorphone ER generally “rose and fell in parallel”),
¶169 (introduction of Exalgo had “no apparent effect”
on sales of Opana ER), ¶172 [redacted]; ¶175
(availability of generic fentanyl ER did not inhibit
rapid growth of Opana ER sales through the end of
2011); ¶177 (entry of Zohydro did not substitute for
sales of oxymorphone ER); ¶179 [redacted]. The sales
volume evidence thus supports the proposition that

App-89
generic oxymorphone ER, but not other LAOs, is in the
same relevant market as branded oxymorphone ER. 32
This evidence is consistent with economic
research showing that generic entry is, by far, the
most important source of price competition for
pharmaceuticals—generally far more important than
Impax would disregard this evidence as reflecting mere
“visual inspection” of LAO sales trends. RB at 34. But courts have
accepted exactly this type of analysis in other pharmaceutical
cases. See, e.g., In re Ciprofloxacin Hydrochloride Antitrust Litig.,
363 F. Supp. 2d 514, 522-23 (E.D.N.Y. 2005), aff’d in part, 544
F.3d 1323 (Fed. Cir. 2008); Teikoku Pharma, 296 F. Supp. 3d at
1174-75; SmithKline Corp. v. Eli Lilly & Co., 427 F. Supp. 1089,
1118-19 (E.D. Pa. 1976), aff’d, 575 F.2d 1056 (3d Cir. 1978).
Where, as here, patterns of generic substitution are clear, “we do
not need to do economic gymnastics to determine whether the
defendant had market power[.]” Aggrenox, 199 F. Supp. 3d at
668; see also McWane, 2014 WL 556261, at *14 (F.T.C. 2014),
aff’d, McWane, Inc. v. FTC, 783 F.3d 814 (11th Cir. 2015); ABA
Section of Antitrust Law, Mergers and Acquisitions 55 (3d ed.
2008).
32

In contrast, Impax gives considerable weight to evidence that
utilization of alternatives to OxyContin increased when the
University of Pittsburgh Medical Center health plan eliminated
coverage of OxyContin while maintaining coverage of Opana ER,
morphine sulfate ER, fentanyl patches, and methadone. See
RX087 and discussion at Addanki, Tr. 2302-09. However, the
participants’ shift from OxyContin to the remaining drugs still
covered by the formulary may reflect little more than a tendency
of participants in a particular health plan to keep that health
plan and to maintain in-formulary coverage. Dr. Addanki does
not explain why this experience would generalize to reflect the
likely competitive effects of changes in price or product
availability involving consumers at large nor did he know the
amount of the price increase at issue, which might have been far
larger than the SSNIP usually considered when defining a
market. Addanki, Tr, 2505.

App-90
different compounds in the same therapeutic class.
See CX5000 (Noll Expert Report) at ¶¶76-79 (citing,
inter alia, Fiona Scott Morton & Margaret Kyle,
Markets for Pharmaceutical Products, in 2 HANDBOOK
OF HEALTH ECONOMICS, 763-823 (M. Pauly, et al., eds.,
2011); Ernst Berndt & Joseph Newhouse, Pricing and
Reimbursement in U.S. Pharmaceutical Markets, in
OXFORD HANDBOOK ON THE ECONOMICS OF THE
BIOPHARMACEUTICAL INDUSTRY (P. Danzon & S.
Nicholson, eds., 2012); Ernst Berndt, Pharmaceuticals
in U.S. Health Care: Determinants of Quantity and
Price, 16:4 J. ECONOMIC PERSPECTIVES 45-66 (2002)).
Where generic entry occurs, it tends to displace a large
share of branded sales and to do so at a much lower
price, as occurred here. Id. at ¶¶77-78. Consequently,
it is not surprising that courts frequently define
product markets to encompass a single active
ingredient. See, e.g., Barr Labs., 386 F.3d at 496
(defining a market for generic warfarin sodium);
Teikoku Pharma, 296 F. Supp. 3d at 1176 (defining a
market for 5% lidocaine patches, i.e., Lidoderm and its
generic equivalents); In re Nexium (Esomeprazole)
Antitrust Litig., 968 F. Supp. 2d 367, 389 (D. Mass.
2013) (concluding that the relevant market consisted
of the brand and generic alone); In re Cardizem CD
Antitrust Litig., 105 F. Supp. 2d 618, 680-81 (E.D.
Mich. 2000) (accepting plaintiffs’ pleadings that a
single brand of a drug and its generic bioequivalents
constituted the relevant market). But cf. Mylan
Pharms. Inc. v. Warner Chilcott PLC, 838 F.3d 421,
437 (3d Cir. 2016) (finding a relevant market for all
oral tetracyclines used to treat acne).
Impax’s argument that the relevant market
includes all LAOs has both factual and analytical

App-91
limits. From a factual perspective, as Complaint
Counsel’s medical expert, Dr. Seddon Savage,
testified, opioids differ according to their biological
receptors, pharmacokinetic profiles, and adverse side
effects, including adverse interactions with other
drugs. Savage, Tr. 689-92, 702; CX5002 (Savage
Expert Report) ¶¶51, 115-16. Of significance for this
case, oxymorphone is one of the few opioids that is not
metabolized by the CYP450 enzyme. Savage, Tr. 716;
see also CX5000 (Noll Expert Report) at ¶¶142-43.
This means that oxymorphone is less likely to cause
adverse interactions with the many other drugs that
are metabolized by that same enzyme, such as some
antibiotics, anticoagulants, beta blockers, statins, and
tranquilizers. See Savage, Tr. 716-18; CX5000 (Noll
Expert Report) at ¶143. Oxymorphone also has a
longer half-life than oxycodone, hydrocodone,
morphine, and other LAOs, resulting in longer
duration of action. Savage, Tr. 720. Switching a
patient from Opana ER to generic oxymorphone would
yield much more predictable results than switching to
a different opioid molecule, because the generic
oxymorphone would operate on the patient’s pain
receptors in the same manner and with the same sideeffect profile. Id. at 715. In any event, while functional
interchangeability is certainly relevant to market
definition, it is not the end of the analysis. See, e.g.,
Meijer, Inc. v. Barr Pharms., Inc., 572 F. Supp. 2d 38,
58 (D.D.C. 2008) (functional interchangeability is
probative but “certainly not dispositive”); see also Barr
Labs., 386 F.3d at 496 (defining market for generic
warfarin
sodium
alone,
despite
functional
interchangeability with branded version); United
States v. Archer-Daniels-Midland Corp., 866 F.2d 242,

App-92
248 (8th Cir. 1988) (functionally interchangeable
sweeteners were separate product markets because “a
small change in the price of [one] would have little or
no effect on the demand for [the other]”).
Dr. Addanki’s evidence of product marketing and
discounting does not convince us to place all LAOs in
the same relevant market. Even a monopolist might
engage in the sorts of brand-building and product
differentiation activities that Dr. Addanki catalogues,
such as visiting potential customers (i.e., doctors) and
advertising in medical journals. That is because even
a monopolist may benefit from stimulating demand
through promotional activities and because, at a
sufficiently high price, it faces some substitutes to
which it will want to avoid losing sales. The relevant
question is the degree of constraint that these other
products offer. 33 Dr. Addanki failed to undercut
Professor Noll’s showing that generic oxymorphone
ER was a far more effective constraint on Opana ER
than were the other LAOs. For example, his limited
evidence of direct-to-patient discounting lacks data
about the size of these programs and provides no
showing that the programs had a significant effect on
either average net prices or sales of the products. See
CX5004
(Noll
Rebuttal
Report)
at
¶66. 34
See Coal Exps. Ass’n v. United States, 745 F.2d 76, 92 n. 20
(D.C. Cir. 1984) (“[A]ll firms, even the pure monopolist ... are
subject to limits established by market forces. The issue is how
effective are the limits.”).
33

34 Impax’s citation to our settlement and relevant market
definition in King Pharm., Inc. & Alpharma, Inc., No. C- 4246
(F.T.C. Feb. 2, 2009), buttresses rather than undercuts our
relevant market definition here. RB at 50. As Impax mentions,
the Commission’s settlement identified a relevant market for oral

App-93
Consequently, we find that Complaint Counsel
adequately proved a relevant market confined to
branded and generic oxymorphone ER.
We find that Endo clearly held market power in
this highly concentrated market. Prior to entry by
Actavis in 2011, Endo was the only player on the
market—in other words, it had a monopoly. See
CX5000 (Noll Expert Report) ¶189. After Actavis
entered for two generic, lowsales dosages and prior to
generic entry by Impax, Endo held more than a
[redacted] percent market share, and the HerfindahlHirschman Index (“HHI”) exceeded [redacted] Id. at
¶189 & Exhs. 6A and 6B. Thus, during the critical
period when Endo and Impax entered the SLA and
during which the parties’ agreement prevented Impax
from entering, Endo held shares sufficient to support
market power. Id. at ¶192. 35
LAOs. Impax does not mention, however, that the Commission
proceeded in the same sentence to identify a “narrower market
for oral long-acting morphine sulfate in which [the respondents’
products] compete directly with each other.” Complaint, ¶11. The
Commission intervened in King Pharmaceuticals’ proposed
acquisition of Alpharma because the transaction would have
joined the two leading producers of morphine sulfate oral LAOs,
unacceptably raising concentration in that relevant market, and
the Commission obtained a divestiture of King’s morphine
sulfate product. FTC Press Release, FTC Intervenes in
King Pharmaceuticals Acquisition of Rival Alpharma Inc.
(Dec.
29,
2008)
https://www.ftc.gov/news-events/pressreleases/2008/12/ftc-intervenes-king-pharmaceuticalsacquisition-rivalalpharma (attaching Commission Complaint
and Decision and Order).
35 Using net sales revenue, Endo’s market share between 2013
and the end-date of available data in Q1 2017 always exceeded
[redacted] percent and usually was around [redacted] percent.

App-94
Additional evidence supports our market power
findings. Generic oxymorphone ER entry caused
Opana ER to lose market share and the average price
of oxymorphone ER to fall. CX5000 (Noll Expert
Report) at ¶122. [redacted] Id. at ¶120. [redacted] Id.
That indicates pre-entry prices were above the
competitive level. Noll, Tr. 1381- 82; see Aggrenox, 199
F. Supp. 3d at 667 (“if competitive prices were being
charged before the patented drug had a generic
competitor, then the entry of new [generic]
competitors would not result in a substantial change
in price”). Endo’s documents and testimony further
support the conclusion that generic entry caused
substitution and price reductions. See, e.g., CX1106005 (“Each month that generics are delayed beyond
June 2010 is worth about $20 million in net sales per
month.”); CX1320-007 (2010 revenue forecast
incorporating the working assumption that after
generic entry in July 2011, “15% brand volume
remains after 3 months”); CX4004 (Engle, IHT) at 245
(indicating that Actavis’ entry caused some lowering
of prices and that Actavis won some business from
Endo).
The substantial evidence of Endo’s market power
is consistent with the inference permitted by Actavis:
that the presence of a large and unjustified payment
may itself signal market power. 570 U.S. at 157
CX5000 (Noll Expert Report) at ¶191 & Exh. 6. Throughout that
period, HHI based on net sales revenue exceeded [redacted] , and
HHI based on total prescriptions was above [redacted]; both
figures substantially exceed the Horizontal Merger Guidelines’
threshold of HHI 2,500 denoting a highly concentrated market.
Id. at ¶191.

App-95
(finding that a firm “without that power [is unlikely]
to pay large sums to induce others to stay out of its
market”). If the payor-patentee lacked market power
before generic entry due to competition from other
drugs, prices for the brand drug already would have
been competed down to the competitive level and there
would be no monopoly profits left to protect by a large
reverse payment. See Aggrenox, 199 F. Supp. 3d at
667.
Strong record evidence further demonstrates that
Endo’s market power was durable and protected by
substantial entry barriers. IDF 90-95. Endo’s patents
could be (and were effectively) used to exclude
competitors who wished to market and sell
oxymorphone ER. See Aggrenox, 199 F. Supp. 3d at
668. The Hatch-Waxman Act’s regulatory procedures
build in timing constraints affecting generic entry, as
described above. First, if a branded drug company files
a patent infringement suit against a Paragraph IV
ANDA filer, the Hatch-Waxman Act provides a 30month stay before the FDA can approve the ANDA.
IDF 93-94. Second, non-first-filer Paragraph IV ANDA
applicants have to wait at least 180 days after the first
filer has entered before they can enter a market. Id.
Thus, Endo had the power to delay entry to the market
even if its patents were eventually found to be invalid
or not infringed. IDF 95. These barriers are in addition
to more general barriers such as brand loyalty and
DEA regulation of opioids, (CX5000 (Noll Expert
Report) at ¶¶15, 63, 195-96; IDF 508, 522-26), not to
mention the need to develop a product suitable for
receiving FDA approval and to build up the necessary
launch inventory. Noll, Tr. 1409-10; IDF 12, 513. In
the pharmaceutical industry, manufacturing and

App-96
production issues can seriously impact a company’s
ability to enter and remain on the market. In this very
case, Novartis Consumer Health, Inc. (“Novartis”), the
company that manufactured Opana ER for Endo,
experienced a plant shutdown by the FDA that
resulted in a full-blown “supply chain crisis” for Endo.
CX4017 (Levin Dep.) at 136-38. Endo’s high share in
the market for oxymorphone ER, combined with the
presence of substantial entry barriers, lead to the
conclusion that Endo possessed market power.
We
find
significant
record
evidence
demonstrating the relevant market consists of
branded and generic oxymorphone ER and that Endo
commanded market power.
B. Procompetitive Justifications
Because Complaint Counsel have established a
prima facie case showing that Impax harmed
competition, “the burden shifts to [Impax] to show a
procompetitive rationale for the restraint.” Amex, 138
S. Ct. at 2284. As discussed, the ALJ found that the
No-AG Commitment and Endo Credit had the
“purpose and effect” of “induc[ing] Impax to give up its
patent challenge and agree not to launch a generic
Opana ER until January 2013.” ID at 6-7. Impax does
not challenge that finding on appeal. See RB at 4 n.1.
The ALJ concluded that while the reverse payment
for delay impaired generic competition, other
provisions of the settlement between Impax and Endo
benefited competition and salvaged the entire
agreement from antitrust condemnation. The
settlement included a broad license and covenant-notto-sue covering all patents related to original Opana
ER that Endo owned or might acquire. ID at 142-44;

App-97
IDF 567-70, 592-93. According to the ALJ, these
provisions allowed Impax to enter nine months before
expiration of Endo’s original patents and protected
Impax when Endo acquired additional patents and
asserted them to enjoin other drug manufacturers
from marketing generic versions of Opana ER. ID at
143-44, 146; IDF 573-81, 588, 596. Although other
manufacturers were barred from the market until
2029, the broad license has shielded Impax from the
“threat of patent infringement litigation relating to
original Opana ER.” ID at 144, 146; IDF 594, 596. The
ALJ thus found that, on balance, the settlement
promoted competition by ensuring that consumers
have continued access to generic Opana ER. ID at 144,
146; IDF 594, 596. Impax urges us to sustain these
findings.
We disagree with the ALJ because we find that
Impax did not sustain its burden of linking the
procompetitive benefits to the challenged restraint.
Impax failed adequately to link the alleged
procompetitive justifications to the challenged
restraint, which—as the ALJ acknowledged—was the
use of a reverse payment to eliminate the risk of
generic entry before January 2013. ID at 100-02;
Actavis, 570 U.S. at 157. Impax does not make any
argument that the No-AG Commitment or Endo
Credit (or any portion of the $10 million DCA
payment) have themselves protected Impax from the
threat of patent litigation or that it needed to accept
these payments in order to enjoy the procompetitive
benefits of the patent license. Impax thus fails to
overcome the anticompetitive effect, which Actavis
anticipated, from reverse payments “independen[t]
from other services for which it might represent

App-98
payment,” and “lack[ing] [] any other convincing
justification.” 570 U.S. at 159.
1.

Impax Has Failed to Show that the
Restraint
Furthered
any
Procompetitive Justifications

After Complaint Counsel made a prima facie case
of anticompetitive harm, it became Impax’s burden to
show that the “challenged restraint enhances
competition.” NCAA, 468 U.S. at 104 (emphasis
added). For purposes of procompetitive justifications,
we look at the specific restraint, not the agreement as
a whole. Even if an agreement between competitors
generally benefits competition, this does not validate
a restraint that “makes no significant contribution to
the alleged justification.” Areeda & Hovenkamp,
supra ¶1505a. For example, in NCAA, the Supreme
Court held that even though the NCAA’s member
institutions had a legitimate interest in adopting rules
to promote “competitive balance” among football
teams, the NCAA’s specific restrictions on telecasts
were “not even arguably tailored” to serve that
interest. 468 U.S. at 117- 19. Thus, to justify a
challenged restraint, Impax must “articulate the
specific link between the challenged restraint and the
purported justification,” and demonstrate that the
restraint in fact “advance[s] procompetitive goals.”
Polygram Holding, Inc., 136 F.T.C. 310, 347 (2003),
enforced, Polygram Holding, Inc. v. FTC, 416 F.3d 29
(D.C. Cir. 2005); see also N. Tex. Specialty Physicians
v. FTC, 528 F.3d 346, 368-69 (5th Cir. 2008)
(defendant must show that the restraint bears a
“logical nexus to [the] claimed efficiencies,” meaning
that the efficiencies either “result from or are in any

App-99
way connected to” the restraint); Realcomp II, Ltd. v.
FTC, 635 F.3d 815, 835 (6th Cir. 2011) (affirming
FTC’s finding that the respondent had not
“demonstrated a connection” between the restraint
and the proffered rationale); Visa, 344 F.3d at 238, 243
(explaining that defendants “must provide a
procompetitive justification for the challenged
restraint,” and sustaining district court’s finding that
“no evidence” showed that the restraint advanced the
proffered justifications).
As explained below, we hold that the relevant
restraint here is the payment in exchange for the
elimination of the risk of entry, Actavis, 570 U.S. at
157, and that defendant must adduce facts tying any
cognizable procompetitive benefits to the elimination
of this risk. Impax points to the fact that the payments
coincided in the SLA with the broad license, the entry
date, and other terms, and argues that any benefits
deriving from a reverse payment settlement as a
whole are cognizable, and therefore that it need not
prove any link between the actual restraint and the
benefits. That is wrong, and Impax has failed to meet
its burden. Even if Impax had established a link,
Complaint Counsel can prevail by showing that the
restraint was not reasonably necessary to achieve the
alleged procompetitive benefits, which they have
accomplished by identifying a less restrictive
alternative. See Areeda & Hovenkamp, supra ¶1505;
North Texas, 528 F.3d at 368-69; Realcomp, 635 F.3d
at 835; Polygram, 136 F.T.C. at 347.

App-100
a.

What is the Restraint Impax
Must Justify?

The parties cross swords on the foundational
question of what constitutes the challenged “restraint”
in this case. The ALJ, like Complaint Counsel, defined
the restraint as “the payment in conjunction with a
restriction on the generic’s ability to compete.” CCRB
at 6; see ID at 99 (defining the restraint as “the use of
the payment to restrain potential generic
competition”), 141 (similar). Impax, on the other hand,
argues that when a plaintiff challenges a specific
agreement, “all aspects of that agreement are at
issue”; and, therefore, maintains that it can offer any
procompetitive benefit arising from the agreement,
even if that benefit is not tied to, or does not derive
from, the specific restraint within the larger
agreement. RB at 18-19. We conclude that the ALJ’s
and Complaint Counsel’s interpretation is more
consistent with Actavis, which instructs that the
commitment not to enter in exchange for a large and
unjustified payment constitutes the relevant
restraint.
In Actavis, the Supreme Court recognized the
large and unjustified payment in exchange for not
entering the market was the red flag that put such
settlements into the rule of reason analysis. It referred
to the “specific restraint at issue” as “a purchase by
the patentee of the exclusive right to sell its product,
a right it already claims but would lose if the patent
litigation were to continue and the patent were held
invalid or not infringed.” 570 U.S. at 153-54. Such a
“payment in return for staying out of the market”
would “keep[] prices at patentee-set levels,” allowing

App-101
the brand and generic manufacturers to “divid[e]” the
profits of the branded drug’s continued monopoly. Id.
at 154. The Court conceded that patent licenses
“permitting the patent challenger to enter the market
before the patent expires” bring about competition;
but, recognizing the need to scrutinize the “specific
restraint” within the settlement, stressed that
competitive harm arises when the patentee makes a
reverse payment to preclude the risk of even earlier
competition. Id.
The Actavis Court recognized the defendant has
the burden to explain and justify the payment itself,
not the settlement as a whole: “[A] reverse payment,
where large and unjustified, can bring with it the risk
of significant anticompetitive effects; one who makes
such a payment may be unable to explain and to
justify it.” Id. at 158; accord Lipitor, 868 F.3d at 256
(on motion to dismiss, noting the “defendants have the
burden of justifying the rather large reverse payment
here, and they offer no reason why those other
elements of the settlement agreement do so”). Thus,
an antitrust defendant cannot salvage an
anticompetitive reverse payment merely by pointing
to unrelated terms in the same settlement agreement,
but must justify “the presence of the challenged term
and show[] the lawfulness of that term under the rule
of reason.” See Actavis, 570 U.S. at 156 (emphasis
added). The “likelihood of a reverse payment bringing
about anticompetitive effects depends upon,” inter
alia, “its independence from other services for which it
might represent payment and the lack of any other
convincing justification.” Id. at 159.

App-102
Impax argues that a “payment alone” is not a
restraint. RB at 13-14. We agree. But nor can we
decouple the payment from the agreement not to
enter. As we have explained, Actavis instructs that a
large and unjustified payment is the red flag signaling
anticompetitive harm. 570 U.S. at 154. A generic
manufacturer’s commitment to stay out of the market
until the licensed entry date in exchange for such a
payment is, accordingly, the relevant restraint. Id.
Despite Actavis’s focus on the payment for not
entering, Impax contends it is a basic principle of
antitrust law that a restraint of trade consists of the
“sum total” of the parties’ contractual relationship,
rather than the specific provisions alleged to be
anticompetitive. RB at 14. 36 But, as Impax itself notes,
the Supreme Court has explained that a restraint of
trade “refers not to a particular list of agreements, but
to a particular economic consequence.” Id. at 13
(quoting Bus. Elecs. Corp. v. Sharp Elecs. Corp., 485
U.S. 717, 731 (1988)) (emphasis added by Impax).
Here, Actavis defines the relevant “anticompetitive
consequence” as the sharing, through a reverse
payment, of supracompetitive prices between the
patentee and the generic challenger “rather than face
what might have been a competitive market.” See 570
U.S. at 157 (emphasis added). That consequence
Impax derives the “sum total” language from a treatise which
explained that “the content of the restraint is the sum total of
everything that the parties have ‘agreed’ about and that is
alleged to injure competition.” PHILLIP E. AREEDA & HERBERT
HOVENKAMP, FUNDAMENTALS OF ANTITRUST LAW §15.02[D] (rev.
ed. 2018) (emphasis added). Impax appears to misread this
passage, which makes clear that the restraint only consists of the
portions of an agreement that are alleged to injure competition.
36

App-103
cannot be justified by unrelated terms that merely
happen to coincide in the same contract. Rather, the
defendant must adduce facts, beyond mere assertion,
to link the benefits to the restraint.
The Court in Actavis instructed us to apply the
rule of reason to determine whether an apparently
anticompetitive payment to stay out of the market can
be justified. 570 U.S. at 159. Impax has offered no such
justification. None of the cases Impax cites supports
its position that we should consider the competitive
effects of the parties’ entire contract rather than the
allegedly anticompetitive terms. In NCAA, the Court,
applying the rule of reason, “assume[d] that most of
the regulatory controls of the NCAA are justifiable”
and “procompetitive,” but held that the NCAA had
failed to justify its specific restrictions on TV
broadcasts. 468 U.S. at 99, 117. Likewise, in National
Society of Professional Engineers v. United States, 435
U.S. 679 (1978), the Court evaluated the effects of a
professional association’s “ban on competitive bidding”
rather than the association’s code of ethics as a whole.
Id. at 695. Most recently, in Amex, the Supreme Court
treated the restraint as Amex’s “antisteering
provisions in its contracts with merchants,” rather
than the entire contracts. 138 S. Ct. at 2283. 37
We have followed this approach in our own cases.
In Polygram, we evaluated the effects of joint venture
37 See also Cal. Dental Ass’n, 526 U.S. at 778 (evaluating the
effects of a professional association’s advertising restrictions
rather than its entire ethics code); Ind. Fed’n of Dentists, 476 U.S.
at 451 (analyzing a dental federation’s rule prohibiting members
from submitting x-rays to dental insurers when making claims
for benefits).

App-104
members’ agreement not to discount their separate
competing products, rather than the effects of the
venture at large. 136 F.T.C. at 353. And, in Realcomp,
we explained that while the “creation and operation”
of a real estate multiple-listing service benefitted
competition, the specific restraints on listings by
lower-priced and limited-service brokers did not. 2007
WL 6936319, at *21-43.
Impax also invokes post-Actavis pharmaceutical
cases (RB at 15, 17-19), but nearly all of them support
Complaint Counsel’s position that the restraint is the
commitment not to enter, made in exchange for a large
and unjustified payment, rather than the entire
agreement. For example, the California Supreme
Court, applying Actavis to state antitrust law,
described the restraint as a “limit on the settling
generic challenger’s entry into the market” in
exchange for “cash or equivalent financial
consideration flowing from the brand to the generic
challenger.” Cipro, 348 P.3d at 865. “That payment for
delay is condemned ... by federal antitrust law, and its
purchase as part of a settlement agreement is an
unlawful restraint of trade.” Id. at 871. See also
Aggrenox, 94 F. Supp. 3d at 243 (noting that
defendants might be able to “explain the apparent
‘missing’ value for the patent-holder in a
procompetitive way ... in which case the reverse
payment may turn out to be justified, or to be entirely
illusory”); Lipitor, 868 F.3d at 256.
Impax misinterprets In re Loestrin 24 Fe Antitrust
Litigation, 261 F. Supp. 3d 307 (D.R.I. 2017), in which
the district court declared that it was “looking at the
whole of the settlement to determine its alleged effect

App-105
on competition.” Id. at 331. The court in that case
adopted this “holistic look” at the motion to dismiss
stage for the purpose of determining whether the
various forms of compensation to the generic company
“amounted to a large and unjustified reverse
payment.” Id.; accord Niaspan, 42 F. Supp. 3d at 752.
The Loestrin court did not hold (or even suggest) that
a defendant could successfully have a case dismissed
by relying on provisions unrelated to the payment in
exchange for eliminating competition.
Impax cites only to one case holding, on summary
judgment, that the court would “evaluate the
settlement as a whole, and not in a piecemeal,
provision-by-provision approach.” In re Wellbutrin XL
Antitrust Litig., 133 F. Supp. 3d 734, 753 (E.D. Pa.
2015). We decline to follow Wellbutrin, to the extent it
is inconsistent with Actavis’s instruction that the
burden is on the defendant to justify the restraint
itself. 38
Impax argues that we should treat the entire
settlement as the restraint because Complaint
Counsel “challenge the settlement (and separate DCA)
as a whole, engaging in an unbounded effort to
establish anticompetitive impact.” RB at 16. But this
mischaracterizes Complaint Counsel’s allegations,
Wellbutrin was, factually, a very different case. It did not
involve the core harm about which Actavis warns us, namely, the
elimination of the risk of competition. Id. at 754. Rather, the
“Wellbutrin Settlement specifically contemplated that the
generic manufacturer would continue its patent challenge and
allowed the generic to enter immediately upon a finding of patent
invalidity, maintaining the risk of patent invalidation or a
finding of non-infringement even after the settlement.” Id. at 754.
38

App-106
which clearly challenge specific attributes of the
settlement. Compl. ¶¶74-75. And as explained above,
this argument is incorrect as a matter of law.
Impax then accuses Complaint Counsel of
attempting to “have it both ways,” arguing they seek
to “gerrymander respondents’ defenses” by failing to
allege that the broad patent license, a “valueconveying term,” was part of the restraint, and
thereby precluding Impax from citing the license as a
justification. RB at 16. But Actavis defines the
restraint and, as discussed above in Section V.A.3.d,
there is no evidence in the record here, let alone
convincing evidence, to indicate that this license—
which facilitated entry—was itself part of a suspicious
reverse payment.
Complaint Counsel and the ALJ correctly defined
the restraint as the use of the reverse payment to
restrain generic competition, i.e., payment for delayed
entry. We next consider whether Impax bore its
burden to demonstrate that this restraint significantly
aided any procompetitive objectives.
b.

Did the Restraint Produce any
Procompetitive Effects?

An antitrust defendant cannot simply cite
procompetitive benefits in the abstract, but must show
that those benefits bear a “logical nexus” to the
restraint. North Texas, 528 F.3d at 368-69; Realcomp,
635 F.3d at 835; Polygram, 136 F.T.C. at 347. A
defendant’s purported justifications are “entirely
immaterial” unless they “are actually promoted
significantly by the restraint.” Areeda & Hovenkamp,
supra ¶¶1505a, 1511c; see NCAA, 468 U.S. at 114
(upholding lower court’s finding that the restraint

App-107
“produced [no] procompetitive efficiencies” because
“NCAA football could be marketed just as effectively
without the [restraint]”); Graphic Prods. Distribs. v.
ITEK Corp., 717 F.2d 1560, 1576 (11th Cir. 1983)
(“[M]erely offering a rationale for a ... restraint will not
suffice; the record must support a finding that the
restraint ... . does indeed have a pro-competitive
effect.”); O’Bannon v. NCAA, 802 F.3d 1049, 1072 (9th
Cir. 2015) (concluding what while “a restraint that
broadens choices [is] procompetitive ... we fail to see
how the restraint at issue in this particular case ...
widens recruits’ spectrum of choices”). Under Actavis,
in the context of a reverse-payment settlement, the
defendant needs to show that the reverse payment
leads to more competition than would have resulted
without the payment. See 570 U.S. at 156, 158.
The Initial Decision did not require a link between
the
reverse
payment
and
the
purported
procompetitive benefits. After properly defining the
restraint as the use of a reverse payment to eliminate
the risk of earlier generic competition, it held that
“procompetitive benefits arising in connection with
the settlement agreement as a whole are properly
considered as part of a well-structured rule of reason
analysis.” ID at 141 (emphasis added). 39 This was an

39 Although the ALJ cited our October 2017 order denying
Complaint Counsel’s motion for summary decision in this
proceeding, we held only that it was too early for decisions
regarding the admissibility and utility of purported
procompetitive benefits. We deemed Complaint Counsel’s motion
“premature” pending “development of a record, ordering of that
record under a proposed rule-of-reason framework, and
ultimately briefing of disputed issues concerning the

App-108
incorrect statement of law. The rule of reason properly
credits only justifications promoted by the challenged
restraint in reverse-payment settlement cases. 40
Impax bears the burden to demonstrate this link.
We must therefore ask whether Impax has
established that the restraint—a large and unjustified
reverse payment to prevent pre-2013 entry—advanced
any procompetitive objectives. The ALJ found that the
settlement agreement contained a broad patent
license allowing Impax to introduce its generic in
January 2013, shielding it from lawsuits claiming
infringement of patents that Endo acquired after the
settlement, and thereby providing consumers
continuous access to Opana ER since 2013. ID at 141,
144-46. Even if these benefits were realized, however,
Impax still would need to tie those benefits to the
challenged restraint.
Impax never attempts to make that showing.
Impax does not claim that the No-AG Commitment
and Endo Credit (or any portion of the $10 million
appropriateness of that framework and of its application to the
facts presented.” Impax, 2017 WL 5171124, at *10.
A contrary rule would allow parties to skirt liability for
anticompetitive behavior by inserting unrelated provisions into
their contracts and claiming that those provisions benefited
competition. Requiring that the challenged restraint itself
further any alleged procompetitive benefits is also consistent
with the ancillary restraints doctrine. “To qualify as an ‘ancillary’
restraint, ‘an agreement eliminating competition must be
subordinate and collateral to a separate, legitimate transaction,’
and it must also ‘be related to the efficiency sought to be
achieved.’” Polygram, 136 F.T.C. at 366 (quoting Rothery Storage
& Van Co. v. Atlas Van Lines, Inc., 792 F.2d 210, 224 (D.C. Cir.
1986)).
40

App-109
DCA payment) themselves protected Impax from the
threat of patent infringement suits. Nor does Impax
argue that it needed to accept these payments in order
to achieve a settlement containing the broad patent
license. Instead, Impax asserts that it “would not have
entered the challenged [settlement] without the broad
patent license.” RB at 17. But that does not address
the right question. The appropriate question is
whether Endo and Impax could have reached a similar
licensing agreement without a reverse payment for
delayed generic entry. 41
As Complaint Counsel explain, because “both the
payment and the ... license were benefits flowing to
Impax,” Impax readily could have accepted the license
without also accepting a payment. CCAB at 20. For
Endo’s part, “because [it] was willing to give both the
large payment and the license to Impax, it certainly
would have been willing to give less (i.e., just the
license and not the payment).” Id. Thus, Complaint
Counsel posit, the “only reasonable explanation” for
the payment was that it prevented Impax from
In a pre-Actavis decision, we recognized the “hypothetical”
possibility that a “cash-starved” generic company might argue
that it can “enter earlier and more effectively if it receives some
up-front support from the pioneer manufacturer.” See ScheringPlough Corp., 136 F.T.C. 956, 1001 (2003), vacated, ScheringPlough Corp. v. FTC, 402 F.3d 1056 (11th Cir. 2005), abrogated
by Actavis, 570 U.S. at 153. Similarly, we acknowledged other
possibilities such as that “[a] judgment-proof generic
manufacturer may be willing to hold out for ‘unreasonable’
settlement terms because its downside risks of damage exposure
are small.” Id. at 1002. Impax makes no such claims here. Nor,
for that matter, does it claim it would not have pursued a
Paragraph IV filing without the prospect of obtaining a No-AG
Commitment.
41

App-110
demanding an even earlier entry date, which
demonstrates that the payment was anticompetitive,
not procompetitive. Id. at 21. Impax does not attempt
to rebut Complaint Counsel’s reasoning or argue that
it needed to accept a payment in order to receive a
patent license. Indeed, Impax does not appeal the
ALJ’s finding that the payment had the “purpose and
effect” of delaying entry. ID at 6-7. And, as we further
explain in Section V.C below, even if Endo and Impax
preferred to settle by sharing Endo’s monopoly profits
in exchange for delayed entry, this does not show that
a less-anticompetitive settlement was unattainable.
We do not hold today that a defendant cannot
adduce facts linking procompetitive benefits within a
settlement to a payment for delayed entry. Beyond
coincidence with the SLA, however, Impax has simply
not done so.
Rather than attempting to demonstrate how the
reverse payment furthered its procompetitive
justifications, Impax offers a series of legal arguments
attempting to bypass this requirement. Impax posits
that the rule of reason does not require any connection
between the challenged restraint and its proffered
justifications, provided the justifications coincide in an
agreement with the restraint. RB at 19. It seeks to
distinguish our Polygram decision—where we ruled
that the respondent must “articulate the specific link
between the challenged restraint and purported
justification”—by observing that we were only
applying “quick look” review, not the full-blown rule of
reason. RB at 19 (discussing Polygram, 136 F.T.C. at
347). But quick-look review only affects the showing
required for plaintiff to demonstrate anticompetitive

App-111
harm, not the defendant’s burden to assert
procompetitive justifications. See, e.g., Deutscher
Tennis Bund v. ATP Tour, Inc., 610 F.3d 820, 831 (3d
Cir. 2010). In Polygram, we held that a procompetitive
justification is not even “plausible” unless it bears a
“specific link” to the restraint. 136 F.T.C. at 347;
accord Actavis, 570 U.S. at 153 (noting the potential
for the “specific restraint at issue” to harm
competition). Under quick-look review, it is only when
the defendant meets this “plausibility” standard (and
the proffered justification is cognizable under the
antitrust laws) that the factfinder will conduct a “more
searching inquiry into whether the restraint may
advance procompetitive goals.” Id. at 345-47. Here, by
contrast, Impax received a full opportunity to
demonstrate procompetitive effects under the rule of
reason, and still failed to argue any link existed
between the specific restraint and its procompetitive
goals.
Impax also suggests that the Supreme Court’s
2018 decision in Amex marked a sea change in the law
by “look[ing] at the record as a whole, including
procompetitive benefits arising from factors other
than the [restraint].” RB at 19-20. But the Court in
fact declared the opposite, explaining that once the
plaintiff makes a showing of anticompetitive effects,
the defendant must “show a procompetitive rationale
for the restraint.” Amex, 138 S. Ct. at 2284 (emphasis
added). The Amex Court did not actually reach the
stage of analyzing procompetitive benefits, explaining
that the sole issue on appeal was “whether the
plaintiffs have carried their initial burden of proving
that Amex’s antisteering provisions have an
anticompetitive effect.” Id. at 2284, 2287, 2290.

App-112
Impax claims it should not be required to link the
restraint to its procompetitive justifications at the
second step of the rule of reason because “it is the
plaintiff’s burden to establish the absence of any
connection” at the third step, which considers the
existence of a less-restrictive alternative. RB at 19.
Impax again misunderstands its duties at the second
step. At this stage, Impax has the burden to show that
the restraint “furthers ... legitimate objectives” and
“promotes a legitimate goal.” Brown Univ., 5 F.3d at
679 (emphasis added). A restraint cannot “further” or
“promote” a procompetitive goal unless it has a clear
“connection” to it. Coincidence within a settlement is
not enough. It is only when a defendant makes that
connection that the burden shifts back to the plaintiff
to show a less restrictive alternative. Id. That the
plaintiff is entitled to offer rebuttal evidence does not
relieve defendant of making the initial showing.
For the same reasons, we reject the contention
that the early entry facilitated by the reverse payment
settlement should be weighed against the competitive
harm identified here. Impax has not tied the freedomto-operate license, which facilitated entry prior to
expiration of the after-acquired patents, to the
restraint, as discussed above. And, as discussed, the
nine month early entry on the initial Opana ER
patents almost surely would have been longer absent
the reverse payments.
Finally, we find the general policy favoring
settlements cannot save this anticompetitive reverse
payment settlement. While settling litigation is
typically favored under the law, it is not a trump card.
As Actavis teaches, the mere fact that a reverse

App-113
payment settles litigation does not immunize
otherwise anticompetitive conduct. 570 U.S. at 153-58.
Given that Impax has failed to identify any other
cognizable efficiencies, 42 we conclude that the policy
favoring settlements does not, on its own, save the
anticompetitive conduct at issue here.
In sum, Impax does not argue that: (1) the No-AG
Commitment, the Endo Credit, or any portion of the
DCA payment have themselves allowed Impax to sell
its generic product free of patent-infringement claims;
(2) a settlement including the broad license was only
available because Impax accepted a payment; or (3)
the reverse payment furthered the procompetitive
objectives of the license in some other way. Because it
has not linked the payment for deferred entry that
constitutes the challenged restraint to an asserted
justification,
Impax
has
not
identified
a
procompetitive benefit that could offset the restraint’s
anticompetitive harm.
2.

Conclusions Drawn from Impax’s
Failure
to
Demonstrate
Procompetitive Benefits

Accordingly, we conclude that Impax has failed to
establish any procompetitive justifications for its
acceptance of a large reverse payment to delay generic
entry. In combination with our conclusion that
For clarity, we define “cognizable efficiencies” here to mean
those procompetitive justifications that meet all the
requirements to be considered legitimate and thus to be counted
against any anticompetitive effects, which includes that they be
sufficiently related to the restraint at issue. See U.S. DEP’T OF
JUSTICE & FED. TRADE COMM’N, ANTITRUST GUIDELINES FOR
COLLABORATIONS AMONG COMPETITORS §3.36.
42

App-114
Complaint Counsel have established that the reverse
payments caused anticompetitive harm, the failure to
establish a procompetitive justification brings the
rule-ofreason analysis to its end. Because Impax’s
conduct had significant anticompetitive consequences
and Impax has not established any cognizable
procompetitive justifications for these consequences,
this conduct constitutes an unreasonable restraint of
trade in violation of Section 1 of the Sherman Act, 15
U.S.C. §1, and an unfair method of competition in
violation of Section 5(a) of the FTC Act, 15 U.S.C.
§45(a).
C. Even
if
Impax’s
Procompetitive
Justifications Were Valid, Complaint
Counsel Have Shown a Less Restrictive
Alternative
Had Impax borne its burden to connect creditable
procompetitive justifications to the restraint at issue
(for example, if Impax had proven the broad patent
license offered cognizable efficiencies), the burden
would then shift to Complaint Counsel to demonstrate
“that the procompetitive efficiencies could be
reasonably achieved through less anticompetitive
means.” Amex, 138 S. Ct. at 2284. See also Brown
Univ., 5 F.3d at 678-79; Law, 134 F.3d at 1019; Visa,
344 F.3d at 238; Areeda & Hovenkamp, supra ¶1505;
U.S. DEP’T OF JUSTICE & FED. TRADE COMM’N,
ANTITRUST GUIDELINES FOR COLLABORATIONS AMONG
COMPETITORS §3.36(b). We hold that Complaint
Counsel have demonstrated that Impax could have
obtained the proffered benefits by settling without a
reverse payment for delayed entry—which is a
practical, less restrictive alternative.

App-115
The Initial Decision devoted a single paragraph to
this issue. See ID at 146-47. The ALJ found that
Complaint Counsel failed to show that a “hypothetical
[alternative] settlement could have, or would have,
included the broad patent license,” noting that Endo
had twice rejected Impax’s simple settlement
proposals with 2011 entry dates and no reverse
payments. ID at 147 & n.35. We disagree.
The Actavis Court repeatedly recognized that
settling without a reverse payment is often a feasible,
less anticompetitive alternative. See 570 U.S. at 158
(“[P]arties may well find ways to settle patent disputes
without the use of reverse payments.”). Imposing
antitrust liability for reverse payments “does not
prevent litigating parties from settling their lawsuit.
They may, as in other industries, settle in other ways,
for example, by allowing the generic manufacturer to
enter the patentee’s market prior to the patent’s
expiration, without ... paying the challenger to stay
out prior to that point.” Id. at 158. The “premise”
behind Actavis, a leading treatise recognizes, “is that
there are better, less anticompetitive ways to settle
these disputes.” Areeda & Hovenkamp, supra ¶2046c3
(3d ed. Supp. 2017).
Additional evidence confirms this insight.
Complaint
Counsel’s expert,
Professor Max
Bazerman, testified that “[t]he empirical evidence
supports the conclusion that settlements are very
viable without reverse payments.” CX5001 (Bazerman
Expert Report) at ¶20; see also id. at ¶¶21, 23.
Professor Bazerman pointed to, inter alia,
Commission studies—covering more than a decade—
that demonstrate the feasibility of these settlements.

App-116
Section 1112 of the Medicare Prescription Drug,
Improvement, and Modernization Act of 2003 requires
pharmaceutical companies to file with the FTC and
the Department of Justice agreements between
branded and generic manufacturers regarding the
manufacture, marketing, and sale of generic versions
of brand-name drugs. See Pub. L. No. 108-173, 117
Stat. 2066 (codified in relevant part at 21 U.S.C. §355
note). Professor Bazerman found that for fiscal years
2004-2009 these studies showed that only 30 percent
of the patent settlements filed with the FTC involved
both compensation from the branded firm to the
generic firm and restrictions on generic entry. CX5001
(Bazerman Expert Report) at ¶21, citing FTC Staff
Report, Agreements Filed with the Federal Trade
Commission under the Medicare Prescription Drug,
Improvement, and Modernization Act of 2003,
Summary of Agreements Filed in FY 2009 (Apr. 2011),
https://www.ftc.gov/sites/default/files/documents/repo
rts/agreements-filed-federal-trade-commission-undermedicare-prescription-drug-improvementand/mmareport2009.pdf. Similarly, in the first full
fiscal year after Actavis, the FTC learned of 160 final
agreements resolving patent disputes between
branded and generic manufacturers, and found that
over 80 percent involved no compensation flowing
from the branded to the generic firm. Id., citing FTC
Staff Report, Agreements Filed with the Federal
Trade Commission under the Medicare Prescription
Drug, Improvement, and Modernization Act of 2003,
Summary of Agreements Filed in FY 2014 (Jan. 2016),
https://www.ftc.gov//reports/agreements-filledfederal-trade-commission-under-medicareprescription-drug-improvement-0. The testimony

App-117
demonstrates
that
branded
and
generic
pharmaceutical companies routinely—and far more
often than not—settle patent litigation disputes
without reverse payments, consistent with the
Supreme Court’s statements in Actavis.
Here, Complaint Counsel argue that a less
anticompetitive settlement along the lines suggested
in Actavis was obvious as a matter of “[b]asic common
sense.” CCAB at 25. Since Endo “was willing to trade
money for its preferred 2013 entry date,” it certainly
would have been willing to offer the same license and
entry date (or possibly an earlier date) without also
making a large payment to Impax. Id. Thus, according
to Complaint Counsel, there is no basis in the record
to conclude that Impax needed to receive a multimillion dollar payment in order to obtain the
procompetitive benefits of a broad patent license and
pre-expiration entry date. Id.; CCRB at 11; see
Smithkline Beecham, 791 F.3d at 412.
Impax responds by charging that Complaint
Counsel’s proffered alternative was not “possible.” RB
at 25-26. Impax further responds that Complaint
Counsel’s no-payment alternative would be “no less
restrictive of competition” because “Impax would still
have launched its product on the exact same date and
given up its patent challenge in the exact same
manner.” RB at 14, 25 (emphasis omitted). See also
Oral Arg. Tr. 59:10-59:12; 63:17-63:21 (counsel
arguing Impax received “the earliest date that Endo
was willing to offer”). 43 Impax’s argument boils down
43 The record does not support Impax’s assertion. After Endo
rebuffed Impax’s specific proposals for earlier entry dates
(including a 2011 entry date and one as late as January 2012),

App-118
to the assertion that the proffered alternative was not
offered or agreed to, and that the combination of
Endo’s desire to further delay competition and Impax’s
desire to share in monopoly rents prevented this
alternative from arising.
Given, however, the Supreme Court’s analysis in
Actavis and the decades of evidence indicating that
firms can and do—frequently and successfully—settle
Hatch-Waxman patent litigation without reverse
payments, Impax needed to support its assertion that
a no-payment settlement was impossible with
evidence rebutting Complaint Counsel’s strong
showing. See Areeda & Hovenkamp, supra ¶1914c. It
may do so by “showing that the proffered alternative
is either unworkable or not less restrictive” based on
the facts in evidence. Id. (“The defendant’s own
business expertise and experience is the likely source
of information concerning the viability of proffered
less restrictive alternatives.”). 44 In this specific
Impax acceded to Endo’s proposals for a much later, 2013, entry
date and a large reverse payment. IDF 116, 155. Although
Impax’s lead settlement negotiator, Christopher Mengler,
asserted at trial the Endo was adamant about preventing pre2013 entry (Mengler, Tr. 565-67), in his previous sworn testimony
he admitted that he did not remember discussing entry dates
prior to 2013 with Endo. See CX4010 (Mengler, IHT) at 45-54.
Specifically, Mengler professed no recollection of (1) whether
Impax ever “tried to get a date earlier than January of 2013”; (2)
how Endo reacted to the prospect of an earlier date; or (3)
whether Endo ever told Impax that it would “not settle the
litigation” with an entry date before 2013. Id.
44 See also C. Scott Hemphill, Less Restrictive Alternatives in
Antitrust Law, 116 COLUM. L. REV. 927, 982 (2016) (“If plaintiffs
have the burden of persuasion, defendants ought to bear a burden
of production. Defendants have better access to information

App-119
context, where Supreme Court jurisprudence and
decades of agency experience highlight the viability of
the alternative, we need more in order to dismiss it.
Other facts showing the impossibility of such terms in
a given case might suffice, but such facts are not in
this record.
A restraint is unlikely to survive scrutiny where,
as here, it appears the parties’ desire to preserve and
split between themselves monopoly profits is the only
impediment to their settling on terms that other
parties routinely use to settle similar litigation. See
Actavis, 570 U.S. at 158. The facts that are before us
make it hard to imagine that, if apparently material
contract terms—worth at least $23 million—were
removed, Impax’s key restriction under the
settlement, i.e., the entry date, would not have altered.
As the ALJ found, and as we have discussed, it is
“unlikely” that a brand company would pay a generic
“anything more than saved litigation costs, only to
obtain entry on the date the [generic] would have
entered anyway.” IDF 446. Holding everything else
equal, Impax’s acceptance of payment would normally
be expected to result in a later entry date than what
Impax would have accepted based on the strength of
the patents alone. See CX5001 (Bazerman Report) at
¶17; Cipro, 348 P.3d at 865, 871; Smithkline Beecham,
about their reasons for adopting a particular practice.”); Wilk v.
Am. Med. Ass’n, 671 F. Supp. 1465, 1483 (N.D. Ill. 1987) (faulting
defendant for failing to establish that an alternative was
impractical or unworkable), aff’d, 895 F.2d 352 (7th Cir. 1990).
Cf. United States v. H & R Block, Inc., 833 F. Supp. 2d 36, 91
(D.D.C. 2011) (finding a proffered efficiency not merger-specific
when defendant had failed to present evidence showing why an
alternative would not be feasible).

App-120
791 F.3d at 405 n.23. Furthermore, a no-payment
settlement with an earlier entry date would clearly be
less restrictive of competition because it would give
consumers earlier access to generic drugs at
substantial discounts from the branded drug price.
IDF 31, 442.
We therefore conclude that Complaint Counsel
have demonstrated an alternative to the reverse
payment settlement that would have achieved the
procompetitive benefits Impax proffered (had Impax
proven them cognizable) through significantly less
anticompetitive means. A no-payment settlement
allowing pre-2013 generic entry would have been a
practical alternative for both Impax and Endo, but
they chose instead to exchange sizeable payment for a
later entry date. They destroyed the risk of
competition and enriched themselves at the expense of
consumers.
*

*

*

For the foregoing reasons, we hold that: (1)
Complaint Counsel satisfied their prima facie burden
to demonstrate harm to competition arising from the
reverse payment settlement at issue; (2) Impax failed
to show that the challenged restraint furthered any
cognizable procompetitive justifications; and (3) even
if Impax had satisfied this burden, Complaint Counsel
identified a viable less restrictive alternative that has
been used to settle hundreds of similar
pharmaceutical patent litigations. Because the record
provides two independent bases to reject Impax’s
procompetitive justifications, we do not need to reach
the balancing stage of the rule of reason.

App-121
Impax has thus engaged in an unreasonable
restraint of trade in violation of Section 1 of the
Sherman Act, 15 U.S.C. §1, and an unfair method of
competition in violation of Section 5(a) of the FTC Act,
15 U.S.C. §45(a).
VI.

REMEDY

Having found a violation of Section 5, we are
empowered to enter an appropriate order to prevent a
recurrence of the violation. 15 U.S.C. §45(a)(2). The
Commission has wide latitude to fashion a remedy,
provided that the remedy chosen has a reasonable
relation to the unlawful practices found to exist. See,
e.g., FTC v. Colgate-Palmolive Co., 380 U.S. 374, 39495 (1965); FTC v. Nat’l Lead Co., 352 U.S. 419, 429
(1957); Jacob Siegel Co. v. FTC, 327 U.S. 608, 612- 13
(1946). The scope of the remedial order is not strictly
limited to the respondent’s past transgressions but
can effectively “close all roads to the prohibited goal,
so that [the Commission’s] order may not be by-passed
with impunity.” FTC v. Ruberoid Co., 343 U.S. 470,
473 (1952).
Complaint Counsel have requested that we enter
a cease and desist order that contains three major
prohibitions against specified conduct by Impax.
Specifically:
•

Paragraph II.A of Complaint Counsel’s
Proposed Order would enjoin Impax from
entering into a reverse payment patent
settlement that includes an agreement not
to compete by the generic filer plus a
payment by the NDA holder to the generic
filer. It covers all potential forms of reverse
payments, including no-AG commitments

App-122
and business transactions entered within
45 days of a patent settlement. Proposed
Order, Paragraph I.W. It carves out
payments that are unlikely to be
anticompetitive, such as saved litigation
expenses, rights to market generic
products, or provisions facilitating the
regulatory approval of the generic’s
product. Id.
•

Paragraph II.B of the Proposed Order
would bar Impax from “entering any
agreement that prevents, restricts, or in
any way disincentivizes competition
between oxymorphone ER products.” This
provision would not affect existing
agreements.

•

The parties’ First Amendment to the 2010
SLA (“2017 Amendment”) [redacted].
CX3275-013. Paragraph II.C of the
Proposed Order requires Impax to pay
royalties to Endo regardless of whether
another oxymorphone ER product enters
the market. [redacted]

Impax argues that no relief is needed (even
assuming that the SLA is found to violate the Act), and
further argues that each of the specific prohibitions
identified above is overbroad and unwarranted. We
reject several of Impax’s arguments but find that
others have merit. As discussed below, we include
Complaint Counsel’s first proposed prohibition and
part of their second proposed prohibition in our Final
Order but decline to include the third prohibition.

App-123
A. The Need for a Remedy
Respondent argues that Complaint Counsel have
failed to show there is a “cognizable danger” that
Respondent will repeat the condemned conduct, and
therefore asserts that the Commission cannot enter
prospective relief. See RB at 62-64, citing, inter alia,
United States v. W.T. Grant Co., 345 U.S. 629, 633
(1953). We disagree and find that Complaint Counsel
have shown the requisite danger of recurrence.
Impax’s motivation to enter the reverse-payment
settlement with Endo arose from the parties’ joint
incentive to split the monopoly profits that Endo could
earn from Opana ER rather than see those profits
competed away by generic entry. Actavis, 570 U.S. at
154. This incentive is enduring and is not limited to
the oxymorphone ER market. It is, unfortunately, a
feature of infringement litigation under the HatchWaxman Act statutory framework generally. See C.
Scott Hemphill, Paying for Delay: Pharmaceutical
Patent Settlement as a Regulatory Design Problem, 81
N.Y.U. L. Rev. 1553, 1560 (2006) (because only the
first generic ANDA filer can receive the “bounty” of
180-day exclusivity, the brand’s strategy of “buying
off” the first generic challenger is effective in heading
off the most potent threat to entry); Cipro, 348 P. 2d
at 854 (Hatch-Waxman Act legal regime means that,
“regardless of the degree of likely validity of a patent,
the brand and first-filing generic have an incentive to
effectively establish a cartel” through a reverse
payment settlement) (citing Hovenkamp, supra ¶2046
at 351). Although the number of settlements involving
reverse payments has decreased following the
Supreme Court’s Actavis decision, as discussed above

App-124
in Section V.C, the data also reveal that this practice
has not disappeared. The persistence of this incentive
supports the grant of prospective relief here. See
Polygram, 416 F.3d at 38-39 (upholding FTC cease
and desist order because the condition that gave rise
to the unlawful agreement - namely, the record
company’s fear that a new release by an artist may
lose sales to an artist’s older albums owned by a
competitor - is recurrent in the record industry and
would give the respondent the same incentive to enter
future unlawful agreements).
Moreover, Impax remains an active participant in
the pharmaceutical industry and regularly engages in
patent infringement litigation. See CX3271-030
(Impax 2015 Annual Report describing Impax as
“routinely subject” to patent infringement litigation
brought by branded pharmaceutical manufacturers).
Thus, settling patent litigations will likely continue to
be a significant part of Impax’s business. See FTC v.
Accusearch Inc., 570 F.3d 1187, 1202 (10th Cir. 2009)
(court upheld prospective relief in part because
respondent remained in the business and had the
capacity to engage in similar unfair acts or practices
in the future). Given the persistent nature of the
incentives for reverse payment settlements, and
Impax’s likely continued participation in patent
infringement litigation, we consider the prospective
relief to be warranted here. 45
45 In fact, although our ruling is not dependent on this point,
Impax’s claim that it has no history of similar violations may be
questioned; Impax has entered into at least one other patent
settlement with a branded firm alleged to include a large,
unjustified reverse payment. See In re Solodyn (Minocycline

App-125
B. The Asserted Overbreadth of the Order
We next turn to Respondent’s specific concerns
with the terms of the Proposed Order. Respondent
contends that the prohibition on reverse payment
settlements in Paragraph II.A is overbroad in that its
coverage of “any Payment” would prevent Impax from
purchasing materials or services from a branded
company for fair value. RB at 64-65. As the dispute in
this proceeding over the DCA milestone payments
illustrates, whether a payment is for fair value can be
a topic of intense debate. The Proposed Order here
appropriately short-circuits future argument: having
violated the law, a respondent “must expect some
fencing in.” Nat’l Lead, 352 U.S. at 431. Moreover, the
Proposed Order does not ban all sales of goods and
services, but only those that are either (i) expressly
contingent on entering a brand/generic settlement
agreement, or (ii) occur within 45 days before or after
such a settlement. Proposed Order, Paragraph I.W.
Respondent does not explain why, if there were
independent business reasons for a fair value
transaction, it could not enter such a transaction
outside of these restrictions.
Next, Respondent argues that the provision
banning “any agreement that prevents, restricts, or in
any way disincentivizes competition between
Oxymorphone ER Products” is problematic. Proposed
Order, Paragraph II. B. Respondent first contends,
erroneously, that this provision relates only to the
challenged product and not the challenged practice.
Hydrochloride) Antitrust Litig., 2018 WL 563144 (D. Mass. Jan.
25, 2018).

App-126
RB at 65, citing Nat’l Lead, 352 U.S. at 428 (improper
remedy if “no reasonable relation to the unlawful
practices found to exist”). In fact, the provision relates
to both the product and the practice. Here, the
gravamen of our holding is that Impax and Endo
entered into an agreement that “prevent[ed]” and
“restrict[ed]” competition for sales of oxymorphone
ER. There is thus an amply close nexus between the
condemned conduct and the agreements that the
Proposed Order forbids. See FTC v. Mandel Bros., Inc.,
359 U.S. 385, 393 (1959) (the Commission “may
fashion its relief to restrain other like or related
unlawful acts”) (quotation omitted).
We do agree, however, with Impax to the limited
extent that we find the proposed ban on agreements
that “disincentivize[]” competition to be vague and
potentially overbroad. For example, if Impax entered
a procompetitive agreement that increased the supply
of oxymorphone ER products, this might be seen as
“disincentivizing” third-party entry into the market
because it would make such entry less profitable. Yet
such an agreement is obviously not the intended
target of the remedial order. The Order that we enter
has language barring agreements that “prevent[] or
restrict[]” competition in oxymorphone ER products
but omits the term “disincentivizes.” We also accept
Complaint Counsel’s suggestion to add the following
underlined text to clarify the meaning of the Order:
•

Paragraph II.B: Respondent shall not enter
any agreement with another Oxymorphone
ER Manufacturer or Applicant that
prevents or restricts competition between
Oxymorphone ER Products.

App-127
•

Paragraph I Definitions: “Oxymorphone
ER Manufacturer or Applicant” means any
company that has an Oxymorphone ER
NDA or ANDA, has filed an Oxymorphone
ER NDA or ANDA, or is preparing to file an
Oxymorphone ER NDA or ANDA.

Finally, Impax opposes Complaint Counsel’s
proposal to nullify Impax’s rights under the 2017
Amendment to the SLA while maintaining its royalty
obligation to Endo. [redacted] CX3275 at 013-014,
§§1(h)-(i), 4(a). [redacted] The Proposed Order would
require Impax to pay royalties [redacted] until Endo’s
additional patents expire, regardless of whether Endo
or another firm actually enters the market.
Impax raises three concerns about Complaint
Counsel’s proposal. First, Impax argues that the 2017
Amendment is not a reverse payment but is exactly
the kind of “commonplace settlement form” that
Actavis leaves untouched. RB at 66, quoting Actavis,
570 U.S. at 152. Second, Impax argues that Complaint
Counsel have not investigated the 2017 Amendment,
taken discovery regarding it, adduced evidence at trial
regarding it, or formally challenged it. Id. Thus, says
Impax, it would violate basic notions of administrative
law to condemn it as anticompetitive. Id. at 67. Third,
Impax argues that Complaint Counsel did not suggest
until after the trial that they intended to invalidate
the 2017 Amendment. Thus, Impax asserts, it would
violate due process to enter an adverse finding against
the 2017 Amendment at this stage. Id.
We do not share Impax’s confidence that the 2017
Amendment is an ordinary settlement unremarkable
under Actavis. As noted in Section II.D above, Endo

App-128
has now exited the market for oxymorphone ER.
[redacted] This could continue the sharing of
monopoly profit on sales of the Opana ER formulation,
with Impax now in the role of a monopolist and Endo
in the role of a potential entrant paid to stay out of the
market. Nonetheless, the fact remains that the
contractual provision at issue was neither
investigated nor litigated below. Under these
circumstances, we believe it would be unwise and
inequitable to strip Impax of its rights under the 2017
Amendment, while leaving it with its obligations. 46
We accordingly omit this provision from our Final
Order.
ISSUED: March 28, 2019

Below, Complaint Counsel first sought, at the conclusion of
the administrative trial, to nullify the 2017 Amendment in its
entirety. CC Post-Trial Br. at 76. Facing what could have been
the elimination of its royalties, Endo successfully moved to
intervene in the ALJ proceeding for the limited purpose of
participating in post-trial briefing to protect what it described as
its “due process rights[] and its contract rights” under the August
2017 settlement agreement. Non-Party Endo Pharmaceuticals
Inc.’s Unopposed Motion for Limited Intervention and
Memorandum in Support, Docket No. 9373 (Jan. 2, 2018). Endo
argued that Complaint Counsel’s request to nullify the 2017
Amendment “violate[d] the most basic principles of due process
and [was] a brazen attempt at governmental overreach.”
Intervenor Endo Pharmaceuticals, Inc.’s Opposition to
Complaint Counsel’s Findings and Proposed Relief Regarding the
Endo-Impax 2017 Settlement Agreement 1 (Jan. 16, 2018). On
this appeal, Complaint Counsel modified their remedial request
to require. [redacted] See Proposed Order, Paragraph II.C.
46

App-129
Appendix C
UNITED STATES FEDERAL
TRADE COMMISSION
OFFICE OF ADMINISTRATIVE LAW JUDGES
________________
No. 9373
________________
IN THE MATTER OF IMPAX LABORATORIES, INC.,
Respondent.
________________
Filed: May 18, 2018
________________
Chief Administrative Law Judge:
Chappell, D. Michael
________________
INITIAL DECISION
________________
I. INTRODUCTION
A. Summary of Complaint and Answer
The Administrative Complaint in this case
(“Complaint”), issued by the Federal Trade
Commission (“FTC” or “Commission”) on January 19,
2017, alleges that a reverse payment settlement
agreement between Respondent Impax Laboratories,
Inc. (“Impax” or “Respondent”) and Endo
Pharmaceuticals Inc. (“Endo”) was an anticompetitive
agreement in violation of Section 5 of the Federal
Trade Commission Act, 15 U.S.C. §45 (“FTC Act”).
Complaint ¶¶1, 3. The Complaint alleges that,

App-130
through a settlement agreement entered into in June
2010 (the “Challenged Agreement” or the “EndoImpax Settlement”), Impax, a generic drug
manufacturer, agreed to abandon its legal challenge to
patents held by Endo for a branded drug
manufactured by Endo (Opana ER) and to forego
launching its generic version of Opana ER until
January 2013, in exchange for a large, unjustified
“reverse payment” from Endo. Complaint ¶¶1, 3.
According to the Complaint, the purpose and effect of
the Endo-Impax Settlement was to ensure that Endo
would not face generic competition for Opana ER until
January 2013. Complaint ¶4. Respondent filed its
Answer and Defenses (“Answer”) to the Complaint on
February 7, 2017. Respondent denied most material
allegations in the Complaint and further asserted ten
affirmative defenses, including its Eighth Defense,
which averred that the challenged conduct had
substantial procompetitive justifications, benefited
consumers, and avoided infringement of valid patents,
and that these procompetitive justifications have
outweighed any alleged anticompetitive effects.
Answer at 21.
B. Procedural History
Although the Complaint challenges an agreement
between Impax and Endo, Endo is not a party to this
enforcement action. As a result of a federal court
action against Endo and others arising from a patent
settlement in connection with Lidoderm, another
product manufactured by Endo, Endo settled with the
FTC and agreed to a stipulated order and permanent
injunction that apparently resolved any FTC concerns
regarding the conduct of Endo in this case. See Federal

App-131
Trade Commission v. Endo Pharms, No. 17-cv-00312
(N.D. Cal. Feb. 2, 2017). Accordingly, this litigation
proceeded only against Impax.
On August 10, 2017, Complaint Counsel filed a
motion for partial summary decision with the
Commission, requesting that the Commission declare
that certain procompetitive justifications are not
legally cognizable defenses to the conduct challenged
in the Complaint, pursuant to the Supreme Court’s
decision in FTC v. Actavis, 133 S. Ct. 2223 (2013). In
re Impax Labs, Inc., 2017 FTC LEXIS 130, at *11.
Specifically, Complaint Counsel sought to preclude
three arguments as to procompetitive benefits: (1) that
the Endo-Impax Settlement enabled Impax to enter
prior to expiration of various existing and future Endo
patents; (2) that the Endo- Impax Settlement provided
Impax with certainty that it could launch its generic
products free from the risk of infringing Endo's
existing and future patents; and (3) that the EndoImpax Settlement enabled Impax to continue selling
its generic product, while other potential generic
sellers of Opana ER were enjoined due to a court
ruling that two Endo patents obtained after the EndoImpax Settlement were valid and infringed by such
sellers. Id. at *15 (Oct. 27, 2017). Complaint Counsel
sought an order foreclosing Impax from making
arguments to justify or otherwise defend the EndoImpax Settlement on those bases. Id.
Under the Commission’s Rules of Practice, the
motion was not decided by the Administrative Law
Judge (“ALJ”), but by the Commission. 1 By Order
1 The Commission amended Rule 3.22 of its Rules of Practice in
2009 to allow “the Commission to decide legal questions and

App-132
issued October 27, 2017, the Commission denied
Complaint Counsel’s motion. Id. at *33. The
Commission reasoned that the motion was premature
because: (1) Respondent had not yet fully articulated
the bases for its assertion of procompetitive
justifications, Id. at *15-18; and (2) the structure of the
rule of reason for a reverse-payment settlement
should be determined based on briefing and a factual
record at trial. Id. at *18, *26-27. The Commission
stated: “Without the facts before us, and an
understanding of how the parties intend to marshal
articulate applicable law when the parties raise purely legal
issues.” Proposed rule amendments; request for public comment,
73 Fed. Reg. 58,832, 58,836 (Oct. 7, 2008). “[C]ommenters
(including the [Section of Antitrust Law of the American Bar
Association (‘Section’)], criticized the [Commission’s] proposed
Rule change as unfairly invading the province of the independent
ALJ and compromising the Commission’s dual roles as
prosecutor and adjudicator.” Interim final rules with request for
comment, 74 Fed. Reg. 1804, 1809 (Jan. 13, 2009). “For example,
the Section argued that the proposed changes ... could raise
concerns about the impartiality and fairness of the Part 3
proceeding by permitting the Commission to adjudicate
dispositive issues, including motions to dismiss challenging the
facial sufficiency of a complaint, shortly after the Commission
has voted out the complaint finding that it has ‘reason to believe’
there was a law violation, without the benefit of an opinion by an
independent ALJ.” Id. A joint comment from former FTC
Chairman Robert Pitofsky and Michael N. Sohn “similarly
argued that the proposed rules, including Rule 3.22, would
arguably infringe on the fairness of the Part 3 proceeding if the
Commission more frequently ‘invades what has heretofore been
the province of an independent ALJ.’” Id. Dismissing these
objections, the Commission amended its Rules of Practice to give
to itself the authority to decide “[m]otions to dismiss filed before
the evidentiary hearing, motions to strike, and motions for
summary decision[.]” 16 C.F.R. §3.22(a).

App-133
those facts, a formulation that unnecessarily
establishes the law of the case risks straight-jacketing
the proceeding in ways that impede effective inquiry
and appropriate resolution.” Id. at *26-27. The
Commission concluded: “What is needed at this time
is development of a record, ordering of that record
under a proposed rule-of-reason framework, and,
ultimately, briefing of disputed issues concerning the
appropriateness of that framework and of its
application to the facts presented.” Id. at *32-33.
The evidentiary hearing began on October 24,
2017 and was completed on November 14, 2017. The
hearing record was closed by Order dated November
17, 2017. 2 Complaint Counsel and Respondent (“the
parties”) filed concurrent post-trial briefs and
proposed findings of fact on December 20, 2017.
By Order issued January 5, 2018, Endo was
permitted to intervene in this action for the limited
purpose of responding to Complaint Counsel’s PostTrial Brief and Proposed Order and opposing (1) any
findings related to the alleged competitive effects of a
2017 settlement agreement between Endo and Impax
and (2) any remedy that would order the nullification
of that 2017 settlement, or otherwise affect Endo’s
rights under that agreement. Endo’s brief on these
issues, filed on January 16, 2018, has been considered.
Rule 3.51(a) of the Commission’s Rules of Practice
states that “[t]he Administrative Law Judge shall file
2 Over 1,250 exhibits were admitted into evidence, 37 witnesses
testified, either live or by deposition, and there are 3,066 pages
of trial transcript. The parties’ post-trial briefs, proposed findings
of fact and conclusions of law, reply briefs and replies to proposed
findings of fact and conclusions of law total 2,869 pages.

App-134
an initial decision within 70 days after the filing of the
last filed initial or reply proposed findings of fact,
conclusions of law and order ... .” 16 C.F.R. §3.51(a).
The parties filed replies to each other’s proposed
findings of fact, conclusions of law, and post-trial
briefs and to Endo’s January 16, 2018 brief on
February 7, 2018. 3 Closing arguments were held on
February 15, 2018.
Seventy days from the last filed reply proposed
findings and conclusions and briefs was April 18,
2018, and, absent an order pursuant to Rule 3.51, the
Initial Decision was to be filed on or before April 18,
2018. Based on the voluminous and complex record in
this matter, an Order was issued on April 6, 2018,
finding good cause for extending the time period for
filing the Initial Decision by 30 days. Accordingly,
issuance of this Initial Decision by May 18, 2018 is in
compliance with Commission Rule 3.51(a).
C. Evidence
This Initial Decision is based on a consideration of
the whole record relevant to the issues, including the
exhibits properly admitted into evidence, deposition
transcripts, and the transcripts of testimony at trial,
and addresses the material issues of fact and law. The
briefs and proposed findings of fact and conclusions of
law, and the replies thereto, submitted by the parties,
and all contentions and arguments therein were
thoroughly reviewed and considered.

3 The Commission’s January 19, 2018 order extended the
deadline for the parties to file their concurrent reply briefs and
replies to proposed findings to February 7, 2018.

App-135
Proposed findings of fact submitted by the parties
but not accepted in this Initial Decision were rejected,
either because they were not supported by the
evidence or because they were not dispositive or
material to the determination of the merits of the case.
Similarly, legal contentions and arguments of the
parties that are not addressed in this Initial Decision
were rejected, because they lacked support in fact or
law, were not material, or were otherwise lacking in
merit. 4 In addition, all expert opinion evidence
submitted in this case has been fully reviewed and
considered. Except as expressly relied on or adopted in
this Initial Decision, such opinions have been rejected,
as either unreliable, unsupported by the facts, or
unnecessary to the findings and conclusions herein.

Ruling upon a decision of the Interstate Commerce
Commission, and interpreting language in the Administrative
Procedure Act that is almost identical to language in Commission
Rule 3.51(c)(1), the United States Supreme Court held that “[b]y
the express terms of [that Act], the Commission is not required
to make subordinate findings on every collateral contention
advanced, but only upon those issues of fact, law, or discretion
which are ‘material.’” Minneapolis & St. Louis Ry. Co. v. United
States, 361 U.S. 173, 193-94 (1959). Accord Stauffer Labs., Inc. v.
FTC, 343 F.2d 75, 82 (9th Cir. 1965). See also Borek Motor Sales,
Inc. v. NLRB, 425 F.2d 677, 681 (7th Cir. 1970) (holding that it is
adequate for the Board to indicate that it had considered each of
the company’s exceptions, even if only some of the exceptions
were discussed, and stating that “[m]ore than that is not
demanded by the [APA] and would place a severe burden upon
the agency”). Furthermore, the Commission has held that ALJs
are not required to discuss the testimony of each witness or all
exhibits that are presented during the administrative
adjudication. In re Amrep Corp., 102 F.T.C. 1362, 1670, 1983 FTC
LEXIS 17, at *566-67 (Nov. 2, 1983).
4

App-136
Under Commission Rule 3.51(c)(1), “[a]n initial
decision shall be based on a consideration of the whole
record relevant to the issues decided, and shall be
supported by reliable and probative evidence.” 16
C.F.R. §3.51(c)(1); see In re Chicago Bridge & Iron Co.,
138 F.T.C. 1024, 1027 n.4, 2005 FTC LEXIS 215, at *3
n.4 (Jan. 6, 2005). Under the Administrative
Procedure Act (“APA”), an ALJ may not issue an order
“except on consideration of the whole record or those
parts thereof cited by a Party and supported by and in
accordance with the reliable, probative, and
substantial evidence.” 5 U.S.C. §556(d). All findings of
fact in this Initial Decision are supported by reliable,
probative, and substantial evidence. Citations to
specific numbered findings of fact in this Initial
Decision are designated by “F.” 5

5

References to the record are abbreviated as follows:

CX - Complaint Counsel’s Exhibit
RX - Respondent’s Exhibit
JX - Joint Exhibit
Tr. - Transcript of testimony before the Administrative Law Judge
Dep. - Transcript of Deposition
IHT - Transcript of Investigational Hearing
CCB - Complaint Counsel’s Post-Trial Brief
CCRB - Complaint Counsel’s Post-Trial Reply Brief
CCFF - Complaint Counsel’s Proposed Findings of Fact
CCRRFF - Complaint Counsel’s Reply to Respondent’s Proposed
Findings of Fact
RB - Respondent’s Post-Trial Brief
RFF - Respondent’s Proposed Findings of Fact

App-137
The parties’ burdens of proof are governed by
Commission Rule 3.43(a), Section 556(d) of the APA
and case law. Pursuant to Commission Rule 3.43(a),
“[c]ounsel representing the Commission ... shall have
the burden of proof, but the proponent of any factual
proposition shall be required to sustain the burden of
proof with respect thereto.” 16 C.F.R. §3.43(a). Under
the APA, “[e]xcept as otherwise provided by statute,
the proponent of a rule or order has the burden of
proof.” 5 U.S.C. §556(d). The APA, “which is applicable
to administrative adjudicatory proceedings unless
otherwise provided by statute, establishes ‘... the
traditional preponderance-of-the evidence standard.’”
In re Rambus, Inc., 2006 FTC LEXIS 101, at *45 (Aug.
20, 2006) (quoting Steadman v. SEC, 450 U.S. 91, 95102 (1981)), rev’d on other grounds, 522 F.3d 456 (D.C.
Cir. 2008)).
Pursuant to Commission Rule 3.45(b), several
orders were issued in this case granting in camera
treatment to material, after finding, in accordance
with the Rule, that its public disclosure would likely
result in a clearly defined, serious injury to the entity
requesting in camera treatment or that the material
constituted “sensitive personal information,” as that
term is defined in Commission Rule 3.45(b). In
addition, when the parties sought to elicit testimony
at trial that revealed information that had been
granted in camera treatment, the hearing went into
an in camera session.
Commission Rule 3.45(a) allows the ALJ “to grant
in camera treatment for information at the time it is
offered into evidence subject to a later determination
by the [administrative] law judge or the Commission

App-138
that public disclosure is required in the interests of
facilitating public understanding of their subsequent
decisions.” In re Bristol-Myers Co., Nos. 8917-19, 90
F.T.C. 455, 457, 1977 FTC LEXIS 25, at *6 (Nov. 11,
1977). As the Commission later reaffirmed in another
leading case on in camera treatment, since “in some
instances the ALJ or Commission cannot know that a
certain piece of information may be critical to the
public understanding of agency action until the Initial
Decision or the Opinion of the Commission is issued,
the Commission and the ALJs retain the power to
reassess prior in camera rulings at the time of
publication of decisions.” In re General Foods Corp.,
No. 9085, 95 F.T.C. 352, 356 n.7; 1980 FTC LEXIS 99,
at *12 n.7 (March 10, 1980). Thus, in instances where
a document or trial testimony had been given in
camera treatment, but the portion of the material
cited to in this Initial Decision does not in fact require
in camera treatment, such material is disclosed in the
public version of this Initial Decision, pursuant to
Commission Rule 3.45(a) (the ALJ “may disclose such
in camera material to the extent necessary for the
proper disposition of the proceeding”). Where in
camera information is used in this Initial Decision, it
is indicated in bold font and braces (“{ }”) in the in
camera version and is redacted from the public version
of the Initial Decision, in accordance with Commission
Rule 3.45(e).
D. Summary of Initial Decision
This decision arises from the first
administrative trial involving a reverse
patent settlement agreement since the
Court’s decision in FTC v. Actavis, 133 S.

Part III
payment
Supreme
Ct. 2223

App-139
(2013). The evidence shows that, under the
Challenged Agreement, Endo provided Impax with a
reverse payment, the purpose and effect of which was
to induce Impax to give up its patent challenge and
agree not to launch a generic Opana ER until January
2013. Payment by a patent holder to a generic
challenger to induce the generic challenger to drop its
challenge and agree to stay out of the market, rather
than face the risk of patent invalidation and resulting
generic competition, is an anticompetitive harm under
Actavis.
Under the facts of this case, however, the
magnitude and extent of any anticompetitive harm is
largely theoretical, based on an inference that, absent
the Challenged Agreement, Impax’s entry date, and
therefore generic competition, would have been earlier
than January 2013. The evidence shows that such
earlier entry was unlikely. Moreover, even if, absent
the Challenged Agreement, Impax would have entered
the market substantially earlier than January 2013,
the evidence demonstrates that the Challenged
Agreement
provided
real
and
substantial
procompetitive benefits to consumers that outweigh
any anticompetitive effect. Among other things, the
Challenged Agreement granted Impax a broad patent
license covering Endo’s existing and subsequentlyacquired Opana ER-related patents, which has
enabled Impax to sell generic Opana ER without
interruption since launching its product in January
2013, while all other potential generic drug
manufacturers have been enjoined by patent
litigation. Indeed, Impax’s product is not only the sole
generic oxymorphone ER product available to

App-140
consumers, but the only available oxymorphone ER
product.
Weighing the anticompetitive harm and the
procompetitive benefits, the evidence fails to prove
that the Challenged Agreement was anticompetitive
on balance. Rather, the evidence proves that the
procompetitive benefits of the Challenged Agreement
outweigh the anticompetitive harm. Thus, the
evidence fails to demonstrate that the Challenged
Agreement constituted an unreasonable restraint of
trade. Accordingly, the evidence fails to prove a
II.

FINDINGS OF FACT
A. Background
1.

Jurisdiction

1. Impax Laboratories, Inc. (“Impax”) is a forprofit corporation with its principal place of business
at 30831 Huntwood Avenue, Hayward, California.
(Joint Stipulations of Jurisdiction, Law, Fact, and
Authenticity, JX001-001 ¶1).
2. In addition to its Hayward, California
headquarters, Impax operates out of its facilities in
Middlesex, New Jersey, among other locations. (Joint
Stipulations of Jurisdiction, Law, Fact, and
Authenticity, JX001-001 ¶2).
3. Impax engages in the business of, among other
things, developing, manufacturing, and marketing
generic pharmaceutical drugs (“generics” or “generic
drugs”). (Joint Stipulations of Jurisdiction, Law, Fact,
and Authenticity, JX001-001 ¶3).
4. Impax is a corporation, as “corporation” is
defined in Section 4 of the Federal Trade Commission

App-141
Act, 15 U.S.C. §44. (Joint Stipulations of Jurisdiction,
Law, Fact, and Authenticity, JX001-001 ¶4).
5. Impax has engaged in, and continues to engage
in, commerce and activities affecting commerce in
each of the fifty states in the United States and the
District of Columbia, as the term “commerce” is
defined by Section 1 of the Federal Trade Commission
Act, 15 U.S.C. §44. (Joint Stipulations of Jurisdiction,
Law, Fact, and Authenticity, JX001-001- 02 ¶5).
2.

Hatch-Waxman framework

6. The Federal Food, Drug, and Cosmetic Act, 21
U.S.C. §301 et seq., as amended by the Drug Price
Competition and Patent Term Restoration Act of 1984
(the “Hatch-Waxman Act”) and the Medicare
Prescription Drug, Improvement, and Modernization
Act of 2003, 21 U.S.C. §§355(b)(2) and 355(j) and 35
U.S.C. §271(e), establishes procedures designed to
facilitate competition from lower-priced generic drugs,
while maintaining incentives for pharmaceutical
companies to invest in developing new drugs. (Joint
Stipulations of Jurisdiction, Law, Fact, and
Authenticity, JX001-002-03 ¶12).
7. A company seeking to market a new
pharmaceutical product must file a New Drug
Application (“NDA”) with the U.S. Food and Drug
Administration (“FDA”) demonstrating the safety and
efficacy of the new product. 21 U.S.C. §355. (Joint
Stipulations of Jurisdiction, Law, Fact, and
Authenticity, JX001-003 ¶13).
8. NDA-based products generally are referred to
as “brand-name drugs,” “branded drugs,” or “brand
drugs.” (Joint Stipulations of Jurisdiction, Law, Fact,
and Authenticity, JX001- 003 ¶14).

App-142
9. The FDA requires NDA holders to identify
patents that the NDA holder believes could reasonably
be asserted against a generic company that makes,
uses, or sells a generic version of the branded drug. 21
C.F.R. §314.53. (Joint Stipulations of Jurisdiction,
Law, Fact, and Authenticity, JX001-003 ¶15).
10. The NDA holder must submit these patents
for listing in an FDA publication entitled Approved
Drug Products with Therapeutic Equivalence
Evaluations (commonly known as the Orange Book)
within 30 days of issuance of the patent or within 30
days after approval of the NDA. 21 C.F.R. §314.53.
(Joint Stipulations of Jurisdiction, Law, Fact, and
Authenticity, JX001-003 ¶16).
11. A company seeking to market a generic
version of a branded drug may file an Abbreviated
New Drug Application (“ANDA”) with the FDA. 21
U.S.C. §355(j). (Joint Stipulations of Jurisdiction,
Law, Fact, and Authenticity, JX001-003 ¶17).
12. The generic applicant must demonstrate that
its generic drug is therapeutically equivalent to the
brand-name drug that it references and for which it
seeks to be a generic substitute. 21 U.S.C.
§355(j)(2)(A)(iv). (Joint Stipulations of Jurisdiction,
Law, Fact, and Authenticity, JX001-003 ¶18).
13. Upon showing that the generic drug is
therapeutically equivalent to the approved branded
drug, the generic company may rely on the studies
submitted in connection with the approved branded
drug’s NDA to establish that the generic drug is safe
and effective. 21 U.S.C. §355(j)(2)(A). (Joint
Stipulations of Jurisdiction, Law, Fact, and
Authenticity, JX001-003-04 ¶19).

App-143
14. The FDA assigns a generic drug an “AB”
rating if it is therapeutically equivalent to a brandname drug. An AB-rated generic drug is the same as a
brand-name drug in dosage form, safety, strength,
route of administration, quality, performance
characteristics, and intended use. A generic drug must
also contain identical amounts of the same active
ingredient(s) as the brand-name drug, although its
inactive ingredients may vary. FDA, Approved Drug
Products with Therapeutic Equivalence Evaluations,
Preface §1.7. (Joint Stipulations of Jurisdiction, Law,
Fact, and Authenticity, JX001-004 ¶20).
15. When a brand-name drug is covered by one or
more patents listed in the Orange Book, a company
seeking to market a generic version of that drug before
the patents expire must make a “Paragraph IV
certification” in its ANDA certifying that the patents
are invalid, unenforceable, and/or will not be infringed
by the generic drug. 21 U.S.C. §355(j)(2)(A)(vii)(IV).
(Joint Stipulations of Jurisdiction, Law, Fact, and
Authenticity, JX001-004 ¶21).
16. If an ANDA filer makes a Paragraph IV
certification, it must notify the patent holder of its
certification and the factual and legal bases for its
assertion(s) that the relevant patent is invalid,
unenforceable, and/or not infringed. 21 U.S.C.
§355(j)(2)(B). (Joint Stipulations of Jurisdiction, Law,
Fact, and Authenticity, JX001-004 ¶22).
17. If the patent holder initiates a patent
infringement suit against an ANDA filer within 45
days of receiving such notice (F. 16), the FDA may not
grant final approval of the ANDA until the earliest of:
(1) patent expiration date; (2) district court resolution

App-144
of the patent litigation in favor of the generic company;
or (3) the expiration of an automatic 30-month stay. 21
U.S.C. §355(j)(5)(B)(iii). (Joint Stipulations of
Jurisdiction, Law, Fact, and Authenticity, JX001-004
¶23).
18. When a generic drug otherwise meets the
FDA’s criteria for approval but final approval is
blocked by statute or regulation, such as the HatchWaxman 30-month stay, the FDA may tentatively
approve
the
relevant
ANDA.
21
U.S.C.
§355(j)(5)(B)(iv). (Joint Stipulations of Jurisdiction,
Law, Fact, and Authenticity, JX001-005 ¶24).
19. Tentative approval of an ANDA by the FDA
does not permit an ANDA filer to market its generic
version
of
the
drug.
21
U.S.C.
§355(j)(5)(B)(iv)(II)(dd)(BB). (Joint Stipulations of
Jurisdiction, Law, Fact, and Authenticity, JX001-005
¶25).
20. The FDA can issue final approval of a
tentatively-approved drug once the 30-month stay
expires. 21 U.S.C. §355(j)(5)(B)(iii). (Joint Stipulations
of Jurisdiction, Law, Fact, and Authenticity, JX001005 ¶26).
21. The Hatch-Waxman Act provides the first
generic company or companies filing an ANDA
containing a Paragraph IV certification (“first filer”) to
a particular branded drug with a period referred to as
the “180-day exclusivity” or “first-filer exclusivity”
period. During this 180-day exclusivity period, no
other generic manufacturer can sell its version of that
particular branded drug. 21 U.S.C. §355(j)(5)(B)(iv).
(Joint Stipulations of Jurisdiction, Law, Fact, and

App-145
Authenticity, JX001-005 ¶27; Second Set of Joint
Stipulations, JX003 ¶7).
22. A brand drug company can market a generic
version of its own brand product at any time, including
during the first filer’s exclusivity period. (Joint
Stipulations of Jurisdiction, Law, Fact, and
Authenticity, JX001-005 ¶28).
23. For a brand drug company to market a generic
version of its own brand product, no ANDA is
necessary because the brand company already has
approval to sell the drug under its NDA. (Joint
Stipulations of Jurisdiction, Law, Fact, and
Authenticity, JX001- 005 ¶29).
24. Brand drug companies’ generic versions of
their own brand products commonly are known as
“authorized generics” (“AGs”). (Joint Stipulations of
Jurisdiction, Law, Fact, and Authenticity, JX001-005
¶30).
25. An authorized generic is chemically identical
to the brand drug, but is sold as a generic product,
typically through either the brand company’s
subsidiary or through a third party. (Joint
Stipulations of Jurisdiction, Law, Fact, and
Authenticity, JX001-005 ¶31).
3.

Competition between brand and
generic manufacturers

26. A patient can obtain a prescription drug only
if a doctor (or someone who is authorized to write
prescriptions) writes a prescription for that drug.
(Joint Stipulations of Jurisdiction, Law, Fact, and
Authenticity, JX001-007 ¶11).

App-146
27. Doctors who select the medications they
prescribe for their patients do not pay for the
medications. Generally, when selecting appropriate
medications for patients, doctors’ primary concerns
are efficacy and safety, rather than the cost of
medications. (CX5002 (Savage Expert Report at 06364 ¶177, 180); Savage, Tr. 770-71; Michna, Tr. 218788; CX4046 (Michna, Dep. at 148-49)).
28. The patient, or in most cases a third-party
payor such as a public or private health insurer, pays
for the drug. These purchasers often have little input
over what drug is actually prescribed, because
physicians ultimately select and prescribe appropriate
drug therapies. (CX5000 (Noll Expert Report at 031
¶67); CX5002 (Savage Expert Report at 063 ¶177)).
29. All 50 states and the District of Columbia have
drug substitution laws that encourage and facilitate
substitution of lower-cost AB-rated generic drugs for
branded drugs. When a pharmacist fills a prescription
written for a branded drug, these laws allow or require
the pharmacist to dispense an AB-rated generic
version of the drug instead of the more expensive
branded drug, unless a physician directs or the patient
requests otherwise. Conversely, these laws generally
do not permit a pharmacist to substitute a non-ABrated generic for a branded drug unless the physician
specifically prescribes it by writing the chemical name
of the drug, rather than the brand name, on the
prescription. (Second Set of Joint Stipulations, JX003
¶72).
30. Because of the price advantages of generic
drugs over branded drugs, many third-party payors of
prescription drugs (e.g., health insurance plans and

App-147
Medicaid programs) have adopted policies to
encourage the substitution of AB-rated generic drugs
for their branded counterparts. (CX5000 (Noll Expert
Report at 030-32 ¶¶65, 67-69); CX6052 at 084-85).
31. Generic manufacturers typically charge lower
prices than branded drug sellers. The first one or two
generic products are typically offered at a 10% to 25%
discount off the price of the branded product.
Subsequent generic entry creates greater price
competition which typically leads to discounts
between 50% to 80% off the brand price. (CX5000 (Noll
Expert Report at 048 ¶104); CX2607 (Lortie Decl. at
012 ¶29); CX6055 at 010).
32. Automatic substitution of the generic drug for
the branded drug is the primary way that generic
companies make their sales. (Mengler, Tr. 522; Engle,
Tr. 1703).
4.

Opiods

33. Opioid medications (“opioids”) are prescription
drugs indicated for the treatment of moderate to
severe pain. (Joint Stipulations of Jurisdiction, Law,
Fact, and Authenticity, JX001-006 ¶2; Savage, Tr.
700-01).
34. Opioids are derived from opium. (Michna, Tr.
2104).
35. There are three types of opioids: ultra-fastacting, immediate-release, and extendedrelease.
(Michna, Tr. 2105; see Savage, Tr. 693).
36. Ultra-fast-acting opioids are medications that
are absorbed through the mouth and have an initial
onset of pain relief in about fifteen minutes. They are

App-148
used to treat pain that comes on very suddenly and
that may dissipate within an hour. (Michna, Tr. 2105).
37. Immediate-release (“IR”) opioids are shortacting pain medications that take effect within 30 to
45 minutes of ingestion and tend to last 3 to 6 hours.
They are used to treat acute, short-lived pain as well
as chronic pain. (Michna, Tr. 2106, 2118; Savage, Tr.
693, 702, 705).
38. Extended-release (“ER”) opioids provide
continuous levels of medication in a patient’s blood
over several hours, with effects lasting from 8 to 24
hours, and in the case of transdermal applications patches that deliver medication through the skin - up
to 7 days. (Michna, Tr. 2106; see Savage, Tr. 702).
39. Extended-release opioids have been
pharmacologically formulated to provide gradual
release of the opioid medication. In particular, the
physical chemical structure of the tablet, capsule, or
bead provides for slower release of the medication and,
in turn, more gradual absorption by the body. (Savage,
Tr. 693, 704-05).
40. Extended-release opioids generally are used
for patients with sustained pain lasting longer than 12
to 24 hours, as well as chronic pain that requires relief
24 hours a day. (Savage, Tr. 705).
B. Context for the Endo-Impax Litigation
and Settlement
1. Opana ER
41. Oxymorphone belongs to the class of drugs
known as opioids. It is a semi-synthetic opioid used to
relieve pain. (Joint Stipulations of Jurisdiction, Law,
Fact, and Authenticity, JX001-006 ¶¶1-2).

App-149
42. The FDA first approved oxymorphone to
relieve pain in 1960. (Second Set of Joint Stipulations,
JX003 ¶1).
43. Opana ER is an extended-release formulation
of oxymorphone. (Joint Stipulations of Jurisdiction,
Law, Fact, and Authenticity, JX001-006 ¶3).
44. Opana ER is used to treat pain for a wide
variety of conditions, ranging from chronic back
problems to pain caused by cancer. (Joint Stipulations
of Jurisdiction, Law, Fact, and Authenticity, JX001006 ¶5).
45. Endo Pharmaceuticals Inc. (“Endo”) and
Penwest Pharmaceuticals (“Penwest”) collaborated on
the development and commercialization of Opana ER.
(Joint Stipulations of Jurisdiction, Law, Fact, and
Authenticity, JX001-011 ¶47).
46. The FDA approved Endo’s NDA for Opana ER
(NDA No. 021610) in June 2006 “for the relief of
moderate to severe pain in patients requiring
continuous, around-the-clock opioid treatment for an
extended period of time.” (Joint Stipulations of
Jurisdiction, Law, Fact, and Authenticity, JX001-006
¶4).
47. In July 2006, Endo announced the commercial
availability of Opana ER. At the time of launch in
2006, Opana ER was the only extended-release
version of oxymorphone on the market. 6 (Second Set of
Joint Stipulations, JX003 ¶3).
6 As set forth in F. 110, Endo introduced a reformulated version
of Opana ER in 2012. Unless otherwise specified, the term
“Opana ER” as used herein refers to original Opana ER.

App-150
48. Endo ultimately offered Opana ER in seven
dosage strengths (5, 7.5, 10, 15, 20, 30 and 40
milligram (“mg”)). (Second Set of Joint Stipulations,
JX003 ¶3).
2.

Endo’s initial patents for Opana ER

49. When Endo launched Opana ER in 2006, it
listed a single patent in the Orange Book as covering
Opana ER: U.S. Patent No. 5,128,143 (“the ’143
patent”). (CX3242 at 003).
50. The ’143 patent was set to expire in September
2008. (Second Set of Joint Stipulations, JX003 ¶4;
CX3242 at 003).
51. In October 2007, Endo listed three additional
patents in the Orange Book as covering Opana ER:
U.S. Patent Nos. 7,276,250 (“the ’250 patent”),
5,662,933 (“the ’933 patent”), and 5,958,456 (“the ’456
patent”) (“the initial patents”). (Joint Stipulations of
Jurisdiction, Law, Fact, and Authenticity, JX001-006
¶9).
52. Endo listed the ’250 patent in the Orange Book
on October 2, 2007. The ’250 patent will expire in
February 2023. (Joint Stipulations of Jurisdiction,
Law, Fact, and Authenticity, JX001-006 ¶¶9-10;
Snowden, Tr. 351).
53. Endo listed the ’933 and ’456 patents on
October 19, 2007. The ’933 and ’456 patents expired in
September 2013. (Joint Stipulations of Jurisdiction,
Law, Fact, and Authenticity, JX001-006 ¶¶9-10;
Snowden, Tr. 351).
54. The ’250, ’933, and ’456 patents all pertain to
the controlled-release mechanism of the oxymorphone

App-151
formulation. (Second Set of Joint Stipulations, JX003
¶6).
3.

Overview of Endo-Impax litigation
and settlement
a.

Impax’s Abbreviated New Drug
Applications

55. In June 2007, Impax filed an Abbreviated New
Drug Application (No. 79-087) for a generic version of
Opana ER, also referred to as generic oxymorphone
ER. 7 (Joint Stipulations of Jurisdiction, Law, Fact,
and Authenticity, JX001-007 ¶11; Second Set of Joint
Stipulations, JX003 ¶4).
56. As of June 2007, the ’143 patent was the only
patent listed in the Orange Book as covering Opana
ER. (Second Set of Joint Stipulations, JX003 ¶4;
CX2967 at 014, 017).
57. Impax’s June 2007 ANDA utilized a
Paragraph III certification for the ’143 patent. A
Paragraph III certification meant that Impax’s ANDA
would be eligible for FDA approval upon the ‘143
patent’s expiration in September 2008. (Second Set of
Joint Stipulations, JX003 ¶4; CX2967 at 017).
58. Following Endo’s listing of additional patents
in the Orange Book in October 2007 (F. 51-53), Impax
amended its ANDA to include Paragraph IV
certifications for the ’250,’933, and ’456 patents. With
respect to the ’250, ’933 and ’456 patents, Impax
certified that, “in its opinion and to the best of its
7 Endo and Impax both refer to a generic version of Endo’s
Opana ER as either “generic Opana ER” or “generic oxymorphone
ER” interchangeably.

App-152
knowledge,”
those
patents
were
“invalid,
unenforceable, or will not be infringed by the
manufacture, use, or sale of the oxymorphone
hydrochloride extended-release tablets for which”
Impax’s ANDA had been submitted. Impax was the
first company to file an ANDA with Paragraph IV
certifications for the 5, 10, 20, 30, and 40 mg dosages
strengths of Opana ER. (Joint Stipulations of
Jurisdiction, Law, Fact, and Authenticity, JX001-007
¶¶12, 13; Second Set of Joint Stipulations, JX003 ¶7;
Snowden, Tr. 355).
59. On November 23, 2007, the FDA accepted
Impax’s ANDA with an amendment to include
Paragraph IV certifications for the ’250, ’933, and ’456
patents. (Second Set of Joint Stipulations, JX003 ¶7).
60. On December 13, 2007, Impax sent Endo
notice of its Paragraph IV certifications for the’250,
’933, and ’456 patents. In its notice, Impax asserted
that its product did not infringe these patents. (Second
Set of Joint Stipulations, JX003 ¶8; Snowden, Tr. 355,
413; CX2714).
b.

The filing of the Endo-Impax
patent litigation and FDA
approval of Impax’s ANDA

61. On January 25, 2008, Endo and Penwest filed
a patent infringement lawsuit against Impax in the
federal district court in Delaware, alleging that
Impax’s ANDA for generic oxymorphone ER infringed
Endo’s ’456 and ’933 patents (“Endo-Impax patent
litigation”). (Joint Stipulations of Jurisdiction, Law,
Fact, and Authenticity, JX001-007 ¶15; Snowden, Tr.
413-14).

App-153
62. The filing of the Endo-Impax patent litigation
triggered a statutory 30-month stay, meaning that the
FDA could not approve Impax’s ANDA until the
earlier of the expiration of 30 months or resolution of
the patent dispute in Impax’s favor. (Joint
Stipulations of Jurisdiction, Law, Fact, and
Authenticity, JX001-007 ¶15).
63. The 30-month stay was set to expire on June
14, 2010. (Joint Stipulations of Jurisdiction, Law,
Fact, and Authenticity, JX001-007 ¶16).
64. The FDA granted tentative approval to
Impax’s ANDA on May 13, 2010. (Joint Stipulations of
Jurisdiction, Law, Fact, and Authenticity, JX001-007
¶17).
65. Tentative FDA approval is effectively the last
step in an ANDA filer’s approval efforts. (Koch, Tr.
340-41; see Snowden, Tr. 417-18 (tentative approval
from FDA “suggest[s] that Impax was almost certain
to get final approval at the conclusion of the 30-month
stay”)).
66. Impax received final approval for Impax’s
generic oxymorphone ER product on the 5, 10, 20, and
40 mg dosage strengths on June 14, 2010, upon
expiration of the statutory 30- month stay. (Joint
Stipulations of Jurisdiction, Law, Fact, and
Authenticity, JX001-008 ¶21).
67. The FDA granted final approval to Impax’s
ANDA for the 30 mg dosage strength of generic
oxymorphone ER on July 22, 2010. (Joint Stipulations
of Jurisdiction, Law, Fact, and Authenticity, JX001008 ¶22).

App-154
c.

Summary of proceedings

68. In the Endo-Impax patent litigation, Endo
alleged that Impax’s generic oxymorphone ER
infringed Endo’s ’456 and ’933 patents. Endo did not
allege that Impax’s generic oxymorphone ER infringed
Endo’s ‘250 patent. (Joint Stipulations of Jurisdiction,
Law, Fact, and Authenticity, JX001-007 ¶15;
Snowden, Tr. 415-16; CX0304 at 002 ¶5).
69. Impax sought to transfer the Endo-Impax
patent litigation from the federal district court in
Delaware to the federal district court in New Jersey
because the Delaware court was overloaded and
Impax hoped the case would move faster in New
Jersey. The court granted Impax’s request and
transferred the case to the federal district court in
New Jersey. (Snowden, Tr. 357-58).
70. The district court presiding over the EndoImpax patent litigation held claim construction
hearings on December 21, 2009 and March 19, 2010.
(Second Set of Joint Stipulations, JX003 ¶18).
71. On April 5, 2010, the court in the Endo-Impax
patent litigation issued an amended order on claim
construction. The court adopted the constructions for
“hydrophobic material” and “sustained release”
proposed by Endo, and the parties stipulated to the
construction of “homopolysaccharide.” (Second Set of
Joint Stipulations, JX003 ¶19).
72. On May 19, 2010, the court scheduled the
Endo-Impax patent infringement trial to begin on
June 3, 2010 and continue through June 17, 2010.
(Second Set of Joint Stipulations, JX003 ¶22).

App-155
73. The trial in the Endo-Impax patent litigation
began on June 3, 2010. (Second Set of Joint
Stipulations, JX003 ¶24; Figg, Tr. 1906; Hoxie, Tr.
2767).
74. On June 8, 2010, the Endo-Impax patent
litigation was settled and the parties entered into the
Settlement and License Agreement (“SLA”) and the
Development and Co-Promotion Agreement (“DCA”).
(Joint Stipulations of Jurisdiction, Law, Fact, and
Authenticity, JX001-007-08 ¶¶18-19; Second Set of
Joint Stipulations, JX003 ¶26).
75. The SLA incorporates the DCA. (Second Set of
Joint Stipulations, JX003 ¶69). The SLA and the DCA
are referred to collectively in this Initial Decision as
the “Challenged Agreement” or the “Endo-Impax
Settlement.”
76. At the time that Endo and Impax settled their
patent litigation, the outcome of Endo’s patent
infringement suit was uncertain. (Joint Stipulations
of Jurisdiction, Law, Fact, and Authenticity, JX001008 ¶20; Second Set of Joint Stipulations, JX003 ¶26).
4.

Costs of litigation

77. Although litigation costs vary substantially
among cases, a survey by the American Intellectual
Property Lawyers Association estimated that the
median litigation cost for all patent cases with more
than $25 million at stake averages about $5.5 million
for each party. When such a case is handled by firms
with more than 76 attorneys, the median litigation
cost averages approximately $7 million for each party.
(CX5000 (Noll Expert Report at 108 ¶247 & n.278)).

App-156
78. At the time of the Endo-Impax Settlement,
which occurred during trial, Endo had spent between
$6 and $7 million and Impax had spent about $4.7
million on litigation in the infringement case. (CX2696
at 013-14; CX3212 at 009-10; CX5000 (Noll Expert
Report at 108 ¶247)).
79. The top end of the range that Impax uses in
its budgeting process to estimate costs for a generic
patent litigation is about $3 to $4 million per
litigation. This $3 to $4 million estimate represents
total expenses from the start of litigation to
completion and is based primarily on expenses for
outside counsel, such as hourly attorneys’ fees. Impax
might also allocate some expenses for its internal legal
department’s work on patent litigation, but those are
minor amounts. (Reasons, Tr. 1221-22).
80. During a public earnings conference call in
November 2011, Impax’s then-chief financial officer
(“CFO”) stated that Impax had “lowered [its] patent
litigation expense guidance for the full year for 2011
from $13 million to $10 million primarily due to recent
settlements” and that Impax was going to save $3
million in litigation expenses because of settlements,
including the Endo settlement. (Koch, Tr. 262-63;
CX2703 at 004).
81. A reasonable estimate of the combined saved
litigation costs for both Endo and Impax for settling
the patent litigation in June 2010 is approximately $5
million. (F. 77-80; Noll, Tr. 1463).
5.

Other Endo litigation on initial
Opana ER patents

82. Eight companies submitted ANDAs seeking
approval to market a generic version of Opana ER.

App-157
Each company included a Paragraph IV certification
asserting that its proposed generic product did not
infringe Endo’s patents and/or that Endo’s patents
were invalid or unenforceable. (Second Set of Joint
Stipulations, JX003 ¶5; CX2607 at 008- 09 (Lortie
Decl. ¶24)).
83. In addition to suing Impax (F. 61), Endo sued
all other Opana ER ANDA filers, alleging
infringement of one or more of Endo’s initial patents.
Those suits settled, with the generic companies
receiving patent licenses covering only the patents-insuit. (Snowden, Tr. 440; RX441; RX442; RX443;
CX3192).
84. Actavis South Atlantic LLC (“Actavis”) filed
its ANDA on February 14, 2008 covering all dosage
strengths of Opana ER. Actavis was the first to file an
ANDA for the 7.5 and 15 mg dosages of Opana ER.
(Second Set of Joint Stipulations, JX003 ¶12;
Snowden, Tr. 370; CX6039 at 003).
85. In March 2008, Endo sued Actavis, alleging
that Actavis’ ANDA covering the 5, 10, 20, and 40 mg
dosages of generic oxymorphone ER infringed the ’456
and ’933 patents. (Second Set of Joint Stipulations,
JX003 ¶13).
86. In July 2008, after Actavis amended its ANDA
to include the 7.5, 15, and 30 mg dosages of generic
oxymorphone ER, Endo filed a second suit against
Actavis, alleging that Actavis’ ANDA for those dosages
infringed the ’456 and ’933 patents. (Second Set of
Joint Stipulations, JX003 ¶14).
87. Effective February 20, 2009, Actavis settled
the patent litigation with Endo relating to generic
Opana ER and received a license to the litigated

App-158
patents starting no later than July 15, 2011. (Second
Set of Joint Stipulations, JX003 ¶15; CX3383 (Actavis
settlement); Snowden, Tr. 370-71).
88. Actavis launched its 7.5 and 15 mg generic
Opana ER products, for which it possessed first-filer
exclusivity, in July 2011. (CX4034 (Rogerson, Dep. at
13)).
89. Actavis launched its 5, 10, 20, 30, and 40 mg
generic Opana ER products on September 17, 2013,
several months after the expiration of Impax’s firstfiler exclusivity. (CX2973; see CX4034 (Rogerson, Dep.
at 13)).
6.

Endo’s market power

90. At the time Endo entered into the Endo-Impax
Settlement in June 2010, Endo had 100% of the
market share for oxymorphone ER. (CX5000 (Noll
Expert Report at 083 ¶189)).
91. In the pharmaceutical industry, brand-name
drug patent holders have the ability to exclude firms
from the market in the sense that they are entitled by
law to delay competitive entry by generic
manufacturers. (CX5000 (Noll Expert Report at 086
¶199)).
92. Barriers to entry in the pharmaceutical
industry include intellectual property rights, such as
patents, and regulatory impediments, such as
provisions of the Hatch-Waxman Act (F. 93). (Noll, Tr.
1408; CX5000 (Noll Expert Report at 084-85 ¶194)).
93. The regulatory procedures imposed by the
Hatch-Waxman Act allow a brand-name drug to be
protected against entry in two ways. First, if a
branded drug company files a patent infringement

App-159
suit against a Paragraph IV ANDA filer, the HatchWaxman Act provides a 30-month stay before the FDA
can approve the ANDA. Second, non-first-filer
Paragraph IV ANDA applicants have to wait at least
180 days after the first filer has entered before they
can enter a market. (Joint Stipulations of Jurisdiction,
Law, Fact, and Authenticity, JX001-004 ¶23; CX5000
(Noll Expert Report at 084-85 ¶194)).
94. The 30-month stay imposed by the HatchWaxman Act (F. 93) benefited Endo in the form of a
regulatory entry barrier to the market for
oxymorphone ER. (CX5000 (Noll Expert Report at
086-87 ¶194)).
95. Because the Paragraph IV procedures of
Hatch-Waxman prevent entry by the first-filer generic
for up to 30 months after a generic firm files an ANDA
and by other generics for another 180 days, the
patents at issue in the Impax infringement case gave
Endo the power to exclude competitors even if its
patents eventually were found not to be valid or
infringed. (CX5000 (Noll Expert Report at 086-87
¶199)).
7.

Endo’s plan to reformulate Opana
ER

96. Since 2007, Endo had been working on a
reformulated “crush-resistant” version of Opana ER
(“reformulated Opana ER”) to replace the original
version. Reformulated Opana ER was also referred to
internally by Endo as EN3288 and Revopan. (CX3214
at 015; CX3199 at 046; RX007 at 0001).
97. Introducing a reformulated Opana ER was a
potential way for Endo to preserve the value of its
Opana ER franchise even after generics became

App-160
available for original Opana ER. (CX3205 at 001
(“There is also a life cycle management (LCM)
imperative for Endo’s Opana ER franchise. ... To
ensure we continue to protect the franchise in the face
of loss of regulatory exclusivity in June 2009, a TRF
[tamper-resistant formulation] of ER will be
important to secure. Without this LCM strategy,
Opana ER is expected to lose about 70% of its sales
within six months if generic entry occurs.”)).
98. Reformulating Opana ER would extend the
life of the brand through additional patent protection
and other possible roadblocks for potential generic
competitors. (CX2724 at 005 (forecasting up to four
years of “organic exclusivity” and retaining all Opana
ER sales if launched with labeling claims and ahead
of generics); CX3205 at 001; CX3251).
99. In order to maximize the value of reformulated
Opana ER, Endo’s goal was to launch the reformulated
product before the entry of a generic for original
Opana ER, with sufficient time to transition patients
from original Opana ER to reformulated Opana ER.
Endo forecasted peak-year sales of more than $199
million in 2016 if reformulated Opana ER beat
generics and was the first to enter the market. If,
however, reformulated Opana ER was launched after
generic entry, estimated peak annual sales in 2016
were $10 million. (CX2578 at 008-09 (Dec. 11, 2007
Opana Brand LCM Update, stating that Endo’s
“Priority #1” was to “Beat Generics by 1 Year”)).
100. Endo forecasted that launching reformulated
Opana ER ahead of a launch of a generic for original
Opana ER would result in an increased demand for
the reformulated product because patients will have

App-161
been transitioned to the reformulated product.
(CX2724 at 006; CX2578 at 008-09; CX4025 (Bingol,
Dep. at 95-96)).
101. Endo forecasted significant erosion of its
Opana ER franchise if Endo was unable to get
reformulated Opana ER approved in a timely manner.
If Endo launched reformulated Opana ER at the same
time that a generic for original Opana ER came onto
the market, reformulated Opana ER would capture at
most 30% to 32% of Endo’s sales of original Opana ER.
(CX1106 at 004; CX2724 at 006 (generic entry would
result in steep drop in Opana ER sales unless EN3288
were approved with tamper resistance claims ahead of
generic entry); CX1320 at 003 (projecting only $11.9
million in Oxy TRF revenues for 2011); 007
(forecasting rapid generic erosion upon generic entry
in July 2011); 024 (“Oxymorphone TRF conversion
from OPANA ER base volume: 30% to 32% conversion
of base volume; Conversion curve begins at launch
(July 2011); Peak conversion (30%) reached in 40
months”)).
102. Endo planned to remove original Opana ER
from the market after introducing reformulated
Opana ER. (CX1108 at 008 (noting that “it is likely
that removal of Opana ER will be a condition of
Revopan approval by FDA” and assuming launch of
Revopan in February 2011 and ending shipment of
Opana ER by October 2011)).
103. Launching reformulated Opana ER as far
ahead as possible of generic entry on original Opana
ER would allow Endo to separate the reformulated
brand product from potential generics with a
reasonable amount of time to make the conversion and

App-162
create the most value. (CX4025 (Bingol, Dep. at 6364); CX2578 at 009).
104. Endo wanted to introduce reformulated
Opana ER as soon as possible. (CX4025 (Bingol, Dep.
at 32); Bingol, Tr. 1295 (“the quicker you get to
market, the better”)).
105. In 2010, Endo forecasted filing its application
for approval of reformulated Opana ER with the FDA
during the third quarter of 2010 and that the approval
process would take between four and ten months.
Depending on various assumptions, Endo forecasted
launching reformulated Opana ER sometime in 2011.
(CX2575 at 004; CX1108 at 008 (assuming launch in
February 2011); CX3038 at 001 (projecting range for
launch between December 2010 and June 2011); see
also CX2573 at 004 (projecting May 2011 launch);
CX2724 at 005 (projecting range for launch between
January and September 2011)).
106. Endo understood that patients cannot be
switched immediately from one long-acting opioid to
another because physicians are “very careful as they
adjust dosages” for patients. Endo sought “an orderly
and phased transition from one product to the other so
[it] made sure [it wasn’t] leaving any current patients
in a difficult situation.” Such a transition would take
about six to nine months. (CX4019 (Lortie, Dep. at 3942, 156-57); Mengler, Tr. 530-31).
107. Endo’s plan to reformulate Opana ER and
transition the market to the new product, prior to
entry of a generic original Opana ER, would be

App-163
adversely affected if Impax launched its generic at
risk 8 in June 2010. (CX2724 at 001).
108. If Impax launched a generic Opana ER at
risk, Endo planned to launch an authorized generic for
original Opana ER. (CX2576 at 003 (“We will launch
on word/action of first generic competitor.”); CX2581
at 001 (“Endo is prepared to launch an authorized
generic if another generic is approved first.”); CX2573
at 004 (Endo planned a “[l]aunch of authorized
generic” in the event that Impax launched at risk);
CX3007 at 003 (“If Impax launches, Endo will launch
its authorized generic ...”)).
109. Endo did not intend to launch both a
reformulated Opana ER and an authorized generic of
original Opana ER at the same time. This is because
it would have been “very difficult [for Endo] to justify”
having a crushable authorized generic on the market
at the same time as a crush-proof reformulation. Endo
“intended to replace one product with the other, and
that would be the only [Opana ER] product that
[Endo] had on the market.” (CX4019 (Lortie, Dep. at
117-18); Bingol, Tr. 1338-39; see also CX1108 at 008
(Endo forecast noting that “it is likely that removal of
Opana ER will be a condition of Revopan approval by
FDA”)).
110. In March 2012, Endo stopped distributing
original Opana ER and launched reformulated Opana
ER. (Second Set of Joint Stipulations, JX003 ¶33;
CX4017 (Levin, Dep. 139)).
111. On June 8, 2017, the FDA publicly requested
that Endo voluntarily withdraw its reformulated
8

An “at-risk launch” is further explained in F. 451-464.

App-164
Opana ER product from the marketplace. On
September 1, 2017, Endo ceased sales of reformulated
Opana ER. (Second Set of Joint Stipulations, JX003
¶¶55, 57).
C. The Challenged Agreement
1.

Preliminary negotiations

112. Impax and Endo first attempted to settle
their patent dispute in the fall of 2009, before the
claim construction hearing in the Endo-Impax patent
litigation. (RX359; RX285; Second Set of Joint
Stipulations, JX003 ¶¶16-17).
113. At the time of the settlement negotiations
(fall 2009 until settlement on June 8, 2010), Larry Hsu
was Impax’s chief executive officer (“CEO”), Chris
Mengler was president of Impax’s generics division,
Margaret Snowden was Impax’s vice president of
intellectual property litigation and licensing, and
Arthur Koch was Impax’s CFO. Mr. Mengler was
Impax’s lead settlement negotiator until he was
replaced as the lead negotiator by Mr. Koch and Ms.
Snowden on June 4, 2010. (Koch, Tr. 217-18, 227-30,
310-11, 322-23; Snowden, Tr. 362).
114. At the time of the settlement negotiations
(fall 2009 until settlement on June 8, 2010), Guy
Donatiello was Endo’s senior vice president of
intellectual property and Alan Levin was Endo’s CFO.
Mr. Donatiello and Mr. Levin were the principal
negotiators for Endo. (Snowden, Tr. 362, 373-74).
115. Impax was aware during settlement
discussions with Endo in the fall of 2009 that Endo
already had agreed to a July 15, 2011 entry date for

App-165
Actavis’ generic oxymorphone ER dosages. (CX4003
(Snowden, IHT at 56-57); CX0309 at 001-02).
116. Settlement discussions between Endo and
Impax in the fall of 2009 included potential generic
entry dates. Specifically, Ms. Snowden proposed to Mr.
Donatiello that Impax should be able to enter around
July 2011 or possibly December 2011 or January 2012,
to approximate the midpoint between the expiration of
the 30-month stay in June 2010 (F. 63) and the
expiration of the asserted patents in September 2013
(F. 53). Mr. Donatiello rejected Ms. Snowden’s
proposal, arguing that Impax’s entry date should be
around the midpoint between the conclusion of
litigation through appeal and patent expiration.
(CX4003 (Snowden, IHT at 56-57); Snowden, Tr. 41820; Joint Stipulations of Jurisdiction, Law, Fact, and
Authenticity, JX001-006 ¶10).
117. Settlement discussions between Endo and
Impax in the fall of 2009 included discussions of a
potential product collaboration. (See II.C.3).
118. Settlement discussions between Endo and
Impax that had commenced in the fall of 2009 ended
after a conference call on December 7, 2009. (CX1301
at 112).
119. Impax and Endo resumed settlement
discussions in mid-May 2010, approximately one
month before the June 14, 2010 expiration of the 30month stay of Impax’s ANDA imposed by the HatchWaxman Act and approximately three weeks before
the scheduled June 3, 2010 trial in the Endo-Impax
patent litigation. (Snowden, Tr. 418; CX0310 at 004;
CX1301 at 112; F. 63, 73).

App-166
120. On or about May 14, 2010, Endo became
aware that Impax had received tentative FDA
approval for generic Opana ER, based on a press
release issued by Impax. Endo had a discussion with
its outside counsel the same day regarding the status
of settlement discussions with Impax. (CX1307 at 001;
CX1301 at 112).
121. In an internal Impax email between Dr. Hsu
and Mr. Mengler on May 14, 2010, Dr. Hsu
hypothesized a settlement with Endo with a January
2011 launch and a no-AG provision, 9 to which Mr.
Mengler replied that he would “love” a settlement.
(CX0505 at 001).
122. On May 17, 2010, Mr. Donatiello of Endo
contacted Ms. Snowden of Impax by voicemail and
email to resume settlement discussions. That
afternoon, Ms. Snowden and Mr. Donatiello discussed
a potential settlement for the first time since
December 2009. (CX0310 at 004; RX316 at 0001;
CX4003 (Snowden, IHT at 83-84)).
123. The SLA and the DCA were negotiated
together, with contract terms for both agreements
discussed in the same documents exchanged between
Endo and Impax. (Koch, Tr. 244; see, e.g., CX0320;
RX565; CX0406 at 001; CX0407 at 001-02; CX3183 at
001).

9 A no-AG provision, also referred to as a no-AG agreement, is
a provision through which a brand-name drug company agrees
not to launch an authorized generic in competition with the
generic drug company’s product during the 180-day exclusivity
period. (Koch, Tr. 235; Snowden, Tr. 392).

App-167
2.

The
Settlement
Agreement
a.

and

License

Overview of relevant provisions

124. Under the SLA, Impax agreed not to launch
its generic oxymorphone ER product until January 1,
2013. (RX364 at 0001-02, 0009 (executed SLA §§1.1,
4.1(a)) (granting license and defining the
“Commencement Date”)).
125. Under the SLA, Endo granted Impax a
license both to the initial Opana ER patents (defined
in the SLA as the ’933, ’456, and ’250 patents and any
reissuances thereof), and to “any patents and patent
applications owned by Endo or Penwest ... that cover
or could potentially cover the manufacture, use, sale,
offer for sale, importation, marketing or distribution
of products ... that are the subject of the Impax ANDA
... .” (RX364 at 0009 (SLA §4.1(a)); Joint Stipulations
of Jurisdiction, Law, Fact, and Authenticity, JX001009-10 ¶35).
126. Under the SLA, Endo provided Impax with a
“covenant not to sue,” which prohibited Endo and its
affiliates from suing Impax for patent infringement on
any of the patents licensed pursuant to section 4.1(a)
(F. 125). (RX364 at 010 (SLA §4.1(b)); see also Figg, Tr.
1963-64; Hoxie, Tr. 2885).
127. Under the SLA, the license granted by Endo
to Impax to sell generic Opana ER was exclusive
during Impax’s 180-day first-filer exclusivity period
for the five dosage strengths for which Impax had filed
an ANDA. This exclusive license grant meant that
Endo could not sell an authorized generic product of
these five dosages until Impax’s 180-day exclusivity

App-168
period ended. (RX364 at 0010-11 (SLA §4.1(c));
CX3164 at 009- 10).
128. Under the SLA, Impax would be obligated to
pay Endo a 28.5% royalty on Impax’s generic Opana
ER sales during Impax’s 180-day exclusivity period in
the event that sales of Opana ER grew by a specific
percentage prior to Impax’s entry. Specifically, the
royalty was owed if Opana ER sales in the quarter
before Impax’s licensed entry “exceed[ed] $46,973,081
compounded quarterly at an annual rate of ten
percent ... .” Otherwise, Impax had no obligation to
pay a royalty. (RX364 at 0012 (SLA §4.3)).
129. Under the SLA, pursuant to a provision titled
“Endo Credit,” Endo would be obligated to make a cash
payment to Impax in the event Endo’s Opana ER
dollar sales (as calculated by units multiplied by the
wholesale acquisition cost (“WAC”) fell by more than
50% from the “Quarterly Peak” (the highest sales
quarter between Q3’2010 and Q3’2012) to the fourth
quarter of 2012 (the quarter before Impax would be
permitted to launch its generic oxymorphone ER
product). (RX364 at 0003-06, 0012 (SLA §§1.1, 4.4,
definitions of “Endo Credit,” “Market Share Profit
Factor,” “Market Share Profit Value,” “Pre-Impax
Amount,” “Prescription Sales,” “Quarterly Peak,” and
“Trigger Threshold”)).
130. In January 2013, Impax launched generic
oxymorphone ER in the 5, 10, 20, 30, and 40 mg dosage
strengths per the terms of the SLA. (Second Set of
Joint Stipulations, JX003 ¶40).

App-169
b.

Negotiations of the SLA
i. Initial term sheet

131. On May 26, 2010, Mr. Donatiello of Endo sent
to Mr. Mengler and Ms. Snowden of Impax two term
sheets. 10 Endo’s initial term sheet for the SLA
included a proposed license agreement with a no-AG
provision. Specifically, the proposed license agreement
provided that Impax would have an “Exclusivity
Period” of 180 days for each of the dosages for which
Impax held first-to-file exclusivity (5, 10, 20, 30, and
40 mg), during which Impax’s license “would be
exclusive as to all but (i) Opana ER®-branded
products that are not sold as generic products and (ii)
generic products covered by prior license agreements
executed as of the effective date of the License
Agreement with Impax.” (CX0320 at 009-10).
132. Endo’s May 26, 2010 initial term sheet for the
SLA included a proposed license agreement that
granted Impax a license to sell generic Opana ER with
a commencement date of March 10, 2013 and provided
that Impax would not enter the market prior to that
commencement date. (CX0320 at 009).
133. Delaying Impax’s entry was valuable to
Endo. Endo calculated that “[e]ach month that
generics are delayed beyond June 2010 is worth ~$20
million in net sales per month.” Endo forecasted that
if Impax launched its generic in July 2010, Endo
would lose approximately $100 million in branded
Opana ER sales during the first six months Impax was
on the market. Endo forecasted that it would lose 85%
10 The May 26, 2010 term sheet relating to the DCA is discussed
in F. 294.

App-170
of its branded Opana ER sales within three months of
generic entry. (CX1106 at 005; CX3445 at 001, 002;
CX1320 at 007).
134. The proposed license agreement included
with Endo’s May 26, 2010 initial term sheet for the
SLA was limited to the then-issued Opana ER patents
(defined as the ‘933, ‘456 and ‘250 patents), and any
issued continuations thereof. (CX0320 at 006-07, 00910).
135. The proposed license agreement included
with Endo’s May 26, 2010 initial term sheet for the
SLA contained a provision requiring Impax to pay
royalties to Endo at a rate of 35% on Impax’s gross
sales of generic Opana ER during Impax’s 180-day
exclusivity period, if Endo’s gross sales of Opana ER
during the three full calendar months before Impax’s
entry date exceeded a certain specified dollar amount.
(CX0320 at 010).
ii.

Impax’s counteroffer

136. Impax responded to Endo’s May 26, 2010
initial term sheets (F. 131) on May 27, 2010, with a
counteroffer. (RX318).
137. Impax’s May 27, 2010 counteroffer to Endo,
transmitted by Mr. Mengler to Mr. Levin of Endo,
provided for a generic launch date of January 1, 2013,
“with no authorized generic and certain acceleration
triggers, including market degradation to any
alternate product.” (RX318 at 0001; Koch, Tr. 237-38;
Snowden, Tr. 432; Mengler, Tr. 532).
138. An acceleration provision or trigger for
market degradation would allow Impax to launch its
generic oxymorphone ER product earlier than

App-171
January 1, 2013 in the event that Opana ER brand
sales fell by a certain amount or percentage. (CX4010
(Mengler, IHT at 33- 34)).
139. Impax wanted a market acceleration
provision as “protection in case Endo had any
intentions of moving the market to a next-generation
product.” Impax had included similar provisions in
other patent settlements with brand companies.
(CX4032 (Snowden, Dep. at 104); CX4003 (Snowden,
IHT at 121-22)).
140. Although Impax did not have specific
information about Endo’s plans to reformulate Opana
ER, Impax was concerned that Endo had “a secret plan
to damage the market” with the introduction of a
reformulated Opana ER product. (CX0217 at 001; see
Snowden, Tr. 433-34; Mengler, Tr. 569-70; CX4017
(Levin, Dep. at 118)).
141. Impax had seen analyst reports suggesting
that Endo was working on crush-resistant drugs
generally. (CX2540 at 001; Mengler, Tr. 579-80).
142. In light of concern about opioid abuse, the
FDA encouraged opioid manufacturers to “figure out a
way to make them tamper-resistant [and] the primary
manner in which companies were doing that was to
make the tablet in such a manner that [it] couldn’t be
crushed.” (Mengler, Tr. 569).
143. Impax was aware that Purdue Pharma, L.P.,
the manufacturer of OxyContin, had introduced a
reformulated, crush-resistant version of its product
and was withdrawing its original formulation.
(Mengler, Tr. 569; CX4017 (Levin, Dep. at 118-19)).

App-172
144. Impax’s May 27, 2010 counteroffer to Endo
revised Endo’s formula for calculating royalties to
Endo in connection with the license to sell generic
Opana ER by raising the amount of gross sales that
would trigger a royalty payment, and revising the
royalty calculation. (RX318 at 0001).
145. After receiving Impax’s May 27, 2010
counteroffer, Mr. Levin of Endo responded by email
that the parties were “[c]learly ... too far apart” and
suggested a conference call among Mr. Mengler and
Ms. Snowden for Impax, and Mr. Levin and Mr.
Donatiello for Endo. (CX1305 at 001).
146. Negotiators for Endo and Impax conferred by
telephone on May 27, 2010, and over the weekend of
May 28 and 29, 2010. (CX1301 at 113; CX310 at 005).
iii. Rejection
of
acceleration
trigger and development of the
Endo Credit
147. Endo opposed the concept of accelerated
entry and rejected Impax’s request for a market
acceleration trigger. Endo insisted to Impax “that they
had no interest in” moving the market to a crushresistant version of Opana ER and “they weren’t
planning to.” (CX4032 (Snowden, Dep. at 104, 106-07);
Snowden, Tr. 385; CX4014 (Hsu, IHT at 85- 87)).
148. Endo’s rejection of an acceleration trigger
increased Impax’s concern that Endo was going to
switch the market to a crush-resistant version of
Opana ER. (Mengler, Tr. 568).
149. Because the proposed settlement provided
for “a period of time between the date of [FDA]
approval and the ... launch [in] January [2013].

App-173
[Impax was] worried about the control the brand had
over their product during that time, and [Impax was]
looking for a way to gain - take back some of that
control away from the brand.” (Koch, Tr. 240-41).
150. Mr. Mengler responded to Endo’s insistence
that Endo was not planning to move the market to a
crush-resistant version of Opana ER that, “if you’re
telling me the truth and the product is really going to
grow, well, you know, there will be something in it for
you as well [and] if you’re not telling me the truth,
you’re going to pay me what I would have made
anyway.” (CX4010 (Mengler, IHT at 35-36); see also
CX4026 (Nguyen, Dep. at 164-66) (the “gist” of the
Endo Credit was “Mr. Mengler basically telling Endo
to put its money where its mouth was”)).
151. At an in-person meeting among negotiators
for Endo and Impax held on June 1, 2010, Endo
proposed to Impax that “if the product declines by
more than 50%, [Impax] would be entitled to a ‘make
good’ payment such that [Impax’s] potential profits
would equal to 50%.” (RX387 at 0001 (June 1, 2010
Mengler internal email recapping the “current
proposal”); see also CX0310 at 005).
152. On June 1, 2010, Mr. Mengler of Impax, in
an internal email to Dr. Hsu, Ms. Snowden and others,
described the current proposal as including a generic
launch date of February 1, 2013, with acceleration
triggers. In addition, “[i]f the product grows beyond
certain levels, we pay them [a percentage of profits]
during the six month exclusivity ... [I]f the product
declines by more than 50%, we would be entitled to a
‘make good’ payment such that our potential profits
would equal to 50%.” Mr. Mengler stated his opinion

App-174
that he “still like[s] January” for the agreed generic
launch date and that “[t]he make-good trigger is too
low. A similar arrangement with, say a 75% number
might be quite attractive.” (RX387).
153. Once Endo refused to agree to an acceleration
trigger, and agreed instead to the concept of a makewhole payment, Impax stopped pursuing an
acceleration trigger. (CX4018 (Koch Dep. at 71);
Snowden, Tr. 385).
154. On the afternoon of June 3, 2010, negotiators
for Endo and Impax reached an agreement in principle
for settling the litigation. That same day, in an
internal email from Mr. Mengler of Impax to Dr. Hsu,
Ms. Snowden, Mr. Koch, and others, Mr. Mengler
described the key provisions for the SLA. Generic
launch would be January 1, 2013. The royalty
provisions were further adjusted and “[i]f the units
decline by more than 50% from peak at launch, make
whole provisions kick in that protect the downside.”
(CX0407 at 001-02; CX3334 at 001 (Mr. Levin
reporting that Endo had “reached a handshake
agreement with Impax); CX4012 (Donatiello, IHT at
139) (“Endo and Impax reached an agreement in
princip[le] around midday on June 3rd.”); CX0114 at
001 (June 3, 2010, email from Mengler reporting that
“[i]t seems all parties internally are good to go”).
155. On June 4, 2010, Mr. Mengler was replaced
as Impax’s lead negotiator by Mr. Koch and Ms.
Snowden. After an internal Impax management
discussion that day, at the instruction of Impax
management, Mr. Koch and Ms. Snowden had a
conference call with Endo in which they proposed
dropping the existing terms for the SLA and DCA, and

App-175
entering into a “simple settlement” with the same July
15, 2011 entry date that Endo provided to Actavis in
their settlement. (CX4032 (Snowden, Dep. at 97-99);
Snowden, Tr. 372-74; CX507 at 001).
156. In response to Impax’s June 4, 2010 proposal
for a simple settlement with a July 15, 2011 entry date
(F. 155), Mr. Levin of Endo expressed anger that the
terms of the deal he had negotiated with Mr. Mengler
were not being honored, refused Impax’s request, and
insisted on reverting back to the deal he had
negotiated with Mr. Mengler. (CX4032 (Snowden,
Dep. at 99-102); Snowden, Tr. 374-75).
iv. Finalizing the SLA
(a) No-AG provision and Endo
Credit
157. Between June 4 and June 7, 2010, Endo and
Impax exchanged numerous drafts, and redlined
revisions thereto, of the SLA. (See, e.g., CX0323 (June
4, 2010 Endo first draft); CX0324 (June 5, 2010 Impax
revisions); CX2771 (June 6, 2010 Endo revisions);
CX1813 (June 7, 2010 Endo revisions); CX2767 (June
7, 2010 Impax revisions); RX336 (June 7 Impax
revisions); RX322 (June 7 Endo revisions); RX364
(SLA)).
158. Each draft of the SLA exchanged by Endo
and Impax, as well as the final executed SLA, provided
for an entry date of January 1, 2013. (See, e.g., CX0323
§1.1 (definition of “Commencement Date”), §4.1(a);
CX0324 (same); CX2771 (same); CX1813 (same);
CX2767 (same); RX336 (same); RX364 (SLA)).
159. Endo’s initial term sheet to Impax, provided
on May 26, 2010, as well as each settlement draft

App-176
exchanged by Endo and Impax, contained a no-AG
provision. (See, e.g., F. 131; CX0323 §4.1(c); CX0324;
CX2771; CX1813; CX2767; RX336; RX364 (SLA)).
160. Endo drafted the first iteration of the makewhole provision, which was included in the first draft
of the SLA Endo sent to Impax on Friday June 4, 2010
as section 4.4 of the SLA. Under Endo’s proposal,
Endo’s obligation to pay Impax a cash amount would
be triggered if the amount of oxymorphone active
pharmaceutical ingredient (“API”) shipped in the
Opana ER strengths for which Impax was first to file
fell below a set threshold from the peak consecutive
three-month sales period between the SLA’s effective
date and the fourth quarter of 2012. The amount Endo
would ultimately be obligated to pay depended on
Impax’s sales during its 180-day exclusivity period.
Generally, the lower Impax’s net profits during the
exclusivity period, the lower the amount Endo was
obligated to pay. (CX0323 at 001, 005-07, 012 (June 4,
2010 draft SLA §1.1 (definitions of “Impax’s Net
Profit,” “Impax Product,” “Exclusivity Period, “PreImpax Amount,” “Three Month Shipment Amount,”
and “Trigger Threshold”), §4.4).
161. Roberto Cuca, Endo’s vice president of
financial planning and analysis, was tasked with
developing a provision that became known as “the
Endo Credit” (F. 95-96). Mr. Cuca’s “goal was to make
the provision be as beneficial to Endo as possible.” Mr.
Cuca looked for ways to “improve the economic effect
of this provision to Endo.” (CX4035 (Cuca, Dep. at 6869, 96-97); Cuca, Tr. 612, 614-15).
162. On Saturday, June 5, 2010, counsel for
Impax sent a revised draft of the SLA to Endo. Impax

App-177
renamed Endo’s section 4.4 the “Endo Credit” and
proposed two changes to Endo’s proposal. First, Endo’s
obligation to pay the Endo Credit would be dependent
on a decline of 50% or more in Opana ER unit sales
rather than API. Second, if Endo’s obligation to pay
was triggered, the amount to be paid would not rely on
Impax’s actual sales of generic oxymorphone ER
during its exclusivity period, but rather on the
revenues Impax would have expected to make during
the exclusivity period had Endo not switched the
market. To approximate this expected amount, the
formula incorporated the generic substitution rate
(90%), the generic price (75% of the WAC brand price),
and the length of the exclusivity period (50%, or half a
year or 180 days). (CX0324 at 001, 045 (June 5, 2010
draft SLA §4.4, definitions of “Endo Credit,” “Market
Share Factor,” “Market Share Value,” “Pre-Impax
Amount,” “Trigger Threshold,” and “Quarterly
Peak.”).
163. On Sunday, June 6, 2010, Endo responded to
Impax’s proposal for the Endo Credit with two
additional changes. First, Endo proposed that its
obligation to pay the Endo Credit would be dependent
on a decline of 50% or more in Opana ER dollar sales,
as calculated by multiplying unit sales by the
wholesale acquisition cost (WAC), instead of unit
sales. Second, Endo wanted the amount to reflect
Impax’s expected profits during the exclusivity period,
rather than Impax’s expected revenues, which would
effectively reduce any amount to be paid to Impax
under the Endo Credit. (CX2771 at 001, 005-07, 014
(June 6, 2010 draft SLA §1.1 (definitions of “Endo
Credit,” “Market Share Profit Factor,” “Market Share
Profit Value,” “Pre-Impax Amount,” “Prescription

App-178
Sales,” and “Quarterly Peak”), §4.4; Cuca, Tr. 639). See
also CX4035 (Cuca, Dep. at 105-06) (“[T]hat is one of
the ways that the Endo team would have negotiated
to make it more financially favorable to Endo.”)).
164. Endo believed that incorporating Impax’s net
profit margin into the Endo Credit was consistent with
the objective of “trying to make [Impax] whole at the
bottom line, so at their profit line, whereas the prior
provision would have made them whole at the revenue
line and actually would have advantaged them as
compared to what was trying to be achieved.” (Cuca,
Tr. 638-39).
165. Impax agreed to the two changes to the Endo
Credit proposed by Endo in Endo’s June 6, 2010
revised draft to Impax. (CX2767 at 004, 006-07, 013
(June 7, 2010 Impax draft SLA §4.4, definitions of
“Endo Credit,” “Market Share Profit Factor,” “Market
Share
Profit
Value,”
“Pre-Impax
Amount,”
“Prescription Sales,” and “Quarterly Peak”); RX364 at
0003-06, 0012 (SLA §1.1 (definitions of “Endo Credit,”
“Market Share Profit Factor,” “Market Share Profit
Value,” “Pre-Impax Amount,” “Prescription Sales,”
and “Quarterly Peak”), §4.4).
(b) Scope of patent license
166. Both Endo’s May 26, 2010 initial term sheet
for the SLA and Endo’s June 4, 2010 first draft of the
SLA limited Impax’s license to the three patents then
listed in the Orange Book for Opana ER (the ’933, ’456,
and ’250 patents). (CX0320 at 006-07, 009-10 (May 26,
2010 Endo term sheets); CX0323 at 006, 010 (June 4,
2010 draft SLA §§1.1, 4.1(a))).
167. At the time the negotiations were being
conducted, Impax was aware that Endo had additional

App-179
pending patent applications relating to Opana ER and
recognized that Endo could acquire still other patents.
(RX398 at 001; RX568; Mengler, Tr. 571-72; Snowden,
Tr. 440, 442-43; see also Joint Stipulations of
Jurisdiction, Law, Fact, and Authenticity, JX001-010
¶36).
168. Given the possible effects of Endo’s
additional patent applications relating to Opana ER,
a reasonable litigant would have been concerned with
Endo’s future patents. (Figg, Tr. 1938).
169. On June 5, 2010, Impax proposed broadening
the patent license in the SLA to “any patents and
patent applications owned by or licensed to Endo ...
that cover or could potentially cover” Impax’s generic
oxymorphone ER product. (CX0324 at 030 (June 5,
2010 Impax revised draft of SLA §4.1(a)); see also
CX4026 (Nguyen, Dep. at 153-55) (testifying that the
June 5 SLA draft expanded the scope of the patent
license); CX4012 (Donatiello, IHT at 93)).
170. Endo accepted Impax’s language, referenced
in F. 169. (CX2771 (June 6 Endo revisions); CX1813
(June 7 Endo revisions); CX2767 (June 7 Impax
revisions); RX336 (June 7 Impax revisions); RX322
(June 7 Endo revisions)).
c.

Value transferred
under the SLA
i.

to

Impax

No-AG provision

171. First-filer exclusivity (F. 21) is very valuable
to a generic drug manufacturer. First-filer exclusivity
gives the first filer 180 days, or “six months of
runway,” before any potential entry by another

App-180
generic and helps the generic company make more
money. (Koch, Tr. 232-33).
172. A first-filer generic manufacturer makes a
substantial portion of its profits during the 180-day
exclusivity period. The introduction of an authorized
generic during that exclusivity period reduces the
value of the exclusivity period by causing lower prices
and fewer sales for the first filer. (Reasons, Tr. 121315; Koch, Tr. 232-33).
173. Impax was the first company to file an ANDA
with Paragraph IV certifications for the 5, 10, 20, 30,
and 40 mg dosages of oxymorphone ER, which
comprised all of the dosages of Opana ER except the
7.5 and 15 mg dosages. The five doses as to which
Impax was the first to file constitute the five most
popular dosages of Opana ER, comprising 95% of
Endo’s Opana ER sales. (Joint Stipulations of
Jurisdiction, Law, Fact, and Authenticity, JX001-007
¶13; Mengler, Tr. 525; Koch, Tr. 231-32; Snowden, Tr.
354, 414).
174. As the first filer on the 5, 10, 20, 30 and 40
mg dosages of oxymorphone ER, Impax was entitled to
180 days of generic exclusivity. During that 180 days,
no other ANDA filer could market a generic version of
Opana ER because the applicable statute does not
allow the FDA to give final approval to any other
ANDA filer during that 180-day time period. (Joint
Stipulations of Jurisdiction, Law, Fact, and
Authenticity, JX001-007 ¶14; Second Set of Joint
Stipulations, JX003 ¶7; Snowden, Tr. 414; see also
Mengler, Tr. 522-23).
175. The term “authorized generic” is a term of art
used in the pharmaceutical industry to describe a

App-181
generic that is made available for sale using the brand
company’s New Drug Application approval. An
authorized generic is generally launched by the brand
company or another company licensed by the brand
company. Launching an authorized generic helps a
company partially recoup sales of the branded product
that are lost to generic competition. (Mengler, Tr. 523;
Koch, Tr. 233; Joint Stipulations of Jurisdiction, Law,
Fact, and Authenticity, JX001-005 ¶¶28-31; Reasons,
Tr. 1211-12).
176. The 180-day exclusivity period does not
prevent the brand company from launching an
authorized generic. The brand company, if it chooses,
can launch an authorized generic during the 180-day
exclusivity period and compete with the first-filing
generic during that period. (Mengler, Tr. 523-24; see
also Joint Stipulations of Jurisdiction, Law, Fact, and
Authenticity, JX001-005 ¶28; Second Set of Joint
Stipulations, JX003 ¶7).
177. Having an authorized generic competitor
during the 180-day exclusivity period generally
results in a decrease in the first filer’s prices of
approximately 30 to 35%. The first filer’s share of the
generic market will also be reduced as the first generic
manufacturer will have to split the sales with the
authorized generic manufacturer. (Reasons, Tr. 121314; Mengler Tr. 524).
178. Endo, as the holder of the approved NDA for
Opana ER, could market its own authorized generic
version of Opana ER during Impax’s exclusivity
period. (Second Set of Joint Stipulations, JX003 ¶7).
179. Impax was aware that an authorized generic
would adversely impact Impax’s market share and

App-182
profits. (CX0514 at 004 (5/16/2010 email from Chris
Mengler attaching 5-year forecast 2010 showing
Impax with less than 100% of the generic market
share within the 180-day exclusivity period); CX2825
at 008 (2/11/2010 email from Ted Smolenski attaching
5-year forecast 2010 showing same)).
180. If there were no authorized generic, then
Impax would be the only generic product on the
market during its 180-day exclusivity period and could
charge a higher price for generic Opana ER compared
to a marketplace that had two companies selling
generic products. (Reasons, Tr. 1215; Snowden, Tr.
392).
181. Impax executives estimated that if Endo
launched an authorized generic when Impax entered
the market, Endo’s authorized generic would capture
as much as half of sales of generic Opana ER and
cause substantially lower generic prices during the
exclusivity period than would be the case if Impax sold
the only generic. (CX4037 (Smolenski, Dep. at 53-54);
CX4002 (Smolenksi, IHT at 80-81); CX0202 at 001).
182. Impax would generally seek a no-AG
provision as an element of negotiating a settlement
agreement with a brand manufacturer. The absence of
an authorized generic would mean more control for the
generic company, and control can often lead to higher
profits for the generic company. (Koch, Tr. 234).
183. Mr. Mengler, Impax’s primary negotiator
with Endo, believed that getting a no-AG provision
would be beneficial to Impax. Along with obtaining the
earliest possible entry date, a no-AG agreement is
among the more important things that Impax would

App-183
seek in a negotiation in order to get the best possible
deal for Impax. (Mengler, Tr. 526).
184. A six-month no-AG provision was one of the
terms included as part of the Endo-Impax settlement
throughout the settlement negotiations. (F. 159).
185. The no-AG provision in the SLA prohibited
Endo from selling an authorized generic product for
any of the five specified dosages as to which Impax
was first to file until after Impax’s 180-day exclusivity
period ended. (F. 127; RX364 at 0010-11 (SLA §4.1(c)).
186. At time of the execution of the SLA, Impax
did not know whether, absent the settlement, Endo
would launch an authorized generic. (CX3164 at 01920).
187. The no-AG provision in the SLA guaranteed
to Impax that Impax, as the first to file on generic
Opana ER, would be the only seller of generic Opana
ER during its first 180 days on the market and would
not face competition from an Endo authorized generic.
(Snowden, Tr. 392; CX0320 at 009-10; CX4003
(Snowden, IHT at 111-13)).
188. The no-AG provision in the SLA was worth
substantial value to Impax when the SLA was
executed because the no-AG provision ensured that
Impax would face no generic competition during the
180-day exclusivity period and would earn greater
profits by not having to share generic sales with an
Endo authorized generic. (CX5000 (Noll Expert Report
at 153-55 ¶¶346-48); Noll, Tr. 1452-54).
189. In 2010, Impax forecasted the effect of an
authorized generic by Endo on Impax’s expected
generic sales. In what Impax referred to as the

App-184
“upside” scenario, Impax assumed that Endo’s
authorized generic Opana ER would enter about two
months after Impax’s launch of generic Opana ER.
Under the upside scenario, Impax’s share of generic
sales was estimated to fall to 60% and Impax’s average
price was estimated to fall by 36% (from 55% of brand
WAC to 35%). Under what Impax referred to as its
“base” scenario, Impax assumed that Endo’s
authorized generic Opana ER would enter
simultaneously with Impax, would capture half of the
market, and would cause prices to fall by the same
36%. (CX4037 (Smolenski, Dep. at 147-50, 166);
CX0004 at 005-19; CX0222 at 004-11; CX2825 at 00817; CX2830 at 004-09; CX2831 at 003-08; CX2853 at
007-15).
190. Complaint Counsel’s economic expert,
Professor Roger Noll, applying Impax’s forecasts in
2010 (F. 189), calculated that under Impax’s upside
scenario, entry by an authorized generic during
Impax’s 180-day exclusivity period would cause
Impax’s revenues to fall by 61.6%, or approximately
$23 million. Under Impax’s “base” assumptions (F.
189), entry by an authorized generic during Impax’s
180-day exclusivity period would cause Impax’s
revenues to fall by 68%, or approximately $33 million.
(CX5000 (Noll Expert Report at 155 ¶350)).
191. In May 2010, Todd Engle, of Impax’s sales
and marketing team, prepared an analysis for Dr. Hsu
and Mr. Mengler of the effect of an authorized generic
on Impax’s profits during Impax’s 180-day exclusivity
period, which projected lost profits in the amount of
$24.5 million if an AG entered within two to four
weeks after Impax’s launch of generic oxymorphone

App-185
ER. (CX2753 at 004 (six month lost profits model for
oxymorphone ER, predicting profits of $53 million
with no AG, and $28.5 million with AG)).
192. On June 1, 2010, Endo approximated the
revenues it would gain from launching an authorized
generic of Opana ER, if Impax launched at risk and
Endo launched its authorized generic on July 1, 2010,
to be $25 million. (CX1314).
193. The no-AG provision in the SLA was worth
between $23 and $33 million in projected sales
revenue to Impax at the time Impax entered into the
SLA. F. 189-191.
194. The no-AG provision had substantial value to
Impax even if original Opana ER sales grew so much
that Impax ended up having to pay a royalty to Endo,
pursuant to the SLA. If Endo’s sales of original Opana
ER reached a sufficiently high level prior to Impax’s
generic entry, Impax would be obligated to pay a
royalty to Endo in the amount of 28.5% of Impax’s net
sales of generic Opana ER. Because the royalty
percentage is lower than the expected decline in
Impax’s revenue attributable to competition from an
AG, Impax’s revenues with the no-AG provision and a
royalty are always higher than revenues with
competition from an AG and no royalty. In all cases,
Impax would benefit more from being the only seller
of a generic oxymorphone ER product, than it would
be required to pay Endo in royalties. (RX364 at 0012
(SLA §4.3); CX5001 (Bazerman Expert Report at 026
¶51); CX5000 (Noll Expert Report at 155-56 ¶¶35051); Mengler, Tr. 533).

App-186
ii. Endo Credit
195. Under section 4.4 of the SLA, titled “Endo
Credit,” Endo agreed to pay Impax an amount,
determined by a mathematical formula, in the event
that prescription sales of Opana ER declined by more
than 50% from the quarterly peak sales during the
time period from July 2010 to September 2012.
(RX364 at 0003-06, 0012 (SLA §§1.1, 4.4) (“If the “PreImpax Amount is less than the Trigger Threshold,
then Endo shall pay to Impax the Endo Credit”);
CX3164 at 010-11).
196. The formula for calculating the Endo Credit
incorporates a number of factors that relate to Impax’s
sales of generic Opana ER multiplied by the market
opportunity for the generic product in the quarter of
peak sales. The agreement defines Impax’s “Market
Share Profit Value” as the product of (1) an assumed
generic substitution rate for original Opana ER (90%),
(2) an assumed net realized generic price discounted
from the brandname price (75%), (3) an assumed
generic profit margin (87.5%), (4) 50% (expressing the
180-day exclusivity period as half of a year), and (5)
the annualized sales of Opana ER during the quarter
of peak sales for Opana ER during the period from the
third quarter of 2010 to the third quarter of 2012
divided by 100. (RX364 at 0003 (“Endo Credit”
definition), 0004 (“Market Share Profit Factor”
definition & “Market Share Profit Value” definition),
0005 (“Pre-Impax Amount” definition), 0005-06
(“Quarterly Peak” definition), 0006 (“Trigger
Threshold”
definition),
0012
(“Endo
Credit”
provision)).

App-187
(a) Purpose
Credit

of

the

Endo

197. The Endo Credit was designed to “back-up”
the value of the no-AG provision and provide value to
Impax regardless of whether Endo launched a
reformulated version of Opana ER. (F. 198-215).
198. When brand companies introduce a
reformulated drug, they often cease marketing and
selling the original product. They can also withdraw
the
original
product’s
referencelisted
drug
designation, preventing generic products from having
AB-rated status. (CX4003 (Snowden, IHT at 30-31);
CX4014 (Hsu, IHT at 152)).
199. By introducing a reformulated drug, the
brand company can greatly reduce the opportunity for
generic versions of the original drug since those
generic products are no longer bioequivalent to - and
not subject to automatic substitution in place of - the
reformulated product. (Snowden, Tr. 434; CX4030
(Hsu, Dep. at 108); Koch, Tr. 238 (reformulation can
“switch patients away from the brand product” as to
which Impax has the generic “in favor of a line
extension” not covered by the ANDA)).
200. Impax’s generic Opana ER would not be ABrated to a reformulated Opana ER product. (Mengler,
Tr. 528).
201. Protecting the market for Impax’s entry date
was a priority for Impax. (Snowden, Tr. 490).
202. Because “the generic would rely on the ...
automatic substitution in the pharmacy,” not having a
reference brand product means that pharmacists

App-188
“can’t substitute” the generic for the branded drug.
(CX4014 (Hsu, IHT at 152)).
203. For a generic drug to be sold where there is
no branded drug for which it is automatically
substituted, doctors must actually write out a
prescription for the generic product. (CX4014 (Hsu,
IHT at 152); CX4004 (Engle, IHT at 221)).
204. If Endo were to move to a reformulated
Opana ER, then Impax’s market opportunity for its
generic product would be significantly reduced or even
zero, because Opana ER in its original form
disappears or becomes insignificant. (Snowden, Tr.
434; Mengler, Tr. 527).
205. Mr. Mengler was concerned that
reformulation was an effort by Endo to “subvert the
value of the deal” he was trying to put together to get
Impax’s product on the market. (Mengler, Tr. 526-27).
206. If Endo did destroy the market for Impax’s
generic Opana ER, Mr. Mengler wanted Impax “to be
made whole for the profits that [Impax] would have
otherwise achieved.” (Mengler, Tr. 533).
207. If “the market changed substantially before
the date that the parties agreed that Impax could
launch,” the provision “would be a way of making
Impax whole.” (Cuca, Tr. 617; CX4035 (Cuca, Dep. at
69-70) (“If sales of Opana ER had decreased,” the
provision would “kind of fix that ... [b]y making a trueup payment to Impax. ... The true-up payment would
correct for the loss in the value of the market that had
occurred before the generic entry date.”)).
208. Getting downside protection for Impax in the
event Endo reformulated Opana ER was “super, super

App-189
important” to Impax’s primary negotiator of the EndoImpax Settlement. According to Mr. Mengler,
“something that didn’t protect us from the downside
was ... a deal-breaker.” (Mengler, Tr. 535-36; CX4010
(Mengler, IHT at 44)).
209. A sharp decline in the sales of branded
Opana ER before Impax’s generic launch would
decrease the value of the no-AG provision that Impax
agreed to with Endo, because the total market
potential for generic Opana ER would be decreasing.
The Endo Credit payment was designed to “correct for
the loss in the value of the market that had occurred
before the generic entry date.” (Reasons, Tr. 1218;
CX4035 (Cuca, Dep. at 69-70)).
210. If the market for Opana ER did not decline,
the value of the no-AG provision would be higher, but
if the market did decline, the Endo Credit provision
was designed to provide Impax with a payment.
(Reasons, Tr. 1218-19; CX4020 (Reasons, Dep. at 5556)).
211. The Endo Credit was designed as insurance
against the risk of Endo reformulating Opana ER. If
the market for Opana ER did not decline, the value of
the no-AG provision would be higher, but if Endo
effected a “switchout” to reformulated Opana ER, then
the Endo Credit provision was designed to provide
Impax with a payment. (Koch, Tr. 265-66; Reasons, Tr.
1218-19; CX4020 (Reasons, Dep. at 55-56)).
212. If Endo’s obligation to pay the Endo Credit
were triggered, based on declining sales of Opana ER
prior to Impax’s generic entry, the calculations of the
Endo Credit were designed to approximate the net
profits Impax would have expected to make during its

App-190
six-month exclusivity period, with no AG. The
provision achieved this by basing the calculation in
part on the expected generic substitution rate (90%),
the expected generic price (75% of the brand WAC
price), Impax’s net profit margin (87.5%), and the
length of the no-AG exclusivity period (50%, or 180
days expressed as half a year). (RX364 at 0004 (SLA
§4.4, definitions of “Market Share Profit Value”); see
also Cuca, Tr. 635- 37). By including Impax’s net profit
margin rather than just looking to Impax’s expected
revenues, any amount Endo would be required to pay
was reduced by 12.5%. (RX364 at 0004 (SLA §4.4,
definitions of “Market Share Profit Value”); Cuca, Tr.
640-41).
213. The Endo Credit provision “was intended to
insulate” Impax from the risk of substantial decrease
in Opana ER sales prior to the agreed generic entry
date. The goal was, “if the market changed
substantially before the date that the parties agreed
that Impax could launch, there would be a way of
making Impax whole” by providing Impax with the
profits that Impax otherwise would have achieved
during its 180-day exclusivity period, had a change in
the marketplace not occurred. (Cuca, Tr. 617; CX4035
(Cuca, Dep. at 81-82); Mengler, Tr. 533).
214. The Endo Credit provision was designed to
provide an approximation of the profits that Impax
would have earned from sales of generic Opana ER
during Impax’s six-month exclusivity period, based on
pricing, share and other assumptions. (CX4010
(Mengler, IHT at 36-37); CX4035 (Cuca, Dep. at 69-70)
(“If sales of Opana ER had decreased,” the provision
would “kind of fix that ... [b]y making a true-up

App-191
payment to Impax. ... The true-up payment would
correct for the loss in the value of the market that had
occurred before the generic entry date.”)).
215. During a November 2011 earnings call,
Impax’s CFO, Mr. Koch, who also helped negotiate the
SLA, discounted the impact of Endo switching Opana
ER to a new formulation because of the terms of the
Endo-Impax Settlement, stating: “Fortunately,
though, we do have [downside] protection built into
the agreement so we should have a reasonable
outcome almost no matter what happens.” (Koch, Tr.
264-65; CX2703 at 012-13).
(b) Dollar value of the Endo
Credit at the time of
settlement
216. The dollar value of the Endo Credit was
uncertain at the time of settlement. The dollar value
was contingent on unknown future events that were
outside of Impax’s control, such as the figure for
quarterly peak sales for Opana ER prior to generic
entry, which was the biggest “input” in the Endo
Credit formula. (Cuca, Tr. 629; Snowden, Tr. 437-38).
217. The formula that determined any Endo
Credit payment required (1) determining Endo’s
quarterly peak sales between July 2010 and
September 2012; (2) determining the “Pre- Impax
amount” of Opana ER sales, meaning the sales of
Opana ER in the fourth quarter of 2012, immediately
prior to Impax’s January 2013 generic entry; (3)
comparing the quarterly peak number to the preImpax amount, and determining if the pre-Impax
amount is less than 50%, which triggered a payment
obligation; and (4) multiplying the difference between

App-192
the quarterly peak number and the pre-Impax number
by a specified amount to calculate the final sum due.
Each of these formula inputs was unknown at the time
of settlement. (Snowden, Tr. 437-38; see RX364 at 006;
Engle, Tr. 1749-50).
218. Impax did not forecast a payment under the
Endo Credit in Impax’s business forecasts. (Mengler,
Tr. 582; CX4038 (Engle, Dep. at 187-88)).
219. Financial projections by Endo and Impax at
the time of the settlement anticipated continued
growth in Opana ER sales. (CX0222 at 003-11 (Impax
forecasts for Opana ER); CX2530 at 007-08 (Endo
forecasts for Opana ER)).
220. Prior to the settlement, Mr. Cuca ran some
calculations for the Endo Credit formula to “make sure
that it was producing outputs that [he] thought it was
supposed to be producing.” Using the Excel program,
Mr. Cuca spent approximately five minutes entering
potential “peak sales” figures into the Endo Credit
formula to make sure it produced a sensible result.
These calculations produced a range of payouts,
including a possible zero payment. For the “peak
sales” input, Mr. Cuca relied on Endo sales forecasts.
(Cuca, Tr. 628-31; CX4035 (Cuca, Dep. 79-84)).
221. Prior to the settlement, Impax’s director of
market planning, Ted Smolenski, told Mr. Mengler
that there were certain circumstances under which
the Endo Credit would not result in a payment to
Impax, including a situation in which Endo would
withdraw its NDA for original Opana ER and time the
elimination of sales in such a way that the Endo Credit
would result in zero payment. Mr. Mengler decided
not to pursue the issue further because he did not

App-193
deem the potential to be likely enough to be “worth the
energy” to try to “correct for it in the agreement.”
(Mengler, Tr. 589-90; CX4037 (Smolenski, Dep. at
253); see also CX0219 at 001 (Smolenski email to Hsu
describing “downside scenario as probably unlikely”
and stating that Mengler viewed the “potential
downside scenario” as “so unlikely it wasn’t worth
worrying about”)).
222. The amount of any payment under the Endo
Credit could not be estimated before learning the
quarterly peak sales of Opana ER between July 2010
and September 2012. (Cuca, Tr. 668-69).
223. Endo first reported a liability under the Endo
Credit in May 2012. (RX494 at 0007 (Endo SEC Form
8-K from May 1, 2012); CX4017 (Levin, Dep. at 14041)).
224. In or about May 2012, Endo took a pre-tax
charge in the amount of $110 million “to reflect a onetime payment that the company now expects to make
to Impax per the terms of Endo’s 2010 settlement and
license agreement with Impax.” (RX117 at 0021 (Endo
SEC Form 10-Q for 1Q12 showing $110 million
“[a]ccrual for payment to Impax related to sales of
Opana ER”)).
(c) 2013 payment under the
Endo Credit
225. Endo filed a supplemental New Drug
Application (No. 201655) for a reformulated version of
Opana ER (“reformulated Opana ER”) in July 2010.
(Joint Stipulations of Jurisdiction, Law, Fact, and
Authenticity, JX001-011 ¶48; CX3189).

App-194
226. The FDA approved Endo’s supplemental
NDA for a reformulated version of Opana ER in
December 2011. (Joint Stipulations of Jurisdiction,
Law, Fact, and Authenticity, JX001-011 ¶48).
227. At the end of 2011, after discovering
manufacturing deficiencies, the FDA shut down the
plant where Novartis Consumer Health, Inc.
(“Novartis”), another pharmaceutical company,
manufactured original Opana ER for Endo. The
shutdown of the Novartis plant caused a supply
disruption for original Opana ER and required Endo
to scale up its manufacturing of reformulated Opana
ER. (CX4017 (Levin, Dep. at 136-39)).
228. The Novartis plant shutdown at the end of
2011 created a “supply chain crisis” for original Opana
ER. (CX4017 (Levin, Dep. at 136-39); see RX094 at
0003-04; RX563 at 0001; RX139 at 0001).
229. In or about February 2012, the FDA ordered
Endo to cease selling original Opana ER in order to
avoid consumer confusion. Specifically, the FDA
informed Endo that “once any tablets of CRF [crushresistant formulation] were sold, [Endo] could no
longer sell any tablets of the old formulation.”
(CX4017 (Levin, Dep. at 138-39, 155); RX100 at 0001;
RX094 at 0004).
230. In March 2012, Endo stopped distributing
original Opana ER and launched reformulated Opana
ER. (Second Set of Joint Stipulations, JX003 ¶33;
CX4017 (Levin, Dep. 139)).
231. It was not until after the Novartis supply
disruption in late 2011, the FDA’s order to stop selling
original Opana ER in February 2012, and the
launching of reformulated Opana ER in March 2012,

App-195
that Endo first concluded that it would have to make
a payment under the Endo Credit provision. The first
time Endo knew that its sales of Opana ER would be
zero was in the last quarter of 2012, after the supply
interruption caused by the Novartis plant shutdown.
(Cuca, Tr. 665, 671, 677; Reasons, Tr. 1203, 1229;
RX039; RX094 at 0003-06).
232. On May 31, 2012, Endo requested that the
FDA move original Opana ER to the Orange Book
Discontinued List. (Second Set of Joint Stipulations,
JX003 ¶34).
233. In August 2012, Endo filed multiple citizen
petitions with the FDA, in which Endo argued that the
FDA should (1) determine that original Opana ER was
discontinued for safety reasons and could no longer
serve as a reference-listed drug for any ANDA; (2)
refuse to approve any ANDA pending for original
Opana ER; and (3) withdraw any already-granted
approvals for original Opana ER ANDAs. (Snowden,
Tr. 476-77, 479- 80; CX3203 (Endo’s citizen petitions);
Second Set of Joint Stipulations, JX003 ¶34).
234. Impax formally responded to the petition and
offered scientific evidence that the discontinuation of
Endo’s original Opana ER was unrelated to safety or
effectiveness. (Snowden, Tr. 480).
235. The FDA concluded that Endo did not
withdraw original Opana ER for safety or efficacy
reasons. (Joint Stipulations of Jurisdiction, Law, Fact,
and Authenticity, JX001-012 ¶51).
236. On January 18, 2013, Ms. Snowden, Impax’s
vice president for intellectual property litigation and
licensing, provided Endo with written documentation
supporting payment under the Endo Credit provision

App-196
in the amount of $102,049,199.64. (Joint Stipulations
of Jurisdiction, Law, Fact, and Authenticity, JX001011 ¶45; Snowden, Tr. 386-89; CX0332 at 007-08).
237. On April 18, 2013, pursuant to section 4.4 of
the SLA, Impax received a payment from Endo in the
amount of $102,049,199.64. (Joint Stipulations of
Jurisdiction, Law, Fact, and Authenticity, JX001-011
¶46; Reasons, Tr. 1204; CX0333; CX1301 at 007).
iii. Complaint
Counsel’s
expert’s valuations
238. Complaint Counsel’s economic expert,
Professor Noll devised four examples of what the
potential value of the no-AG and Endo Credit could be
to Impax based on assumptions as to future events.
Professor Noll did not attach any probabilities to the
assumed events occurring. (Noll, Tr. 1613, 1650-51;
CX5000 (Noll Expert Report at 240 Appendix F)).
239. Professor Noll’s purported calculations of the
value of the Endo Credit (F. 238) were based on
discounting the amount of the actual payment under
the Endo Credit in 2013. (CX5000 (Noll Expert Report
at 169)).
240. Professor Noll did not calculate the expected
value of the Endo Credit at the time of settlement.
(Noll, Tr. 1591, 1613, 1651-52; Addanki, Tr. 2384).
241. Professor Noll acknowledged that he had not
seen any documents predating June 2010 in which
either Impax or Endo estimated the value for the Endo
Credit. (Noll, Tr. 1611).
242. Professor Noll acknowledged that whether
the Endo Credit would be paid, or the amount that
would be paid, depended on contingent events and

App-197
that there was a possibility that Impax would not
receive any payment under the Endo Credit. (Noll, Tr.
1611-12).
243. Although Professor Noll acknowledged that
it is important to take agreements as a whole,
Professor Noll did not consider the value of the patent
license rights Impax received under the SLA. (Noll, Tr.
1648).
3.

The Development and Co-Promotion
Agreement
a. Overview of relevant provisions

244. On June 7, 2010, Endo and Impax executed
a Development and Co-Promotion Agreement (“DCA”)
with respect to a Parkinson’s disease treatment
known internally at Impax as IPX-203. (Snowden, Tr.
397-99; Nestor, Tr. 2935; RX365 (executed DCA)).
245. The DCA was executed simultaneously with
the SLA and is incorporated into the SLA. (RX312;
CX0326; Second Set of Joint Stipulations, JX003 ¶69).
246. Under the DCA, Impax and Endo agreed to
collaborate with respect to the development and
marketing of a potential treatment for Parkinson’s
disease using an extended release, orally
administered product containing a combination of
levodopa and carbidopa. (Joint Stipulations of
Jurisdiction, Law, Fact, and Authenticity, JX001-010
¶37).
247. Endo agreed to pay Impax an “Upfront
Payment” of $10 million within five days of the
agreement’s effective date. The $10 million payment
was
guaranteed
and
nonrefundable.
(Joint

App-198
Stipulations of Jurisdiction, Law, Fact, and
Authenticity, JX001-010 ¶39; Snowden, Tr. 399-400).
248. The DCA contained the possibility that Endo
would make up to $30 million in additional “Milestone
Payments” for achieving specified milestone events in
the development and commercialization of the
product. (Joint Stipulations of Jurisdiction, Law, Fact,
and Authenticity, JX001-010 ¶40; Snowden, Tr. 408).
249. Under the DCA, Impax and Endo agreed to
share promotional responsibilities, with Impax
promoting IPX-203 to its network of neurologists, and
Endo promoting IPX-203 to its network of nonneurologists, including primary care physicians who
prescribe Parkinson’s disease medications. (RX365).
250. If the target product, IPX-203, was
successfully commercialized, Endo would be entitled
to a share of the profits. Specifically, Endo would
receive a co-promotion fee equal to 100% of gross
margins on sales resulting from prescriptions by nonneurologists. (RX365 ¶3.4).
251. On June 24, 2010, Endo wired a payment of
$10 million to Impax in accordance with section 3.1 of
the DCA. (Joint Stipulations of Jurisdiction, Law,
Fact, and Authenticity, JX001-011 ¶44).
252. Upon receipt of Endo’s $10 million payment,
Impax deferred the accounting of the money,
attributing it as an investment related to research and
development work that would be accomplished in the
future. (Reasons, Tr. 1242-43).
253. Impax and Endo terminated the DCA by
mutual agreement effective December 23, 2015. At the
time of termination, the development had not met any

App-199
of the milestones that would have required additional
payment from Endo and Endo made no additional
payments to Impax. (Joint Stipulations of
Jurisdiction, Law, and Fact, and Authenticity, JX001011¶43; Snowden, Tr. 461).
b.

Background to the DCA
i. Endo’s
reliance
on
collaboration agreements

254. Endo generally does not research or discover
new drug molecules on its own. Instead, it acquires
and licenses drugs from other pharmaceutical
companies. This means that Endo enters many
collaboration agreements with other pharmaceutical
companies. (Cobuzzi, Tr. 2513-15).
255. Endo’s collaboration agreements with other
pharmaceutical companies can relate to drugs at every
stage of the development lifecycle, including earlystage development agreements. Because Endo had “no
discovery pipeline ... in place,” Endo would enter “very
early, very speculative agreements.” (Cobuzzi, Tr.
2516).
256. In connection with a collaboration
agreement, Endo identifies therapeutic areas of
interest and companies that own promising drug
molecules in those areas and enters into earlystage
development deals. Endo also regularly licenses
technology from and collaborates with other
companies for more developed products. For Opana
ER, Endo licensed the necessary technology to make
both original and reformulated Opana ER. (Cobuzzi,
Tr. 2516-17).

App-200
ii. Endo’s interests in neurology
products
and
Parkinson’s
disease treatments
257. In 2005, the areas of significant interest to
Endo were pain, neurology, areas of movement
disorders, including Parkinson’s disease, and
gastroenterology. (Cobuzzi, Tr. 2518).
258. By 2010, although Endo’s focus had shifted
away from pain and neurology to urology,
endocrinology, and oncology, Endo’s sales force still
had a focus on pain and neurology and Endo was
interested in products that were compatible with
Endo’s existing products and sales efforts. (Cobuzzi,
Tr. 2518-19).
259. In 2010, Endo was selling Frova, which Endo
marketed to neurologists and primary care physicians
who treat migraine sufferers. (Cobuzzi, Tr. 2519-21).
260. For a number of years, Endo sold an
immediate-release Parkinson’s disease drug known as
Sinemet, which was the original formulation of
carbidopa and levodopa. (Cobuzzi, Tr. 2524; Nestor,
Tr. 2938; CX1007 at 001).
261. In the 2010 timeframe, Endo evaluated
collaborations with other companies related to
treatments for Parkinson’s disease. This included
exploring potential Parkinson’s disease collaboration
opportunities with an Italian company called Newron,
which had multiple Parkinson’s disease products, and
conducting due diligence on a Parkinson’s disease
product with a novel mechanism of action that was
owned by a Finnish company. (Cobuzzi, Tr. 2520-22).

App-201
iii. Impax’s efforts to develop
Parkinson’s disease treatments
262. Impax, formed in 1995, is a manufacturer of
generic pharmaceutical drugs. Impax created a
separate brand division to manufacture and sell its
own branded drugs in 2006. (Koch, Tr. 219-20; Nestor,
Tr. 2926, 2929; CX4014 (Hsu Dep. at 9)).
263. When Impax’s brand division was founded in
2006, it focused its efforts on central nervous system
and neurology products, with a specific focus on
improved treatments for Parkinson’s disease. As part
of this focus, Impax’s brand division also concentrated
on developing a network of relationships with
neurology physicians. (Nestor, Tr. 2929-31).
264. Impax promoted other companies’ products
to the neurology community, including Carbitol, an
epilepsy product, and licensed Zoming, a migraine
drug created by AstraZeneca. Impax did so because it
“wanted to begin the process of developing those
relationships with the neurology physicians.” (Nestor,
Tr. 2931-32).
265. The “gold standard” treatment for
Parkinson’s disease is a combination of carbidopa and
levodopa molecules. (Nestor, Tr. 2929).
266. The majority of carbidopa-levodopa
medications are available only in immediate-release
formulations. (Nestor, Tr. 2929).
267. Immediate release carbidopa-levodopa
requires frequent dosing and often results in patients
losing control of their motor skills as they experience
rapid increases and decreases in the concentration of

App-202
medicine in their bodies, especially as the disease
progresses. (Nestor, Tr. 2929-30, 2939).
268. Impax’s first attempt to develop an extendedrelease carbidopa-levodopa treatment for Parkinson’s
disease was known as Vadova. That product was
intended to combine carbidopa-levodopa with
controlled-release technology to give a much smoother
effect to the amount of medication in Parkinson’s
patients’ blood, providing for more control over motor
symptoms. Vadova was never fully developed or
marketed. (Nestor, Tr. 2926-27, 2929-30).
269. Impax’s second attempt to develop an
extended-release Parkinson’s disease medication was
IPX-066. (Nestor, Tr. 2930-31).
270. IPX-066 was a combination of carbidopa and
levodopa that had been formulated to extend the
release profile of Parkinson’s disease drugs. (Cobuzzi,
Tr. 2524; see Reasons, Tr. 1236).
271. As with Vadova, IPX-066 was intended to
better treat Parkinson’s patients by allowing for less
frequent and more consistent dosing of up to six hours,
as well as more consistent motor symptom control.
(Nestor, Tr. 2930-31; see RX247).
272. By significantly extending the absorption of
the drug, IPX-066 would provide “significant
improvement of the patient’s quality of life.” (CX4014
(Hsu, IHT at 38-39)).

App-203
273. IPX-066 had reached Phase III clinical
trials11 in 2010 and was marketed under the name
Rytary in 2015. (Snowden, Tr. 401; Nestor, Tr. 293031).
274. By 2010, Impax had begun efforts to develop
a “next generation” of IPX-066. The goal of the nextgeneration product, which was first designated as
IPX-066a and later became known as IPX-203, was to
further improve treatment to Parkinson’s patients by
extending dosing time even longer than IPX-066.
(Cobuzzi, Tr. 2599; Nestor, Tr. 2935-36; see RX247).
c.

Negotiations of the DCA
i.

Background
negotiations

to

the

275. In early 2009, Impax approached Endo about
a collaboration with respect to Endo’s central nervous
system drug Frova, which treats migraine headaches.
(RX393 at 0014; see Nestor, Tr. 2932; Koch, Tr. 31819; CX4036 (Fatholahi, Dep. at 51-52)).
276. Impax was interested in collaborating with
Endo on Frova because the product fit with Impax’s
focus on central nervous system and neurology
products. (Snowden, Tr. 453-54; Nestor, Tr. 2929).
277. Endo rejected Impax’s proposal to collaborate
on Frova in the early 2009 discussions (F. 275).
(Nestor, Tr. 2932).
278. In late 2009, after Endo and Impax began
discussions relating to the settlement of the Opana ER
11 Phase III of clinical development is the last stage of
development before submitting a drug application for approval to
the FDA. (Nestor, Tr. 3003).

App-204
patent litigation (F. 112), Shawn Fatholahi, the head
of sales and marketing for Impax’s brand division,
contacted Ms. Snowden to express his interest in a
codevelopment arrangement with Endo on Frova.
(Snowden, Tr. 346, 454-55).
279. In October 2009, Impax and Endo discussed
a potential business collaboration on Frova and
executed a non-disclosure agreement in connection
with those discussions. (Snowden, Tr. 455-56; RX359;
CX1816).
280. The discussions between Impax and Endo
relating to Frova did not result in a collaboration
agreement. (Snowden, Tr. 495).
281. In the fall of 2009, in the course of Endo’s and
Impax’s discussions relating to the settlement of the
Opana ER patent litigation, Endo became aware of
Impax’s efforts to develop drugs for Parkinson’s
disease and expressed an interest. (Koch, Tr. 323-24).
282. In December 2009, Endo and Impax ended
their discussions on a potential settlement of the ’456
and ’933 patent infringement litigation. (Second Set of
Joint Stipulations, JX003 ¶17).
ii. Negotiations resume in May
2010
283. On May 17, 2010, Endo and Impax resumed
discussions on the potential settlement of the’456 and
’933 patent infringement litigation. (Second Set of
Joint Stipulations, JX003 ¶21).
284. After discussions relating to settlement of the
Opana ER litigation resumed on May 17, 2010, Impax
and Endo began discussing a potential joint
development agreement and Endo expressed an

App-205
interest in marketing IPX-066. (CX0310 at 004;
CX4003 (Snowden, IHT at 89-90); Koch, Tr. 320, 32324).
285. On May 19, 2010, in conjunction with the
discussion of a potential collaboration agreement, Mr.
Donatiello of Endo confirmed to Ms. Snowden and Mr.
Mengler of Impax that the confidential disclosure
agreement Endo and Impax had entered as part of
negotiations in October 2009 (F. 279) was still in
effect. (CX2966 at 002; CX1816 at 001).
286. Between May 17 and 26, 2010, Impax and
Endo held two conference calls and exchanged
numerous emails and materials regarding IPX-066.
(CX2966; RX272 at 0001-03, 0005-08; CX1301 at 11213; CX0310 at 004-05).
287. At Endo, the senior vice president of
corporate development, Dr. Robert Cobuzzi, and his
team of employees were responsible for evaluating
potential pharmaceutical business deals for further
development. Dr. Cobuzzi first learned about a
potential collaboration with Impax on IPX-066 from
Endo’s chief financial officer, Mr. Levin, who was not
part of the corporate development group. Dr. Cobuzzi
was not involved in the SLA negotiations, and was
only vaguely aware of them. (Cobuzzi, Tr. 2513, 256768, 2584).
288. On May 19, 2010, David Paterson, Impax’s
vice president of business development, provided
initial written materials on IPX-066 to Dr. Cobuzzi,
including a presentation entitled “IPX066: Licensing
Opportunity
For
Parkinson’s
Disease.”
The
presentation touted the clinical benefits of IPX-066
over Sinemet, the leading carbidopa-levodopa brand

App-206
product, and projected a launch of IPX-066 in the
United States in the second half of 2012. (CX2966 at
001, 003, 038, 040-45, 73).
289. On May 20, 2010, Dr. Cobuzzi directed his
team of employees to work on an opportunity
evaluation worksheet (“OEW”) to assess a potential
collaboration with Impax on IPX- 066. Dr. Cobuzzi
noted that IPX-066 will be positioned with Frova, that
it is a known molecule, that Endo has looked at the
space before, and that it fits with Frova. (CX1006 at
001).
290. On May 21, 2010, Endo asked an outside
consulting firm to provide guidance about the
potential value of IPX-066, stating: “There is no time
for market research on this as we need the forecast by
Wed. of next week (that’s right, it’s not a typo!!) ... . No
detailed proposal is needed at this point given the
extremely tight timelines ... .” (RX072; Cobuzzi, Tr.
2587).
291. On May 22, 2010, Dr. Paterson of Impax
provided Dr. Cobuzzi and a number of additional Endo
employees access to a “data room” with “a large
amount of IPX-066 related documents.” The
documents covered: (i) intellectual property/legal; (ii)
chemistry, manufacturing, and controls; (iii)
commercial; (iv) regulatory; (v) clinical; (vi) clinical
pharmacology; and (vii) Impax’s unredacted
confidential presentation on IPX- 066. (RX272 at
0001).
292. On May 25, 2010, the outside consulting firm
hired by Endo (F. 290), informed Dr. Cobuzzi that: its
best estimate of peak U.S. revenue for IPX-066 was
[redacted]; the data suggest that IPX-066 will be

App-207
superior to a comparator drug; and although the
current market is heavily genericized, “we think that
if the final data continue to show a [redacted],
neurologists will push through payer barriers to the
drug for at least some of their patients.” (RX072, in
camera).
293. On May 25, 2010, Dr. Cobuzzi directed his
staff to help in the assessment of IPX-066, stating: “It
is a controlled-release formulation of carbidopalevodopa for Parkinson’s disease that benefits by
[redacted]. We have very little time for this evaluation
... . All of the information is available in an e-dataroom
... . As this is an area we know well as a company both
in terms of past evaluations, and by virtue of the fact
that we previously held the rights to IR Sinemet, this
should not be a difficult evaluation.” (CX1007 at 001,
in camera).
294. On May 26, 2010, Mr. Donatiello of Endo sent
to Mr. Mengler and Ms. Snowden of Impax two term
sheets. 12 The initial term sheet for what evolved into
the DCA proposed an option agreement concerning
IPX-066 “and all improvements, modifications,
derivatives, formulations and line extensions thereof.”
The term sheet gave Endo the option to receive either
the right to co-promote the product to nonneurologists within the United States or to purchase
an exclusive license to the product in the United
States. Endo would pay Impax a $10 million “Option
Fee” upon signing the agreement and a $5 million
milestone fee upon the FDA’s acceptance of the NDA
12 The May 26, 2010 term sheet relating to the SLA is discussed
in F. 131.

App-208
for the product. If Endo exercised the option to copromote, Endo would receive a fee of 50% “on the net
sales” from prescriptions by non-neurologists in the
United States. If Endo exercised the option for a
license, Endo would pay Impax a one-time license fee
based on projected sales. (RX565 at 0002; CX320 at
002-05).
295. On May 27, 2010, Mr. Mengler responded to
the May 26, 2010 term sheet (F. 294) that any
collaboration would be “for a product I will designate
as [IPX]-066a. This is our next generation of [IPX]066. We have significant data and can name the
product at signing.” Impax set out milestone payments
for the collaboration, beginning with a payment at
signing of $3 million, and followed by up to six
additional payments of increasing amounts based on
reaching specified milestones, for a total of $60
million. (RX318 at 0001 (Impax’s response to Endo’s
initial term sheet) (proposed milestones as follows:
signing ($3 million); Phase II initiation ($4 million);
Phase II completion ($6 million); Phase III initiation
($8 million); Phase III completion ($11 million);
application filing ($13 million); FDA approval ($15
million)).
296. Following a June 1, 2010 in-person meeting
between Endo and Impax, internal Impax emails
referred to the deal structure for the co-development
of IPX-066a. (RX387 at 0001; CX0406 at 001; CX1011).
297. In an internal Impax email dated June 1,
2010, Mr. Mengler described the “current proposal ...
[w]ith regard to the R&D collaboration” for “project
066a: milestone funding totaling 40M” including $5
million at signing. Mr. Mengler stated his opinion that

App-209
he “like[s] the 40M. 5M guaranteed and the rest is
success based. A lot of this depends on how successful
we think this program will be - and how much the
program will cost.” (RX387 at 0001).
298. On June 2, 2010, Mr. Levin of Endo clarified
to Impax that Endo’s offer for IPX-066a was for an
upfront payment of $10 million and a single additional
milestone payment of $5 million upon successful
completion of Phase II. If Endo elected to exclusively
inlicense the compound, Endo would pay Impax five
times the projected first four years of sales (rather
than three years) as well as give Impax a co-promote
on 10% of the total promotion effort. (CX1011).
299. In an internal Impax email dated June 3,
2010, Mr. Mengler stated that the current proposal for
the R&D collaboration was a total of $20 million, with
half ($10 million) upfront. (CX0114 at 001).
300. On June 3, 2010, Mr. Mengler of Impax and
Mr. Levin of Endo reached an agreement in principle
on the SLA and the DCA. (CX3334 at 001; CX0412
(Donatiello, IHT at 139)).
301. After Endo rejected Impax’s June 4, 2010
proposal for a simple settlement with a July 15, 2011
entry date for Impax’s generic version of Opana ER
and no compensation terms (F. 155-156), Impax
dropped its request for such a settlement and sought
Endo’s agreement to an increase in the milestone
payments under the DCA. (F. 302, 306; Snowden, Tr.
378-80; CX4032 (Snowden, Dep. at 197-99)).
302. On June 4, 2010, Mr. Koch proposed to Endo
new terms for the IPX-066a development agreement,
with Endo paying Impax $10 million upfront, $20
million more in development milestones, and an

App-210
additional $10 million if annual sales were projected
to exceed $150 million within the product’s first ten
years on the market. (CX0410 at 001- 02).
303. In a June 4, 2010 email, Impax informed
Endo that IPX-203 was the product that had been
designated as IPX-066a and provided Endo with
additional information on IPX-203. (CX1311).
304. In an internal Endo email dated June 4,
2010, Mr. Levin stated that he received a call from
Impax “looking to recut the economics on the R&D
collaboration.” (CX1311).
305. In an internal Impax email dated June 4,
2010, Mr. Koch expressed his belief that Mr. Mengler
had “dropped” the milestones for the product
collaboration too dramatically from the prior proposal
of $40 million. Mr. Koch agreed with the proposal’s
including a $10 million upfront payment. (CX407 at
001).
306. On June 4, 2010, Impax and Endo exchanged
first drafts of the SLA and the DCA. After exchanging
the first drafts, Impax and Endo continued to
negotiate the language of the documents, exchanging
numerous drafts and holding at least ten
teleconferences between June 4 and June 7, 2010.
(CX4003 (Snowden, IHT at 137-38); RX406 at 0001;
CX1301 at 114-18; CX0310 at 006-11).
307. On June 7, 2010, Dr. Cobuzzi provided the
final opportunity evaluation worksheet on IPX-203 to
Endo’s executive team, stating: “I believe this OEW
provides adequate and fair representation of what I
would define as a good deal for Endo.” (CX2748).

App-211
308. On June 7, 2010, an execution version of the
DCA was circulated. (CX0326).
d.

Relationship between IPX-066
and IPX-203

309. In 2010, Impax was not looking for a partner
in the United States for IPX-066 because Impax
planned to market the product domestically on its
own, utilizing its established neurologist network.
(Snowden, Tr. 456-57; Koch, Tr. 319-20; CX4036
(Fatholahi, Dep. at 77, 80) (Impax “could effectively
market [IPX-]066 here in the U.S. ourselves and didn’t
need any assistance.”)).
310. In 2010, Impax had already shouldered all
development risks and development costs of IPX-066.
Therefore, it made little sense to Impax to share
potential profits from the drug with a partner. (Nestor,
Tr. 2941-42).
311. Dr. Michael Nestor, the head of Impax’s
brand division, 13 was “absolutely not” willing to
consider an agreement with Endo regarding IPX-066.
(Nestor, Tr. 3054-55).
312. Impax ultimately engaged GlaxoSmithKline
(“Glaxo”) as a partner for marketing IPX- 066 outside
the United States and Taiwan. Glaxo would assist
with the regulatory and infrastructure hurdles
associated with commercializing a product outside the
United States and Taiwan and could ensure the

13 As president of the brand division, Dr. Nestor had to approve
any co-development and co-promotion agreement. (Nestor, Tr.
3054-55).

App-212
commercialization process proceeded in non- U.S.
markets. (Nestor, Tr. 2942-43).
313. In response to Endo’s May 26, 2010 proposal
for an agreement concerning IPX-066 and all
improvements, modifications, derivatives, and line
extensions thereof (F. 294), Impax countered on May
27, 2010 that any collaboration would be for IPX-066a.
(F. 295; see also Snowden, Tr. 405-06 (testifying that
“Endo was interested in the Parkinson’s space and
wanted the deal to cover both products, the original
IPX-066 and the follow-on product, but Impax wasn’t
interested in doing the deal on IPX-066. So there
wasn’t actually ... a switch as much as Endo was trying
to negotiate for both product rights and Impax was
only interested in doing product rights on the one
product.”)).
314. IPX-066a, which later became known as IPX203 (F. 303), was Impax’s “next generation” version of
IPX-066 and was a planned carbidopa-levodopa-based
product that Impax hoped would improve the
treatment of Parkinson’s disease symptoms and also
have favorable dosing over IPX-066. (Reasons, Tr.
1236; see Koch, Tr. 320; Nestor, Tr. 2935).
315. At the time of the DCA negotiations, IPX-203
was in the beginning of the formulation stage. Impax
had not landed on a final formulation for the product,
but, based on the opinion of Dr. Suneel Gupta, the
chief scientific officer at Impax in 2010, Impax
believed that the product concept for IPX-203 would
be “doable.” (Nestor, Tr. 2946, 3030-31; RX387 at
0001).
316. Dr. Gupta had expertise in reformulating
existing chemical compounds to create commercial

App-213
and clinical improvements through reformulation and
“is renowned for taking existing compounds and
reformulating them and turning those products into
very successful drugs in the marketplace that meet
significant medical need[s].” When Dr. Gupta tells
Impax management that a product concept is “doable,”
they believe him and rely on his judgment. (CX4033
(Nestor, Dep. at 80-83)).
317. Impax’s expertise has long been the
development of extended-release technologies, which
gives it “the basis of knowledge to know what kinds of
things to look for in a formulation that would give you”
longer effective time for a Parkinson’s disease
medication. Such expertise is “a very important asset
for” Impax and allows it to regularly “take advantage
of that [controlled-release] technology” to compete
successfully. (Nestor, Tr. 2955-56; see CX4014 (Hsu,
IHT at 10, 30) (Impax is “a company specialized in the
controlled release” of medications.)).
318. Impax was already planning to withdraw
promotion and sampling of IPX-066 (Rytary) once IPX203 reached the market, allowing patients to continue
successful use of IPX- 066 while avoiding any division
of Impax’s sales force between multiple Parkinson’s
disease products. This was consistent with the
commercial goal of extending the IPX- 066 franchise.
(Nestor, Tr. 2935-37).
319. The ultimate goal of IPX-203 was to further
extend the amount of time patients have control over
their motor symptoms after taking the medication.
(Nestor, Tr. 2935 (“the whole idea behind this product
... is to be able to even extend more the effective time
that a patient is on IPX-203, meaning that they have

App-214
a longer period of time when their motor control
symptoms are under control”); CX4014 (Hsu, IHT at
39)).
320. IPX-203 would also employ a “much more
simplified” dosing regimen than IPX-066, making it
more intuitive for neurologists to prescribe the
product. (Nestor, Tr. 2994).
321. Impax projected that the total cost of
development for IPX-203 would be between $80 and
$100 million. The projected costs were a “natural
extrapolation” of the development costs incurred in
connection with IPX-066. (Nestor, Tr. 2944-45; Koch,
Tr. 321; RX387 at 0001).
e.

Due diligence efforts by Endo
i.

Review
of
information
regarding IPX-203

322. Impax provided Endo with information
regarding Impax’s research into the IPX-203 product
concept and about how IPX-203 would improve upon
existing Parkinson’s disease therapies, including IPX066. (RX377; Cobuzzi, Tr. 2525-26, 2602).
323. The information Impax provided on IPX-203
made clear that IPX-066 and IPX-203 were intended
to be [redacted]. (Cobuzzi, Tr. 2530, in camera).
324. IPX-203 was intended to be a modification of
carbidopa and levodopa, a well-known combination
treatment for Parkinson’s disease. (CX1209 at 003;
Nestor, Tr. 3004; Cobuzzi, Tr. 2524).
325. Levodopa generally is not well absorbed in
the colon. (Cobuzzi, Tr. 2535).

App-215
326. IPX-203 would have [redacted] (Nestor, Tr.
2950-51, 2957, in camera; Cobuzzi, Tr. 2529- 30, 2538,
in camera).
327. The information Impax provided on IPX-203
[redacted]. (Cobuzzi, Tr. 2530, 2534-35, in camera; see
RX377 at 0031, 0040-41, in camera).
ii. Review
of
information
regarding IPX-066
328. Impax sent IPX-066 materials to Endo to
“help [Endo] frame their evaluation of the market
environment into which IPX-203 could be launched as
a successor to IPX-066.” (Cobuzzi, Tr. 2539; RX376 at
0001; see RX272 at 0001; RX080 at 0006 (“IPX-066
affords a reasonable surrogate for IPX-203 given the
anticipated similarities in constituents and
formulation.”)).
329. Impax sent IPX-066 materials to Endo
because (1) Impax had already established a data
room regarding IPX-066 when it sought a partner to
market the product outside the United States, and (2)
IPX-203 was a follow-on product to IPX-066; therefore
“the foundational aspects of what was in the data room
about IPX-066 were relative to the kind of product we
envisioned IPX-203 ultimately to be, which is an
extended release carbidopa-levodopa formulation that
would offer clinically meaningful benefit[s] over and
above what the current standard of care was.” (Nestor,
Tr. 3055-56).
330. The materials Impax provided regarding
IPX-066 aided Endo’s assessment of IPX-203
“tremendously.” Dr. Cobuzzi explained that IPX-066
was relevant to his assessment of IPX-203 because,
among other reasons, both products would contain

App-216
carbidopa and levodopa, and the only difference was
[redacted], “which we viewed as being relatively
simple, although it does change the chemistry.”
(Cobuzzi, Tr. 2625, 2539-40, in camera).
331. Julie McHugh, Endo’s chief operating officer
at the time of settlement and the individual
responsible for assessing the commercial opportunity
of any product, deemed IPX-066 an appropriate
commercial proxy for assessing IPX-203. (CX2772 at
001; Cobuzzi, Tr. 2541-42).
332. The IPX-066 materials, as well as Endo’s
experience with other Parkinson’s disease treatments,
suggested that the successful development of IPX-203
would more effectively treat Parkinson’s disease
symptoms. (Cobuzzi, Tr. 2634-35).
333. The materials Impax provided regarding
IPX-066 showed that IPX-066 was forecasted to have
[redacted] in sales by 2019. (RX376 at 0050, in
camera).
334. Endo used those forecasts (F. 333) to
calculate “conservative estimates” for IPX-203 sales.
(CX2780 at 001; see RX080 at 0011-12; CX2533 at 001
(“I think we can hold to the original forecast
assumptions with a shift out in the sales line to reflect
the 2017 launch versus the 2013 launch with IMPAX066.”)).
335. Endo’s reliance on information about a
related drug when evaluating IPX-203 was not
unusual. Endo relies on information about one
pharmaceutical asset to assess another, related
pharmaceutical asset “all the time.” (Cobuzzi, Tr.
2624).

App-217
336.
When
information
about
related
pharmaceutical assets is available, it is “much easier”
to evaluate a proposed drug than it is to evaluate a
new chemical entity on its own. (Cobuzzi, Tr. 2625).
iii. Sufficiency of
information

time

and

337. Dr. Robert Cobuzzi was the head of Endo’s
corporate development group as well as the lead
scientist on the team that evaluated the commercial
and scientific merits of the DCA with Impax. (Cobuzzi,
Tr. 2523).
338. Dr. Cobuzzi and his team conducted Endo’s
due diligence review of the DCA. (Cobuzzi, Tr. 254748).
339. Dr. Cobuzzi holds a Ph.D. in molecular and
cellular biochemistry and wrote his dissertation on
Parkinson’s disease. (Cobuzzi, Tr. 2511-12).
340. Dr. Cobuzzi’s team included at least one
other scientist with a background in Parkinson’s
disease treatments. Dr. Kevin Pong, who was in
charge of evaluating Endo’s scientific licenses, had a
“significant amount of experience” in the area of
Parkinson’s disease treatments. (Cobuzzi, Tr. 251213).
341. Endo also employed an outside consulting
firm to provide guidance about the potential value of
IPX-066. (RX072).
342. Dr. Cobuzzi believes that Endo had sufficient
time to assess IPX-203 before entering into the DCA,
particularly in light of Dr. Cobuzzi’s and Endo’s
familiarity with Parkinson’s disease treatments (F.
257-261, 293) and the detailed nature of the

App-218
information Impax provided on IPX-066 (F. 328-332).
(Cobuzzi, Tr. 2543, 2563, 2625).
343. In his May 25, 2010 email to the Endo team
performing due diligence on a potential Parkinson’s
disease treatment collaboration with Impax, Dr.
Cobuzzi wrote: “this is an area we know well as a
company both in terms of past evaluations, and by
virtue of the fact that we previously held the rights to
IR Sinemet [another Parkinson’s disease treatment],
this should not be a difficult evaluation.” (CX1007 at
001; Cobuzzi, Tr. 2547-48).
344. Endo knew “the underlying molecules, the
carbidopa and levodopa, and we looked at a number of
Parkinson’s opportunities in the past, so we knew the
general landscape of the area in which we were
looking at this as a commercial opportunity.” (Cobuzzi,
Tr. 2548- 49).
345. Taken together, Dr. Cobuzzi believed that
Endo had adequate time and “the information [it]
needed” to evaluate the DCA properly. (Cobuzzi, Tr.
2563).
f.

Endo’s valuation of IPX-203

346. Any time Endo considers a pharmaceutical
collaboration, it completes an OEW (opportunity
evaluation worksheet), which is Endo’s standard
method of assessing the science, medical information,
commercial opportunity, and related financial
considerations behind a potential collaboration
project. (Cobuzzi, Tr. 2540-41, 2546-47).
347. In Endo’s OEW on IPX-203, Dr. Cobuzzi and
his team concluded that Endo should enter the DCA.
Dr. Cobuzzi made that recommendation to Endo’s

App-219
CEO, CFO, and board of directors. (Cobuzzi, Tr. 2544,
2561; CX2748 at 001).
i.

Commercial aspects

348. Endo’s OEW on IPX-203 stated that the DCA
was “a good deal for Endo.” (CX2748 at 001; see
Cobuzzi, Tr. 2545-46, 2554; CX4017 (Levin, Dep. at
166-67)).
349. Dr. Cobuzzi recommended the DCA as “an
exciting opportunity for Endo” because it “further
builds our product pipeline for the future with a drug
candidate that fits with our commercial footprint.”
(CX1209 at 001; Cobuzzi, Tr. 2549-50).
350. In 2010, Endo did not have many products in
its commercial pipeline and did not have the capacity
to develop new products in-house. (Cobuzzi, Tr. 2515,
2562).
351. Endo’s OEW on IPX-203 stated: “[m]arket
research provided by Impax is similar to work done
several years ago by Endo in evaluating other
[Parkinson’s disease] related opportunities.” (CX1209
at 011).
352. Endo also analyzed the net present value of
its initial investment under the DCA. Endo generally
requires a 10% rate of return on its investment before
agreeing to a development and co-promotion deal.
(Cobuzzi, Tr. 2561).
353. Endo determined that the DCA and IPX-203
had a “very reasonable rate of return” of [redacted].
(Cobuzzi, Tr. 2560, in camera; CX1209 at 018, in
camera (estimating net present value of the DCA to be
[redacted]); RX080 at 0017, in camera).

App-220
354. Endo thought it could realize the type of
return referenced in F. 353, even though the market
for Parkinson’s disease treatments was heavily
genericized, because IPX-203 would offer a superior
product. (CX2748 at 0012; Cobuzzi, Tr. 2622-23).
355. Dr. Cobuzzi explained that “the better [a
product] is for the patient or the end user, the more
likely they are to want it, need it, or use it,” and the
more likely that doctors will prescribe the new
compound. (Cobuzzi, Tr. 2536-37).
ii. Medical aspects
356. Endo’s OEW on IPX-203 stated that market
research “indicate[d] that most physicians who treat
[Parkinson’s] patients are generally satisfied by
existing treatment options with two exceptions: 1)
existing treatments do not modify the course of the
disease, they only palliate symptoms; and, 2) existing
drugs begin to lose effectiveness within 10-15 years
after initiation of therapy due to the development of
feedback
inhibition
and
other
biochemical
mechanisms that can be classified loosely as
‘resistance.’ Other unmet needs include a need for
better control of efficacy over time ... .” (CX1209 at
011).
357. IPX-203 was intended to address the second
exception described in F. 356. Specifically, it would
extend the period of time over which the drug is
absorbed, which would allow doctors to lower the doses
needed for effective treatment. Over time, lower doses
would also prevent the drug from losing effectiveness
in patients. (Cobuzzi, Tr. 2555; see Nestor, Tr. 2935
(“the whole idea behind this product ... is to be able to
even extend more the effective time that a patient is

App-221
on IPX-203, meaning that they have a longer period of
time when their motor control symptoms are under
control”)).
358. Endo’s OEW on IPX-203 (F. 356) explained
that “IPX066 has been developed by Impax to address
physician[s’] desire for a superior long-acting
carbidopa-levodopa product, and IPX-203 represents a
still greater improvement in pharmaceutical profile
with a value proposition that includes faster onset of
action, superior management of motor fluctuations
and convenient oral dosing in a simplified regimen
that could require no more than twice-daily
administration, and in some cases even once-daily
administration.” (CX1209 at 012).
359. Taking the drug less frequently would be
particularly beneficial for Parkinson’s patients, who
can have trouble “even picking up the pill.” (Cobuzzi,
Tr. 2557).
360. Dr. Cobuzzi and his team concluded that the
attributes ascribed in F. 357-359 (to lower doses and
taking drugs less frequently) would make IPX-203 a
“greater improvement in disease control and ease of
use relative to” IPX-066. (RX080 at 0011).
361. Dr. Cobuzzi and his team concluded that
IPX-203 “had the opportunity to move very quickly
through development” and “was an exciting compound
in that it was made up of... two compounds that have
already been approved by the FDA ... .” (CX4017
(Levin, Dep. at 166-67)).
362. Dr. Cobuzzi and his team concluded that
there was “a higher than average probability that we
might be able to get this drug approved if they were

App-222
able to make the modification” envisioned in the IPX203 product concept. (Cobuzzi, Tr. 2537-38).
363. Dr. Cobuzzi believed that IPX-203 had a path
to approval that would successfully bring IPX-203 to
the market. (Cobuzzi, Tr. 2552).
iii. Allocation of risk

364. Endo’s OEW analysis on IPX-203 explained
to Endo’s board of directors that the DCA’s “deal
structure acceptably mitigates Endo’s exposure
despite the early development stage.” (CX1209 at 003;
Cobuzzi, Tr. 2543-44 (noting that most of the risk
under the DCA was borne by Impax)).
365. One way in which the DCA mitigated risks to
Endo is that Endo had to make a single contribution
to Impax’s development work and would make
additional payments only if the “risk associated with
proving the concept would have been retired” through
successful completion of development milestones such
as Phase II clinical trials. Thus, Endo knew its
maximum development costs up front even though
“[d]rug development is extremely expensive.”
(Cobuzzi, Tr. 2543-44, 2558; see CX1209 at 003).
366. A second way in which the DCA mitigated
risks to Endo is that it did not require Endo to perform
any development work or otherwise expend internal
resources. (Cobuzzi, Tr. 2558-59, 2627-28).
367. A third way in which the DCA mitigated
risks to Endo is that Endo retained the same profitsharing rights no matter how much time or money
Impax expended on IPX-203’s development. (Cobuzzi,
Tr. 2564, 2627-28).

App-223
368. These factors (F. 365-367) left Endo
“comfortable” with the collaboration from the
perspective of risk. (Cobuzzi, Tr. 2543-44).
369. Dr. Cobuzzi believed that the profit-sharing
rights Endo received under the DCA justified Endo’s
payment obligations. (Cobuzzi, Tr. 2564).
370. Compared to other collaboration agreements,
Endo’s $10 million investment to buy into the IPX-203
opportunity was “not an uncharacteristically large
amount of money.” (Cobuzzi, Tr. 2559).
g.

Impax’s valuation of IPX-203
and the DCA

371. Dr. Michael Nestor, president of Impax’s
brand division, noted in 2010 that he “would hate to
have to sell” IPX-203 since the product was envisioned
as a better product than, and “a potential franchise
extender for,” IPX-066. (RX387 at 0001).
372. In negotiating the DCA, Impax initially
wanted to retain any profits flowing from
prescriptions written by high-prescribing nonneurologists - which were the profits Endo sought
under the DCA - because of the “significant” amount
of money those prescriptions represented. (RX405 at
0001; see CX4033 (Nestor, Dep. at 123); CX1009 at 008
(non-neurologists “manage about 40%” of Parkinson’s
patients)).
373. Impax knew that there were at least “a
couple of thousand physicians who were primary care
physicians that prescribed Parkinson’s patients,
somewhat like a neurologist. So that was the audience
that we had envisioned promoting IPX-203 to.”
(Nestor, Tr. 2948).

App-224
374. With the DCA, Impax “got a partner who
would fund some of the costs to get [IPX-203]
approved.” (Koch, Tr. 321).
375. In 2010, Impax did not have the money to
begin working on the clinical research for IPX- 203.
Impax could not fund the IPX-203 project internally
because its shareholders did not “want to see large
sums of money being spent over an extended time
period on a single product. They were accustomed to
R&D investments being made on many individual
products that you bring to market as a generic.”
(Nestor, Tr. 3052-53).
376. Impax needed external funding to move the
IPX-203 product forward in development and explored
a number of possible funding approaches, including
seeking money from venture capital firms. (Nestor, Tr.
2941, 3052-53).
377. When the idea was raised of obtaining
funding for IPX-203 through a co-development
program with Endo, Impax’s brand drug development
team was “very excited about that.” (Nestor, Tr. 2941).
h.

Impax’s efforts to develop
IPX-203

378. As early as November 2009, Impax had
reviewed [redacted]. (Nestor, Tr. 2952-53, in camera;
RX247, in camera).
379. Following execution of the DCA, Impax
devoted substantial efforts to IPX-203’s development.
Impax personnel have spent over [redacted] working
on IPX-203 since June 2010. (Nestor, Tr. 2970-71, in
camera; RX241, in camera).

App-225
380. In 2010, Impax commissioned preclinical
pharmacokinetic studies testing several relevant
compounds and began laboratory research. (RX241;
RX242).
381. In the course of its development efforts,
Impax explored various IPX-203 formulations in an
effort to achieve the desired clinical outcome. This
involved multiple rounds of pharmacokinetic studies
of
various
formulations
to
assess
their
pharmacokinetic profiles, a metric that spoke directly
to the clinical improvement Impax was seeking to
achieve with the program. (Nestor, Tr. 2961-62;
CX0310 at 26-27; RX242; CX3166 at 039-42).
382. Impax completed pharmacokinetic studies of
IPX-203 no later than 2012. Impax then conducted
additional pharmacokinetic studies and completed
Phase I clinical trials. (RX242 (Tab 2012); CX3166 at
039-42; Nestor, Tr. 2957; RX157 at 0020).
383. Impax manufactured a clinical supply of IPX203, developed protocols for Phase II clinical trials,
submitted those protocols to the FDA, and secured
FDA approval for efficacy and safety studies in
November 2014. (RX157 at 0020).
384. Further development work on IPX-203 was
delayed after Impax experienced delays in the
development of IPX-066, the brand drug IPX-203 was
intended to extend and improve upon. (Reasons, Tr.
1237-38; CX4021 (Ben-Maimon, Dep. at 145) (IPX-066
development was delayed for a “[c]ouple years”);
CX4033 (Nestor, Dep. at 135-36)).
385. Bryan Reasons, Impax’s current chief
financial officer, explained that when IPX-066 was
delayed, “resources were put to focus on the approval

App-226
of Rytary [IPX-066] so that we could get that to
market, grow that ... commercially, and it would also
be beneficial to ... when we launched the next
generation of [IPX]-203.” (Reasons, Tr. 1237-38).
386. Further development work on IPX-203 was
also delayed after Impax received an FDA Warning
Letter in 2011 relating to Impax’s manufacturing
processes, which caused Impax to direct its scientific
staff to spend their time helping the operations people
correct the deficiencies that the FDA noted in its last
inspection. (Nestor, Tr. 2968, 2985- 86).
387. Impax’s research and development team
“worked to help remediate” any issues identified by
the FDA and to prepare for “the FDA to come in and
do their re-inspection,” which meant that “nothing
was going to go forward until such time as we got over
that hurdle.” (Nestor, Tr. 2985-88).
388. Notwithstanding the delays (F. 387) and the
DCA’s termination (F. 389), Impax has continued
development work on IPX-203. (Nestor, Tr. 2970).
389. IPX-203 is currently Impax’s “lead compound
on the brand side of [its] R&D programs. It’s really our
strategy to continue to grow and extend the duration
of our Parkinson’s franchise.” (Reasons, Tr. 1238).
390. Impax has now completed Phase II clinical
trials for IPX-203 and plans to begin Phase III clinical
trials at the beginning of 2018. (Nestor, Tr. 2978;
Reasons, Tr. 1238).
391. Phase II clinical trials of IPX-203 revealed a
statistically significant improvement in treatment
over IPX-066 and other existing treatments, reducing

App-227
the amount of time Parkinson’s patients are without
control over their motor symptoms. (Nestor, Tr. 2978).
392. The Phase II clinical trials of IPX-203
suggest that it will offer an improvement of over two
hours in motor symptom control when compared to
immediate-release carbidopalevodopa treatments and
one hour of improvement over IPX-066. (Nestor, Tr.
2984-85; see also RX208 at 0015-16).
393. An improvement of over two hours in motor
symptom control over existing medications is a
“terrific result” that is “highly statistically significant”
and “clinically meaningful.” (Nestor, Tr. 2978-79,
2984-85).
394. The Phase II clinical results of IPX-203
suggest that Parkinson’s patients will have “their
symptoms ... under control for a longer time period,”
which is “a very important thing” for patients. (Nestor,
Tr. 2937, 2966).
395. Impax also sought, and the FDA granted, a
special protocol assessment for further clinical trials
of IPX-203 in 2017. A special protocol assessment is an
agreement between a pharmaceutical company and
the FDA regarding the design of clinical trials. When
a special protocol assessment is in place, the FDA will
not question the trial designs in Phase III clinical
trials, which “takes an element of risk out of a new
drug application review.” (Nestor, Tr. 3001-02).
i.

Termination of the DCA

396. Impax’s IPX-203 development
revealed that the formulation of IPX-203

efforts

contemplated by the DCA could not achieve the
intended clinical benefits. (Snowden,

App-228
Tr. 459-60; see Nestor, Tr. 2960-61).
397. Between 2014 and 2015, Impax’s research
team determined it could not achieve the desired
product profile with a [redacted] formulation. Impax
consequently began pursuing alternative approaches
to an extended-release formulation of carbidopa and
levodopa. (Snowden, Tr. 459-60; Nestor, Tr. 2960-61).
398. After extensive research and testing,
[redacted]. (Nestor, Tr. 2961-62, in camera).
399. In 2014, Impax filed an Investigational New
Drug Application with the FDA regarding [redacted],
which the FDA accepted. (Nestor, Tr. 2963, in
camera).
400. Although the specific formulation of IPX-203
changed, Impax still viewed [redacted] it had been
developing since 2009 “[b]ecause it was all towards the
same end. It still involved carbidopa-levodopa. It was
just a variation in formulation.” (Nestor, Tr. 2962, in
camera).
401. Under the terms of the DCA, Impax and
Endo formed a joint development committee that was
to meet four times a year. These meetings were
intended to be “[e]ssentially a progress report on
clinical development by Impax.” (Nestor, Tr. 3036-37;
RX365 at 0016-17 (DCA §§7.2, 7.3); CX3345 at 006).
402. As of 2014, the joint development committee
had not met. Michael Nestor, the president of Impax’s
brand division, explained that Impax really had
nothing to discuss with Endo until the formulation
work was settled. Once Impax’s formulation work had
reached that point, Impax met with Endo in 2015
regarding the status of Impax’s IPX-203 development

App-229
work. (CX3165; Nestor, Tr. 2963-64, 2967-69; CX4033
(Nestor, Dep. at 163-64)).
403. In April 2015, Impax approached Endo to
update it on the status of Impax’s IPX-203
development work, including the change in
formulation strategy. Impax made a presentation
describing Impax’s formulation testing and results
and [redacted]. (Nestor, Tr. 2963-64, in camera;
RX208, in camera).
404. Impax viewed the presentation (F. 403) as a
“precursor” to the joint development committee
meetings called for by the DCA. (Nestor, Tr. 2967;
CX4033 (Nestor, Dep. at 164)).
405. Endo and Impax “had not had a meeting of
the joint development committee” before 2015
“because, quite frankly, we really had nothing to
discuss with them” until the formulation work was
settled. (Nestor, Tr. 2967-69; see CX4033 (Nestor, Dep.
at 163- 64)).
406. Indeed, Impax “had to make sure we had a
formulation first and that we were ready to go into the
clinic” before meetings of the joint development
committee “would be relevant.” (CX4033 (Nestor, Dep.
at 163-64); see Nestor, Tr. 2967-68).
407. By 2015, Impax had sufficient formulation
research, as well as [redacted], to report to Endo.
(Nestor, Tr. 2963, in camera).
408. During the parties’ April 2015 discussion (F.
403), Impax offered to amend the DCA so that the
DCA would cover the [redacted] to IPX-203. (Nestor,
Tr. 3057, in camera; CX2928 at 013, in camera).

App-230
409. Impax was prepared to amend the DCA to
include the new formulation of IPX-203 because it
wanted to work with Endo in order to move the drug
forward and Impax believed the new formulation
would give it “an avenue through which we could
continue the development of IPX-203.” (Nestor, Tr.
3056-57).
410. Endo initially agreed to the proposed
amendment (F. 408), noting that it “would like to
maintain or even increase [its] involvement with the
development program ... as [it] remain[ed] optimistic
this will be a successfully differentiated product,
which Endo looks forward to the opportunity to copromote ... with Impax.” (RX218 at 0001; see Snowden,
Tr. 459-60).
411. Following Endo’s initial agreement (F. 410),
Impax consequently prepared an amendment to the
DCA and expected the parties to continue
collaborating on IPX-203. (Snowden, Tr. 458-59; see
CX2747).
412. Endo subsequently informed Impax that
Endo had “decided not to amend the existing
agreement” and would no longer “participat[e] in [the]
program,” but did not provide any explanation.
(CX2747).
413. Endo’s decision surprised Impax because
“fairly recently” Endo “had said the opposite, that they
were interested in continuing forward with the
program and amending the agreement.” (Snowden, Tr.
460-61; RX221 at 0001 (Endo’s decision not to amend
DCA was “a surprise”)).
414. Because Endo retracted its initial expression
of interest in amending the DCA to cover the new

App-231
formulation for IPX-203, Impax and Endo terminated
the DCA by mutual agreement effective December 23,
2015. (Joint Stipulations of Jurisdiction, Law, Fact,
and Authenticity, JX001-011 ¶43); Snowden, Tr. 407;
RX219 at 0001-02; RX198 at 0005-07 (termination
agreement)).
j.

Complaint
Counsel’s
experts’ opinions

415.
Complaint
Counsel’s
expert
in
pharmaceutical business development agreements,
Dr. John Geltosky, has worked on a handful of
development deals in their early stages and has never
negotiated a development and co-promotion
agreement similar to the DCA. The majority of Dr.
Geltosky’s
experience
with
pharmaceutical
collaboration agreements relates to his employment
with large pharmaceutical companies and Dr.
Geltosky admitted that he could not speak to how the
universe of small or mid-sized pharmaceutical
companies approach partnerships for early-stage
products. (Geltosky, Tr. 1141-45).
416. Dr. Geltosky acknowledged that Endo’s
senior vice president of corporate development (Dr.
Cobuzzi) is better qualified to assess the strategic fit
of the DCA for Endo than he is. (Geltosky, Tr. 1163).
i.

Bona
fide
collaboration

product

417. Dr. Geltosky did not offer an opinion
regarding whether the DCA was a bona fide scientific
collaboration or whether Endo exercised good business
judgement in entering the DCA. (Geltosky, Tr. 112528).

App-232
418. Dr. Geltosky acknowledged that the DCA
was a way for Impax and Endo to share both risks and
costs associated with developing IPX-203. (Geltosky,
Tr. 1135).
419. Dr. Geltosky did not offer an opinion
regarding whether Endo or Impax bore more of the
risk under the DCA and did not quantify any risk
related to the DCA or opine what the appropriate
payment would be to reflect that risk. (Geltosky, Tr.
1138, 1147).
420. Dr. Geltosky acknowledged that at the time
of settlement, Impax estimated costs for the
development of IPX-203 to be between $80 and $100
million, that Impax had to cover all development costs
in excess of Endo’s specified milestone contributions,
no matter how much the development work cost, and
that Endo’s risks and costs associated with developing
IPX-203 were limited to the milestone payments.
(Geltosky, Tr. 1136-38).
421. Dr. Geltosky’s opinion that IPX-203 did not
fit within Endo’s strategic area of focus was based on
his review of certain Endo documents provided to him
by Complaint Counsel, which did not list Parkinson’s
disease as an area of interest, and one of which stated
that Endo was interested in near-term revenue
generators. In reaching that opinion, Dr. Geltosky did
not consider other deals contemplated or completed by
Endo. Dr. Geltosky did not have contact with the
individuals involved in evaluating the DCA.
(Geltosky, Tr. 1159-61).
422. Dr. Geltosky acknowledged that Endo has
entered
into
very-early,
discovery-stage
pharmaceutical
partnership
deals
and
that

App-233
pharmaceutical
companies
enter
early-stage
development deals “all the time.” (Geltosky, Tr. 114546).
423. Dr. Geltosky offered no criticism of Impax’s
behavior with regard to the DCA. (Geltosky, Tr. 1183).
ii. Due diligence

424. Dr. Geltosky reached an opinion of Endo’s
due diligence efforts in evaluating the DCA based on
one document provided to him by Complaint Counsel.
(Geltosky, Tr. 1159).
425. Dr. Geltosky admits that Impax provided
Endo with comprehensive information regarding IPX066, including clinical information regarding safety
and efficacy, intellectual property, technical due
diligence, and financial analysis. (Geltosky, Tr. 115658; RX272 at 0005-08).
426. Dr. Geltosky admits that information about
IPX-066 provides useful information for IPX- 203
because IPX-203 was a follow-on drug, because the
two products could compete, and because, in modeling
how IPX-203 might perform in the market, Impax and
Endo needed to use IPX-066 as a benchmark.
(Geltosky, Tr. 1153-56).
427. Dr. Geltosky did not offer an opinion on
whether Endo exercised good business judgment in its
due diligence of the DCA. (Geltosky, Tr. 1128).
iii. Valuation
428. Dr. Geltosky has never performed a financial
valuation of a pharmaceutical collaboration.
(Geltosky, Tr. 1179-80).

App-234
429. Dr. Geltosky did not conduct any valuation
analysis of the DCA, did not calculate a net present
value of the DCA at the time it was executed, and did
not conduct any other form of empirical analysis
regarding the DCA. (Geltosky, Tr. 1125, 1133).
430. Dr. Geltosky did not offer any opinion about
the actual value of the DCA to Endo. (Geltosky, Tr.
1125).
431. Dr. Geltosky did not compare the payment
terms in the DCA to the payment terms in other
pharmaceutical collaboration agreements. (Geltosky,
Tr. 1139-40).
432. Dr. Geltosky did not address the actual value
of the profit-sharing rights acquired by Endo or
whether Endo’s profit-sharing rights justified its DCA
payment obligations. (Geltosky, Tr. 1124-25).
433. Dr. Geltosky agreed that Endo’s profitsharing rights remained the same regardless of the
development costs incurred by Impax. (Geltosky, Tr.
1137-38).
434. Dr. Geltosky did not offer an opinion
regarding whether the profit-sharing provisions in the
DCA favored Impax or Endo. (Geltosky, Tr. 1138).
435. Complaint Counsel’s economic expert,
Professor Noll, acknowledged that, if a payment from
a brand company to a generic company is used to
purchase a bundle of rights at a fair market price, the
payment is justified. (Noll, Tr. 1620).
436. Professor Noll did not independently analyze
the DCA to determine whether it was justified, had
value to either party, or represented an overpayment.
(Noll, Tr. 1456, 1581- 82).

App-235
437. Professor Noll relied on Dr. Geltosky’s
“analysis of the degree to which the $10 million
payment and co-development deal represented the
acquisition of an asset that was approximately valued
at a $10 million price.” (Noll, Tr. 1582).
438. Professor Noll agreed that if Dr. Geltosky did
not offer an opinion regarding the actual value of the
DCA to Endo at the time it was executed, then
Professor Noll “would not include the $10 million as
part of the large payment that was unjustified.” (Noll,
Tr. 1585-86).
439. Professor Noll agreed that if Dr. Geltosky did
not provide a “sufficiently welldocumented rationale
for the conclusion that the payment [under the DCA]
was unjustified, then you would pull [the DCA] out of
the case.” (Noll, Tr. 1582-83).
D. Anticompetitive Effects
1.

Harm to competition

440. A basic economic principle is that consumers
benefit from increased competition in the form of lower
prices and increased choice. (CX5000 (Noll Expert
Report at 011 ¶24, see also at 109-10 ¶250)).
441. Harm to competition occurs when the
conduct of firms on one side of a market (usually
sellers) inflict harm on participants on the other side
of the market (usually consumers). Harm to
competition is not limited to the certain elimination of
competition, but also includes eliminating the
possibility that participants on the other side of the
market will have the opportunity to experience the
benefits of competition, such as lower prices. (CX5000
(Noll Expert Report at 011 ¶24)).

App-236
442. Normally when a generic drug launches, the
competition between the brand-name firm and the
generic firm causes the price of the drug to drop, which
is a benefit to consumers. Reverse payment
settlements can harm consumers, to the extent that
the settlement extends the period in which the brandname firm is the only seller of a drug, by requiring the
generic firm to forego entering at an earlier date.
(CX5000 (Noll Expert Report at 118, 132 ¶¶268, 300);
Noll, Tr. 1425-27).
443. A reverse payment settlement replaces the
possibility of successful generic entry with a certainty.
To this extent, the brand-name firm is buying an
insurance policy by which it pays the generic firm a
premium in exchange for the generic firm
guaranteeing it will not compete prior to the date
specified in the settlement of the patent litigation.
(CX5000 (Noll Expert Report at 118 ¶268); Noll, Tr.
1427-28).
444. Payment to an alleged patent infringer, in
exchange for a certain entry date, converts the
possibility of substantial loss of profits for the patentholder, due to generic competition, into the certainty
that it will continue to earn profits as the sole seller of
the drug until the entry date agreed to in the
settlement of the patent litigation. (CX5000 (Noll
Expert Report at 104 ¶239)).
445. By eliminating the possibility of generic
competition for a period of time, reverse payment
settlements interfere with the competitive process and
can harm consumers by depriving them of the possible
benefits of increased competition in the period prior to
the entry date provided under the settlement

App-237
agreement. (Noll, Tr. 1422-23; CX5000 (Noll Expert
Report at 119 ¶269)).
446. A large reverse payment can imply that the
market entry date in the settlement agreement is later
than the date that the patent holder expected the
alleged patent infringer would enter the market since
it is unlikely that a patent holder would agree by a
settlement to pay an alleged patent infringer anything
more than saved litigation costs, only to obtain entry
on the date the alleged patent infringer would have
entered anyway. (CX5000 (Noll Expert Report at 10304 ¶238); see also Bazerman, Tr. 873-74; CX5001
(Bazerman Expert Report at 006 ¶10) (“[L]itigation
costs to the parties increase the viability of a
negotiated agreement, as both parties save these costs
if they can negotiate an agreement.”)).
447. A brand-name pharmaceutical firm has an
economic incentive to pay the generic firm as part of a
settlement if the payment is less than the profits the
brand firm would earn during the period before the
agreed-upon entry date of the generic product.
(CX5000 (Noll Expert Report at 124-26 ¶¶280, 28485); CX5001 (Bazerman Expert Report at 023 ¶46)
(stating that it is a “common pattern” in the
pharmaceutical industry that the brand company’s
gains from not facing generic competition are greater
than the costs to the generic for agreeing not to sell a
generic product)).
448. A generic pharmaceutical firm has an
economic incentive to enter into reverse payment
settlements. By agreeing not to launch its generic
product for some period of time, the generic firm loses
profits it would earn on sales of its generic product.

App-238
However, if the brand-name firm compensates the
generic firm with a sufficiently large payment, the
generic firm will be willing to postpone its launch until
a later date. (CX5000 (Noll Expert Report at 128-29
¶¶290-92)).
449. The Hatch-Waxman regulatory framework
creates additional incentives for pharmaceutical
companies to enter into reverse payments. Because of
the 180-day exclusivity period granted to first filers
(see F. 21), by settling with the first filer, the brand
company not only eliminates the possibility of entry by
the first filer during the period before the generic
firm’s product’s entry date in the agreement, but also
eliminates the possibility of market entry for six
months beyond this period by other potential generic
drug competitors. (CX5000 (Noll Expert Report at 104
¶239)).
2.

At-risk launch

450. Impax would not have launched its generic
Opana ER at risk. (F. 451-548).
a. At-risk launches generally
451. Launching a generic product before a nonappealable decision in patent litigation is commonly
known as an “at-risk launch.” (Joint Stipulations of
Jurisdiction, Law, Fact, and Authenticity, JX001-008
¶23; see Koch, Tr. 246; Bingol, Tr. 1282; Hoxie, Tr.
2831).
452. An at-risk launch can occur any time after
FDA final approval, including (1) before a district
court decision, (2) after a district court decision but
before an appellate decision by the Federal Circuit, or
(3) after a Federal Circuit opinion if the case is

App-239
remanded or otherwise continues. (Hoxie, Tr. 2810-11;
CX4021 (Ben-Maimon, Dep. at 133-34); CX4026
(Nguyen, Dep. at 47-48)).
453. If a generic company launches a product
before a non-appealable court decision or patent
expiration, brand companies can be awarded
damages, as measured by the brand seller’s own lost
profits rather than by the generic seller’s earned
profits. Lost profits are measured by the profits the
patent owner would have made on sales of its branded
product but for the launch of the generic product.
Damages can be trebled if the infringement is found to
be willful, for instance, if the generic product was
launched before a district court ruled on the patent
dispute. (Koch, Tr. 286-87; Figg, Tr. 1921-23; Hoxie,
Tr. 2782; CX4030 (Hsu, Dep. at 48-49)).
454. Generic companies often risk far more in
infringement liability than they earn from each sale
when launching at risk. (Koch, Tr. 286-87; CX4021
(Ben-Maimon, Dep. at 159) (atrisk launches could
result in generic “pay[ing] more to the brand company
than [generic] made”); see also CX4039 (Noll, Dep. at
74)).
455. The risk of damages for launching at risk
represent “bet-the-company” stakes and can “take
[away] the solvency of the company entirely.”
Damages can be in the billions of dollars if the sales of
the branded drug are high enough. The profits that the
brand company loses would almost always be greater
than the total revenues that the generic company
receives. (Koch, Tr. 287; Hoxie, Tr. 2782; Figg, Tr.
1922-23; see CX4030 (Hsu, Dep. at 43) (“the risk can

App-240
be huge depending on the size of the product and
depending on whether we’re first to file”)).
456. A first filer’s launch of a generic product
triggers the beginning of the 180-day exclusivity
period, which is “extremely valuable.” If the generic
launches at risk and is enjoined from making sales,
the generic forfeits some of its 180-day exclusivity
because the 180-day time period would continue to run
during the period the generic is enjoined. Even if the
injunction was eventually lifted or the infringer
prevailed in the underlying patent litigation, the
patent infringer could never recover the forfeited part
of its 180-day exclusivity period. (Snowden, Tr. 50304; Figg, Tr. 1923-24; Hoxie, Tr. 2754, 2778-80;
CX4021 (Ben-Maimon, Dep. at 164-65)).
457. If the branded company wins its action
against a generic company that has launched at risk
and the generic’s actions are deemed “exceptional,”
courts may award attorney’s fees to the brand
company. (Figg, Tr. 1924).
458. At-risk launches are fairly uncommon across
the entire pharmaceutical industry. (Figg, Tr. 192426).
459. At-risk launches are most common when
there are multiple ANDA filers who have received
approval from the FDA, no ANDA filer has exclusivity,
and there subsequently is a race to the market by
generic firms. (Hoxie, Tr. 2704-05).
460. When at-risk launches do occur, they
generally are undertaken by large pharmaceutical
companies that can absorb significant financial risk in
the event they are found to infringe. (Figg, Tr. 1925).

App-241
461. Complaint Counsel’s expert, Professor Noll,
identified 48 at-risk launches over a 15-year period
(August 2001 thru April 2015). Twenty-one of those
forty-eight at-risk launches were conducted by Teva,
which Professor Noll explains, “is by far the most
likely company to do at-risk launches.” (Noll, Tr. 160709; CX5004 (Noll Rebuttal Expert Report at 92-99)).
462. Teva is a “very large pharmaceutical
company” and, as a result, can undertake at-risk
launches more regularly. (Figg, Tr. 1925; see also
Hoxie, Tr. 2820 (Complaint Counsel’s expert noting
that Teva has “a high willingness to take risks” and “a
greater appetite for risk than others.”)).
463. Of the 48 at-risk launches identified by
Professor Noll (F. 461), only 4 were conducted by
companies with less than $1 billion in revenue. (Noll,
Tr. 1609).
464. Mr. Hoxie agreed with industry analysts who
empirically analyzed at-risk launches between 2003
and 2009 that, generally, “at-risk launches are fairly
uncommon.” (Hoxie, Tr. 2827-28).
b.

Impax’s
history
launches

of

at-risk

465. Impax is a small pharmaceutical company. In
2010, Impax’s revenues were less than $1 billion.
(Koch, Tr. 275, 287; see Figg, Tr. 1925; CX3278 at 45
(Impax 2010 Annual Report)).
466. Impax is “incredibly conservative” with
respect to at-risk launches. (CX4021 (Ben- Maimon,
Dep. at 34); see Koch, Tr. 287).
467. Mr. Koch, Impax’s CFO at the time of the
Endo-Impax Settlement, explained that “being a small

App-242
company,” Impax “could not bet the company on any
one product.” (Koch, Tr. 275; see CX4018 (Koch, Dep.
at 97) (describing risks as “huge”)).
468. Impax only “infrequently” considers the
possibility of an at-risk launch. (Koch, Tr. 246- 47).
469. Prior to the Endo-Impax patent litigation,
Impax had launched a product at risk only once. That
at-risk launch was for one dosage strength of a generic
version of oxycodone. Impax limited its risk of
damages by capping its potential sales at $25 million.
Impax launched at risk only after it received a
favorable district court decision holding the relevant
patents unenforceable and after Teva, the first ANDA
filer for the relevant dosage, had launched at risk six
months earlier. (Koch, Tr. 274-75; Snowden, Tr. 42526).
470. The risks to a second generic company
launching at risk are lower than the risks associated
with an initial at-risk launch because (1) the second
generic company does not have first-filer exclusivity at
stake, and (2) the patent holder may have a harder
time arguing that damages are the result of any one
particular generic company’s sales. (Hoxie, Tr. 281718).
471. Since the Endo-Impax Settlement in 2010,
Impax has considered possible at-risk launches. Only
one of those launches occurred, and only in a limited
manner. (Snowden, Tr. 466-67; CX2927 at 014-19).
472. Impax’s one post-settlement at-risk launch
involved a drug called azelastine, a nasal spray
antihistamine. Impax and Perrigo, the ANDA holder
and marketer of azelastine, entered a partnership
agreement through which Impax would share

App-243
development costs and litigation expenses in return
for a share of the drug’s profits. In 2014, Perrigo
notified Impax that it intended to launch azelastine at
risk. Under the terms of the Impax- Perrigo
partnership agreement, Impax could participate in the
launch and earn a share of the profits or could not
participate, in which case Perrigo would receive all
azelastine profits. Impax participated in Perrigo’s atrisk launch, but limited its exposure to potential
damages by capping its participation at 150,000 units.
(Snowden, Tr. 462-65; CX4021 (Ben-Maimon, Dep. at
37-39, 153); CX2689 (minutes of special meeting of
Impax Board)).
c.

Impax’s process for approval of
an at-risk launch

473. It is an absolute prerequisite for Impax’s
board of directors to formally approve any atrisk
launch. (Koch, Tr. 276-77 (“every at-risk launch is a
board-level decision”); Snowden, Tr. 426; CX4030
(Hsu, Dep. at 128); CX4021 (Ben-Maimon, Dep. at
160)).
474. Many steps take place before at an-risk
launch is formally approved by Impax’s board of
directors. F. 474-483.
475. Impax’s process for evaluating a possible atrisk launch starts with Impax’s new product
committee, which evaluates the science, marketing
opportunity, and legal issues related to the drug under
consideration for an at-risk launch. If Impax’s new
product committee recommends an at-risk launch,
Impax’s research and development team conducts
further due diligence regarding the drug. (Koch, Tr.
276).

App-244
476. When evaluating whether to launch a
product at risk, Impax’s in-house legal team conducts
an analysis regarding the specifics, including any
pending patent litigation between Impax and the
brand company, and the strength of the underlying
patents. (Koch, Tr. 276; CX4021 (Ben-Maimon, Dep.
at 166)).
477. When evaluating whether to launch a
product at risk, Impax’s division heads, including
those from the legal, marketing, and operations
departments, and from the generics division, meet
with Impax’s CFO to formulate a risk analysis profile.
Impax’s CFO must present a risk analysis profile to
Impax’s executive committee, which has to approve
any at-risk launch. (Koch, Tr. 276-77).
478. Impax’s CEO must approve any decision to
launch at risk. (CX4030 (Hsu, Dep. at 127); CX4021
(Ben-Maimon, Dep. at 167-68)).
479. If Impax’s CEO and executive committee
approve a possible at-risk launch, a presentation is
made to Impax’s board of directors by Impax’s CFO,
legal department, president of the generics division,
and the manufacturing department (“Board
presentation”). (Koch, Tr. 277; see CX2689; CX3223).
480. The Board presentation includes background
on the product, the basis for the executive committee’s
decision to propose an at-risk launch, and a resolution
seeking the Board’s vote on the matter. (Koch, Tr.
277).
481. Impax’s board of directors must formally
authorize any at-risk launch. (Koch, Tr. 276-77 (“every
at-risk launch is a board-level decision”); Snowden, Tr.
426; CX4021 (Ben- Maimon, Dep. at 160)).

App-245
482. For an at-risk launch, Impax has “to have
sign off from the Board, because we’re such a small
company, and a launch at risk would ... potentially
cause our company problems if we were hit with
damages, big damages.” (CX4026 (Nguyen, Dep. at 5556)).
483. If the Board formally authorizes an at-risk
launch, the Board approval is recorded in the board of
director’s minute book. (Koch, Tr. 286).
484. In the case of azelastine, the nasal spray
antihistamine that Impax did launch at risk (F. 472),
Impax’s senior management, including the president
of Impax’s generics business, Impax’s general counsel,
and Impax’s in-house attorney responsible for
intellectual property, made a presentation and
recommendation regarding a limited at-risk launch at
a special board of directors meeting. A resolution was
then placed before the Board, and the Board voted to
approve the resolution. (Snowden, Tr. 463-66; CX4021
(Ben-Maimon, Dep. at 153-54); CX2689 (minutes of
special meeting of Impax Board regarding
azelastine)).
485. Impax would not launch a product at risk if
it did not have Board approval. (Snowden, Tr. 470).
d.

Impax did not seek or receive
Board approval for an at-risk
launch of generic Opana ER

486. Impax did not seek or receive Board approval
for an at-risk launch of Opana ER. (F. 487-502).
487. Impax’s senior management never decided to
pursue an at-risk launch of generic Opana ER.

App-246
(Mengler, Tr. 547-48, 584; Koch, Tr. 299, 324-25;
Snowden, Tr. 470-71).
488. In 2010, senior management was looking at
possible scenarios and modeled an at-risk launch to
forecast how that might impact Impax’s budget if the
decision to launch at risk were made. (Koch, Tr. 299300; see CX4014 (Hsu, IHT at 129-30) (“We could
settle, we could launch at risk, we could do many other
things, and as the job of CEO, I just have to, you know,
lay out everything, get prepared so I don’t get accused
by the board and say, well, wait a minute, how come
you didn’t prepare for plan B?”)).
489. On May 9, 2010, Impax’s CEO, Dr. Hsu,
informed Mr. Koch, Impax’s CFO, that “[i]t’s unlikely
we will launch Opana ER this year (I actually prefer
not to launch this year for obvious reason[s]).” (RX297
at 0002).
490. In response to an internal Impax email
reporting that on May 13, 2010, the FDA granted
tentative approval to Impax’s ANDA for generic
Opana ER (F. 64), Dr. Hsu stated that Impax would
most likely “make launch decision based on court
decision on the PI.” (CX2929 at 001; Koch, Tr. 310).
491. After the FDA granted tentative approval to
Impax’s ANDA for generic Opana ER (F. 64), when
customers inquired about the status of Impax’s Opana
ER product, on May 17, 2010, Todd Engle, a senior
member of Impax’s sales and marketing team, told
members of the Impax sales team that “[a] launch
decision has not been made yet. There is nothing we
can tell the customers yet.” (Engle, Tr. 1778-79; RX323
at 0001).

App-247
492. Impax told the court presiding over the EndoImpax patent litigation on May 20, 2010 that Impax
would not launch at risk during trial. (Snowden, Tr.
471-72; RX251).
493. Mr. Mengler, president of Impax’s generics
division, created a presentation for the May 2010
board of directors meeting, in which he listed an atrisk launch of oxymorphone as a “current assumption”
for the purpose of projecting sales of oxymorphone ER.
Mr. Mengler’s assumptions with respect to possible
sales numbers did not “imply or mean that any legal
decision ha[d] been made to clear the way for a
launch.” (CX2662 at 012; Koch, Tr. 337-38; Mengler,
Tr. 552-53).
494. The minutes of the meeting of the board of
directors meeting on May 25 and 26, 2010 note that
Mr. Mengler “expressed the view that [o]xymorphone
was a good candidate for an at-risk launch.” (CX2663
at 001).
495. Mr. Mengler raised oxymorphone ER at the
May 2010 Board meeting to put oxymorphone ER “on
the radar” of the Board and to “alert the board as to
the product being out there that might get to the point
of an at-risk launch.” Mr. Mengler discussed potential
revenues from oxymorphone ER and told the Board
that he thought oxymorphone ER “was a great market
opportunity” because it was a “very rapidly growing
product.” (Mengler, Tr. 584-85; Koch, Tr. 294-95, 30001).
496. Mr. Koch, who wrote the minutes of the
meeting of the board of directors meeting on May 25
and 26, 2010, explained that Mr. Mengler was
communicating his evaluation of the oxymorphone

App-248
market and sharing that information with the Board
because senior management was unsure of what
direction it would “ultimately take and ... [did not]
want to come back to the board seeking an at-risk
launch with them never having heard of it before.”
(Koch, Tr. 301).
497. Dr. Hsu explained that senior management
“want[s] to alert the board that we are considering this
[as] one of the scenario[s] so that if we do come up with
a final recommendation to the board, there will be no
surprise. ... [T]his is very typical.” (CX4030 (Hsu, Dep.
at 82)).
498. Impax’s senior management did not make a
recommendation to the Board for an at-risk launch,
did not discuss the risk or benefits of an at-risk launch,
and did not ask the Board to approve an at-risk launch
at the May 25 and 26, 2010 Board meeting. (Koch, Tr.
295, 299; Mengler, Tr. 584-85; Snowden, Tr. 470-71;
CX4030 (Hsu, Dep. at 85)).
499. There was no substantive discussion of an atrisk launch at the May 2010 board of directors
meeting. (Koch, Tr. 295; Mengler, Tr. 584).
500. If a recommendation, discussion, or approval
to launch at risk had been made to or by the board of
directors, it would have been “very carefully” recorded
in detailed Board meeting minutes, and would include
the at-risk launch discussion, the resolution regarding
the possible launch, a formal request for a vote, and
the actual Board vote about the at-risk launch. No
such meeting minutes exist. (Koch, Tr. 289-90, 297-98
(“I would have written the resolution, and there was
no resolution for oxymorphone.”)).

App-249
501. As of June 8, 2010, the Impax board of
directors had not been asked to vote on whether or not
to launch generic oxymorphone ER at risk. (Joint
Stipulations of Jurisdiction, Law, Fact, and
Authenticity, JX001-009 ¶29; Koch, Tr. 299; CX4030
(Hsu, Dep. at 85)).
502. The board of directors never voted on or
approved an at-risk launch of generic oxymorphone
ER. (CX4030 (Hsu, Dep. at 85); Koch, Tr. 298-99).
e.

Impax’s
efforts
i.

launch

preparedness

Impax’s
general
preparedness practices

503. Impax generally strives to have its products
that have been filed with Paragraph IV certifications
ready to launch after the expiration of the HatchWaxman Act’s 30-month stay. (Engle, Tr. 1768-69).
504. Impax’s supply chain department is
responsible for producing and packaging Impax’s
products. Joseph Camargo was Impax’s vice president
of the supply chain group from 2006 through 2011.
(Camargo, Tr. 950-51).
505. Each month, the supply chain group receives
from Impax’s marketing department a product
forecast for the next 18 months which the supply chain
group uses to begin routine launch planning.
(Camargo, Tr. 958; CX4023 (Hildenbrand, Dep. at 7879)).
506. When a product is 18 months away from its
earliest theoretical launch, the supply chain group
begins prelaunch preparation activities. (Camargo,
Tr. 958; CX4023 (Hildenbrand, Dep. at 9-12, 79)).

App-250
507. Impax uses a computer system called
Enterprise Resource Planning (“ERP”) and a product
launch checklist to plan and track product production
projects within the 18- month planning horizon. The
ERP system tracks the purchasing of materials, shop
floor activities, financials associated with paying
suppliers, and other planning activities based on
projected batch sizes, necessary materials, and how
the product is produced. (Camargo, Tr. 959-61).
508. Once a product is uploaded into the ERP
system, the supply chain group undertakes the
following tasks: requests a quota from the U.S. Drug
Enforcement Agency (“DEA”) to purchase any active
pharmaceutical ingredients (“API”) that are controlled
substances; purchases the API and other unique
materials necessary to produce the finished product;
conducts “process validation” (F. 510) to prove that
Impax’s manufacturing process is repeatable and
makes the product in a satisfactory manner; and
produces a “launch inventory build” to ensure that
Impax has enough product to meet expected demand
on the launchable date. (Camargo, Tr. 964-68).
509. The supply chain group holds monthly
meetings called “launch coordination meetings” to
assess the status of any products in the 18-month
planning horizon, which are chaired by Impax’s vice
president of supply chain and attended by
representatives of all departments who have
responsibilities related to the planning of a product
launch, including the marketing, purchasing, and
regulatory departments. (Camargo, Tr. 962-63).
510. Process validation is an FDA requirement
imposed on all pharmaceutical manufacturers to

App-251
prove that their manufacturing processes are
satisfactory and repeatable. Every product must
undergo successful process validation before it can be
launched. (Camargo, Tr. 966-67; Koch, Tr. 270).
511. Impax’s practice is to begin process
validation six months before FDA approval of the
relevant drug is expected, even if the product is the
subject of active litigation. (Koch, Tr. 269-70; CX3278
at 101 (Impax’s 2010 10-K report: “When the Company
concludes FDA approval is expected within
approximately six months, the Company will
generally begin to schedule manufacturing process
validation studies as required by the FDA to
demonstrate the production process can be scaled up
to manufacture commercial batches.”).
512. Impax may build pre-launch quantities of the
products in its planning pipeline before either FDA
approval is granted or a formal launch decision is
made. (CX3278 at 101 (Impax’s 2010 10-K report: “the
Company may build quantities of pre-launch
inventories of certain products pending required final
FDA approval and/or resolution of patent
infringement litigation, when, in the Company’s
assessment, such action is appropriate to increase the
commercial opportunity, FDA approval is expected in
the near term, and/or the litigation will be resolved in
the Company’s favor.”)).
513. Impax generally builds pre-launch quantities
of products because it takes months to build up launch
inventory. (CX4030 (Hsu, Dep. at 42); Koch, Tr. 27071).

App-252
514. Impax considers its production of pre-launch
quantities “routine” and consistent with industry
practice. (Koch, Tr. 271; CX3278 at 100-01).
515. By having pre-launch quantities ready,
Impax is able to “increase the commercial
opportunity” for its drugs and have the option of
launching if the decision to launch is made. (CX3278
at 100-01; CX4030 (Hsu, Dep. at 86)).
516. Because Impax’s operations team prepares
products for launch before FDA approval or a formal
decision about launch timing, it is not unusual for
Impax to discard and write off some of the products
and raw materials in its inventory. (Camargo, Tr.
1020-21, 1033 (discarding of products or materials was
“a matter of course pretty much every month”); Koch,
Tr. 273 (writing off and destroying product is a routine
and “small cost” of doing business in the generic
industry)).
ii. Impax’s
launch
preparedness efforts for
generic Opana ER
517. Impax’s operations team sought to be ready
to launch its generic oxymorphone ER product at the
expiration of the Hatch-Waxman Act’s 30-month stay,
June 14, 2010. (Mengler, Tr. 558; Engle, Tr. 1769).
518. To meet a June 2010 launch date, Impax
began planning oxymorphone ER production in 2009.
(Camargo, Tr. 969).
519. The supply chain group created master data
for oxymorphone ER in its ERP system to manage
production capacity and materials planning and put
oxymorphone ER on its product launch checklist to

App-253
coordinate all launch-related activities. (Camargo, Tr.
1006).
520. In June 2009, the supply chain group
acknowledged that the “odds of launching
[oxymorphone in June 2010] when the 30-month stay
expires may be low.” Mr. Camargo explained that “it
didn’t seem likely to me that we would actually
launch” in mid-2010 because the company “tended to
shy away from” at-risk launches and oxymorphone ER
would have been an at-risk launch given the ongoing
litigation. (RX181; Camargo, Tr. 1009-10).
521. Impax undertook its normal launch
preparations for oxymorphone ER to be prepared for a
potentially “very lucrative” situation, even if the odds
of an actual launch in June 2010 were low because the
“upside [was] substantial and ... we may want to plan
for” it. (RX181; see Camargo, Tr. 1008-10).
522. Because oxymorphone, the API for generic
Opana ER, is a controlled substance, purchasing
oxymorphone is regulated by the DEA. (Camargo, Tr.
965; CX4027 (Anthony, Dep. at 13-14, 150-51)).
523. Impax requested a procurement quota from
the DEA for oxymorphone, a necessary step before it
could purchase oxymorphone API for any reason,
including to conduct process validation of its
oxymorphone ER product. (Camargo, Tr. 974, 1013).
524. Impax was initially allotted 9.0 kg (of
anhydrous base) of procurement quota for
oxymorphone for 2010 by the DEA. The initial
allotment of oxymorphone quota was for product
development manufacturing. (Joint Stipulations of
Jurisdiction, Law, Fact, and Authenticity, JX-001-008
¶24; CX4027 (Anthony, Dep. at 145-48)).

App-254
525. On January 18, 2010, Impax submitted a
request for additional oxymorphone procurement
quota to the DEA, which was approved. (Joint
Stipulations of Jurisdiction, Law, Fact, and
Authenticity, JX-001-008 ¶¶25-26).
526. On April 15, 2010, Impax submitted another
request for additional oxymorphone procurement
quota to the DEA, which was approved. (Joint
Stipulations of Jurisdiction, Law, Fact, and
Authenticity, JX-001-008-009 ¶¶27, 30).
527. Impax conducted process validation for
oxymorphone ER in 2010. (Camargo, Tr. 1011- 12).
528. Impax used a matrix approach for conducting
process validation for its generic Opana ER product. A
matrix approach to process validation takes less time,
reduces the amount of product produced during the
validation process, and ultimately reduces the costs
incurred by Impax. (Joint Stipulations of Jurisdiction,
Law, Fact, and Authenticity, JX-001- 009 ¶31;
Camargo, Tr. 1012-13).
529. As of May 20, 2010, Impax had completed
process validation for the 5 mg, 10 mg, 20 mg, and 40
mg dosages of generic oxymorphone ER. (Joint
Stipulations of Jurisdiction, Law, Fact, and
Authenticity, JX-001-008 ¶28).
530. The process validation batches that Impax
had built were not sufficient to meet the market
demand for a full launch. (Koch, Tr. 292-93).
531. As a general practice, after process validation
is complete, the Impax operations team does not build
launch inventory without management approval.
(Camargo, Tr. 1015-16; RX186 at 0004).

App-255
532. In the case of oxymorphone ER, the Impax
operations team never received instructions from
senior management to begin a launch inventory build.
(Camargo, Tr. 1016-17, 1020; CX2898-001 (internal
Impax email from Mr. Camargo on May 12, 2010:
“[W]e will not commence the launch inventory build
until we receive direction to do so from senior mgmt.”);
RX186 at 0004 (we “await management decision to
proceed with 8-lot launch inventory build.”); Engle, Tr.
1778-79; RX323 at 0001 (internal Impax email from
Mr. Engle on May 17, 2010: “There has been no
decision yet to complete the launch build.”)).
533. Impax never actually completed a launch
inventory build in support of an oxymorphone ER
launch. (Camargo, Tr. 1020).
534. By May 28, 2010, Impax’s operations team
had still not produced enough oxymorphone ER to
support a product launch. (Engle, Tr. 1783; CX0006 at
001 (internal Impax email from Todd Engle, Impax’s
vice president of sales and marketing for the generics
division, to Impax’s operations team that Impax would
need at least one additional lot of 20 mg and three
additional lots of 40 mg oxymorphone ER to meet sales
estimates for even one month of sales)).
535. Having less than one month’s worth of
product would have prohibited a product launch
because Impax would “rapidly run out of product, and
most likely ... would have started to incur penalties
from [its] customers for not delivering on time.”
(Engle, Tr. 1784-85).
536. The time required to produce the necessary
amount of oxymorphone ER would have made a

App-256
product launch soon after FDA approval in mid-June
2010 impossible. (Engle, Tr. 1780).
537. Impax had solicited letters of intent from four
customers asking customers for their good faith
estimate of how much product they likely would buy if
generic oxymorphone ER came on the market, but
Impax did not have any pricing contracts or
agreements to purchase with those customers.
(CX2868 at 001; CX2882; Engle, Tr. 1780-81, 179798).
538. Prior to the Endo-Impax Settlement, Impax’s
inventory included finished goods of generic
oxymorphone ER, including three lots of 10 mg, as well
as bright stock 14 of generic oxymorphone ER,
including three lots of 5 mg, one lot of 20 mg, and two
lots of 40 mg dosage strengths. (Joint Stipulations of
Jurisdiction, Law, Fact, and Authenticity, JX-001-009
¶32).
539. Based on the cost of materials and labor, the
total value of Impax’s manufactured oxymorphone ER
at the time of Endo-Impax Settlement was $1,387,883.
(Camargo, Tr. 994-95).
540. Following the Endo-Impax Settlement in
June 2010, Impax accounted for the oxymorphone ER
product as likely to be rejected because the product
could not be used and the finished goods eventually
were destroyed. (Camargo, Tr. 998; Koch, Tr. 273).
541. In June 2010, Impax also possessed
oxymorphone API that had not been incorporated into
any finished products which may have been used later
14 Bright stock is product that has been manufactured and
placed in bottles, but has not been labeled yet. (Koch, Tr. 253).

App-257
to manufacture other products. (Camargo, Tr. 1022;
CX2928 at 015).
542. Because Impax seeks to be prepared for all
possible outcomes, discarding product “falls under the
category of cost of doing business in weighing all your
options.” (CX4004 (Engle, IHT at 181); see also Engle,
Tr. 1785-86 (“Throwing away product or discarding
product in about a 1.5 million range happens
frequently and it - it’s not unusual.”); Camargo, Tr.
1020-21, 1033 (discarding products or materials was
“a matter of course pretty much every month”); Koch,
Tr. 273 (discarding and writing off product is a routine
and “small cost” of doing business)).
543. Impax wrote off over $1 million worth of nonoxymorphone ER products in April 2010, and $560,000
worth of non-oxymorphone ER product in June 2010.
Impax also discarded and wrote off roughly $25
million in finished product in 2017. (CX2905 at 003;
CX2896 at 002-03; Camargo, Tr. 1023-24; Engle, Tr.
1786).
f.

Economic disincentives

544. Had Impax launched a generic version of
Opana ER at risk, Impax’s potential liability for
damages would have exceeded any profits Impax
realized from the launch. (Addanki, Tr. 2379-80; F.
545-546).
545. Impax projected a total of $28 million in
potential oxymorphone ER sales over six months in
2010 following an at-risk launch. (CX2662 at 015).
546. Based on Endo documents indicating that at
the time of the Endo-Impax Settlement Endo’s Opana
ER net sales were $20 million per month and an

App-258
assumption that Endo had a 90% profit margin on
those sales such that Endo’s profits were $18 million
per month, if Impax sold a month’s worth of Opana ER
at risk, and if Impax took 50% of Endo’s sales, Impax
could be risking as much as $9 million per month or
$54 million for six months of sales. If Endo showed
that Impax’s infringement was willful and was
awarded treble damages, Impax could be risking as
much as $162 million for six months of sales. (CX1106
at 005; Hoxie, Tr. 2784-92).
547. The 180-day exclusivity period starts from
the day of launch. If Impax launched at risk and then
was subsequently enjoined, the 180-day exclusivity
period would continue to run and Impax would forfeit
that part of the 180-day exclusivity period. (Addanki,
Tr. 2380-81).
548. Because of these economic disincentives for
an at-risk launch by Impax (F. 544-547), it “was
perfectly reasonable for Impax to view a launch at risk
as a losing proposition.” (Addanki, Tr. 2380).
g.

Complaint Counsel’s experts

549. Although Mr. Hoxie identified risks to Impax
of an at-risk launch, he did not quantify the risk to
Impax from an at-risk launch, conduct a risk-benefit
analysis for an at-risk launch by Impax, or evaluate
the magnitude of potential lost-profit damages that
Impax would have faced if it launched at risk. (Hoxie,
Tr. 2760, 2769-70, 2782-83, 2910).
550. Mr. Hoxie did not opine that an at-risk
launch would have been a reasonable risk from
Impax’s perspective. (Hoxie, Tr. 2808).

App-259
551. Professor Noll, Complaint Counsel’s
economic expert, did not analyze Impax’s economic
incentives to determine whether it was economically
rational for Impax to launch at risk. (Noll, Tr. 160102).
552. Professor Noll testified that an at-risk launch
was a hypothetical possibility, but did not offer an
opinion about whether Impax would have launched at
risk or when it would have done so, and did not
conduct any economic analysis to determine if a
launch at risk would have been good, bad, or
economically rational for Impax. (Noll, Tr. 1600-06).
3.

Launch after litigation

553. At the time of the Endo-Impax Settlement,
the outcome of the Endo-Impax patent litigation was
uncertain. (RX548 (Figg Expert Report at 0030-31
¶69)).
554. The outcome of the Endo-Impax patent
litigation on appeal, if there was one, was also
uncertain. (Figg, Tr. 2007-08, 2046; CX4045 (Figg,
Dep. at 132); CX5007 (Hoxie Rebuttal Expert Report
at 043 ¶79)).
555. If Impax and Endo had not entered into the
Endo-Impax Settlement, the trial in the patent
litigation would have continued. (Snowden, Tr. 40001).
556. Following a trial in the Endo-Impax patent
litigation, the parties would have had to wait for the
district court to issue findings of fact, conclusions of
law, and an order. Based on a review of HatchWaxman cases from the district court of New Jersey
conducted by Impax’s patent litigation expert, Mr.

App-260
Figg, a decision would have been issued approximately
four to five months after completion of trial, in or
around November 2010. (Figg, Tr. 1906-07, 2027-28).
557. Mr. Figg is an attorney specializing in
intellectual property, primarily involving the
chemical,
pharmaceutical,
healthcare
and
biotechnology industries. Mr. Figg has practiced
patent law since 1978 and his principal emphasis is
patent litigation. He has served as lead counsel in
numerous complex patent litigation matters,
including Hatch- Waxman litigation, in federal
district court and the Federal Circuit Court of
Appeals.. (Figg, Tr. 1810; RX548 (Figg Expert Report
at 006-08 ¶¶6-10)).
558. Regardless of when the district court would
have issued its decision in the Endo-Impax litigation,
an appeal was likely, and would take 30 days to be
docketed in the Federal Circuit Court of Appeals.
(Figg, Tr. 1908).
559. Based on statistics maintained by the
Federal Circuit and reviewed by Mr. Figg, the median
time from docketing to final decision was
approximately eleven months in 2010 and 2011.
Applying these statistics, Mr. Figg estimated that an
appellate decision in the Endo-Impax patent litigation
would have been issued in November 2011. This
estimate is “very conservative” because the median
time from docketing to a final decision includes
settlements and summary affirmances. (Figg, Tr.
1908-09).
560. The Federal Circuit is generous with briefing
extensions, which increases the time it takes to receive
a decision. (Figg, Tr. 1909-10).

App-261
561. If Impax had lost at the trial level, the
“centerpiece” of the appeal would have been the trial
court’s claim construction ruling. Impax would have
had “substantial arguments” regarding that ruling on
appeal. (Figg, Tr. 1911-12; Hoxie, Tr. 2694).
562. If the appellate court agreed with Impax’s
arguments regarding the district court’s claim
construction, it is likely that the appellate court would
remand to the trial court for further development of
the evidentiary issues. This is because the parties
would need to litigate infringement and validity under
Impax’s construction of the claims. Because the trial
court’s claim construction ruling was in favor of Endo,
Endo never developed a record that Impax infringed
its patents under Impax’s construction of the claims.
Absent a record on the issue of infringement and
validity, the Federal Circuit would not decide these
issues itself, but would instead direct such decision to
the trial court via remand. (Figg, Tr. 1912-13).
563. If the appellate court ruled in favor of Impax
and remanded the case to the trial court, the
evidentiary proceedings on remand would likely have
taken up to 18 months to complete, and therefore
would not be concluded until a date close to January
2013. (Figg, Tr. 1914- 15, 1973).
564. If Impax had lost in the Federal Circuit,
Impax would be enjoined and would not have been
able to launch its oxymorphone ER product until the
expiration of the patents in September 2013. (Figg, Tr.
1915, 1973).

App-262
E. Procompetitive Benefits
1.

Broad license agreement

565. In settlement negotiations with brand
companies, Impax would regularly seek a broad
patent license whenever it intended to launch and
continue to sell its generic product indefinitely, in
order to provide Impax with as much flexibility as
possible. In any negotiation where the brand company
tried to narrow the scope to the patents being
litigated, Impax was “very firm,” explaining that “this
is not about the patents being litigated. This is about
a product, and we want the ability to operate.”
(CX4026 (Nguyen, Dep. at 155-58)).
566. For Impax, every “agreement has to cover all
the patent[s], not just the patent [at issue] today, but
cover all future patent[s] as well ... [O]therwise you
end up with [a] launch [of] the product and still have
to be under the [patent] risk, and that doesn’t really
help [Impax].” (CX4014 (Hsu, IHT at 116)).
567. The SLA contains a broad license agreement
and a covenant not to sue that covered all patents
“that would ever be owned by [Endo and Penwest] that
would cover the Impax product, so the patents that
existed at the time as well as future patents” were
covered. (Snowden, Tr. 439; RX364 at 009).
568. Section 4.1(a) of the SLA grants Impax a
license both to the “Opana ER Patents” (defined in the
SLA as the ’933, ’456, and ’250 patents and any
reissuances thereof) and to “any patents and patent
applications owned by Endo or Penwest ... that cover
or could potentially cover the manufacture, use, sale,
offer for sale, importation, marketing or distribution
of products ... that are the subject of the Impax ANDA

App-263
... .” (Joint Stipulations of Jurisdiction, Law, Fact, and
Authenticity, JX001-009-10 ¶35).
569. The Settlement and License Agreement
identified “the patent applications (and any patents
issued thereunder)” as the “Pending Applications.”
(Joint Stipulations of Jurisdiction, Law, Fact, and
Authenticity, JX001-010 ¶36).
570. In section 4.1(b) of the SLA, Endo provided
Impax with a covenant not to sue, which prohibited
Endo and its affiliates from suing Impax for patent
infringement on any of the patents licensed pursuant
to section 4.1(a) (F. 568-569). This provision meant
that Endo could not sue Impax for infringement of
Endo’s patents listed in the Orange Book at the time
of settlement, as well as any continuations,
continuations in part, or divisions of those patents, or
patent applications owned or controlled by Endo that
could cover the product described in Impax’s ANDA for
original Opana ER. (RX364 at 0010 (SLA); see also
Figg, Tr. 1964; Hoxie, Tr. 2885).
2.

Endo’s additional
patent litigation

patents

and

571. After entering into the SLA, Endo obtained
additional patents and patent licenses that it has
asserted cover both original and reformulated Opana
ER (the “after-acquired patents”). (Joint Stipulations
of Jurisdiction, Law, Fact, and Authenticity, JX001012 ¶55).
572. At the time of the Endo-Impax Settlement,
some of the after-acquired patents (F. 571) were
pending and it was uncertain whether any new
patents would issue. (Snowden, Tr. 440, 442-43;
CX3455 at 022-23).

App-264
a.

The Johnson Matthey Patent

573. Endo acquired its first post-settlement
patent - U.S. Patent No. 7,851,482 - from Johnson
Matthey in March 2012 (the “Johnson Matthey
patent”). (Snowden, Tr. 442-43; RX127; Addanki, Tr.
2362; Figg, Tr. 1949).
574. The Johnson Matthey patent addressed a
process for making a purified type of oxymorphone and
was issued in December 2010. (Snowden, Tr. 443;
CX4017 (Levin, Dep. at 150-51); CX3329 at 006).
b.

The ’060, ’122, and ’216 patents
and New York litigation

575. The Patent and Trademark Office issued
U.S. Patent Nos. 8,309,060 and 8,309,122 to Endo on
November 13, 2012 (“the ’060 and ’122 patents”).
(Joint Stipulations of Jurisdiction, Law, Fact, and
Authenticity, JX001-012 ¶56).
576. The Patent and Trademark Office issued
U.S. Patent No. 8,329,216 to Endo on December 11,
2012 (“the ’216 patent”). (Joint Stipulations of
Jurisdiction, Law, Fact, and Authenticity, JX001-012
¶57).
577. In December 2012, Endo began asserting the
’060, ’122, and ’216 patents against drug
manufacturers seeking to market generic versions of
both original and reformulated Opana ER. At that
time, Endo did not assert these patents against
Impax’s generic version of original Opana ER. Endo
did, however, assert these patents against Impax’s
generic version of reformulated Opana ER, as to which
Impax had filed an ANDA. (Joint Stipulations of

App-265
Jurisdiction, Law, Fact, and Authenticity, JX001-01213 ¶58; Snowden, Tr. 440-41, 444-45).
578. In August 2015, the district court for the
southern district of New York held that the ’122 and
’216 patents were not invalid and were infringed by
other companies’ generic versions of original Opana
ER and by generic versions of reformulated Opana ER,
including Impax’s version of reformulated Opana ER.
The court issued an injunction barring all defendants
except Impax from selling their generic versions of
original Opana ER until 2023. That ruling is currently
on appeal to the Federal Circuit. (Joint Stipulations of
Jurisdiction, Law, Fact, and Authenticity, JX001-013
¶62; Snowden, Tr. 444-45).
c.

The ‘737 and ‘779 patents and
Delaware litigation

579. The U.S. Patent and Trademark Office
issued U.S. Patent No. 8,808,737 to Endo on August
19, 2014 (“the ’737 patent”). (Joint Stipulations of
Jurisdiction, Law, Fact, and Authenticity, JX001-013
¶59).
580. The U.S. Patent and Trademark Office
issued U.S. Patent No. 8,871,779 on October 28, 2014
(“the ’779 patent”). (Joint Stipulations of Jurisdiction,
Law, Fact, and Authenticity, JX001-013 ¶60).
581. Endo also acquired an exclusive field-of-use
license to U.S. Patent No. 8,871,779 from
Mallinckrodt. (Joint Stipulations of Jurisdiction, Law,
Fact, and Authenticity, JX001-013 ¶61).
582. The ’779 patent specifies the maximum levels
of impurity that can be contained in the active

App-266
pharmaceutical ingredient for generic Opana ER.
(Figg, Tr. 1965).
583. Endo asserted the ‘737 and ‘779 patents in
litigation in the district court of Delaware against
drug manufacturers seeking to market both original
and reformulated Opana ER. (Snowden, Tr. 450-51).
584. Endo did not assert these patents (F. 583)
against Impax’s generic version of original Opana ER
because of the SLA’s broad license provision, but did
assert them with respect to Impax’s ANDA for a
generic version of reformulated Opana ER. (Snowden,
Tr. 450).
585. In November 2015, the federal district court
in Delaware held that the ’737 patent was invalid. The
ruling is currently on appeal to the Federal Circuit.
(Joint Stipulations of Jurisdiction, Law, Fact, and
Authenticity, JX001-013 ¶63).
586. In October 2016, the federal district court in
Delaware held that the ’779 patent was not invalid
and was infringed by a generic version of reformulated
Opana ER. That ruling is currently on appeal to the
Federal Circuit. (Joint Stipulations of Jurisdiction,
Law, Fact, and Authenticity, JX001-013 ¶64; see
Snowden, Tr. 441).
587. In August 2017, the district court in
Delaware ruled that the ’779 patent was not invalid
following a bench trial against certain ANDA filers. In
September 2017, Judge Andrews entered a final order,
enjoining all defendants from selling generic Opana
ER until the patents expire in 2029. (Second Set of
Joint Stipulations, JX003 ¶¶56, 58; RX544; RX575).

App-267
588. The ’779 patent expires in 2029. (Snowden,
Tr. 451).
d.

The Endo v. Impax New Jersey
litigation

589. On May 4, 2016, Endo filed a lawsuit against
Impax in federal district court in New Jersey, alleging
that Impax was in breach of the SLA for failing to
negotiate with Endo in good faith a royalty for three
after acquired patents - the ’122, ’216 and ’737 patents.
Endo included claims for patent infringement in its
complaint, predicated on the alleged breach and
termination of the contract, which would have
terminated Impax’s license under the SLA. (CX2976;
Figg, Tr. 2050-51).
590. On August 5, 2017, Endo and Impax resolved
the New Jersey litigation (F. 589) regarding the
breach of the SLA by entering into a Contract
Settlement Agreement. (CX3275).
591. The August 5, 2017 Contract Settlement
Agreement (F. 590) includes [redacted]. (CX3275 at
011-15, in camera).
3.

Effect
of
agreement

the

broad

license

592. The broad patent license and covenant not to
sue provided in the SLA (collectively, the “broad
patent license” or “broad license agreement”) gave
Impax freedom to operate “[u]nder both the litigated
patents as well as future patents that Endo might
obtain in this area.” (Figg, Tr. 1936-37).
593. The broad license agreement in the SLA gave
Impax protection against any future patents being
asserted against Impax and potentially preventing

App-268
continued sales of Impax’s generic version of original
Opana ER. (Addanki, Tr. 2376).
594. The January 2013 entry date and the broad
license agreement in the SLA allowed Impax to launch
its product eight months before the original patents
expired and sixteen years before the after-acquired
patents expired, and to “continue with the sale of that
product right up to the present day because ... Endo
did not sue Impax for infringement of the second wave
patents or the third wave patents for the original
Opana ER product.” (Figg, Tr. 1971-72; see Noll, Tr.
1674).
595. Although every other Opana ER ANDA filer
settled patent claims asserted by Endo related to
Opana ER, no other drug manufacturer negotiated
rights to future Opana ER patents similar to the broad
license agreement that Impax obtained in the SLA.
(RX441; RX442; RX443; CX3192; see Snowden, Tr.
440; Figg, Tr. 1939-40, 1947; Hoxie, Tr. 2714, 2886).
596. Taken together, Endo’s acquisition and
litigation of additional patents (F. 575-588) has led to
all generic manufacturers other than Impax being
enjoined from selling a generic version of Opana ER
until Endo’s patents expire. Impax’s product is the
only generic Opana ER available to consumers.
(Snowden, Tr. 440-42).
597. Impax has sold generic Opana ER without
interruption since launching its product in January
2013. (Snowden, Tr. 476).
598. Impax’s product is now the only
oxymorphone ER product available to consumers.
(Second Set of Joint Stipulations, JX003 ¶59; Figg, Tr.
1972).

App-269
599. Complaint Counsel’s economic expert,
Professor Noll, admits that consumers are better off
today because Impax is selling oxymorphone ER.
(Noll, Tr. 1669).
600. The “real-world effect” of the SLA is that
“there is a product on the market and available to
consumers today that would not be there had Impax
not had the foresight to negotiate licenses to future
patents.” (Figg, Tr. 1975-76).
III. ANALYSIS
A. Overview of the Case
This is the FTC’s first administrative enforcement
action challenging an alleged reverse payment patent
settlement agreement since the Supreme Court’s
decision in FTC v. Actavis, 133 S. Ct. 2223 (2013). A
reverse payment settlement refers to when a patent
holder sues another company for patent infringement
and the patent litigation is settled with a payment
from the patent holder to the claimed infringer and an
agreement from the claimed infringer to stay out of the
market until a certain date. In re Lipitor Antitrust
Litig., 2018 U.S. App. LEXIS 93, *5-6 (3rd Cir. Jan. 3,
2018). A distinguishing feature of a reverse payment
settlement is that the period in which the patent
challenger agrees to stay out of the market falls within
the term of the patent at issue, when the patent holder
would normally enjoy a government-conferred
monopoly. Id. at *6. “[M]ost if not all reverse payment
settlement agreements arise in the context of
pharmaceutical drug regulation, and specifically in
the context of suits brought under statutory provisions
allowing a generic drug manufacturer (seeking speedy
marketing approval) to challenge the validity of a

App-270
patent owned by an already-approved brand-name 15
drug owner.” Actavis, 133 S. Ct. at 2227.
Prior to 2013, the federal courts of appeal
disagreed as to how to assess the legality of reverse
payment settlement agreements. Some circuits
followed the “scope-of-the-patent” test, which held
that “absent sham litigation or fraud in obtaining the
patent, a reverse payment settlement is immune from
antitrust attack so long as its anticompetitive effects
fall within the scope of the exclusionary potential of
the patent.” FTC v. Watson Pharms., Inc., 677 F.3d
1298, 1312 (11th Cir. 2012); accord In re Ciprofloxacin
Hydrochloride Antitrust Litig. (“Cipro”), 544 F.3d
1323, 1336 (Fed. Cir. 2008); In re Tamoxifen Citrate
Antitrust Litig., 466 F.3d 187, 212-13 (2d Cir. 2006).
The Third Circuit, in In re K-Dur Antitrust Litigation,
held that reverse payment settlement agreements
were presumed unlawful, although the presumption
could be rebutted by showing that the payment (1) was
for a purpose other than delayed entry or (2) offered
some procompetitive benefit. 686 F.3d 197, 218 (3d
Cir. 2012), vacated by, remanded by Merck & Co. v. La.
Wholesale Drug Co., 133 S. Ct. 2849 (2013), UpsherSmith Labs., Inc. v. La. Wholesale Drug Co., 133 S. Ct.
2849 (2013). The Supreme Court, in FTC v. Actavis,
resolved the split in the circuit courts, holding that
reverse payment patent settlements are not immune
from antitrust scrutiny, anticompetitive effects should
not be presumed from the presence of a reverse
payment alone, and that reverse payment settlements
15 The terms “brand-name drugs,” “branded drugs,” or “brand
drugs” are used interchangeably by the courts and the parties
and in this Initial Decision.

App-271
are to be evaluated under the rule of reason, as more
fully explained in Section III.B.2, below.
Antitrust inquiries “must always be attuned to
the particular structure and circumstances of the
industry at issue.” Verizon Commc’ns Inc. v. Law
Offices of Curtis V. Trinko, LLP, 540 U.S. 398, 411
(2004). The distinctive features of the pharmaceutical
industry provide the context for assessing the
agreement challenged in this case.
1.

The Hatch-Waxman Act

The Federal Food, Drug, and Cosmetic Act, 21
U.S.C. §301 et seq., as amended by the Drug Price
Competition and Patent Term Restoration Act of 1984
(the “Hatch-Waxman Act”) and the Medicare
Prescription Drug, Improvement, and Modernization
Act of 2003, 21 U.S.C. §§355(b)(2) and 355(j) and 35
U.S.C. §271(e), establishes procedures designed to
facilitate competition from lower-priced generic drugs,
while maintaining incentives for pharmaceutical
companies to invest in developing new drugs.
A company seeking to market a new
pharmaceutical product must file a New Drug
Application (“NDA”) with the U.S. Food and Drug
Administration (“FDA”), demonstrating the safety and
efficacy of the new product. 21 U.S.C. §355. Pursuant
to the Hatch-Waxman Act, the FDA requires a
company seeking to market a new pharmaceutical
product to identify any patents that the company
believes reasonably could be asserted against a
generic company that makes, uses, or sells a generic
version of the branded product. See 21 U.S.C.
§§355(b)(1) and (c)(2); 21 C.F.R. §§314.53(b) and (c)(2).
These patents are listed in an FDA publication titled,

App-272
“Approved Drug Products with Therapeutic
Equivalence Evaluations” (commonly known as the
“Orange Book”). See King Drug Co. of Florence, Inc. v.
SmithKline Beecham Corp., 791 F.3d 388, 395 (3d Cir.
2015).
A company seeking to market a generic version of
a branded drug may file an Abbreviated New Drug
Application (“ANDA”) with the FDA. 21 U.S.C. §355(j);
Actavis, 133 S. Ct. at 2228. The generic applicant must
demonstrate that its generic drug is therapeutically
equivalent to the brand-name drug that it references
and for which it seeks to be a generic substitute. Id.
When the brand-name drug is covered by one or more
patents listed in the Orange Book, a company seeking
to market a generic version before the patents expire
must make a “Paragraph IV certification” in its ANDA
certifying that the listed patents are invalid,
unenforceable, and/or will not be infringed by the
generic drug. Id. If a company makes a Paragraph IV
certification, it must notify the patent holder of the
filing of its ANDA. King Drug, 791 F.3d at 395 n.7.
If the brand-name drug company initiates a
patent infringement suit within 45 days of an ANDA
filing, the FDA must withhold approval of the generic
drug for at least 30 months while the parties litigate
the validity or infringement of the patent. In re Lipitor
Antitrust Litig., 868 F.3d 231, 241 (3d Cir. 2017), cert.
denied, 138 S. Ct. 983, 984 (2018) (citing Actavis, 133
S. Ct. at 2228; 21 U.S.C. §355(j)(5)(B)(iii)). If a court
decides the infringement claim within this 30- month
period, then the FDA will follow that determination.
Id. However, if the litigation is still proceeding at the
end of the 30-month period, the FDA may give its

App-273
approval to the generic drug manufacturer to begin
marketing a generic version of the drug. Id. The
generic manufacturer then has the option to launch
“at risk,” meaning that, if the ongoing court
proceeding ultimately determines that the patent was
valid and infringed, the generic manufacturer will be
liable for the brand-name manufacturer’s lost profits
despite the FDA’s approval. Id. (citing King Drug, 791
F.3d at 396 n.8).
The Hatch-Waxman framework grants the first
company to file a Paragraph IV certification (“first
filer”) a 180-day period of market exclusivity,
beginning on the first day of its commercial
marketing. Actavis, 133 S. Ct. at 2229. The FDA may
not grant final approval to any subsequent ANDA filer
until the first filer’s exclusivity period expires or is
forfeited. Id. “If the first-to-file generic manufacturer
can overcome any patent obstacle and bring the
generic to market, this 180-day period of exclusivity
can prove valuable, possibly ‘worth several hundred
million dollars.’” Id. (citation omitted).
Although the 180-day exclusivity period enables
the first filer to sell its product without competition
from other generic companies, it does not prevent the
brand-name drug manufacturer from selling its own
“authorized generic.” King Drug, 791 F.3d at 393. An
authorized generic, or “AG,” is a non-branded version
of a brand-name drug that is produced by the brandname company itself. In re Wellbutrin XL Antitrust
Litig., 868 F.3d 132, 158 n.37 (3d Cir. 2017). Brandname companies often introduce AGs to recoup some
of the losses they face once a generic drug has entered
the market. See King Drug, 791 F.3d at 405.

App-274
2.

Generic drug competition

Generic drugs are unique sources of competition
for their brand-name drug counterparts. See New York
v. Actavis PLC, 787 F.3d 638, 655-56 (2nd Cir. 2015).
Generic drugs that are “therapeutically equivalent” to
their brand-name counterpart receive an “AB” rating
from the FDA. An AB-rated generic drug is the same
as a brand-name drug in dosage form, safety, strength,
route of administration, quality, performance
characteristics, and intended use. F. 14. A generic
drug must also contain identical amounts of the same
active ingredient(s) as the brandname drug, although
its inactive ingredients may vary. F. 14.
An AB-rated generic drug may be automatically
substituted for the brand-name drug at the pharmacy
counter. F. 29. All 50 states and the District of
Columbia have enacted laws that either permit or
require a pharmacist to substitute an AB-rated
generic drug for the brand-name drug, unless a
physician directs or the patient requests otherwise. F.
29.
Generic manufacturers typically charge lower
prices than branded drug sellers. F. 31 (The first one
or two generic products are typically offered at a 10%
to 25% discount to the branded product. Subsequent
generic entry creates greater price competition, which
typically leads to discounts between 50% to 80% off the
brand price). Automatic substitution of the generic
drug for the branded drug is the primary way that
generic drug companies make their sales. F. 32.
Because of the price advantages of generic drugs over
branded drugs, many thirdparty payors of
prescription drugs (e.g., health insurance plans and

App-275
Medicaid programs) have adopted policies to
encourage the substitution of AB-rated generic drugs
for their branded counterparts. F. 30.
3.

Endo-Impax patent litigation and
settlement

The FTC’s Complaint challenges the agreement
entered into between Respondent Impax Laboratories,
Inc. (“Impax” or “Respondent”) and Endo
Pharmaceuticals Inc. (“Endo”) to settle patent
litigation brought by Endo against Impax (“EndoImpax patent litigation”). The Endo- Impax patent
litigation arose in connection with Endo’s branded
product, Opana ER.
Opana ER is an extended release form of
oxymorphone hydrochloride marketed for the relief of
moderate to severe pain. F. 46. Endo’s NDA for Opana
ER was approved by the FDA in June 2006, and Endo
launched the product the following month. 16 F. 46-47.
In October 2007, Endo listed three additional patents
in the Orange Book as covering Opana ER: U.S.
Patent Nos. 7,276,250 (“the ’250 patent”), 5,662,933
(“the ’933 patent”), and 5,958,456 (“the ’456 patent”).
F. 51-53.
In November 2007, Impax filed an ANDA seeking
to market a generic version of Opana ER and
submitted a Paragraph IV certification certifying that
Endo’s patents were not valid and/or would not be
infringed by Impax’s generic drug. F. 58-59. Impax
16 When Endo launched Opana ER in 2006, it only listed a
single patent in the Orange Book as covering Opana ER, U.S.
Patent No. 5,128,143 (“the ’143 patent”). F. 49. The ’143 patent
was set to expire in September 2008. F. 50.

App-276
was the first to file an ANDA for the 5, 10, 20, 30, and
40 milligram (“mg”) dosage strengths of Opana ER. F.
173. Thus, Impax was entitled, upon obtaining FDA
approval, to a 180-day period of exclusivity for those
dosage strengths without competition from other
ANDA filers. F. 174.
On January 25, 2008, Endo sued Impax, alleging
that Impax’s ANDA for generic oxymorphone ER
infringed Endo’s ’456 and ’933 patents. F. 61. This suit
triggered the statutory 30-month stay, meaning that
the FDA could not approve Impax’s ANDA until the
earlier of the expiration of 30 months or resolution of
the patent dispute in Impax’s favor. F. 62. The 30month stay was set to expire on June 14, 2010. F. 63.
After Impax filed its ANDA, other generic
companies, including Actavis South Atlantic LLC
(“Actavis”), filed ANDAs seeking to market generic
versions of Opana ER before the expiration of Endo’s
patents. F. 82, 84. Endo sued each ANDA filer for
alleged patent infringement. F. 83, 85-86.
On May 13, 2010, a month before the 30-month
stay was set to expire, the FDA granted tentative
approval to Impax’s ANDA. F. 63-64. Impax received
final approval on the 5, 10, 20, and 40 mg dosage
strengths of generic Opana ER on June 14, 2010, upon
expiration of the statutory 30-month stay, and was
granted final approval by the FDA for the 30 mg
dosage strength on July 22, 2010. F. 66-67. Pursuant
to the Hatch-Waxman framework, once Impax
received final approval from the FDA, Impax had the
option to launch its generic oxymorphone ER product
“at risk.” F. 66-67, 451-452.

App-277
On June 3, 2010, the trial in the patent litigation
between Endo and Impax began. F. 73. The parties
settled the patent litigation on June 8, 2010 by
entering into two agreements: a Settlement and
License Agreement (“SLA”) and (2) a Development
and Co-Promotion Agreement (“DCA”) (collectively,
the “Endo-Impax Settlement” or the “Challenged
Agreement”). F. 74. The DCA was executed
simultaneously with the SLA and is incorporated into
the SLA. F. 75, 245.
In summary, pursuant to the SLA, Endo granted
Impax a license to the ’933, ’456, and’250 patents, as
well as any additional patents then pending or
subsequently issued that could cover Impax’s generic
oxymorphone ER product (“licensed patents”), and
Impax agreed not to launch its generic oxymorphone
product before January 1, 2013. F. 124-125. Endo also
agreed not to sue Impax for patent infringement with
respect to any of the licensed patents. F. 126. In
addition, Endo agreed in the SLA that Impax’s license
to sell generic Opana ER would be exclusive during
Impax’s 180-day first-filer exclusivity period, meaning
that Endo agreed not to sell an authorized generic for
Opana ER (in the five dosage strengths covered by
Impax’s ANDA) until Impax’s 180-day exclusivity
period ended (the “no-AG provision”). F. 127.
Furthermore, pursuant to a provision titled “Endo
Credit,” Endo would be obligated to make a cash
payment to Impax in the event Endo’s Opana ER
dollar sales fell by more than 50% of their quarterly
peak, prior to Impax’s entering the market with its
generic drug. F. 129. In addition, the SLA obligated
Impax to pay Endo a 28.5% royalty on Impax’s generic
Opana ER sales during Impax’s 180-day exclusivity

App-278
period in the event that sales of Opana ER grew by a
specific percentage. F. 128.
Under the DCA, Impax and Endo agreed to
collaborate with respect to the development and
marketing of a potential treatment for Parkinson’s
disease, IPX-203. F. 244, 246. Endo agreed to make an
upfront payment to Impax of $10 million and to make
additional “milestone payments” for achieving
specified milestone events in the development and
commercialization of the product. F. 247-248. If the
product was successfully commercialized, Endo would
be entitled to a share of the profits resulting from
prescriptions by non-neurologists. F. 250. While Endo
agreed to take on some of the costs for the
development of IPX-203, with a cap on its
contributions based on accomplished milestones,
Impax was responsible for all IPX-203 development
work. F. 248, 365-366.
B. Overview of Applicable Law
1.

Introduction

The Complaint charges that the Endo-Impax
Settlement constitutes an agreement to restrain
competition and is an unfair trade practice in violation
of Section 5(a) of the FTC Act. Complaint ¶¶101,
102. 17 The FTC Act’s prohibition of unfair methods of
Section 5(a)(2) of the FTC Act gives the Commission
jurisdiction “to prevent persons, partnerships, or corporations ...
from using unfair methods of competition in or affecting
commerce ....” 15 U.S.C. §45(a)(2); Kaiser Aluminum & Chem.
Corp. v. FTC, 652 F.2d 1324, 1327 n.2 (7th Cir. 1981). Respondent
develops, manufactures, and markets pharmaceutical drugs. F.
3. Respondent is a corporation, as “corporation” is defined in
Section 4 of the FTC Act, 15 U.S.C. §44, and Respondent’s
17

App-279
competition encompasses violations of Section 1 of the
Sherman Act. Cal. Dental Ass’n v. FTC, 526 U.S. 756,
762 & n.3 (1999). “[T]he analysis under §5 of the FTC
Act is the same ... as it would be under §1 of the
Sherman Act.” Polygram Holding, Inc. v. FTC, 416
F.3d 29, 32 (D.C. Cir. 2005); see also FTC v. Indiana
Fed’n of Dentists, 476 U.S. 447, 451-52 (1986).
Accordingly,
Sherman
Act
jurisprudence
is
appropriately relied upon in determining whether
challenged conduct violates Section 5 of the FTC Act.
Cal. Dental Ass’n, 526 U.S. at 762 n.3; Realcomp II,
Ltd. v. FTC, 635 F.3d 815, 824 (6th Cir. 2011).
Section 1 of the Sherman Act prohibits “[e]very
contract, combination in the form of trust or
otherwise, or conspiracy, in restraint of trade or
commerce among the several States ... .” 15 U.S.C.
§1. 18 Despite its broad language, the ban on contracts
in restraint of trade extends only to unreasonable
restraints of trade, i.e., restraints that unreasonably
challenged activities relating to the sale of pharmaceutical drugs
are in or affect commerce in the United States, as “commerce” is
defined in Section 4 of the FTC Act, 15 U.S.C. §44. F. 1-5. The
parties have stipulated that the FTC has jurisdiction over the
subject matter of this proceeding and over Respondent Impax.
(Joint Stipulations of Jurisdiction, Law, Fact, and Authenticity,
JX001-002 ¶7). Thus, the Commission has jurisdiction over
Respondent and the subject matter of this proceeding, pursuant
to Section 5 of the FTC Act.
18 There is no dispute in this case that there was a contract,
combination, or conspiracy. The patent litigation between Endo
and Impax relating to Impax’s generic Opana ER was settled by
agreement of the parties on June 8, 2010. F. 74. “[C]oncerted
action may be amply demonstrated by an express agreement.”
United States v. Delta Dental, 943 F. Supp. 172, 175 (D.R.I. 1996).

App-280
restrain competition. State Oil Co. v. Khan, 522 U.S.
3, 10 (1997).
2.

Antitrust
scrutiny
of
reverse
payment settlements: Actavis

In Actavis, the Supreme Court held that reverse
payment patent settlements are not immune from
antitrust scrutiny, can sometimes violate the antitrust
laws, and are to be evaluated under the rule of reason.
By way of background, the FTC’s complaint in Actavis
had alleged that the defendants violated Section 5 of
the FTC Act “by unlawfully agreeing ‘to share in [the
brandname drug manufacturers’] monopoly profits,
abandon their patent challenges, and refrain from
launching their low-cost generic products to compete
with [the brand-name drug] for nine years.’” Actavis,
133 S. Ct. at 2230 (citation omitted). The district court
held that the allegations did not set forth an antitrust
law violation, and dismissed the complaint. In re
Androgel Antitrust Litig., (No. II), 687 F. Supp. 2d
1371, 1379 (N.D. Ga. 2010).
On appeal by the FTC, the Court of Appeals for
the Eleventh Circuit affirmed. Watson Pharms., 677
F.3d 1298. The appellate court held that patent
holders have a “lawful right to exclude others from the
market,” and that a patent “conveys the right to
cripple competition.” Id. at 1307, 1310 (internal
quotation marks omitted). The appellate court further
reasoned that the public policy in favor of settling
litigation weighs against requiring parties to continue
to litigate in order to avoid any antitrust liability. Id.
at 1313-14. See also e.g., Schering-Plough Corp. v.
FTC, 402 F.3d 1056, 1072 (11th Cir. 2005) (stating
that “[t]he general policy of the law is to favor the

App-281
settlement of litigation, and the policy extends to the
settlement of patent infringement suits”); Cipro, 544
F.3d at 1333 (highlighting the “long-standing policy in
the law in favor of settlements, ... [which] extends to
patent infringement litigation”).
The Supreme Court reversed the lower court’s
dismissal of the FTC’s complaint, holding that
“reverse payment settlements ... can sometimes
violate the antitrust laws.” Actavis, 133 S. Ct. at 2227.
It rejected the appellate court’s scope-of-the-patent
test, reasoning that “to refer ... simply to what the
holder of a valid patent could do does not by itself
answer the antitrust question. The patent ... may or
may not be valid, and may or may not be infringed.”
Id. at 2230-31. Thus, even though a patent, if valid
and infringed, would confer a right to charge
supracompetitive prices and exclude competitors, this
fact does not “immunize the agreement from antitrust
attack.” Id. at 2230. Rather, “patent and antitrust
policies are both relevant in determining the ‘scope of
the patent monopoly’ - and consequently antitrust law
immunity - that is conferred by a patent.” Id. at 2231.
The question of antitrust legality can be answered by
“considering traditional antitrust factors such as
likely anticompetitive effects, redeeming virtues,
market power, and potentially offsetting legal
considerations present in the circumstances, such as
here those related to patents.” Id. at 2231.
Furthermore, the Supreme Court held that the fear
“that antitrust scrutiny of a reverse payment
agreement would require the parties to litigate the
validity of the patent in order to demonstrate what
would have happened to competition in the absence of

App-282
the settlement,” should not be determinative. Id. at
2234.
The Court stated that “five sets of considerations
lead [the Court] to conclude that the FTC should have
been given the opportunity to prove its antitrust
claim”: (1) reverse payment settlements have the
“potential for genuine adverse effects on competition”;
(2) such anticompetitive consequences “will at least
sometimes prove unjustified”; (3) patent holders often
possess market power; (4) litigating patent validity
may not be necessary in order to determine whether a
settlement is legal under antitrust laws, as “large and
unexplained” reverse payment settlements indicate
that the patent holder has doubts about the patent’s
ability to withstand scrutiny; and (5) parties can still
settle patent litigation, despite the risk of antitrust
scrutiny, by avoiding reverse payment settlements.
Actavis, 133 S. Ct. at 2234-37.
Regarding the “potential for genuine adverse
effects on competition,” the Court explained that a
reverse payment settlement can amount to “a
purchase by the patentee of the exclusive right to sell
its product, a right it already claims but would lose if
the patent litigation were to continue and the patent
were held invalid or not infringed by the generic
product.” Id. at 2234. In such case, the patent holder
loses any supracompetitive profits it would have
obtained for the remaining life of the patent, which
“then would flow in large part to consumers in the
form of lower prices.” Id.
However, a settlement that provides a “payment
in return for staying out of the market -simply keeps
prices at patentee-set levels, ... while dividing that

App-283
return between the challenged patentee and the
patent challenger.” Id. at 2234-35. In that instance,
“[t]he patentee and the challenger gain; the consumer
loses.” Id. at 2235. The Court was clear that the
relevant anticompetitive harm potentially posed by
reverse payment settlements is that the payment is
used by the patent holder to avoid the risk of patent
invalidation and the resulting generic competition
that such patent invalidation would enable. Id. at
2236. See also id. (stating that the relevant
“anticompetitive consequence” is the patent holder’s
agreement to share supracompetitive profits with the
patent challenger, “rather than face what might have
been a competitive market ...”).
In addition, the Court reasoned that a large and
unexplained payment suggests that “the patentee has
serious doubts about the patent’s survival.” Id. at
2236. The Court therefore rejected the notion that it
would necessarily be required to litigate the validity of
the patent in order to resolve the antitrust claim,
stating that “the size of the unexplained reverse
payment can provide a workable surrogate for a
patent’s weakness, all without forcing a court to
conduct a detailed exploration of the validity of the
patent itself.” Id. at 2236-37 (citing 12 Areeda ¶2046,
at 350-52).
The Court summarized the considerations
supporting antitrust scrutiny of reverse payment
settlements as follows:
In sum, a reverse payment, where large and
unjustified, can bring with it the risk of
significant anticompetitive effects; one who
makes such a payment may be unable to

App-284
explain and to justify it; such a firm or
individual may well possess market power
derived from the patent; a court, by
examining the size of the payment, may well
be able to assess its likely anticompetitive
effects along with its potential justifications
without litigating the validity of the patent;
and parties may well find ways to settle
patent disputes without the use of reverse
payments. In our view, these considerations,
taken together, outweigh the single strong
consideration - the desirability of settlements
- that led the Eleventh Circuit to provide
near-automatic antitrust immunity to
reverse payment settlements.
Id. at 2237.
Finally, the Court expressly rejected the FTC’s
argument that reverse payment
settlement
agreements “are presumptively unlawful and that
courts reviewing such agreements should proceed via
a ‘quick look’ approach, rather than applying a ‘rule of
reason.’” Id. at 2237. “That is because the likelihood of
a reverse payment bringing about anticompetitive
effects depends upon its size, its scale in relation to the
payor’s anticipated future litigation costs, its
independence from other services for which it might
represent payment, and the lack of any other
convincing justification.” Id.
3.

Rule of reason framework generally

Actavis holds that the rule of reason applies to
evaluating the legality of a reverse payment
settlement agreement. 133 S. Ct. at 2237. The rule of
reason inquiry asks “whether under all the

App-285
circumstances of the case the restrictive practice
imposes an unreasonable restraint on competition.”
Arizona v. Maricopa County Med. Soc’y, 457 U.S. 332,
343 (1982). A full rule of reason analysis may include
an analysis of “‘the facts peculiar to the business, the
history of the restraint, and the reasons why it was
imposed.’” Realcomp, 635 F.3d at 825 (citations
omitted).
“‘[T]here is always something of a sliding scale in
appraising reasonableness,’ [and] ‘the quality of proof
required should vary with the circumstances.’” Cal.
Dental Ass’n, 526 U.S. at 780 (quoting 7 Areeda ¶1507,
at 402 (1986)); Actavis, 133 S. Ct. at 2237-38. See also
Cal. Dental Ass’n, 526 U.S. at 781 (holding that rule of
reason analysis looks to “the circumstances, details,
and logic of a restraint”). As the Court indicated in
Actavis, trial courts should “structure antitrust
litigation so as to avoid, on the one hand, the use of
antitrust theories too abbreviated to permit proper
analysis, and, on the other, consideration of every
possible fact or theory irrespective of the minimal light
it may shed on the basic question - that of the presence
of
significant
unjustified
anticompetitive
consequences.” Actavis, 133 S. Ct. at 2238.
Under the traditional burden-shifting framework
of the rule of reason, the plaintiff bears the initial
burden of proving that the challenged agreement
“produced adverse, anti-competitive effects within the
relevant product and geographic markets.” United
States v. Brown Univ., 5 F.3d 658, 668 (3d Cir. 1993).
See also Cipro, 544 F.3d at 1331-32 (The first step in a
rule of reason analysis is for the plaintiff to show that
the challenged action has had an actual adverse effect

App-286
on competition in the relevant market.); Geneva
Pharms. Tech. Corp. v. Barr Labs., Inc., 386 F.3d 485,
506-07 (2d Cir. 2004) (same).
The burden of proving anticompetitive effects in a
traditional rule of reason case may be met by proving
actual anticompetitive effects in the relevant market,
or by “an indirect showing based on a demonstration
of defendant’s market power, which when combined
with the anticompetitive nature of the restraints,
provides the necessary confidence to predict the
likelihood of anticompetitive effects.” In re Realcomp
II, Ltd., 2009 FTC LEXIS 250, at *90 (Oct. 30, 2009)
(citing Tops Mkts., Inc. v. Quality Mkts., Inc., 142 F.3d
90, 96 (2d Cir. 1998) (plaintiff has “two independent
means by which to satisfy the adverse-effect
requirement” -direct proof of “actual adverse effect on
competition” or “indirectly by establishing ... sufficient
market power to cause an adverse effect on
competition”); Law v. NCAA, 134 F.3d 1010, 1019
(10th Cir. 1998) (“[P]laintiff may establish
anticompetitive effect indirectly by proving that the
defendant possessed the requisite market power
within a defined market or directly by showing actual
anticompetitive effects.”).
If the plaintiff meets its burden of demonstrating
anticompetitive effects, the burden shifts to the
defendant to prove procompetitive justifications for
the challenged restraint. Realcomp, 635 F.3d at 825;
Polygram, 416 F.3d at 36. “If the defendant is able to
demonstrate procompetitive effects, the plaintiff then
must prove that the challenged conduct is not
reasonably necessary to achieve the legitimate
objectives or that those objectives can be achieved in a

App-287
substantially less restrictive manner.” Law, 134 F.3d
at 1019. “Ultimately, if these steps are met, the harms
and benefits must be weighed against each other in
order to judge whether the challenged behavior is, on
balance, reasonable.” Id. The plaintiff bears the
overall burden of establishing that the challenged
restraints “engendered a net harm” to competition in
the relevant market. Cal. Dental Ass’n v. FTC, 224
F.3d 942, 957-58 (9th Cir. 2000).
4.

Reverse payment cases

A number of courts have addressed the structure
for a rule of reason analysis in the reverse payment
context, but with somewhat inconsistent results. In re
Aggrenox Antitrust Litig., 199 F. Supp. 3d 662, 669 (D.
Conn. 2016) (noting that “[v]arious district courts
have struggled to fill the gaps that Actavis left open,
and not always with consistent results.”) Moreover,
these courts have opined on a rule of reason
framework in the context of motions to dismiss and
motions for summary judgment, but have not been
called upon to apply the rule of reason to a complete
evidentiary record developed after trial. 19

In re Nexium (Esomeprazole) Antitrust Litigation, which was
a private cause of action, appears to be the first post-Actavis case
to be submitted to a jury. See Am. Sales Co., LLC v. AstraZeneca
LP (In re Nexium (Esomeprazole) Antitrust Litig.), 842 F.3d 34,
39 (1st Cir. 2016). The appellate court’s review of the special
verdict form provided to the jury does not clearly address the
elements of a rule of reason analysis, for purposes of the instant
case. Nexium, 842 F.3d at 50, 60 (holding that jury’s answers to
special verdict form questions on market power, “large and
unjustified” payment, and anticompetitive effects, indicated jury
found an antitrust violation).
19

App-288
The Court of Appeals for the Third Circuit
described a rule of reason framework in King Drug,
stating:
The Actavis Court provided initial guidance
on how to structure rule-of-reason litigation
in the reverse payment context. The Court
explained that such antitrust questions must
be answered “by considering traditional
antitrust
factors
such
as
likely
anticompetitive effects, redeeming virtues,
market power, and potentially offsetting legal
considerations present in the circumstances,
such as here those related to patents.”
Actavis, 133 S. Ct. at 2231.
First, to prove anticompetitive effects, the
plaintiff must prove payment for delay, or, in
other words, payment to prevent the risk of
competition. “[T]he likelihood of a reverse
payment bringing about anticompetitive
effects depends upon its size, its scale in
relation to the payor’s anticipated future
litigation costs, its independence from other
services for which it might represent
payment, and the lack of any other convincing
justification.” Actavis, 133 S. Ct. at 2237.
Second, the burden then shifts to the
defendant to show “that legitimate
justifications are present, thereby explaining
the presence of the challenged term and
showing the lawfulness of that term under
the rule of reason.” Id. at 2235-36. The
reverse payment, for example, may amount to
no more than a rough approximation of the

App-289
litigation expenses saved through the
settlement. That payment may reflect
compensation for other services that the
generic has promised to perform - such as
distributing the patented item or helping to
develop a market for that item. There may be
other justifications. Id. at 2236. The Court
does not foreclose other justifications, and we
need not decide today what those other
justifications might be.
Finally, the plaintiff
opportunity to rebut
explanation.

will
the

have the
defendant’s

791 F.3d at 412. The court remanded to the district
court “to proceed with the litigation under the
traditional rule of reason, tailored, as necessary, to the
circumstances of th[e] case.” Id.
In In re K-Dur Antitrust Litigation, 2016 U.S.
Dist. LEXIS 22982 (D.N.J. Feb. 25, 2016), after
examining Actavis and subsequent cases, the court
adopted the following burden-shifting framework:
“To make out a prima facie case that a
challenged agreement is an unlawful
restraint of trade, a plaintiff must show the
agreement contains both a limit on the
generic challenger’s entry into the market
and compensation from the patentee to the
challenger. The defendants bear the burden
of ... coming forward with evidence of
litigation costs or valuable collateral products
or services that might explain the
compensation; if the defendants do so, the
plaintiff has the burden of demonstrating the

App-290
compensation exceeds the reasonable value of
these. If a prima facie case has been made
out, the defendants may come forward with
additional justifications to demonstrate the
settlement agreement nevertheless is
procompetitive. A plaintiff who can dispel
these justifications has carried the burden of
demonstrating the settlement agreement is
an unreasonable restraint of trade ... .”
Id. at *46 (quoting In re Cipro Cases I & II, 348 P.3d
845, 871 (Cal. 2015)). See also K-Dur, 2016 U.S. Dist.
LEXIS 22982, at *44 (“[T]he burden must be on
Plaintiffs to show that the settlement delayed the
generic company’s entry onto the market, that the
brand-name company paid the generic company
consideration of some kind, and that the consideration
exchanged in the settlement exceeded the estimated
cost of litigation and the costs of other services and
products, in order to establish a prima facie case.”).
The approach in In re Nexium, 42 F. Supp. 3d 231,
262-63 (D. Mass 2014), is somewhat similar to that of
K-Dur. The court in Nexium, evaluating a motion for
summary judgment, held that, for the initial burden,
the plaintiff must present evidence that the brandname manufacturer “made a payment to a generic
manufacturer that exceeded anticipated future
litigation costs, exceeded the costs of other services,
and lacked ‘any other convincing justification.’” Id. at
262 (quoting Actavis, 133 S. Ct. at 2237). Once this
showing is made, the burden then shifts to the
defendant to show a justification for the payment,
“such as avoided litigation costs or fair value for
services ... .” Id. (quoting Actavis, 133 S. Ct. at 2236).

App-291
If the defendant justifies the payment, then “the
burden shifts back to the [p]laintiff[] to establish,
under the rule of reason, that the settlement is
nevertheless anticompetitive on balance.” Id. at 26263.
Incorporating elements of both King Drug and
Nexium, the district court in In re Loestrin 24 Fe
Antitrust Litigation, 261 F. Supp. 3d 307 (D.R.I. Aug.
8, 2017), held that the rule of reason in a reverse
payment case is applied in a three-step process:
[A] plaintiff must first “prove anticompetitive
effects,” by demonstrating “a payment for
delay, or, in other words, payment to prevent
the risk of competition.” King Drug Co. of
Florence v. Smithkline Beecham Corp., 791
F.3d 388, 412 (3d Cir. 2015) (“Lamictal”), cert.
denied, 137 S. Ct. 446, 196 L. Ed. 2d 328
(2016) (citing Actavis, 133 S. Ct. at 2235-36).
“[T]he likelihood of a reverse payment
bringing about anticompetitive effects
depends upon its size, its scale in relation to
the payor’s anticipated future litigation costs,
its independence from other services for
which it might represent payment, and the
lack of any other convincing justification.”
Actavis, 133 S. Ct. at 2237. Second, if the
plaintiffs satisfy the first step, “the burden
then shifts to the [d]efendants to show that a
challenged payment was justified by some
precompetitive objective”; and third, “the
burden shifts back to the [p]laintiffs to
establish, under the rule of reason, that the
settlement is nevertheless anticompetitive on

App-292
balance.” In re Nexium (Esomeprazole)
Antitrust Litig., 42 F. Supp. 3d 231, 262-63
(D. Mass. 2014) (“Nexium II”).
Id. at 329.
The district court in King Drug Company of
Florence v. Cephalon, Inc. (“Cephalon”), 88 F. Supp. 3d
402 (E.D. Pa. 2015), adopted a somewhat different
approach. There, the court held that in order to meet
the initial burden of proving anticompetitive effects,
the plaintiff must demonstrate that the brand-name
company made a “large” payment in the settlement
agreement and that the brand-name company had
market power. Id. at 414. The court held that, for
purposes of avoiding summary judgment, a payment
is sufficiently “large” if there is evidence that the
payment exceeded saved litigation costs and a
reasonable jury could find that the payment was
significant enough to induce the generic company to
stay off the market. Id. at 417. If the plaintiff meets
this burden, the burden shifts to the defendant to
demonstrate procompetitive justifications for the
reverse payment. Id. at 416. The plaintiff “must then
rebut those justifications and establish that the
‘restraint is not reasonably necessary to achieve the
stated objective.’” Id. “If the plaintiff provides evidence
to rebut the defendant’s justifications, the fact-finder
will
then
weigh
the
anticompetitive
and
procompetitive effects, as in other rule of reason
cases.” Id.
5.

Contentions of the parties as to
structure for rule of reason analysis

Complaint Counsel acknowledges that it has the
initial burden of proving anticompetitive effects. CCB

App-293
at 21. Complaint Counsel contends that it meets its
initial burden by proving that Endo induced Impax to
accept a share of Endo’s monopoly profits in exchange
for staying out of the market. Complaint Counsel
urges that this is demonstrated by proof that: (1) Endo
made a large reverse payment to Impax; and (2) Endo
possessed market power. CCB at 23-24, citing
Cephalon. According to Complaint Counsel, if it proves
a large payment and market power, the burden then
shifts to Respondent to prove a “legitimate, cognizable
justification” for the payment. CCB at 28. Complaint
Counsel contends next that if Respondent fails to
justify the reverse payment, the antitrust inquiry ends
and the agreement is condemned. If Respondent
justifies the reverse payment, according to Complaint
Counsel, Complaint Counsel may prevail by showing
that the reverse payment was not reasonably
necessary to achieve the stated objectives, and only if
Complaint Counsel fails to make this showing is there
any weighing of anticompetitive and procompetitive
effects.
Complaint Counsel further asserts that it has no
obligation to show that the Challenged Agreement
resulted in increased prices for consumers or other
payors, or caused an actual delay in the onset of
generic competition. Complaint Counsel argues that
under Actavis, the relevant anticompetitive harm is
paying the generic challenger to drop its patent
challenge and stay out of the market, thereby avoiding
the risk of competition from a finding of patent
invalidation or noninfringement. Complaint Counsel
further contends that such an agreement harms the
competitive process.

App-294
Respondent contends that for Complaint Counsel
to prove that the Challenged Agreement constitutes
an unreasonable restraint under the rule of reason,
Complaint Counsel must prove: (1) that the alleged
reverse payment was both “large” and “unjustified”;
(2) that Endo had monopoly power in a properly
defined relevant market; (3) that the Challenged
Agreement caused actual anticompetitive effects; and
(4) that any alleged less restrictive alternative to the
Challenged Agreement was actually feasible.
Respondent further contends that the assessment of
procompetitive justifications is not limited to
justifications for the payment itself, but that the rule
of reason considers procompetitive benefits arising
from the Challenged Agreement as a whole. Moreover,
Respondent asserts, in order to prevail, Complaint
Counsel must prove that the asserted anticompetitive
effects outweigh the procompetitive benefits.
6.

Relevant market

In a traditional rule-of-reason case, the relevant
market must be defined to allow a court “to determine
the effect that an allegedly illegal act has on
competition.” Southeast Mo. Hosp. v. C.R. Bard, Inc.,
642 F.3d 608, 613 (8th Cir. 2011); see also Reifert v. S.
Cent. Wis. MLS Corp., 450 F.3d 312, 320 (7th Cir.
2006). 20 However, several post-Actavis cases have
evaluated anticompetitive effects of reverse payment
20 An antitrust market is comprised of a relevant geographic
market and a relevant product market. Brown Shoe Co. v. United
States, 370 U.S. 294, 324 (1962). The parties have stipulated that
the relevant geographic market is the United States. Joint
Stipulations of Jurisdiction, Law, and Fact, and Authenticity,
JX001-002 ¶10.

App-295
agreements without a separate determination of the
relevant market. E.g., King Drug, 791 F.3d at 410
(describing the “market the agreement is said to have
protected”); Wellbutrin, 868 F.3d 132 at 165 (no
mention of relevant market other than stating that
the branded drug company’s patent prevented market
entry by the generic); Lipitor, 868 F.3d at 250, 258
(referring only to the “patentee’s market”). As
explained in In re Cipro Cases I & II, although
“[p]roving that a restraint has anticompetitive effects
often requires the plaintiff to “‘delineate a relevant
market and show that the defendant plays enough of
a role in that market to impair competition
significantly,’” i.e., has market power ... . [P]roof of a
sufficiently large payment is a surrogate” in reverse
payment settlement cases. 348 P.3d at 869 (citations
omitted).
In King Drug, the Court of Appeals for the Third
Circuit, after stating that Actavis explained that
antitrust questions must be answered “‘by considering
traditional antitrust factors such as likely
anticompetitive effects, redeeming virtues, market
power, and potentially offsetting legal considerations
present in the circumstances, such as here those
related to patents,’” Actavis, 133 S. Ct. at 2231, laid
out its own rule of reason framework to use in a
reverse payment case. King Drug, 791 F.3d at 412.
Nowhere in the King Drug framework for determining
the likelihood of anticompetitive effects, summarized
above, does the appellate court direct the district court
to define the relevant market. Id. Instead, it invited
the district court to “proceed with the litigation under
the traditional rule of reason, tailored, as necessary,
to the circumstances of this case.” Id. at 412.

App-296
As stated by one district court in a reverse
payment settlement case, evidence of market power
will be available “even without an express articulation
of the relevant market definition.” Aggrenox Antitrust
Litig., 199 F. Supp. 3d at 665. 21 “[A]s a practical
matter, the only ‘relevant’ market in this case, and in
similar cases brought under FTC v. Actavis, will be the
market in which the challenged settlement agreement
allegedly acted as an anticompetitive restraint: that
is, in this case, it will be implicitly defined by the scope
of the disputed patent.” Id. at 665-66. It is also
noteworthy that while Actavis itself did not expressly
identify the relevant market, it did refer to patent
settlements as “allowing the generic manufacturer to
enter the patentee’s market.” Actavis, 133 S. Ct. at
2237 (emphasis added).
Thus, in the context of a settlement of patent
litigation arising under the peculiar framework of the
Hatch-Waxman Act, which promotes generic
competition and facilitates patent challenges, and
where a valid patent gives the brand holder a legal
monopoly, the appropriate market in which to assess
the anticompetitive effects of a reverse payment
settlement agreement is the market that is the subject
of that agreement - the branded pharmaceutical
product and its generic equivalents. Accordingly, in
the instant case, the relevant market is the market for
21 The district court certified the ruling regarding the relevance
of evidence pertaining to the substitutability of other drugs for
the product at issue for interlocutory appeal. Aggrenox, 199 F.
Supp. 3d at 670. The court of appeals declined to provide
interlocutory review. In re Aggrenox Antitrust Litig., Case 3.14md-02516-SRU (2nd Cir. Jan. 9, 2017).

App-297
oxymorphone ER, branded and generic, which is the
market that mattered to Impax and Endo, the parties
to the Challenged Agreement.
7.

Conclusion

Having fully considered Actavis, subsequent court
decisions, and the parties’ arguments, the rule of
reason analysis to be applied in the instant case will
proceed as set forth below.
First, in order to determine whether the evidence
shows any anticompetitive effect in connection with
the Challenged Agreement, the analysis will
determine whether the Endo-Impax Settlement
provided “payment for delay, or, in other words,
payment to prevent the risk of competition.” King
Drug, 791 F.3d at 412. The analysis will consider
direct evidence from the parties’ settlement
negotiations, as well as inferences reasonably drawn
from the payment’s “size, its scale in relation to the
payor’s anticipated future litigation costs, its
independence from other services for which it might
represent payment, and the lack of any other
convincing justification.” Actavis, 133 S. Ct. at 2237;
King Drug, 791 F.3d at 412. See Aaron Edlin, The
Actavis Inference, 67 Rutgers U. L. Rev. 585, 587, 592
(2015) (stating that under Actavis, a “reasonable
inference of harm to consumers from lessened
competition ... can be established by identifying a
large and otherwise unexplained payment of cash or
something else of value made by the patent holder to
the alleged infringer in exchange for that firm’s
agreement not to enter the market for some period of
time. ... [An antitrust plaintiff may also] prove by
direct evidence that “the patent holder paid the

App-298
alleged infringer to delay its entry into the market and
thereby restrict competition ... e.g., if there is other
contemporaneous evidence indicating that the
purpose and effect of a reverse payment was to delay
entry.”).
The formulation of the initial burden set forth in
Cephalon, upon which Complaint Counsel relies, to
the extent it holds that anticompetitive effects can be
demonstrated solely by proof of a large payment and
market power, has not been adopted by any other
court 22 and presents an unduly truncated burden of
proof. See Actavis, 133 S. Ct. at 2238 (noting that trial
courts should avoid “the use of antitrust theories too
abbreviated to permit proper analysis”). Realcomp
states that the rationale for substituting proof of
market power for proof of actual anticompetitive
effects is that proof of market power “when combined
with the anticompetitive nature of the [challenged]
restraints, provides the necessary confidence to
predict the likelihood of anticompetitive effects.” 2009
FTC LEXIS 250, at *90. However, Actavis does not
hold that a “large” reverse payment is anticompetitive
“by nature.” Rather, it is a large and unjustified
reverse payment that “can bring with it the risk of
significant anticompetitive effects.” Actavis, 133 S. Ct.
at 2237 (emphasis added). Furthermore, in the context
of a reverse payment patent settlement, proof of
market power adds little in the way of burden because,
22 Although the Third Circuit in King Drug cited the Cephalon
case in a footnote, it is unclear for what proposition.
Furthermore, King Drug’s articulation of the initial burden of
proving anticompetitive effects is clearly different than that set
forth in Cephalon.

App-299
as explained further in Section III.D. below, a large
payment is already a strong indicator of market
power. 23 Actavis, 133 S. Ct. at 2236. Accordingly, the
formulation of the initial burden set forth in Cephalon
is rejected.
For the second step of the rule of reason inquiry,
the analysis will consider evidence of procompetitive
effects arising from the Endo-Impax Settlement.
Consistent with the traditional rule of reason
framework, the burden of proving such effects is
properly placed on Respondent. Realcomp, 635 F.3d at
825; Polygram, 416 F.3d at 36 (holding that if the
plaintiff meets its burden of demonstrating
anticompetitive effects, the burden shifts to the
defendant to prove procompetitive justifications for
the challenged restraint).
Complaint Counsel’s position that the only
relevant procompetitive justifications are those that
justify the reverse payment, thereby barring all other
evidence of procompetitive benefits from the
settlement and condemning the settlement on the
basis of the reverse payment alone, is inconsistent
with Actavis and the rule of reason generally. Actavis
expressly identified “redeeming virtues” of a patent
settlement as among the “traditional antitrust
factors” that can be considered in evaluating antitrust
legality. Actavis, 133 S. Ct. at 2231. See also K-Dur,
2016 U.S. Dist. LEXIS 22982, at *46 (“If a prima facie
case has been made out, the defendants may come
23 It is noteworthy that market power was not even at issue in
Cephalon, as the defendants there had “not challenged
[p]laintiffs’ ability to demonstrate market power.” Cephalon, 88
F. Supp. 3d at 419.

App-300
forward with additional justifications to demonstrate
the
settlement
agreement
nevertheless
is
procompetitive. A plaintiff who can dispel these
justifications has carried the burden of demonstrating
the settlement agreement is an unreasonable
restraint of trade ...”); see also In re Impax Labs, Inc.,
2017 FTC LEXIS 130, at *29-32 (Oct. 27, 2017)
(refusing to bar evidence and argument concerning
post-settlement events). Focusing only on the reverse
payment, without any consideration of offsetting
procompetitive benefits arising from the settlement,
conflates the initial burden of proving anticompetitive
effects with the ultimate burden of proving that an
agreement is, on the whole, an unreasonable restraint
of trade. The “restraint” in a reverse payment
settlement agreement is not the payment alone, but
the use of the payment to restrain potential generic
competition. Simply put, to condemn an agreement
based on the reverse payment term alone is an
approach that is “too abbreviated to permit proper
analysis.” Actavis, 133 S. Ct. at 2238.
Third, the analysis will consider whether the
evidence proves that the demonstrated procompetitive
benefits of the Endo-Impax Settlement could have
been achieved with a less restrictive agreement.
Fourth, the analysis will weigh the demonstrated
anticompetitive effects against the demonstrated
procompetitive effects to determine whether the
Challenged Agreement is anticompetitive on balance.
Such balancing properly considers the extent to which
the Endo- Impax Settlement delayed generic
competition. See Impax Labs, 2017 FTC LEXIS 130, at
*29. As recognized in In re Cipro Cases I & II, under

App-301
Actavis, “the relevant benchmark in evaluating
reverse payment patent settlements should be no
different from the benchmark in evaluating any other
challenged agreement: What would the state of
competition have been without the agreement?” 348
P.3d at 863.
The analysis now turns to the application of the
foregoing principles to the record in this case.
C.

Anticompetitive Harm

Actavis explains that a brand patent holder’s use
of a payment to induce a generic challenger to drop its
patent challenge and agree to stay out of the market,
rather than face the risk of patent invalidation and
resulting generic competition, is an anticompetitive
harm. Actavis, 133 S. Ct. at 2236 (for shorthand
purposes, alternatively referred to as payment to
“prevent” or to “eliminate” the risk of competition). See
also King Drug, 791 F.3d at 403 (holding that, under
Actavis, harm occurs when the payment’s objective is
to maintain supracompetitive prices to be shared
among the patentee and the challenger, rather than
face what might have been a competitive market).
Complaint Counsel has the initial burden of proving
anticompetitive harm which, as noted above, in the
reverse-payment context, means the burden of proving
that the Endo-Impax Settlement included payment to
prevent the risk of competition. Complaint Counsel
has met this initial burden, as explained below.
1.

Economic theory of anticompetitive
harm

A basic economic principle is that consumers
benefit from increased competition in the form of lower
prices and increased choice. F. 440. Harm to

App-302
competition is not limited to the certain elimination of
competition, but also includes eliminating the
possibility that participants on the other side of the
market will have the opportunity to experience the
benefits of competition, such as lower prices. F. 441.
Normally, when a generic drug manufacturer
launches a generic version of a branded drug, the
competition between the brand-name firm and the
generic firm causes the price of the drug to drop, which
is a benefit to consumers. F. 442. Reverse payment
settlements can harm consumers, to the extent that,
by requiring the generic company to forego the
possibility of entering at an earlier date, the
settlement extends the period in which the brandname manufacturer is the only seller of a drug. F.
442. 24 Moreover, a large reverse payment can imply
that the market entry date in the settlement
agreement is later than the date that the patent
holder expected the alleged patent infringer to enter
the market. This is based on the theory that it is
unlikely that a patent holder would agree by
settlement to pay an alleged patent infringer anything
more than saved litigation costs, only to obtain entry
on the date the alleged patent infringer would have
entered anyway. F. 446.
A reverse-payment settlement replaces the
possibility of entry by the generic drug with the
certainty that generic competition will not occur prior
to an agreed date. F. 443. To this extent, the brandname firm is buying an insurance policy, by which it
24 This theory of economic harm assumes that issues of patent
validity and/or infringement were pending and unresolved at the
time of settlement.

App-303
pays the generic company a premium in exchange for
the generic firm’s guaranteeing it will not compete
prior to the date specified in the settlement. F. 443.
Payment to an alleged infringer, in exchange for a
certain entry date, converts the possibility of
substantial loss of profits for the patent-holder, due to
generic competition, into the certainty that the brand
manufacturer will continue to earn profits as the sole
seller of the drug, until the agreed entry date set by
the settlement. F. 444. By eliminating the possibility
of generic competition for a period of time, reversepayment settlements interfere with the competitive
process and can harm consumers by depriving them of
the possible benefits of increased competition in the
period prior to the entry date provided under the
settlement. F. 445.
A brand-name pharmaceutical firm has an
economic incentive to pay the generic firm as part of a
settlement, to the extent that the payment is less than
the profits the brand firm would earn during the
period before the agreed-upon generic entry date. F.
447. A generic pharmaceutical firm also has an
economic incentive to enter into reverse-payment
settlements. F. 448. While the generic firm stands to
lose profits it would have earned by launching prior to
the agreed-upon date, a sufficiently large payment can
compensate for that loss and thereby induce the
generic company to forego the opportunity to launch
earlier than the agreed-upon date. F. 448.
2.

Size of the payment
a.

Applicable legal principles

Under Actavis, the size of the reverse payment is
central to the antitrust inquiry, and therefore the

App-304
reviewing court or factfinder must measure the value
of the payment. Rochester Drug Co-Operative, Inc. v.
Warner Chilcott Co. (In re Loestrin 24 Fe Antitrust
Litig.), 814 F.3d 538, 551-52 (1st Cir. 2016). While
Actavis refers to “large” and “unexplained,” or
“unjustified,” payments as being material to the
evaluation of a reverse payment settlement, the Court
did not specify what makes a payment “large.”
Cephalon, 88 F. Supp. 3d at 416 (“Actavis did not
identify any specific formula for determining whether
a reverse payment is sufficiently large.”).
The fact-finder must determine the value of the
reverse payment in order to determine the payment’s
size. Loestrin, 814 F.3d at 551-52. Valuing the
payment is particularly important in the case of noncash payments, such as the no-AG provision
challenged in the instant case. Although it is settled
that Actavis applies to non-cash payments, see, e.g.,
King Drug, 791 F.3d at 403; Loestrin, 814 F.3d at 54950, there must be a reliable calculation of the
payment’s value. Lipitor, 868 F.3d at 255 (upholding
complaint based on plausible allegations that nonmonetary payment was worth “hundreds of millions of
dollars,” noting that “more detailed, advanced
calculations related to those allegations” come later in
the proceeding); In re Aggrenox Antitrust Litig., 94 F.
Supp. 3d 224, 244 (D. Conn. 2015) (“[C]ourts
interpreting Actavis, while holding that reverse
‘payments’ are not limited to cash transfers, have
observed the importance of the court’s ability to
calculate the value of any nonmonetary payments ...”).
Furthermore, the value of the payment must be
assessed at the time the parties entered into the
settlement. Loestrin 24 Fe Antitrust Litig., 261 F.

App-305
Supp. 3d at 337 (“The deal must be valued at the time
the parties entered the deal ...”).
In addition, the size of a reverse payment is
properly determined by considering the total
compensation provided under the settlement, as a
whole, rather than examining each component of the
settlement in a piecemeal fashion. Loestrin, 261 F.
Supp. 3d at 331. See also In re Opana ER Antitrust
Litig., 162 F. Supp. 3d 704, 718 (N.D. Ill. 2016)
(refusing to assess components of the settlement in a
“piecemeal fashion” to determine whether “each
individual payment fails to rise to the level of a large
and unjustified payment” in favor of “determin[ing]
whether, when taken as a whole, the total payment ...
was large and unjustified”). This is particularly true
where, as here, the Challenged Agreement consists of
both the SLA and the DCA, executed the same day.
See In re Niaspan Antitrust Litig., 42 F. Supp. 3d 735,
752 (E.D. Pa. 2014) (“[D]efendants may not
improperly ‘dismember’ [the complaint] by examining
each of the three settlement agreements in isolation.
Rather, the Licensing Agreement must be read in
conjunction
with
the
Co-Promotion
and
Manufacturing Agreements executed that same
day.”).
The fact that a payment exceeds saved litigation
costs is a relevant benchmark in assessing whether a
payment is “large,” but it is not dispositive. Even if a
payment exceeds saved litigation costs, “the Actavis
factors - the size of the payments, their scale in
relation to litigation costs, their independence from
other services for which they might be fair

App-306
consideration, and any other convincing justification still matter.” Aggrenox, 94 F. Supp. 3d at 243.
Actavis noted that a large payment may provide
“strong evidence that the patentee seeks to induce the
generic challenger to abandon its claim with a share
of its monopoly profits ... .” 133 S. Ct. at 2235.
Interpreting Actavis, a number of courts have
considered whether the payment induced the patent
challenger to drop its patent challenge and stay out of
the market until the agreed date. See King Drug, 791
F. 3d at 411 (upholding allegations of anticompetitive
harm, noting that the promise of no authorizedgeneric competition during the generic’s 180-day
exclusivity period was alleged to have induced the
generic to drop the patent challenge and thereby
enabled the brand to avoid the risk of patent
invalidation); Loestrin, 814 F.3d at 550 (holding that
Actavis applies to payments that “induce the generic
to abandon a patent challenge”). See also Cephalon, 88
F. Supp. 3d at 417 (holding that, in addition to
considering whether a payment exceeded saved
litigation costs, determination of “large” payment
must also consider whether the payment was
sufficiently large to induce the generic to forfeit its
claim and agree to stay off the market).
With the foregoing principles in mind, the
analysis now assesses the value of the reverse
payment provided under the Endo-Impax Settlement.
b.

Valuation

The Endo-Impax Settlement provided a cash
payment in the amount of $10 million, pursuant to the
terms of the DCA. F. 247. In addition to the $10
million cash payment under the DCA, pursuant to the

App-307
terms of the SLA, as further explained below, the
Endo-Impax Settlement included a non-cash payment,
in the form of a no-AG provision, under which Endo
agreed not to compete with Impax during Impax’s 180day exclusivity period by launching an authorized
generic. In addition, the Endo-Impax Settlement
provided Impax with security for the value conveyed
by the no-AG provision in the form of the Endo Credit.
i.

No-AG provision

Impax was the first company to file an ANDA with
Paragraph IV certifications for the 5, 10, 20, 30, and
40 mg dosage strengths of oxymorphone ER. F. 58. As
the first filer on these dosages, Impax would be
entitled to a 180-day exclusivity period as to the five
most popular dosages of Opana ER, comprising 95% of
Endo’s Opana ER sales. F. 173-174. However, Impax’s
180-day exclusivity period was not a bar to Endo’s
launching an authorized generic during that
exclusivity period because the Hatch-Waxman Act
does not prevent a brand-name drug company from
launching an authorized generic. F. 21-22, 176. At the
time Endo and Impax reached a settlement of their
patent litigation, Impax did not know whether or not,
absent the settlement, Endo would launch an
authorized generic. F. 186. The no-AG provision
guaranteed to Impax that Impax would be the only
seller of generic Opana ER during its first 180 days on
the market and would not face competition from an
Endo authorized generic. F. 187.
The no-AG provision was valuable to Impax.
Impax would generally seek a no-AG provision as part
of a settlement agreement with a brand-name drug
manufacturer. F. 182. Indeed, along with obtaining

App-308
the earliest possible entry date, a no-AG agreement is
among the more important things that Impax would
seek in a negotiation. F. 183. A first-filer generic
manufacturer makes a substantial portion of its
profits during the 180-day exclusivity period, and the
introduction of an authorized generic during that
exclusivity period reduces the value of the exclusivity
period, by causing lower prices and fewer sales for the
first filer. F. 172.
Impax witnesses acknowledged that the absence
of an authorized generic means more control for the
generic company, which can often lead to higher
profits for the generic company. F. 182. Conversely,
the introduction of an authorized generic during the
exclusivity period reduces the value of the 180-day
exclusivity period, by causing lower prices and fewer
sales for the first filer. F. 172. Specifically, as Impax
witnesses testified, an authorized generic competitor
during the 180-day exclusivity period generally
results in a price decrease of approximately 30 to 35%,
and reduces the generic company’s share of generic
sales. F. 177. Impax executives estimated that if Endo
launched an authorized generic when Impax entered
the market, Endo’s authorized generic would capture
as much as half of the sales of generic Opana ER and
cause substantially lower generic prices during the
exclusivity period than would be the case if Impax was
the only generic seller. F. 181.
In May 2010, Todd Engle, of Impax’s sales and
marketing team, prepared an analysis that projected
lost profits in the amount of $24.5 million if an Endo
AG entered within two to four weeks after Impax’s
launch of generic oxymorphone ER. F. 191. In

App-309
addition, in 2010, Impax forecasted the effect of an
Endo AG on Impax’s expected generic sales. F. 189. In
what Impax referred to as the “upside” scenario,
Impax assumed that Endo’s authorized generic Opana
ER would enter the market about two months after
Impax’s launch of generic Opana ER. F. 189. Under
the upside scenario, Impax’s share of generic sales was
estimated to fall to 60% and Impax’s average price was
estimated to fall by 36%. F. 189. In what Impax
referred to as its “base” scenario, Impax assumed that
Endo’s authorized generic Opana ER would enter the
market simultaneously with Impax. Under the base
scenario, it was estimated that Endo would capture
half of the market and that prices would fall by the
same 36%. F. 189.
Employing the figures from Impax’s 2010
forecasts, Complaint Counsel’s economic expert
witness, Professor Roger Noll, calculated that: (1)
under Impax’s upside scenario, market entry by an
authorized generic during Impax’s 180-day exclusivity
period would cause Impax’s revenues to fall by
approximately $23 million; and (2) under Impax’s base
assumptions, market entry by an authorized generic
during Impax’s 180-day exclusivity period would
cause Impax’s revenues to fall by approximately $33
million. F. 190.
Respondent contends that, notwithstanding the
value to Impax, the no-AG provision had little value to
Endo because Endo offered the no-AG agreement as
part of its initial settlement offer to Impax. See F. 131.
However, this fact does not compel the inference that
the no-AG agreement was worthless to Endo.
Moreover, evidence contemporaneous to the parties’

App-310
negotiations shows that Endo estimated that, if Impax
launched at risk, Endo could recoup $25 million in lost
revenues by launching an authorized generic to
compete with Impax. F. 192; see also F. 175.
Respondent also contends that it was not
guaranteed to receive the value of the no-AG
agreement because Endo was planning to reformulate
Opana ER and remove original Opana ER from the
market, which could render the no-AG agreement
illusory and potentially defeat Impax’s generic market
opportunity entirely. However, the evidence shows
that Endo agreed to compensate Impax for this
possibility, and to insure the value of the no-AG
provision, by agreeing to the Endo Credit, as further
explained in subsection 2.b.ii below.
Based on the foregoing, the no-AG provision in the
SLA was worth between $23 and $33 million in
projected sales revenue to Impax at the time Impax
entered into the SLA. F. 193. By agreeing not to
compete with Impax through launching an authorized
generic, Endo was promising to provide Impax with a
monopoly on generic sales of Opana ER during
Impax’s 180- day exclusivity period, which would
enable Impax to charge a higher price for generic
Opana ER compared to a market that had two
companies selling generic products. F. 187-189, 191.
See also F. 190 (expert opinion that the no-AG
provision provided substantial value to Impax when
the SLA was executed by ensuring that Impax would
face no generic competition during its 180-day
exclusivity period and would thereby earn greater
profits on its generic sales).

App-311
ii. Endo Credit
Under section 4.4 of the SLA, titled “Endo Credit,”
Endo agreed to make a cash payment to Impax in the
event that Endo’s Opana ER sales fell by more than
50% from the “Quarterly Peak” (defined as the highest
sales quarter between the third quarter of 2010 and
the third quarter of 2012) to the fourth quarter of 2012
(the last quarter before the agreed generic entry date
of January 2013). F. 195. The formula for calculating
the Endo Credit incorporates a number of factors that
relate to Impax’s sales of generic Opana ER,
multiplied by the market opportunity for the generic
product in the quarter of peak sales. F. 196.
Specifically, the agreement relies on Impax’s “Market
Share Profit Value,” defined as the product of (1) an
assumed generic substitution rate for original Opana
ER (90%), (2) an assumed net realized generic price
discounted from the brand-name price (75%), (3) an
assumed generic profit margin (87.5%), (4) 50%
(expressing the 180-day exclusivity period as half of a
year), and (5) the annualized sales of Opana ER
during the quarter of peak sales for Opana ER during
the period from the third quarter of 2010 to the third
quarter of 2012, divided by 100. 25 F. 196.
(a) Purpose of Endo Credit
As further explained below, the intent and the
design of the Endo Credit were to provide Impax with
a payment approximating the profits Impax would
25 Although in 2013, the Endo Credit formula yielded a
payment to Impax in the amount of $102 million, this is not the
appropriate measure of the value of the Endo Credit, for the
reasons explained in subsection b.ii.(c) below.

App-312
lose if, during the two and a half year time period
between the June 2010 settlement and the agreed
January 2013 Impax entry date, Endo launched a
reformulated version of Opana ER in such a way as to
substantially eliminate the market for original Opana
ER. In this scenario, Impax stood to lose the value of
its 180-day exclusivity period, including the generic
monopoly during this period that Endo promised to
Impax in the no-AG provision. The Endo Credit was
designed to make Impax whole for this potential loss.
To understand the role of the Endo Credit in the
reverse payment conferred to Impax under the EndoImpax Settlement, a review of the parties’
negotiations is helpful.
Endo sent Impax an initial term sheet for the SLA
on May 26, 2010. F. 131. The initial term sheet for the
SLA included, among other things, a no-AG provision
and a generic entry date of March 2013. F. 131-132.
Impax accepted the no-AG offer, but counter-offered a
generic entry date of January 1, 2013, plus “certain
acceleration triggers, including market degradation to
any alternate product.” F. 136-137. An acceleration
trigger for market degradation would have allowed
Impax to launch its generic oxymorphone ER product
earlier than January 1, 2013, in the event that Opana
ER brand sales fell by a certain amount or percentage.
F. 138.
Impax wanted a market acceleration trigger as
“protection in case Endo had any intentions of moving
the market to a next-generation product.” F. 139.
Impax had included similar provisions in other patent
settlements with brand companies. F. 139. Although
Impax did not have specific information about Endo’s

App-313
plans to reformulate Opana ER, Impax had seen
analyst reports suggesting that Endo was working on
crush-resistant drugs generally. 26 F. 140- 141. Impax
was aware that the FDA had been encouraging opioid
manufacturers to make opioids tamper-resistant,
which companies were accomplishing primarily by
manufacturing tablets that could not be crushed. F.
142. Impax was also aware that Purdue Pharma, L.P.,
the manufacturer of the brand-name drug OxyContin,
had introduced a reformulated, crush-resistant
version of its product and was withdrawing its original
formulation. F. 143.
Pharmacists are allowed or sometimes required to
dispense an AB-rated generic version of a drug instead
of the more expensive branded drug, unless a
physician directs or the patient requests otherwise. F.
29. Automatic substitution of the generic drug for the
branded drug is the primary way that generics make
their sales. F. 32. When brand companies introduce a
reformulated drug, they often cease marketing and
selling the original product. F. 198. They can also
withdraw the original product’s reference-listed drug
designation, preventing generic products from having
AB-rated status. F. 198. By introducing a
reformulated drug, the brand company can greatly
reduce the ability of generic companies to sell generic
versions of the original drug because those generic
products are no longer bioequivalent to - and not
subject to automatic substitution in place of - the
26 At the time of settlement, Endo had not filed any
supplemental NDAs for a reformulated version of Opana ER. F.
226. Relevant facts regarding Endo’s launching of a reformulated
Opana ER are further addressed in subsection b.ii.(c) below.

App-314
reformulated product. F. 199. For a generic drug to be
sold where there is no branded drug for which it is
automatically substituted, doctors must actually write
out a prescription for the generic product. F. 202-203.
If Endo reformulated Opana ER, Impax’s generic
Opana ER would not be AB-rated to the reformulated
Opana ER product. F. 200. To the extent that original
Opana ER disappeared or became insignificant,
Impax’s opportunity to sell a generic Opana ER would
be significantly reduced or even eliminated. F. 204.
Impax was concerned that Endo would be able to
“subvert the value of the deal” being negotiated by
introducing a reformulated version of Opana ER. F.
205.
Endo rejected the concept of accelerated entry for
Impax and rejected Impax’s demand for a market
acceleration trigger. F. 147. This increased Impax’s
concern that Endo was going to switch the market to
a
crush-resistant
version
of
Opana
ER,
notwithstanding Endo’s denial of such a plan. F. 148.
When Endo insisted to Impax that Endo was not
planning to move the market to a crush-resistant
version of Opana ER, Impax told Endo, “if you’re not
telling me the truth, you’re going to pay me what I
would have made anyway.” F. 150. If Endo did destroy
the market for Impax’s generic Opana ER, Impax
wanted “to be made whole for the profits that [it]
would have otherwise achieved.” F. 206. See also e.g.,
F. 207, 213 (If “the market changed substantially
before the date that the parties agreed that Impax
could launch,” the provision “would be a way of
making Impax whole”); F. 151-152 (describing the
then-current proposal as including a “make good”

App-315
payment). Once Endo refused to agree to an
acceleration trigger, and agreed instead to the concept
of a make-whole payment, Impax stopped pursuing an
acceleration trigger. F. 153. Thereafter, Endo and
Impax proceeded instead to finalize the terms of this
“make-good” or “make-whole” provision, which
eventually became the Endo Credit. F. 154, 160-165.
In addition, Endo agreed to a January 2013 generic
entry date for Impax. F. 154.
As Impax’s then-CFO, Arthur Koch, explained,
Impax was “worried about the control” Endo would
have during the two and a half year time period before
the agreed launch date of January 2013, and was
“looking for a way to gain - take back some of that
control away from the brand.” F. 149. Impax’s goal
was, “if the market changed substantially before the
date that the parties agreed that Impax could launch,
there would be a way of making Impax whole” by
providing Impax with the profits that Impax
otherwise would have achieved during its 180-day
exclusivity period. F. 213.
Impax described the make-whole provision as
“protect[ing] the downside.” F. 154; see also F. 208. If
Endo’s obligation to pay the Endo Credit were
triggered, based on declining sales of Opana ER prior
to Impax’s generic entry, the calculations of the Endo
Credit were designed to approximate the net profits
Impax would have expected to make during its sixmonth exclusivity period, with no AG. F. 212; see also
F. 214. Getting this downside protection for Impax in
the event Endo reformulated Opana ER was “super,
super important” to Impax’s primary negotiator, Mr.
Mengler, who testified that “something that didn’t

App-316
protect us from the downside was ... a deal-breaker.”
F. 208.
If the market for Opana ER did not decline, the
value of the no-AG provision would be higher. F. 210.
A sharp decline in the sales of original Opana ER
before Impax’s generic launch, however, would
decrease the value of the no-AG provision, because the
total market potential for generic Opana ER would
decrease. F. 209. The Endo Credit would then “correct
for the loss in the value of the market that had
occurred before the generic entry date.” F. 209. In this
way, the Endo Credit was designed as insurance
against the risk of Endo reformulating Opana ER, and
thereby degrading the market for Impax’s generic
drug. F. 211. See also F. 213 (The Endo Credit
provision “was intended to insulate” Impax from the
risk of a substantial decrease in Opana ER sales prior
to the agreed generic entry date.).
In summary, the Endo Credit was designed to
“back-up” the value of the no-AG provision and
provide value to Impax regardless of whether Endo
reformulated Opana ER. F. 197. See also F. 215
(Impax CFO Mr. Koch in 2011 characterizing the
settlement
as
having
“protection
[against
reformulation] built into the agreement so we should
have a reasonable outcome almost no matter what
happens”).
(b) Monetary value of Endo
Credit
The evidence shows that the monetary value of
the Endo Credit was uncertain at the time of
settlement and was contingent on unknown future
events that were outside of Impax’s control, such as

App-317
the figure for quarterly peak sales for Opana ER prior
to generic entry, which was the biggest “input” in the
Endo Credit formula. F. 216.
Complaint Counsel’s economic expert witness,
Professor Noll, devised four scenarios to approximate
the value of the no-AG provision and the Endo Credit
at the time of the settlement, and opined that the
value ranged from $16.5 to $62 million, depending on
his assumptions regarding the sales of Opana ER in
the years after the settlement. See CX5000 at 240
(Noll Expert Report Appendix F). Professor Noll failed
to adequately describe or explain the bases for his
assumptions or his calculations, either in his expert
report, or in his testimony. Without an
understandable and verifiable basis for his estimates,
the estimates are unsupported, are conclusory at best,
and are, thus, rejected.
Respondent contends that the Endo Credit should
be deemed to have added no value to the Endo-Impax
Settlement because, by virtue of the contingent nature
of the Endo Credit, the Endo Credit did not actually
“guarantee” a payment to Impax. Respondent asserts
that it was possible that Endo could time the
introduction of reformulated Opana ER so as to avoid
any payment obligation under the Endo Credit, while
still diluting Impax’s sales of generic original Opana
ER (referred to by Respondent as a “late switch”
strategy). Respondent relies on evidence that, prior to
the settlement, Impax’s director of market planning,
Ted Smolenski, told Chris Mengler, Impax’s principal
negotiator, that there were certain circumstances
under which the Endo Credit would not result in a
payment to Impax, including a situation in which

App-318
Endo would withdraw its NDA for original Opana ER
and time the elimination of sales in such a way that
the Endo Credit would result in zero payment. F. 221.
See also F. 220 (preliminary calculations by Mr. Cuca
of Endo included potential for zero payment under
Endo Credit). However, Mr. Smolenski considered this
“downside” scenario unlikely to occur. Moreover, Mr.
Mengler decided not to pursue the issue further
because he did not deem the potential to be likely
enough to try to correct for it. F. 221.
Even if there was a theoretical possibility of a zero
payment under the Endo Credit, the notion that
Impax bargained to obtain a zero payment under the
Endo Credit is implausible. It is also against the
weight of the evidence, including evidence that the
Endo Credit formula was designed to provide an
approximation of the net profits Impax would have
expected to make during its six-month exclusivity
period, with no AG; Impax viewed the Endo Credit
provision as “super, super important” and a “dealbreaker”; Impax viewed the Endo Credit as insurance;
and Impax expected a “reasonable outcome almost no
matter what happens.” F. 208, 212, 214-215.
Moreover, Impax gave up its request for an
acceleration trigger in exchange for the Endo Credit.
F. 150-154. In summary, the facts belie the assertion
that Impax bargained to obtain nothing.
In addition, the evidence does not support
Respondent’s assertion that Endo was in fact planning
the above-mentioned “late switch” strategy for
introducing reformulated Opana ER in order to avoid
payment under the Endo Credit. Respondent points to
evidence that Endo’s 2012 budget contemplated a

App-319
launch date for reformulated Opana ER of August
2012, with a full conversion of the market from
original Opana ER to reformulated Opana ER within
two to three months, while continuing sales of original
Opana ER into the last quarter of 2012. RX094 at
0003. However, the Endo document cited by
Respondent
clearly
states
that
“significant
uncertainties
existed
around
manufacturing
capabilities, market acceptance and our ability to
transition to the new formulation.” Id. The document
notes that Endo was “particularly concerned with
[transition time], as [Endo] knew that Purdue’s
OxyContin transition took 6 months.” Id. In fact, an
orderly transition from original Opana ER to
reformulated Opana ER was expected to take about
six to nine months. F. 106.
Moreover, even if sales of original Opana ER
continued into the fourth quarter of 2012, it does not
follow that this would enable Endo to avoid any
payment under the Endo Credit. A cash payment
under the Endo Credit was to be triggered if Endo’s
original Opana ER dollar sales in the fourth quarter
of 2012 fell by more than 50% from the “Quarterly
Peak” (the highest sales quarter between the third
quarter of 2010 and the third quarter of 2012). F. 129,
195. Having some sales of original Opana ER in the
fourth quarter of 2012 would not necessarily be
sufficient to avoid triggering an Endo Credit payment.
Rather, to avoid triggering an Endo Credit payment,
the total dollar sales of original Opana ER in the
fourth quarter of 2012 would need to be at least 50%
of the Quarterly Peak sales.

App-320
The weight of the evidence is that, at the time of
the settlement, Endo’s principal interest in the timing
of the launch of reformulated Opana ER was to launch
as soon as possible, and sufficiently ahead of entry of
a generic for original Opana ER to maximize the value
of its reformulated product. F. 99-104. The assertion
that Endo’s priority was instead to avoid payment
under the Endo Credit is unsupported and
unconvincing, and is, therefore, rejected.
(c) 2013 payment
Endo Credit

under

On April 18, 2013, Impax received a payment
pursuant to the Endo Credit in the amount of $102
million. F. 237. This amount is not, however, the
proper measure of the value of the Endo Credit, which
must be measured as of the date of settlement.
Loestrin, 261 F. Supp. 3d at 337. To the extent that
any of Professor Noll’s estimates of the value of the
Endo Credit at the time of settlement are based upon
discounting the value of the Endo Credit payment
made in 2013 (F. 239) such valuation would be
improper and provides an additional reason to reject
those estimates.
Furthermore, the evidence shows that the amount
of money that Endo eventually paid under the Endo
Credit was a function of a number of unforeseen
factors that were outside of Impax’s control. F. 216,
227-235. At the end of 2011, after discovering
manufacturing deficiencies, the FDA shut down the
plant where Novartis Consumer Health, Inc.
(“Novartis”), another pharmaceutical company,
manufactured original Opana ER for Endo. F. 227.
The shutdown of the Novartis plant caused a supply

App-321
chain crisis for Opana ER. F. 228. Thereafter, in or
about February 2012, the FDA ordered Endo to cease
selling original Opana ER in order to avoid consumer
confusion with Endo’s reformulated Opana ER, which
had just been approved by the FDA in December 2011.
F. 225-226, 229. Accordingly, Endo stopped
distributing original Opana ER and launched
reformulated Opana ER in March 2012. F. 230. 27 It
was not until after the Novartis supply disruption in
late 2011, the FDA’s order to stop selling original
Opana ER in February 2012, and the launching of
reformulated (crush-resistant) Opana ER in March
2012, that Endo first concluded that it would have to
make a payment under the Endo Credit provision. In
fact, the first time Endo knew that its sales of Opana
ER would be zero was in the last quarter of 2012, after
the supply interruption caused by the Novartis plant
shutdown. F. 231. There is no basis in the record for
concluding that anyone at the time of settlement did
foresee, or reasonably could have foreseen, the
occurrence of all these events.

Endo also took steps to have original Opana ER removed
from the market. In August 2012, Endo filed multiple citizen
petitions with the FDA, in which Endo argued that the FDA
should (1) determine that original Opana ER was discontinued
for safety reasons and could no longer serve as a reference-listed
drug for any ANDA; (2) refuse to approve any ANDA pending for
original Opana ER; and (3) withdraw any already-granted
approvals for original Opana ER ANDAs. F. 233. Impax formally
responded to the petition and offered scientific evidence that the
discontinuation of Endo’s original Opana ER was unrelated to
safety or effectiveness. F. 234. The FDA concluded that Endo did
not withdraw original Opana ER for safety or efficacy reasons. F.
235.
27

App-322
Although $102 million is not the appropriate
measure of the value of the Endo Credit at the time of
settlement, the fact that a payment was made
confirms the purpose of the Endo Credit. As noted
above in Section III.C.2.b.ii.(b), the purpose of the
Endo Credit was to provide Impax the profits it would
have received as the sole seller of generic Opana ER
during its 180- day exclusivity period, with no AG, in
the event of a sharp decline in the market. To the
extent that the 2013 Endo Credit payment includes
the value of such profits, the Endo Credit payment
fulfilled its purpose.
c.

Conclusion as to valuation of
reverse payment

Based on the foregoing, the evidence proves that,
at the time of settlement, the value of the no-AG
provision, as secured by the Endo Credit, was between
$23 and $33 million in projected sales, and the actual
value of the cash payment under the DCA was $10
million, for a total reverse payment under the SLA and
DCA of between $33 and $43 million.
3.

Scale in relation to litigation costs

Although litigation costs vary substantially
among cases, a survey by the American Intellectual
Property Lawyers Association estimated that the
median litigation cost for all patent cases with more
than $25 million at stake averages about $5.5 million
for each party. F. 77. When such a case is handled by
a large firm (with more than 76 attorneys), the median
litigation cost average is somewhat higher, at
approximately $7 million for each party. F. 77.
The top end of the range that Impax uses in its
budgeting process to estimate costs for generic patent

App-323
litigation is about $3 to $4 million per case. This $3 to
$4 million estimate represents total expenses from the
start of litigation to completion and is based primarily
on expenses for outside counsel, such as hourly
attorneys’ fees. F. 79. In November 2011, Impax
represented in a public earnings conference call that
it was saving $3 million in litigation expenses because
of recent settlements, including the Endo settlement.
F. 80. At the time of the Endo-Impax Settlement,
which occurred during the patent trial, Endo had
spent between $6 and $7 million and Impax had spent
about $4.7 million on litigation in the infringement
case. F. 78.
Based on the foregoing, a reasonable estimate of
the combined saved litigation costs for both Endo and
Impax for settling the patent litigation in June 2010
is approximately $5 million. F. 81. As set forth above,
the value of the no-AG provision, secured by the Endo
Credit, was between $23 and $33 million, based on
projected sales revenue to Impax, and the actual value
of the cash payment under the DCA was $10 million,
for a total reverse payment under the SLA and DCA
of between $33 and $43 million. Therefore, the value
of the reverse payment substantially exceeded the
estimated saved litigation costs.
4.

Justifications for reverse payment
a.

Legal principles

Actavis holds that a reverse payment can be
justified as “compensation for other services that the
generic has promised to perform - such as distributing
the patented item or helping to develop a market for
that item. There may be other justifications.” Actavis,
133 S. Ct. at 2236. See also id at 2237 (holding that

App-324
likelihood of anticompetitive effects in connection with
reverse payment settlement depends on, among other
things, “independence from other services for which it
might represent payment, and the lack of any other
convincing justification”) (emphasis added). Clearly,
Actavis did not limit the types of justifications for a
reverse payment that can be asserted. See also King
Drug, 791 F.3d at 412 (“The Court does not foreclose
other justifications.”).
The parties dispute who has the burden of proof
on the issue of justification, with each party placing
the burden of proof on the other party. Complaint
Counsel points to language in Actavis stating that
“[a]n antitrust defendant may show ... that legitimate
justifications are present, thereby explaining the
presence of the challenged term and showing the
lawfulness of that term under the rule of reason,” 133
S. Ct. at 2236, and argues this shows that the
defendant bears the burden of proving that a payment
was justified. However, Actavis also cites “the lack of
any … convincing justification” as an element of
proving anticompetitive effects, 133 S. Ct. at 2237,
which indicates that the burden of proving that a
payment was unjustified should fall on the plaintiff.
Post-Actavis cases have held that the plaintiff
challenging a reverse patent settlement must allege
plausible facts to support a conclusion that an alleged
reverse payment was large and unjustified. Loestrin,
814 F.3d at 552. In addition, it has been held that
when a defendant comes forward with evidence of
justifications for the payment, the burden is on the
plaintiff to prove that the asserted justifications are
unsupported. Cipro Cases I & II, 348 P.3d at 871

App-325
(citing Polygram, 416 F.3d at 37-38). See also K-Dur,
2016 U.S. Dist. LEXIS 22982, at *46 (holding that
plaintiff must “dispel” justifications offered by
defendant). As the court in In re Cipro Cases I & II
explained, if a plaintiff dispels all justifications
explaining the reverse payment, “the conclusion
follows that the settlement payment must include, in
part, consideration for additional delay in entering the
market.” 348 P.3d at 871. See also In re Aggrenox
Antitrust Litig., 2015 U.S. Dist. LEXIS 94516, at *37
(D. Conn. July 21, 2015) (holding that an antitrust
violation requires proof, among other things, “that the
settlement included a large and unjustified reverse
payment giving rise to an inference of payment in
order to avoid the risk of competition”). Other postActavis cases have held that the burden is on the
defendant to prove the justifications for the payment.
See, e.g., King Drug, 791 F.3d at 412; Cephalon, 88 F.
Supp. 3d at 416. See also Lipitor, 868 F.3d at 256-57
(rejecting the argument that the complaint’s
allegations of lack of justification were insufficient,
stating that Actavis “clearly placed the onus of
explaining or justifying a large reverse payment on
antitrust defendants”).
In the instant case, the parties have vigorously
litigated the question of justification for the reverse
payment and have developed a complete record on the
issue. Notwithstanding Complaint Counsel’s assertion
that the burden of proving justification is on
Respondent, Complaint Counsel nevertheless asserts
that the reverse payment was unjustified, and offers
evidence and argument in an effort to support that
claim (see, e.g., CCB at 27-31, CCFF Section XII).
Regardless of which party has the ultimate burden of

App-326
proof on the issue of justification for the payment, as
discussed in detail below, the evidence proves that, of
the total payment provided to Impax under the EndoImpax Settlement: (1) the payment conferred to Impax
by the no-AG and Endo Credit provisions of the SLA
was unjustified; and (2) the $10 million payment to
Impax pursuant to the DCA was justified.
b.

Payment under the SLA
i.

Contentions of the parties

Respondent argues that, even if the no-AG and
Endo Credit provisions of the SLA conferred a large
reverse payment to Impax, the payment was not
unjustified because the payment was not provided “in
return for staying out of the market.” RB at 60. 28
Respondent points to evidence that the no-AG
provision was included in Endo’s initial offer and that
during negotiations, the entry date moved back from
Endo’s initial proposed entry date of March 2013, to
the agreed entry date in the settlement of January
2013. Respondent further argues that the Endo Credit
was not tied to the negotiation of the entry date, but
rather was coupled with a royalty provision in the SLA
designed to (1) encourage Endo to support sales of
Opana ER in the time period between the date of the
settlement and the date set for entry of Impax’s
generic product, and (2) discourage Endo from
transitioning to a reformulated Opana ER product.

28 Respondent does not assert that the reverse payment
conferred to Impax by the no-AG and Endo Credit provisions of
the SLA reflects compensation for services provided to Endo by
Impax.

App-327
Respondent refers to this as a “carrot and stick.” RB
at 61.
Complaint Counsel contends that the no-AG and
Endo Credit provisions are unjustified. Complaint
Counsel argues that these provisions were directly
linked to the January 2013 entry date provided under
the Endo-Impax Settlement, and the fact that the
entry date in the settlement was slightly earlier than
the March 2013 entry date initially proposed by Endo
does not justify these provisions. Further, Complaint
Counsel argues, Respondent’s assertion that the Endo
Credit was part of a “carrot and stick” designed to
discourage Endo from transitioning to a reformulated
product is legally non-cognizable and factually
unsupported.
ii. Analysis
Evidence from the parties’ negotiations readily
supports the conclusion that the reverse payment
conferred to Impax by the no-AG provision, secured by
the Endo Credit, was directly linked to negotiation of
the generic entry date as compensation to Impax for
giving up its patent challenge and committing not to
launch a generic Opana ER until January 2013.
Endo’s initial offer included a no-AG provision, but
this initial offer was not sufficient to induce Impax to
settle the patent litigation and agree to the March
2013 entry date proposed by Endo. F. 131-132. Impax
accepted the no-AG provision, but counter-proposed a
January 2013 entry date, plus an acceleration trigger
that would allow for entry prior to January 2013 in the
event of a degradation of the market for Opana ER
prior to Impax’s entry. F. 136-139. Endo would not
agree to an acceleration trigger, but agreed instead to

App-328
pay Impax a “make-good” payment, the Endo-Credit,
and further agreed to the January 2013 entry date
requested by Impax. F. 147, 151, 154. Once Endo and
Impax agreed on the concept of a make-good payment,
the parties reached an agreement in principle on the
SLA. F. 147-154.
When weighed against the foregoing evidence, the
facts that the no-AG provision was included in Endo’s
initial offer, and that the January 2013 entry date
ultimately agreed to was two months earlier than the
March 2013 date Endo initially offered, are not
significant. Moreover, the issue is not whether the
January 2013 entry date in the settlement was earlier
than the date Endo initially offered, but whether the
no-AG provision, as secured by the Endo Credit, was
effectively payment by Endo to Impax for agreeing to
drop its patent challenge and commit to staying out of
the market prior to January 2013. See Actavis, 133 S.
Ct. at 2237 (noting that parties may settle with an
agreed entry date “without the patentee paying the
challenger to stay out prior to that point”). See also
King Drug, 791 F.3d at 408 (holding that the question
is whether entry might have been earlier, and/or the
risk of competition not eliminated, had the reverse
payment not been tendered). Viewed as a whole, the
evidence supports the conclusion that the reverse
payment conferred to Impax by the no-AG provision,
secured by the Endo Credit, was unjustified.
Respondent’s contention that the Endo Credit is
not unjustified because it was part of a “carrot and
stick” strategy is without merit for several reasons.
First, the evidence does not support Respondent’s
assertion that the Endo Credit and the royalty

App-329
provision were “coupled.” The evidence shows that a
royalty proposal was made by Endo, as part of its
initial term sheet for the SLA on May 26, 2010. F. 135.
The proposal for a “make-good” payment did not occur
until on or about June 1, 2010, and was not reduced to
writing until June 4, 2010. F. 151, 160. Second, the
assertion that the Endo Credit was part of a “carrot
and stick” design is against the weight of the evidence,
which shows that the Endo Credit was intended as a
“make-whole” provision, to provide Impax with the
profits Impax would have earned during its 180-day
exclusivity period, with no AG, if Endo switched the
market to a reformulated Opana ER. See Section
III.C.2.b.ii.(a) above. While Respondent points to
deposition and trial testimony to support the
characterization of the Endo Credit as part of a “carrot
and stick,” see RFF 195-198, the phrase does not
appear in contemporaneous documents from the
parties’ negotiations. Third, the assertion that the
royalty provision was a “carrot” is unconvincing
because the royalty imposed costs on Endo in the form
of lost sales from its agreement not to launch an
authorized generic. Under the SLA, Impax would be
obligated to pay Endo a 28.5% royalty on Impax’s
generic Opana ER sales during Impax’s 180-day
exclusivity period only in the event that sales of Opana
ER in the calendar quarter prior to Impax’s entry grew
by a specific percentage. F. 128, 194. However, if sales
grew enough to require a royalty payment to Endo, the
no-AG provision operated to prevent Endo from selling
an AG into this increased market. See F. 127. Thus,
while pursuant to the royalty provision, Endo would
receive 28.5% of profits from Impax’s generic sales,
pursuant to the no-AG provision, Endo still would lose

App-330
100% of profits it could have earned from sales of an
Endo AG. Moreover, even if Opana ER sales reached a
sufficiently high level prior to Impax’s generic entry to
trigger royalty payments, Impax would be the only
seller of a generic oxymorphone ER product, pursuant
to the no-AG provision. F. 127-128, 194. Impax stood
to gain more in sales of generic oxymorphone ER than
Impax would lose in royalty payments. F. 194. For all
these reasons, Respondent’s contention that the Endo
Credit is not unjustified because it was part of a
“carrot and stick” strategy is rejected. 29
iii. Conclusion
As explained above, the evidence supports the
conclusion that the reverse payment conferred to
Impax under the SLA by the no-AG provision, secured
by the Endo Credit, was unjustified. The analysis now
examines justification for the payment made to Impax
under the DCA.
c.

Payment under the DCA
i.

Overview

On June 7, 2010, Endo and Impax executed a
Development and Co-Promotion Agreement with
respect to a Parkinson’s disease treatment known
internally at Impax as IPX- 203. F. 244. The DCA was
executed simultaneously with the SLA and is
incorporated into the SLA. F. 245. Under the DCA,
Impax and Endo agreed to collaborate with respect to
the development and marketing of a potential
29 Because Respondent’s “carrot and stick” justification is
contrary to the weight of the evidence, it is not necessary to
address Complaint Counsel’s argument that such justification is
not legally cognizable.

App-331
treatment for Parkinson’s disease using an extended
release, orally administered product containing a
combination of levodopa and carbidopa. F. 246.
The DCA provided for an upfront payment of $10
million by Endo to Impax, and the possibility of
payment of up to $30 million more, based on achieving
specified milestone events in the development and
commercialization of the product. F. 247-248. Impax
and
Endo
agreed
to
share
promotional
responsibilities, with Impax promoting IPX-203 to its
network of neurologists, and Endo promoting IPX-203
to its network of non-neurologists, including primary
care physicians who prescribe Parkinson’s disease
medications. F. 249. If the target product was
successfully commercialized, Endo would be entitled
to a share of the profits. F. 250. Specifically, Endo
would receive a co-promotion fee equal to 100% of
gross margins on sales resulting from prescriptions by
non-neurologists. F. 250. Endo paid Impax the $10
million upfront payment on June 24, 2010. F. 250.
Respondent contends that the $10 million
payment by Endo to Impax under the DCA was
justified as fair value for profit-sharing rights Endo
received under the DCA. 30 Respondent asserts that

Respondent makes a single assertion in its brief that the $10
million paid under the DCA reflected fair value compensation for
services by Impax. RB at 42. However, Respondent does not
expand on the assertion, articulate what services it was to
provide to Endo in exchange for the $10 million payment, or point
to any evidence supporting the assertion. Accordingly, the
assertion has not been sufficiently raised to warrant
consideration. See United States. v. Zannino, 895 F.2d 1, 17 (1st
Cir. 1990) (“[I]ssues adverted to in a perfunctory manner,
30

App-332
the evidence shows that Endo was interested in
Parkinson’s disease treatments; Endo’s team was
familiar with Parkinson’s disease treatments; Endo
analyzed the merits of the product collaboration; and
Endo concluded that the DCA had financial and
commercial merit for Endo. In addition, Respondent
asserts that, among other things, the DCA entitled
Endo to a share of profits without obligating Endo to
perform any resource-intensive formulation or
development work, the DCA capped Endo’s total
financial obligations, and, beyond the $10 million
investment, Endo’s obligations were contingent on
Impax achieving specific milestones, regardless of how
much it cost Impax to achieve those milestones.
Complaint Counsel contends that the $10 million
payment from Endo to Impax under the DCA was not
justified by Endo’s profit-sharing rights. According to
Complaint Counsel, the evidence demonstrates that
the payment was not part of a bona fide product
collaboration, but was instead payment for Impax’s
agreement under the SLA not to enter the market
with its generic Opana ER until January 2013. In
support of this argument, Complaint Counsel relies on
expert opinion to contend that the DCA and the SLA
were not independent agreements, because they were
negotiated and executed together, and because, as
adversaries, Endo and Impax would be unlikely to
collaborate, but for the settlement discussions. In
addition, Complaint Counsel asserts that the evidence
shows that Endo did not have a genuine interest in
unaccompanied by some effort at developed argumentation, are
deemed waived.”).

App-333
developing the drug that was the subject of the
collaboration.
Furthermore, relying on expert opinion,
Complaint Counsel argues that the negotiation
process was unusual in comparison to industry
standards, particularly with regard to Endo’s due
diligence. Complaint Counsel asserts that the
evidence shows that Endo offered the same $10 million
upfront payment at the beginning of negotiations of
the DCA, despite a change in the product under
discussion. Complaint Counsel further asserts that
$10 million was an unusually large payment to make
upfront, in light of the drug’s early stage of
development at the time the DCA was signed.
ii. Summary of facts
The detailed facts concerning the DCA are set
forth in Section II.C.3 and are summarized below.
(a) Background facts
Endo has entered into many collaboration
agreements with other pharmaceutical companies. F.
254. These include early-stage development deals, and
potentially speculative deals. F. 255. This is because
Endo generally does not research or discover new drug
molecules on its own and instead acquires and licenses
drugs from other pharmaceutical companies. F. 254.
In connection with a collaboration agreement, Endo
identifies therapeutic areas of interest and companies
that own promising drug molecules in those areas and
enters into earlystage development deals. F. 256.
Endo also regularly licenses technology from and
collaborates with other companies for more developed
products. F. 256. For example, for Opana ER, Endo
licensed the necessary technology to make both

App-334
original and reformulated Opana ER. F. 256. Endo’s
collaboration agreements with other pharmaceutical
companies could relate to drugs at every stage of the
development
lifecycle,
including
early-stage
development agreements. F. 255. Because Endo had
no pipeline in place to discover new drugs on its own,
Endo would enter into “very early, very speculative
agreements.” F. 255.
Beginning in 2005, Endo’s significant areas of
interest included pain, neurology, and movement
disorders, including Parkinson’s disease treatments.
F. 257. In the 2010 timeframe, Endo evaluated
collaborations with other companies related to
treatments for Parkinson’s disease. These included
exploring potential Parkinson’s disease collaboration
opportunities with an Italian company called Newron,
which had multiple Parkinson’s disease products, and
conducting due diligence on a Parkinson’s disease
product with a novel mechanism of action that was
owned by a Finnish company. F. 261. For a number of
years, Endo sold an immediaterelease Parkinson’s
disease drug known as Sinemet, which was the
original formulation of carbidopa and levodopa. 31 F.
260. Thus, the evidence demonstrates that Endo had
both an interest in Parkinson’s disease treatments
and knowledge about such treatments through its
experience with Sinemet.
Impax also had a long-standing interest in
Parkinson’s disease treatments. When Impax’s brand
division was founded in 2006, it focused its efforts on
31 A combination of carbidopa and levodopa molecules is the
“gold standard” treatment for Parkinson’s disease. F. 265.

App-335
central nervous system and neurology products, with
a specific focus on improved treatments for
Parkinson’s disease. F. 263. As part of its focus on
central nervous system and neurology products,
Impax’s brand division also concentrated on
developing a network of relationships with neurology
physicians. F. 263. In addition, in furtherance of its
interest in Parkinson’s disease treatment, Impax had
undertaken attempts to develop an extended release
drug for treatment of Parkinson’s disease. F. 268-276.
The majority of carbidopa-levodopa medications are
available only in immediate-release formulations,
which requires frequent dosing and often results in
patients’ losing control of their motor skills as they
experience rapid increases and decreases in the
concentration of medicine in their bodies, especially as
the disease progresses. F. 266-267.
Impax’s first attempt to develop an extendedrelease carbidopa-levodopa treatment for Parkinson’s
disease was known as Vadova. F. 268. That product
was intended to combine carbidopa-levodopa with
controlled-release technology to give a much smoother
effect to the amount of medication in Parkinson’s
disease patients’ blood, providing for more control over
motor symptoms. F. 268. Vadova was never fully
developed or marketed. F. 268.
Impax’s second attempt to develop an extendedrelease Parkinson’s disease medication was known as
IPX-066, which was a combination of carbidopa and
levodopa that had been formulated to extend the
release profile of Parkinson’s disease drugs. F. 269270. As with Vadova, IPX-066 was intended to better
treat Parkinson’s disease patients by allowing for less

App-336
frequent and more consistent dosing of up to six hours,
as well as more consistent motor symptom control. F.
271. By significantly extending the absorption of the
drug,
IPX-066
would
provide
“significant
improvement of the patient’s quality of life.” F. 272.
IPX-066 had reached Phase III clinical trials in 2010
and was marketed under the name Rytary in 2015. F.
273.
By 2010, Impax had also begun efforts to develop
a “next generation” of IPX-066. F. 274. The goal of the
next-generation product, which was originally
designated by Impax as IPX-066a and later
designated as IPX-203, was to further improve
treatment for Parkinson’s disease patients by
extending dosing time even longer than IPX-066. F.
274.
(b) Negotiations
In early 2009, Impax approached Endo about a
collaboration with respect to Endo’s central nervous
system drug Frova, which treats migraine headaches.
F. 275-276. Endo declined. F. 277. Although Endo and
Impax again discussed a potential product
collaboration on Frova in late 2009, in connection with
discussions about settlement of the Endo-Impax
patent litigation, these discussions did not result in a
collaboration agreement. F. 278-280. However, in the
course of these discussions, Endo became aware of
Impax’s efforts to develop drugs for Parkinson’s
disease and expressed an interest. F. 281.
Subsequently, in May 2010, after discussions
regarding settlement of the Endo-Impax patent
litigation resumed, Impax and Endo began discussing
a potential joint development agreement and Endo

App-337
expressed an interest in marketing IPX-066. F. 283284.
At Endo, the senior vice president of corporate
development, Dr. Robert Cobuzzi, and his team of
employees were responsible for evaluating potential
pharmaceutical
business
deals
for
further
development. F. 287. Between May 17 and 26, 2010,
the date of Endo’s initial term sheet for the DCA (F.
294), Impax and Endo held two conference calls and
exchanged numerous emails and materials regarding
IPX-066, including a presentation on the clinical
benefits of IPX- 066 over Sinemet, which at that time
was the leading carbidopa-levodopa brand product. F.
286, 288.
On May 20, 2010, Dr. Cobuzzi directed his team
to work on an opportunity evaluation worksheet
(“OEW”) to assess a potential collaboration with
Impax on IPX-066. F. 289. An OEW is Endo’s standard
method of assessing the science, medical information,
commercial opportunity, and related financial
considerations behind a potential collaboration
project. F. 346. Any time Endo considers a
pharmaceutical collaboration, it completes an OEW.
F. 346.
On May 21, 2010, Endo asked an outside
consulting firm to provide guidance about the
potential value of IPX-066. F. 290. In addition, on May
22, 2010, Dr. Paterson, Impax’s vice president of
business development, provided Dr. Cobuzzi and a
number of additional Endo employees access to a “data
room” with a large amount of IPX-066 related
documents, covering: (i) intellectual property/legal; (ii)
chemistry, manufacturing, and controls; (iii)

App-338
commercial; (iv) regulatory; (v) clinical; (vi) clinical
pharmacology; and (vii) Impax’s unredacted
confidential presentation on IPX-066. F. 291.
On May 26, 2010, Endo sent Impax an initial term
sheet for an option agreement concerning IPX-066
“and all improvements, modifications, derivatives,
formulations and line extensions thereof.” F. 294.
Under this proposal, Endo would have the option to
receive either the right to co-promote the product to
non-neurologists within the United States or to
purchase an exclusive license to the product in the
United States. F. 294. Endo would pay Impax a $10
million option fee upon signing the agreement and a
$5 million milestone fee upon the FDA’s acceptance of
the NDA for the product. F. 294. If Endo exercised the
option to co-promote the product, Endo would receive
a fee of “50% on the net sales” from prescriptions by
nonneurologists in the United States. F. 294. If Endo
exercised the option for a license, Endo would pay
Impax a fee based on projected sales. F. 294.
Endo’s May 26 proposal was not acceptable to
Impax. As Impax’s vice president of intellectual
property litigation and licensing, Margaret Snowden,
explained: “Endo was interested in the Parkinson’s
space and wanted the deal to cover both products, the
original IPX- 066 and the follow-on product, but Impax
wasn’t interested in doing the deal on IPX-066.” F.
313. Dr. Michael Nestor, the head of Impax’s brand
division, was “absolutely not” willing to consider an
agreement with Endo regarding IPX-066. F. 311. In
2010, Impax had already shouldered all development
risks and development costs for IPX-066 and it made
little sense to Impax to share potential profits from the

App-339
drug with a partner. F. 310. Furthermore, in 2010,
Impax was not looking for a partner in the United
States for IPX-066 because Impax planned to market
the product domestically on its own, utilizing its
established neurologist network. F. 309.
Accordingly, Impax made a counter-offer to Endo
on May 27, 2010 for a research and development
collaboration for what Impax referred to as IPX-066a,
its “next generation” of IPX- 066. F. 295, 313-314.
Impax advised Endo that Impax would name this
product “at signing.” F. 295. IPX-066a, which later
became known as IPX-203, was a planned carbidopalevodopabased product that Impax hoped would
improve the treatment of symptoms and also have
more favorable dosing as compared to IPX-066. F. 314.
Contrary to the inferences urged by Complaint
Counsel, designation of IPX-066a was not a “late
switch” by Impax from IPX-066, but a rejection by
Impax of Endo’s proposal for a deal for both IPX-066
and IPX-066a, and a counterproposal by Impax for a
collaboration for IPX- 066a only. Impax had initially
sent IPX-066 materials to Endo to review in order to
“help [Endo] frame their evaluation of the market
environment into which IPX-203 could be launched as
a successor to IPX-066.” F. 328. When Impax sought a
partner to market the product outside the United
States, it had already established a data room
regarding IPX-066. F. 329. Because IPX-203 was a
follow-on product to IPX-066, the foundational
information in the data room regarding IPX-066 was
relevant to show Impax’s plans for IPX-203. F. 329.
Impax’s May 27, 2010 counter-offer for a
collaboration for IPX-066a included an upfront

App-340
payment at signing of $3 million, and six
additional milestone payments, tied to the initiation
and completion of Phases II and III development and
final FDA approval, for a total of $60 million. F. 295.
Over the next ten days, Endo and Impax traded
proposals regarding the timing and total amount of
the payments under the DCA, which culminated in the
final DCA terms, summarized above. F. 296-308. On
June 4, 2010, Impax named IPX-203 as the product
previously designated as IPX-066a. F. 303. Impax also
provided additional information to Endo regarding
Impax’s research into the IPX-203 product concept,
and about how IPX-203 would improve upon existing
Parkinson’s disease therapies, including IPX-066. F.
322.
(c) Relationship
between
IPX-066 and IPX-203
IPX-203 was intended to be a modification of
carbidopa and levodopa, a well-known combination
treatment for Parkinson’s disease. F. 324. Levodopa
generally is not well absorbed in the colon. F. 325. The
information Impax provided on IPX-203 made clear
that IPX-066 and IPX-203 were intended to be
[redacted]. F. 323. IPX-203 would have [redacted]. F.
326. The information Impax provided Endo on IPA203 [redacted]. F. 327.
Although IPX-203 was in the beginning of the
formulation stage, Impax reasonably relied on Dr.
Suneel Gupta, the chief scientific officer at Impax in
2010, who believed that the product concept for IPX203 was “doable.” F. 315-316. As early as November
2009, Impax had reviewed [redacted]. F. 378. Dr.
Gupta had expertise in reformulating existing

App-341
chemical compounds to create commercial and clinical
improvements through reformulation and “is
renowned for taking existing compounds and
reformulating them and turning those products into
very successful drugs in the marketplace that meet
significant medical need[s].” F. 316. When Dr. Gupta
tells Impax management that a product concept is
“doable,” Impax’s senior management believes him
and relies on his judgment. F. 316. Moreover, Impax’s
expertise has long been the development of extendedrelease technologies. F. 317.
The ultimate goal of IPX-203 was to further
extend the amount of time patients have control over
their motor symptoms after taking the medication. F.
319. IPX-203 would also employ a “much more
simplified” dosing regimen than IPX-066, making it
more intuitive for doctors to prescribe the product. F.
320. Impax projected that the total cost of
development for IPX-203 would be between $80 and
$100 million by 2017, based on a “natural
extrapolation” of the development costs incurred by
IPX-066. F. 321.
Impax was planning to withdraw promotion and
sampling of IPX-066 (Rytary) once IPX- 203 reached
the market. F. 318. This would allow patients to
continue successful use of IPX- 066 while avoiding any
division of Impax’s sales force between multiple
Parkinson’s disease products, which was consistent
with the commercial goal of extending the IPX-066
franchise. F. 318.
(d) Endo’s evaluation of
product
collaboration
for IPX-203

App-342
Endo carefully evaluated the commercial,
medical, and risk allocation aspects of the DCA. On
June 7, 2010, Dr. Cobuzzi provided the final OEW on
IPX-203 to Endo’s executive team. F. 307. In terms of
the commercial aspects of the DCA, Endo’s OEW on
IPX-203 stated that the DCA was “a good deal for
Endo.” F. 307. Endo analyzed the net present value of
its initial investment under the DCA and determined
that the DCA and IPX-203 had a “very reasonable rate
of return” of [redacted] under base case assumptions,
and a net present value of [redacted]. F. 352-353. Such
a return would exceed Endo’s general requirement of
a 10% rate of return on a development and copromotion deal. F. 352. Endo thought it could realize
this return, notwithstanding that Parkinson’s disease
treatments were heavily genericized, because IPX-203
would offer a superior product to other generics. F.
354. In addition, Dr. Cobuzzi recommended the DCA
as “an exciting opportunity for Endo” because it
“further builds [Endo’s] product pipeline for the future
with a drug candidate that fits with [Endo’s]
commercial footprint.” F. 349. Endo did not have many
products in its commercial pipeline in 2010, and did
not have the capacity to develop new products inhouse. F. 350.
Endo’s evaluation of the medical aspects of IPX203 concluded that IPX-203 would extend the period
of time over which the drug is absorbed, which would
allow doctors to lower the doses needed for effective
treatment. F. 357. This would provide an opportunity
to address doctor dissatisfaction with existing drugs
that tend to begin to lose effectiveness within 10 to 15
years after initiation of therapy, and would meet a
need for better control of efficacy over time. F. 356.

App-343
Endo’s OEW for IPX-203 also noted that IPX-203
represented a further improvement over IPX-066,
including “faster onset of action, superior
management of motor fluctuations and convenient
oral dosing in a simplified regimen that could require
no more than twice-daily administration, and in some
cases even once-daily administration.” F. 358. Taking
the drug less frequently would be particularly
beneficial for Parkinson’s disease patients, who can
have trouble “even picking up the pill.” F. 359. Endo’s
evaluation team concluded that IPX-203 could move
very quickly through development and “was an
exciting compound in that it was made up of ... two
compounds that have already been approved by the
FDA.” F. 361. Endo reasonably believed that there was
a path to obtaining FDA approval and bringing IPX203 to market. F. 361-363.
Endo also evaluated how risk was allocated under
the DCA. Endo’s analysis in the OEW on IPX-203
explained to Endo’s board of directors that the DCA’s
“deal structure acceptably mitigates Endo’s exposure
despite the early development stage.” F. 364. Endo
was entitled to share in the profits from IPX-203
without performing any development work or
otherwise expending internal resources. F. 365-366.
Moreover, Endo retained the same profit-sharing
rights no matter how much Impax spent on IPX-203’s
development, which Impax had projected could
amount to $100 million by 2017. F. 321, 367. In
addition, Endo was obligated to make only a single
contribution ($10 million) to Impax’s development
work. Endo would be required to make any additional
milestone payments only to the extent that there was
successful completion of development milestones, such

App-344
as Phase II clinical trials. F. 365. Furthermore, the
$10 million single investment to buy into the IPX-203
opportunity was “not an uncharacteristically large
amount of money” to Endo, compared to other
collaboration agreements. F. 370. Accordingly, Endo
was “comfortable” with the collaboration from the
perspective of risk. F. 368.
Dr. Cobuzzi believed that the profit-sharing rights
Endo received under the DCA justified Endo’s
payment obligations. F. 369. Dr. Cobuzzi and his team
concluded that Endo should enter into the DCA and
Dr. Cobuzzi made that recommendation to Endo’s
CEO, CFO, and board of directors. F. 347.
(e) Value
to
Impax
of
collaboration for IPX-203
In 2010, Impax did not have the money to begin
working on the clinical research for IPX- 203. F. 375.
Impax could not fund the project internally because its
shareholders did not “want to see large sums of money
being spent over an extended time period on a single
product. They were accustomed to [research and
development] investments being made on many
individual products that you bring to market as a
generic.” F. 375. Thus, Impax needed external funding
to move the development of IPX-203 forward, and
explored a number of options, including seeking
money from venture capital firms. F. 376. Impax’s
brand drug development team was “very excited”
about the idea of funding IPX-203 through a codevelopment program with Endo. F. 377.
In negotiating the DCA, Impax initially wanted to
retain any profits flowing from prescriptions written
by high-prescribing non-neurologists - which were the

App-345
profits Endo sought and eventually obtained under
the DCA - because of the “significant” amount of
money those prescriptions represented. F. 372. Impax
envisioned promoting IPX-203 to at least “a couple of
thousand physicians who were primary care
physicians
that
prescribed
[medications
to]
Parkinson’s patients ... .” F. 373. Nevertheless, in
order to get funding through a codevelopment
program with Endo, Impax agreed to give up a share
of the profits for IPX-203.
(f) Impax’s
continued
efforts to develop IPX203
Since executing the DCA in June 2010, Impax has
devoted substantial efforts to IPX- 203’s development,
including over [redacted] in employee hours spent
working on IPX- 203. F. 379. In 2010, Impax
commissioned preclinical pharmacokinetic studies
testing several relevant compounds and began
laboratory research. F. 380. Impax undertook multiple
rounds of pharmacokinetic studies to test various IPX203 formulations in an effort to assess clinical
improvements, which were completed as of 2012. F.
381. Since then, Impax conducted additional
pharmacokinetic studies and completed Phase I
clinical trials. F. 382. Impax manufactured a clinical
supply of IPX-203, developed protocols for Phase II
clinical trials, submitted those protocols to the FDA,
and secured FDA approval for efficacy and safety
studies in November 2014. F. 383.
Further development work on IPX-203 was
delayed for approximately two years after Impax
experienced delays in the development of IPX-066, the

App-346
drug IPX-203 was intended to extend and improve
upon. F. 384. When IPX-066 was delayed, resources
were shifted to getting IPX-066 approved and to
market. F. 385. Growing the market for IPX-066
would benefit IPX- 203. F. 385. Further development
work on IPX-203 was also delayed after Impax
received an FDA Warning Letter in 2011 relating to
Impax’s manufacturing processes, which caused
Impax to direct its scientific staff to spend their time
helping the operations people correct the deficiencies
that the FDA noted in its last inspection. F. 386. IPX203 development was not going to go forward until
Impax “got over that hurdle.” F. 387.
Notwithstanding the delays and the DCA’s
termination (discussed below), Impax has continued
development work on IPX-203. F. 388. IPX-203 is
currently the leading compound in research and
development in Impax’s brand division. F. 389. Impax
has completed Phase II clinical trials for IPX-203,
which showed a statistically significant improvement
in treatment over IPX-066 and other existing
treatments, reducing the amount of time Parkinson’s
disease patients are without control over their motor
symptoms, as compared to both immediate-release
carbidopa-levodopa treatments and IPX-066. F. 390391. Phase II trials suggest that IPX-203 will offer an
improvement of over two hours in motor symptom
control when compared to immediate-release
carbidopa-levodopa treatments and one hour of
improvement over IPX-066. F. 392. An improvement
of over two hours in motor symptom control over
existing medications is a “terrific result” that is
“highly statistically significant” and “clinically
meaningful.” F. 393. Having symptoms under control

App-347
for a longer time period is “a very important thing” for
patients. F. 394. Impax plans to begin Phase III
clinical trials in 2018. F. 390.
Impax’s IPX-203 development efforts revealed
that the formulation of IPX-203 contemplated by the
DCA could not achieve the intended clinical benefits.
F. 396. Between 2014 and 2015, Impax’s research
team determined that it could not achieve the desired
product profile with a [redacted] formulation. F. 397.
Impax consequently began pursuing alternative
approaches to an extended-release formulation of
carbidopa and levodopa. F. 397.
After extensive research and testing, [redacted].
F. 398. In April 2015, Impax approached Endo to
update it on the status of Impax’s IPX-203
development work, including the change in
formulation strategy, and made a presentation
describing Impax’s formulation testing and results
and [redacted]. F. 403. 32
(g) Termination of the DCA
Although the specific formulation of IPX-203
changed, Impax still viewed [redacted] it had been
developing since 2009 “[b]ecause it was all towards the
same end. It still involved carbidopa-levodopa. It was
just a variation in formulation.” F. 400. During the
April 2015 meeting between Impax and Endo at which
Impax updated Endo on the change in formulation
strategy, Impax offered to amend the DCA so that the
DCA would cover the [redacted]. F. 403, 408.
32 In 2014, Impax filed an Investigational New Drug
Application with the FDA regarding [redacted], which the FDA
accepted. F. 399.

App-348
Impax was prepared to amend the DCA to include
the new formulation of IPX-203 in the DCA because it
wanted to work with Endo in order to move the drug
forward and believed the new formulation would give
it “an avenue through which we could continue the
development of IPX-203.” F. 409. Endo initially agreed
to the proposed amendment, noting that it “would like
to maintain or even increase [its] involvement with
the development program ... as [it] remain[ed]
optimistic this will be a successfully differentiated
product, which Endo looks forward to the opportunity
to co-promote ... with Impax.” F. 410. However, Endo
subsequently informed Impax that Endo had decided
not to amend the existing agreement and would no
longer participate in co-development program, which
surprised Impax. F. 412. Endo did not provide an
explanation. F. 412.
Because Endo retracted its initial expression of
interest in amending the DCA to cover the new
formulation for IPX-203, Impax and Endo terminated
the DCA by mutual agreement, effective December 23,
2015. F. 414.
iii. Conclusion
The evidence, summarized above and detailed in
Section II.C.3, proves that the DCA was a bona fide
product development collaboration, and that the $10
million payment was justified by the profit-sharing
rights given to Endo under the DCA. The product
collaboration for IPX- 203 was consistent with Endo’s
and Impax’s business interests. Both Endo and Impax
had a history of interest in Parkinson’s disease
treatments, and Endo had entered into many
collaboration agreements with other pharmaceutical

App-349
companies, including risky early stage development
collaborations. Impax required outside funding to
advance the development of IPX-203, which Impax
projected could cost between $80 and $100 million by
2017. Moreover, Impax continued its development
efforts regarding IPX-203 for years after executing the
DCA, which further indicates that the DCA was a
bona fide agreement.
In addition, substantial weight is properly given
to the fact that Endo analyzed the commercial and
medical merits of co-promoting IPX-203, as well as the
risk allocation under the DCA, and concluded that the
DCA was a “good deal” for Endo. The record supports
Endo’s conclusion, including the facts that Endo would
receive its share of the profits without performing any
development work; Endo did not consider the upfront
payment of $10 million to be uncharacteristically
large; and the projected rate of return [redacted] was
nearly [redacted] Endo’s minimum requirements for a
co-development deal.
iv. Complaint
Counsel’s
arguments as to lack of
justification
All of Complaint Counsel’s arguments in support
of a conclusion that the $10 million payment was
unjustified have been fully reviewed, and have been
rejected as either contrary to the weight of the
evidence or insufficiently supported. 33 Only a few of
33 For example, Complaint Counsel contends that Endo and
Impax “understood” the DCA to be a payment for the Opana
settlement, relying on two documents. Neither document
warrants the inference urged by Complaint Counsel. The first
document, an internal Endo document drafted by Dr. Cobuzzi,

App-350
Complaint Counsel’s arguments require further
elaboration, and are discussed below.
(a) Asserted “switch” from
IPX-066 to IPX-203
Complaint Counsel asserts that the evidence
shows that the $10 million upfront payment in the
DCA was the same as the amount of the payment in
Endo’s initial offer, despite a “switch” from IPX-066 to
IPX-203, which, according to Complaint Counsel,
reduced the value of the deal to Endo. Thus,
Complaint Counsel argues, the $10 million upfront
payment was not in fact an exchange for value
received by Endo under the DCA. However, the
evidence shows that, while Endo’s initial term sheet
included a $10 million upfront payment for a proposed
deal on IPX- 066, it also contained more limited profitsharing terms than those agreed upon in the DCA.
Under Endo’s May 26, 2010 initial term sheet colisted the “license deal completed with Impax” as adding “topline
revenue for Opana.” CX1701 at 005. However, although given the
opportunity, Complaint Counsel did not elicit any testimony from
Dr. Cobuzzi on the meaning of this document. The second
document, an internal Impax document, listed $10 million as
cash flow from the “Endo Settlement.” However, when this
document was shown to Impax’s former CFO, Mr. Koch, he
testified that he did not recognize the document, that it did not
appear to be an accounting document, that other aspects of the
document were inconsistent with Impax’s common budgeting
practices, and that it could have been referring to the research
and development collaboration. CX2701 at 004; CX4018 (Koch,
Dep. at 147-48). Furthermore, Complaint Counsel’s assertion
that the parties “understood” the DCA to be a payment for delay
is not only unsupported, but is also against the weight of the
evidence, which, as set forth above, demonstrates that the DCA
was a bona fide product collaboration.

App-351
promote proposal, Endo would receive 50% of the
profits from sales generated by non-neurologists. F.
294. Under the final DCA, Endo received a right to
100% of those profits. F. 250. Moreover, as explained
in Section III.C.4.c.ii.(b) above, designation of IPX066a (IPX-203) was not a “switch” by Impax from IPX066, but a rejection by Impax of Endo’s proposal for a
deal regarding both IPX-066 and IPX-203, and a
counterproposal by Impax for a collaboration on IPX203 only. The evidence shows that Impax was never
interested in partnering on IPX-066. Thus, Complaint
Counsel’s assertion that this “switch” shows the
payment was unjustified is rejected.
(b) Due diligence
Complaint Counsel contends that Endo did not
perform appropriate due diligence as to the merits of
IPX-203 or the DCA. However, the evidence shows
that Impax provided Endo with information regarding
Impax’s research into the IPX-203 product concept
and about how IPX-203 would improve upon existing
Parkinson’s disease therapies, including IPX-066. F.
322. Impax had provided information to Endo about
IPX-066, and the information Impax provided on IPX203 made clear that IPX-066 and IPX-203 were
intended to be [redacted]. F. 323.
In addition, the materials Impax sent to Endo to
review regarding IPX-066 were, as stated by Dr.
Cobuzzi, “tremendously” helpful to Endo in assessing
IPX-203. F. 330. As Dr. Cobuzzi explained, both IPX066 and IPX-203 were based on carbidopa and
levodopa. The only difference in IPX-203 [redacted],
which Endo viewed as “relatively simple,”
notwithstanding that this was a change in the

App-352
chemistry. F. 330. Endo’s chief operating officer at the
time of settlement and the individual responsible for
assessing the commercial opportunity of any product,
also deemed IPX-066 an appropriate commercial
proxy for assessing IPX-203. F. 331. The IPX-066
materials, as well as Endo’s experience with other
Parkinson’s disease treatments, including Sinemet,
suggested to Endo that the successful development of
IPX-203 would more effectively treat Parkinson’s
disease symptoms. F. 260, 332, 343. Endo’s reliance on
information about a related drug when evaluating
IPX-203 was not unusual. F. 335. Rather, the evidence
shows that Endo routinely relied on information about
one pharmaceutical asset to assess another, related
pharmaceutical asset. F. 335. Indeed, when
information about related pharmaceutical assets is
available, it is “much easier” to evaluate a proposed
drug than it is to evaluate a new chemical entity on its
own. F. 336.
Finally, as noted above, Dr. Cobuzzi was the lead
scientist on the team that evaluated the commercial
and scientific merits of the DCA for Endo. F. 337. Dr.
Cobuzzi holds a Ph.D. in molecular and cellular
biochemistry and wrote his dissertation on
Parkinson’s disease. F. 339. In addition, Dr. Cobuzzi’s
team included at least one other scientist with a
background in Parkinson’s disease treatments, Dr.
Kevin Pong. F. 340. Dr. Pong, who was in charge of
evaluating Endo’s scientific licenses, had a
“significant amount of experience” in the area of
Parkinson’s disease treatments. F. 340. Endo knew
the underlying molecules, the carbidopa and levodopa,
had looked at a number of Parkinson’s disease
opportunities in the past, and knew the general

App-353
commercial landscape. F. 344. Dr. Cobuzzi’s belief that
Endo had sufficient time to assess IPX-203 before
entering into the DCA is entitled to substantial
weight, given his qualifications, his and Endo’s
familiarity with Parkinson’s disease treatments, and
the detailed nature of the information Impax provided
on IPX-066. F. 342-345. Accordingly, Complaint
Counsel’s assertion that Endo did not perform proper
due diligence with regard to the DCA is rejected.
(c) Expert opinions
Complaint Counsel’s argument that the $10
million payment under the DCA was unjustified
because it was negotiated as part of the patent
litigation settlement discussions, not as a standalone
agreement, is based largely on the opinion of its
proffered expert in negotiations, Professor Max
Bazerman. Professor Bazerman opined that the
adversarial relationship between Impax and Endo
would have made independently negotiating the DCA
highly unlikely, unless the business transaction was
linked to settlement discussions. CX5001 (Bazerman
Expert Report at 021-22 ¶43). This opinion ignores the
significant facts that Impax and Endo had discussed a
potential collaboration on Frova (another central
nervous system drug) in early 2009, months before
settlement discussions began (F. 275), that Endo had
been looking for an opportunity in the Parkinson’s
disease area for a number of years (F. 257-261), and
that Impax had been exploring a number of
approaches to get external funding to move the IPX203 product forward in development (F. 376). Even
though the evidence shows that the DCA was
negotiated and executed contemporaneously with the

App-354
SLA and is incorporated into the SLA (F. 123, 245),
this neither compels the conclusion that the $10
million payment under the DCA was unjustified, nor
precludes the conclusion that the $10 million payment
under the DCA was justified as fair value for the
profit-sharing rights Endo received under the DCA.
Complaint Counsel’s argument that the $10
million payment under the DCA should be deemed
unjustified because the DCA was not consistent with
Endo’s, or the industry’s, usual business development
practice, is based largely on the opinion of its proffered
expert in pharmaceutical business development, Dr.
John Geltosky. 34 Although he opined that Endo did
not perform a comprehensive and integrated due
diligence analysis of IPX-203 before agreeing to the
terms of the DCA (CX5003 (Geltosky Expert Report at
023-24 ¶37)), Dr. Geltosky did not offer an opinion
regarding whether Endo exercised good business
judgement in its due diligence. F. 427. Furthermore,
Dr. Geltosky admitted that information about IPX-066
provided useful information for IPX-203 and that
Impax
provided
Endo
with
comprehensive
information regarding IPX-066, including clinical
information regarding safety and efficacy, intellectual
property, technical due diligence, and financial
Dr. Geltosky has worked on a handful of development deals
in their early stages and has never negotiated a development and
co-promotion agreement similar to the DCA. The majority of Dr.
Geltosky’s experience with pharmaceutical collaboration
agreements relates to his employment with large pharmaceutical
companies and Dr. Geltosky admitted that he could not speak to
how the universe of small or mid-sized pharmaceutical
companies approach partnerships for early-stage products. F.
415.
34

App-355
analysis. F. 425-426. The opinion offered by Dr.
Geltosky is outweighed by documentary evidence and
fact witness testimony summarized above showing the
sufficiency of the due diligence steps taken by Endo.
In addition, although Dr. Geltosky testified that
the DCA was not consistent with the normal practice
in the pharmaceutical industry, he did not offer an
opinion regarding whether the DCA was a bona fide
scientific collaboration or whether Endo exercised
good business judgement in entering the DCA. F. 417.
Indeed, Dr. Geltosky acknowledged that Endo’s senior
vice president of corporate development (Dr. Cobuzzi)
is better qualified to assess the strategic fit of the DCA
for Endo than he is. F. 416.
Expert opinion that a process was unusual for the
industry, even if accepted, does not warrant the
inference that the DCA was a pretext, and not a bona
fide side deal for value, because such inference would
be contrary to the weight of the evidence showing that
the DCA was justified as fair value for profit-sharing
rights. See Schering, 402 F.3d at 1069-71; In re
Schering-Plough Corp., 2002 FTC LEXIS 40 at **25455 (June 27, 2002), rev’d by In re Schering-Plough
Corp., 2003 FTC LEXIS 187 (2003), rev’d by ScheringPlough, 402 F.3d 1056. In Schering, the FTC argued
that a $60 million payment from a branded drug
manufacturer to a generic drug manufacturer,
pursuant to a patent litigation settlement agreement
through which the branded drug company obtained
licenses for the generic company’s products, was not a
bona fide royalty payment, but instead was an
inducement for the agreement by the generic to delay
generic entry. 402 F.3d at 1068. Complaint Counsel in

App-356
the administrative litigation had relied on expert
opinion that the parties’ diligence was “strikingly
superficial,” Schering, 2002 FTC LEXIS 40, at **25455, and “fell astonishingly short of industry
standards.” Schering, 402 F.3d at 1069. The Court of
Appeals in Schering rejected these arguments, and
held that “substantial and overwhelming evidence”
weighed against the conclusion that the licenses were
not worth the payment made and were exchanged for
delay. Id. at 1070-71.
The evidence presented in Schering is analogous
to the evidence in the instant case. Similar to the
brand drug manufacturer in Schering, Endo had a
demonstrated, ongoing interest in the type of product
that was the subject of the collaboration, F. 257-261;
see Schering, 402 F.3d at 1069, and was well-familiar
with the relevant commercial environment. F. 337345; see Schering, 2002 FTC LEXIS 40, at **251-52.
And, as in Schering, Complaint Counsel’s experts’
criticisms of the diligence process in the instant case
did “nothing to refute that [the brand’s] payments [for
the licensed products were] a fair price.” F. 428-436;
see Schering, 402 F.3d at 1071.
Dr. Geltosky also opined that the payment
structure of the DCA was unusual because, in his
opinion, the DCA payment structure was
“frontloaded” with a large upfront payment with
decreasing milestone payments, while early-stage
development deals are typically “backloaded.”
However, Dr. Geltosky did not compare the payment
terms in the DCA to the payment terms in other
pharmaceutical collaboration agreement agreements.
F. 431. Moreover, expert opinion that the payment

App-357
was “unusual” does not warrant an inference that the
payment was unjustified. For purposes of justification,
the issue is whether the payment was fair value for
what was received. Dr. Geltosky did not opine on that
value. F. 430, 432.
Indeed, Dr. Geltosky did not conduct any
valuation analysis of the DCA, did not calculate a net
present value of the DCA at the time it was executed,
and did not conduct any other form of empirical
analysis regarding the DCA. F. 429. Dr. Geltosky did
not offer any opinion about the actual value of the
DCA to Endo and did not address the actual value of
the profit-sharing rights acquired by Endo or whether
Endo’s profit-sharing rights justified its DCA payment
obligations. F. 430, 432. See also F. 417, 419, 421, 427,
434. These shortcomings incurably undermine Dr.
Geltosky’s opinions. See Schering, 402 F.3d at 1069
(stating that the court was “troubled” by expert
opinion that a payment was “grossly excessive” and
that Schering’s due diligence fell short of industry
standards, where the expert had “arrived at his
conclusions without preforming a quantitative
analysis” of the licensed products).
Moreover, Complaint Counsel’s economic expert,
Professor Noll, who relied on Dr. Geltosky’s “analysis
of the degree to which the $10 million payment and codevelopment deal represented the acquisition of an
asset that was approximately valued at a $10 million
price,” agreed that if Dr. Geltosky did not offer an
opinion regarding the actual value of the DCA to Endo
at the time it was executed, then Professor Noll “would
not include the $10 million as part of the large
payment that was unjustified.” F. 437-438. Professor

App-358
Noll also acknowledged that, if a payment from a
brand company to a generic company is used to
purchase a bundle of rights at a fair market price, the
payment is justified. F. 435. Indeed, Professor Noll
testified that if Dr. Geltosky did not provide a
“sufficiently well-documented rationale for the
conclusion that the payment was unjustified, then you
would pull [the DCA] out of the case.” F. 439.
(d)

Conclusion

As explained above, the evidence proves that the
$10 million payment made by Endo to Impax under
the DCA was justified as fair value for profit-sharing
rights Endo received under the DCA.
5.

Conclusion on initial burden of
proof

Of the total reverse payment conferred under the
Endo-Impax Settlement, the $10 million payment
under the DCA was justified. However, the value
conferred to Impax by the no-AG provision of the SLA,
secured by the Endo Credit, totaling $23 to $33 million
in projected sales revenue for Impax, was an
unjustified reverse payment. The value of this
unjustified reverse payment substantially exceeded
the estimated saved litigation costs. In addition, the
evidence supports the inference that Endo and Impax
agreed to this reverse payment as an inducement to
Impax, to compensate Impax for giving up its patent
challenge and committing not to launch a generic
Opana ER until January 2013. Therefore, based on the
totality of the record, viewed as a whole, the evidence
supports the inference that the SLA included a
payment to prevent the risk of competition.

App-359
Accordingly, Complaint Counsel has met its initial
burden of proving an anticompetitive harm.
D.

Market Power

Market power is “the power to control prices or
exclude competition.” United States v. E.I. du Pont de
Nemours & Co., 351 U.S. 377, 391 (1956). It is unclear
whether proof of market power is a necessary element
of a reverse payment settlement challenge. Although
Actavis referred to market power as one of several
traditional antitrust considerations, market power is
not expressly included among the factors listed in
Actavis
as
determining
the
likelihood
of
anticompetitive effects. Actavis, 133 S. Ct. at 2237
(stating that “likelihood of a reverse payment bringing
about anticompetitive effects depends upon its size, its
scale in relation to the payor’s anticipated future
litigation costs, its independence from other services
for which it might represent payment, and the lack of
any other convincing justification”); see also King
Drug, 791 F.3d at 412 (same). Regardless of whether
proof of market power is mandatory, in the instant
case the evidence supports the conclusion that Endo
had market power in the relevant oxymorphone ER
market at the time of the Endo-Impax Settlement, as
explained below.
By their nature, pharmaceutical patents often
carry with them market power. In re Wellbutrin XL
Antitrust Litig., 133 F. Supp. 3d 734, 755 (E.D. Pa.
2015), aff’d 868 F.3d 132 (3d Cir. 2017). As the court
explained in Aggrenox, a patent “grant[s] the legal
right to exclude generic competition and the practical
ability to profitably charge higher prices than generic
competitors would charge.” 199 F. Supp. 3d at 668.

App-360
Accord Lipitor, 2018 U.S. App. LEXIS 93, at *6 (“A
distinguishing feature of a reverse settlement is that
the bargained-for abstention period falls within the
term of the patent at issue, when the patent holder
would normally enjoy a government-conferred
monopoly.”).
Actavis recognizes that market power is often
associated with a pharmaceutical patent, and further
holds that proof of that power, derived from the
patent, can be found in the reverse payment
settlement itself:
[W]here a reverse payment threatens to work
unjustified anticompetitive harm, the
patentee likely possesses the power to bring
that harm about in practice. At least, the “size
of the payment from a branded drug
manufacturer to a prospective generic is itself
a strong indicator of power” - namely, the
power to charge prices higher than the
competitive level. An important patent itself
helps to assure such power. Neither is a firm
without that power likely to pay “large sums”
to induce “others to stay out of its market.”
Id. at 2236 (citations omitted). Accord Loestrin, 814
F.3d at 552 n.12 (“Actavis explains how to evaluate the
market power question: ‘the size of the payment from
a branded drug manufacturer to a prospective generic
is itself a strong indicator of power.’”). The court in In
re Cipro Cases I & II further explained:
Logically, a patentee would not pay others to
stay out of the market unless it had sufficient
market power to recoup its payments through
supracompetitive pricing. Consequently,

App-361
proof of a reverse payment in excess of
litigation costs and collateral products and
services raises a presumption that the
settling patentee has market power sufficient
for the settlement to generate significant
anticompetitive effects.
348 P.3d at 869. See also Aggrenox, 199 F. Supp. 3d.
at 662 (stating that, while it is conceivable that a
patent might be worthless, “[i]t is vanishingly unlikely
... that a large reverse payment would be made in such
a case, which is why a large reverse payment is such a
strong indicator of market power”).
In the instant case, as held in Section III.C.2.c
above, the evidence proves that Endo made an
unjustified reverse payment to Impax that was
sufficiently large to induce Impax to drop its patent
challenge and agree not to enter the relevant
oxymorphone ER market until January 2013. Under
Actavis, this is strong proof of Endo’s market power in
the relevant market.
Other evidence also supports the conclusion that
Endo had market power in the relevant oxymorphone
ER market. The evidence shows that in 2010, Endo
had a 100% share of the market for oxymorphone ER.
F. 90. In addition to the intellectual property barriers
to entry associated with Endo’s patents, there are
regulatory barriers created by the Hatch-Waxman
Act. F. 92. For instance, the Hatch-Waxman Act
imposes a 30-month stay on FDA approval of an
ANDA, if a branded drug company files a patent
infringement suit against a Paragraph IV ANDA filer.
F. 93. Moreover, the first filer’s 180-day exclusivity
period provided by the Hatch- Waxman Act serves as

App-362
a barrier to entry by barring later ANDA filers from
entering until the period expires. F. 93. These barriers
gave Endo the power to exclude competitors even if its
patents eventually were found not to be valid or
infringed. F. 95.
Based on the foregoing, the evidence
demonstrates that Endo had market power in the
relevant market for oxymorphone ER. The analysis
next turns to the procompetitive benefits of the SLA.
E. Procompetitive Benefits
1.

Overview

Respondent argues that the SLA granted Impax a
broad patent license, which enabled Impax to sell its
generic Opana ER uninterrupted since Impax entered
the market in January 2013, while all other generic
manufacturers have been enjoined as a result of
patent infringement litigation by Endo. Respondent
argues that, therefore, the SLA provided substantial
procompetitive benefits.
Complaint Counsel’s opposing argument - that
Respondent’s asserted procompetitive benefits cannot
be considered because the only legally cognizable
procompetitive effects are those that arise from the
reverse payment - is without merit, as explained in
Section III.B.7 above. The “restraint” at issue in a
reverse payment settlement case is not the payment
itself, but the use of the payment in such a way as to
restrain the onset of generic competition. Thus,
procompetitive benefits arising in connection with the
settlement agreement as a whole are properly
considered as part of a well-structured rule of reason
analysis. See K-Dur, 2016 U.S. Dist. LEXIS 22982, at
*46 (“If a prima facie case has been made out, the

App-363
defendants may come forward with additional
justifications to demonstrate the settlement
agreement nevertheless is procompetitive.”); Cipro
Cases I & II, 348 P.3d at 871 (same); see also In re
Impax, 2017 FTC LEXIS 130, at *27-33 (Commission
rejecting Complaint Counsel’s request to preclude
consideration of entry prior to termination of patent
and effect of post-settlement events as potential
procompetitive justifications).
2.

Relevant provisions

The SLA granted Impax a broad patent license
and a covenant not to sue that covered not just the
Opana ER patents owned by Endo at the time of the
Endo-Impax patent litigation, but all patents “that
would ever be owned by [Endo] that would cover the
Impax product.” F. 567. Specifically, pursuant to
section 4.1(a) of the SLA, Impax obtained a license to
the ’933, ’456, and ’250 patents, and to any pending
patents “that cover or could potentially cover the
manufacture, use, sale, offer for sale, importation,
marketing or distribution of” Impax’s generic Opana
ER product (collectively, the “licensed patents”). F.
568-569.
Furthermore, section 4.1(b) of the SLA included a
“covenant not to sue,” which prohibited Endo and its
affiliates from suing Impax for patent infringement on
any of the licensed patents. F. 570. This provision
meant that Endo could not sue Impax for infringement
based on Endo’s Opana ER patents listed in the
Orange Book at the time of settlement, as well as any
continuations, continuations in part, or divisions of
those patents or patent applications owned or
controlled by Endo, that could cover Impax’s generic

App-364
Opana ER. F. 570. (The broad patent license and
covenant not to sue provided in the SLA are at times
referred to collectively herein as the “broad license
agreement” or “broad patent license.”)
Impax would regularly seek a broad patent
license in its settlement negotiations with brandname drug companies whenever it intended to launch
and continue to sell its generic product indefinitely, in
order to provide Impax with as much flexibility as
possible. F. 565. In any negotiation where the brand
company tried to narrow the scope to the patents being
litigated, Impax was “very firm,” explaining that “this
is not about the patents being litigated. This is about
a product, and we want the ability to operate.” F. 565.
For Impax, every settlement agreement must cover all
the patents that could affect the generic product,
existing and future, “otherwise you end up with [a]
launch [of] the product and still have to be under the
[patent] risk, and that doesn’t really help [Impax].” F.
566.
Given the possible effects of Endo’s additional
patent applications relating to Opana ER, a
reasonable litigant would have been concerned with
Endo’s future patents. F. 168. Consistent with Impax’s
regular practice, in the Endo-Impax negotiations,
Impax proposed broadening the patent license that
Endo had offered in the SLA to include “any patents
and patent applications owned by or licensed to Endo
... that cover or could potentially cover” Impax’s
generic oxymorphone ER product. F. 169. Endo
accepted Impax’s proposed language. F. 170.
3.

Post-settlement patents and patent
litigation

App-365
After entering into the SLA, Endo obtained
additional patents and patent licenses that it has
asserted cover both original and reformulated Opana
ER (the “after-acquired patents”). F. 571. Endo
acquired its first post-settlement patent - U.S. Patent
No. 7,851,482 - from Johnson Matthey in March 2012
(the “Johnson Matthey patent”). F. 573. In addition,
between November 2012 and October 2014, the Patent
and Trademark Office issued the following patents to
Endo: Patent Nos. 8,309,060 (“the ’060 patent”);
8,309,122 (“the ’122 patent”); Patent No. 8,329,216
(“the ’216 patent”); Patent No. 8,808,737 (“the ’737
patent”); and Patent No. 8,871,779 (“the ’779 patent”).
F. 575-576, 579-581.
In December 2012, Endo began asserting the ’060,
’122, and ’216 patents in litigation against drug
manufacturers seeking to market generic versions of
both original and reformulated Opana ER. F. 577. At
that time, Endo did not assert these patents against
Impax’s generic version of original Opana ER. F. 577.
Endo did, however, assert these patents against a
generic version of reformulated (crush-resistant)
Opana ER, which was covered by an ANDA filed by
Impax. F. 577. In August 2015, the district court for
the southern district of New York held that the ’122
and ’216 patents were not invalid and were infringed
by other companies’ generic versions of original Opana
ER and by all companies’, including Impax’s, generic
versions of reformulated Opana ER. F. 578. That court
issued an injunction barring all defendants, except
Impax, from selling their generic versions of original
Opana ER until 2023. That ruling is currently on
appeal to the Federal Circuit. F. 578.

App-366
In addition, Endo asserted the ‘737 and ‘779
patents in litigation in the district court of Delaware
against drug manufacturers seeking to market generic
versions of both original and reformulated Opana ER.
F. 583. Endo did not assert these patents against
Impax’s generic version of original Opana ER because
of the SLA’s broad patent license; however, Endo did
assert the patents against Impax’s ANDA for a generic
version of reformulated (crush-resistant) Opana ER.
F. 584. In October 2016, the Delaware court held that
the ’779 patent was not invalid and was infringed by a
generic version of reformulated Opana ER. F. 586.
That ruling is currently on appeal to the Federal
Circuit. F. 586. In August 2017, the Delaware court
again ruled that the ’779 patent was not invalid,
following a bench trial against other ANDA filers. F.
587. In September 2017, the Delaware court entered
its final order, enjoining all defendants from selling
generic Opana ER until the last of Endo’s patents
expires in 2029. F. 587-588.
4.

Effect of broad license agreement

The broad license agreement gave Impax
protection against any of Endo’s future patents being
asserted against Impax for its generic version of
original Opana ER. F. 593. Thus, these provisions
gave Impax freedom to sell its generic Opana ER
under both the litigated patents and any future
patents that Endo might obtain in this product area.
F. 592. The January 2013 entry date provided in the
SLA, together with the broad license agreement,
enabled a generic Opana ER to enter the market eight
months before the original patents expired, and
sixteen years before Endo’s after-acquired patents

App-367
expired, and to continue with the sale of that product
up to the present day, without threat of patent
infringement litigation relating to original Opana ER.
F. 594.
Impax’s product is the only generic Opana ER
available to consumers. F. 596. Although every other
Opana ER ANDA filer settled patent claims asserted
by Endo related to Opana ER, no other drug
manufacturer negotiated rights to future Opana ER
patents similar to the broad license agreement that
Impax obtained in the SLA. F. 595. Endo’s acquisition
and successful litigation of additional patents has led
to all generic manufacturers, other than Impax, being
enjoined from selling a generic version of Opana ER
until the last of Endo’s patents expires in 2029. F. 588,
596. Impax, in contrast, has sold generic Opana ER
without interruption since launching its product in
January 2013. F. 597.
5.

Analysis
a.

Procompetitive benefits

The Supreme Court has held that “enabl[ing] a
product to be marketed which might otherwise be
unavailable ... widen[s] consumer choice ... and hence
can be viewed as procompetitive.” NCAA v. Board of
Regents, 468 U.S. 85, 102 (1984); accord Brown Univ.,
5 F.3d at 675 (“Enhancement of consumer choice is a
traditional objective of the antitrust laws and has also
been acknowledged as a procompetitive benefit.”).
The evidence shows that Endo’s acquisition of
additional patents, and successful assertion of those
additional patents in litigation, has led to all generic
manufacturers, other than Impax, being enjoined from
selling a generic version of Opana ER until the last of

App-368
Endo’s patents expires in 2029. F. 592-598. This is
clear evidence of the strength of the after-acquired
patents, and supports the inference that, absent the
SLA, such after-acquired patents also would have
been successfully asserted to enjoin Impax from
selling generic Opana ER - even if Impax had gone to
trial and won its challenge to the patents at issue in
the Endo-Impax patent litigation. Instead, as a result
of the broad license agreement in the SLA, Impax has
sold generic Opana ER without interruption since
launching the product in January 2013. F. 598. This is
despite Endo’s efforts, through filing FDA citizen
petitions with the FDA, to have original Opana ER
removed from the market for alleged safety reasons.
F. 233-235.
The case of In re Wellbutrin XL Antitrust
Litigation is additional authority supporting the
conclusion that the broad patent license in the SLA is
procompetitive. In Wellbutrin, as part of a reverse
payment patent settlement, the brand drug
manufacturer, GlaxoSmithKline (“GSK”), granted to
the generic manufacturers a sublicense to certain
patents (the “Andrx patents”) acquired by GSK in
connection with the settlement of a separate patent
lawsuit among GSK, Andrx, and the generic
manufacturers. 133 F. Supp. 3d at 737, 747. The
Andrx patents were not due to expire for 15 more
years. Id. at 759. The court held that the sublicense
provided under the settlement agreement was a
cognizable procompetitive justification for the
agreement because the sublicense “eliminat[ed] an
independent and substantial hurdle to generic entry”
and removed “the possibility that Andrx could prevent
generic Wellbutrin XL from being marketed for the 15

App-369
years remaining on its patent.” Id. at 758-59. The
court further held that the plaintiffs had failed to
present a genuine factual dispute as to this
procompetitive justification. Id.
In the instant case, as in Wellbutrin, Impax
negotiated for a broad license agreement in order to
ensure that it had the freedom to sell generic Opana
ER without concern of patent infringement liability
going forward. F. 167, 169, 565-566. In addition, as in
Wellbutrin, the SLA eliminated a separate, and
substantial, hurdle that Endo could have imposed on
Impax’s sale of generic Opana ER by asserting afteracquired patents against Impax - patents that Endo
successfully did assert against other generic
manufacturers. F. 575-587.
In summary, the evidence proves that consumers
have benefitted from the SLA by having
uninterrupted and continuous access to generic Opana
ER since January 2013. The real-world effect of the
SLA is that there is a product on the market and
available to consumers today that would not be there
had Impax not had the foresight to negotiate licenses
to future patents. F. 600. This is procompetitive. See
NCAA, 468 U.S. at 102; Brown Univ., 5 F.3d at 675.
Furthermore, the Challenged Agreement settled
litigation, which is favored in the law. American Sec.
Vanlines, Inc. v. Gallagher, 782 F.2d 1056, 1060 (D.C.
Cir. 1986) (“Few public policies are as well established
as the principle that courts should favor voluntary
settlements of litigation by the parties to a dispute.”);
TBK Partners, Ltd. v. Western Union Corp., 675 F.2d
456, 461 (2d Cir. 1982) (noting “the paramount policy
of encouraging settlements”). Although Actavis held

App-370
that the policy in favor of settlement was not a
sufficient reason to bar antitrust review, see Section
III.B.2 above, nothing in the language of Actavis holds
that this factor is precluded from consideration. In
addition, the fact that the SLA enabled Impax to enter
the market prior to the expiration of Endo’s Opana ER
patents, while not dispositive, can be considered in
assessing the competitive consequences of the
Challenged Agreement. See In re Impax, 2017 FTC
LEXIS 130, at *29. In the instant case, the SLA
enabled Impax to enter the market in January 2013,
nine months before expiration of the initial Opana ER
patents in September 2013, and sixteen years before
the expiration of Endo’s after-acquired patents in
2029.
For all the foregoing reasons, Respondent has met
its burden of proving that the SLA had procompetitive
benefits.
b.

Less restrictive alternative

Because Respondent has met its burden of
proving that the SLA had procompetitive benefits, the
burden shifts to Complaint Counsel to demonstrate
that these benefits could have been achieved with a
less restrictive settlement agreement. See Law, 134
F.3d at 1019. Complaint Counsel contends that Endo
and Impax could have entered into a settlement that
did not include any payment to stay off the market.
However, Complaint Counsel fails to demonstrate
that such hypothetical settlement could have, or
would have, included the broad patent license. 35
35 With respect to the likelihood of a hypothetical alternative
settlement with no reverse payment and an entry date earlier
than January 2013, it is noteworthy that Impax twice proposed a

App-371
Accordingly, Complaint Counsel has failed to meet its
burden of proving that the demonstrated
procompetitive benefits of the SLA in this case could
have been achieved through a less restrictive
settlement agreement.
The final step of the rule of reason analysis, set
forth below, weighs the anticompetitive and
procompetitive effects of the SLA, to determine
whether,
on
balance,
the
agreement
is
anticompetitive.
F. Balancing of Anticompetitive
Procompetitive Effects

and

Where the evidence proves that an agreement
poses both anticompetitive harm and procompetitive
benefits, “the harms and benefits must be weighed
against each other in order to judge whether the
challenged behavior is, on balance, reasonable.” Law,
134 F.3d at 1019. Plaintiffs have the burden of
establishing that “the settlement is nevertheless
anticompetitive on balance.” Nexium, 42 F. Supp. 3d
at 262-63; Loestrin, 261 F. Supp. 3d at 329.
As the court recognized in In re Cipro Cases I &
II, “the relevant benchmark in evaluating reverse
payment patent settlements should be no different
from the benchmark in evaluating any other
challenged agreement: What would the state of
competition have been without the agreement?” 348
P.3d at 863. Regardless of whether Complaint Counsel
must prove actual delay in the onset of generic
competition to meet its initial burden as to
simple settlement with a 2011 entry date and no reverse
payment, which Endo rejected. F. 116, 155.

App-372
anticompetitive effect, it is appropriate to assess the
magnitude and/or extent of delayed generic
competition in order to balance anticompetitive harm
against demonstrated procompetitive benefits. See
Impax Labs, 2017 FTC LEXIS 130, at *29-30 (holding
that a settlement providing for entry prior to patent
expiration might be found to enable generic
competition on or prior to the entry date that would
have resulted, on average, from litigating the patent
suit to conclusion, which “[a]t a minimum ... affects the
magnitude of any anticompetitive effect”). Complaint
Counsel bears the overall burden of establishing that
the Challenged Agreement “engendered a net harm.”
Cal. Dental Ass’n, 224 F.3d at 957-58.
Respondent argues that the Endo-Impax
Settlement expedited generic competition, as
compared to litigating the Endo-Impax patent dispute,
regardless of the eventual outcome of that litigation.
Respondent asserts that even if Impax had prevailed,
the Endo-Impax patent litigation would have delayed
generic competition until as late as January 2013.
Complaint
Counsel
urges
rejection
of
Respondent’s evidence as to the expected duration of
the patent litigation. Complaint Counsel further
argues that, regardless of when the underlying
litigation might have ended, the evidence proves that,
absent the Endo-Impax Settlement, Impax might have
launched its generic Opana ER “at risk” to compete
with Endo as early as June 2010, after Impax received

App-373
final FDA approval of its generic Opana ER. These
arguments are analyzed below. 36
1.

Entry by at-risk launch
a.

Background

As explained in Section III.A.3 above, Endo’s
patent infringement suit against Impax, filed on
January 25, 2008, triggered the Hatch-Waxman 30month stay on approval of Impax’s ANDA for generic
oxymorphone ER, meaning that the FDA could not
approve Impax’s ANDA until the earlier of the
expiration of 30 months or resolution of the patent
dispute in Impax’s favor. F. 61-62. If litigation is still
pending at the end of the 30-month period, the FDA
may give its approval to the generic drug
manufacturer to begin marketing a generic version of
the drug. Lipitor, 868 F.3d at 241; 21 U.S.C.
§355(j)(5)(B)(iii). Pursuant to the Hatch-Waxman
framework, once Impax received final approval from
the FDA in June 2010, Impax had the option to launch
its generic oxymorphone ER product “at risk.” F. 6667, 451-452.
Launching at risk refers to the risk of liability for
the brand-name manufacturer’s lost profits, if the
generic challenger launches its product prior to a nonIt is undisputed that the outcome of the Endo-Impax patent
litigation was uncertain at the time of settlement. F. 553. The
duration of continued litigation, as the alternative to the EndoImpax Settlement, is relevant to the magnitude and/or extent of
the anticompetitive effects of the Endo-Impax Settlement. Such
analysis does not require, and does not include, an assessment of
the merits of the underlying patent dispute. See Actavis, 133 S.
Ct. at 2236 (stating that “it is normally not necessary to litigate
patent validity to answer the antitrust question”).
36

App-374
appealable decision in the underlying patent litigation
and ultimately loses its patent challenge. F. 452-453;
Lipitor, 868 F.3d at 241; King Drug, 791 F.3d at 396
n.8. Lost profits are measured by the profits the patent
owner would have made on sales of its branded
product, but for the launch of the generic product. F.
453. Damages can be trebled if the infringement is
found to be willful, for instance, if the generic product
is launched before the district court rules on the
patent dispute. F. 453. In addition, if the brand
company wins its action against a generic company
that has launched at risk and the generic company’s
actions are deemed “exceptional,” courts may award
attorney’s fees to the brand company. F. 457.
Generic companies often risk far more in
infringement liability than they earn from each sale
when launching at risk. F. 454. Damages are not
measured by the generic’s sales revenue, but by the
profits the brand company would have earned on such
sales. F. 454. Thus, potential damages for launching
at risk can represent “bet-the-company” stakes and
can “take [away] the solvency of the company
entirely.” F. 455. Damages can be in the billions of
dollars, if the sales of the branded drug are high
enough, and “would almost always be greater than the
total revenues that the generic company receives”
from launching at risk. F. 455.
Moreover, launching at risk jeopardizes a first
filer’s 180-day exclusivity period, which is “extremely
valuable.” F. 456. If the generic company launches at
risk and is enjoined from making sales, the generic
company forfeits some of its 180-day exclusivity
because the 180-day time period continues to run

App-375
during the period the generic is enjoined. F. 456. Even
if the injunction is eventually lifted or the infringer
prevails in the underlying patent litigation, the patent
infringer can never recover the forfeited part of its
180-day exclusivity period. F. 456.
At-risk launches are fairly uncommon across the
entire pharmaceutical industry. F. 458. At-risk
launches are most common when there are multiple
ANDA filers who have received approval from the
FDA, no ANDA filer has exclusivity, and there
subsequently is a race to the market by generic firms.
F. 459. When at-risk launches do occur, they generally
are undertaken by large pharmaceutical companies
that can absorb significant financial risk in the event
they are found to infringe. F. 460. Complaint Counsel’s
expert witness, Professor Noll, identified 48 at-risk
launches over a 15-year period (August 2001 thru
April 2015). Twenty-one of those fortyeight at-risk
launches were conducted by Teva, which, Professor
Noll explains, “is by far the most likely company to do
at-risk launches.” F. 461. Teva is a “very large
pharmaceutical company” and, as a result, can
undertake at-risk launches more regularly. F. 462. Of
the 48 atrisk launches identified by Professor Noll,
only 4 were conducted by companies with less than $1
billion in revenue. F. 463. Impax’s revenues in 2010
were less than $1 billion. F. 465.
b.

Analysis

The evidence supports the conclusion that Impax
would not have launched its generic Opana ER at risk,
as further explained below. F. 451-548.
First, the evidence supports the conclusion that it
would have been economically disadvantageous for

App-376
Impax to launch its generic Opana ER at risk. Unlike
the overwhelming majority of companies that
Professor Noll identified as undertaking at-risk
launches, Impax is a small pharmaceutical company,
with revenues in 2010 of less than $1 billion. F. 463,
465. Mr. Koch, Impax’s CFO at the time of the EndoImpax Settlement, explained that “being a small
company,” Impax “could not bet the company on any
one product.” F. 467. The potential liability for
damages from launching a generic version of Opana
ER at risk would have exceeded any profits Impax
realized from the launch. F. 544. Impax’s potential
liability for Endo’s lost profits could total as much as
$54 million for six months of sales. F. 546. If it was
ultimately determined that Impax’s infringement was
willful and Endo was awarded treble damages, Impax
could be liable for as much as $162 million for six
months of sales. F. 546. In contrast to this potential
liability, potential sales of oxymorphone ER over six
months in 2010, based on an atrisk launch, as
projected by Impax, would total only $28 million. F.
545. In addition, if Impax launched at risk and was
then enjoined, Impax would forfeit part of its 180-day
exclusivity period. F. 547. Under these circumstances,
it “was perfectly reasonable for Impax to view a launch
at risk as a losing proposition.” F. 548.
Second, Impax had no relevant history of at-risk
launches. Impax is “incredibly conservative” with
respect to at-risk launches and only “infrequently”
considers the possibility. F. 466-468. Prior to the
Endo-Impax patent litigation, Impax had launched a
product at risk only once. F. 469. That at-risk launch
was for one dosage strength of a generic version of
oxycodone. F. 469. Impax limited its risk of damages

App-377
by capping its potential sales at $25 million, which, in
turn, limited the lost profits it would have had to pay
to the branded drug company. F. 469. In fact, Impax
launched at risk only after it received a favorable
district court decision holding the relevant patents
unenforceable and after Teva, the first ANDA filer for
the relevant dosage, had launched at risk six months
earlier. F. 469. Since the Endo-Impax Settlement in
2010, Impax has undertaken only one at-risk launch,
and did so in a limited manner. F. 471. Specifically,
Impax and Perrigo, the ANDA holder and marketer of
a nasal spray antihistamine named azelastine,
entered a partnership agreement through which
Impax would share development costs and litigation
expenses in return for a share of the drug’s profits. F.
472. In 2014, Perrigo notified Impax that it intended
to launch azelastine at risk. F. 472. Under the terms
of the Impax-Perrigo partnership agreement, Impax
could participate in the launch and earn a share of the
profits or could not participate, in which case Perrigo
would receive all azelastine profits. F. 472. Impax
participated in Perrigo’s at-risk launch, but limited its
exposure to potential damages by capping its
participation at 150,000 units. F. 472.
Third, Impax did not seek, or obtain, approval for
an at-risk launch from Impax’s board of directors,
which was an absolute prerequisite. F. 473, 481, 486.
See, e.g., F. 482 (Impax has “to have sign off from the
Board, because [Impax is] such a small company, and
a launch at risk would ... potentially cause [the]
company problems” if found liable for substantial
damages). Indeed, Impax has an extensive internal
process for evaluating an at-risk launch, including a
detailed review of the potential product launch by

App-378
Impax’s new product committee, legal team,
marketing team, operations department, and division
heads. F. 474-477. Thereafter, Impax’s CFO must
present a risk analysis profile to Impax’s executive
committee, which has to approve any at-risk launch.
F. 477. Impax’s CEO also must approve any decision
to launch at risk. F. 478. If Impax’s CEO and executive
committee approve a possible at-risk launch, a
presentation is made to Impax’s board of directors by
Impax’s CFO, legal department, president of the
generics division, and the manufacturing department.
F. 479-480. Thus, in the case of azelastine, discussed
above, Impax senior management, including the
president of Impax’s generics business, Impax’s
general counsel, and Impax’s in-house attorney
responsible for intellectual property, made a
presentation and a recommendation regarding the atrisk launch at a special board of directors meeting. F.
484. A resolution was then placed before the Board,
and the Board voted to approve the resolution. F. 484.
With respect to generic Opana ER, in contrast,
Impax’s senior management never decided to pursue
an at-risk launch, and the question was never
submitted to the board for approval. F. 486-487.
c.

Complaint Counsel’s arguments

The evidence fails to prove Complaint Counsel’s
assertion that, absent a settlement of the Endo-Impax
patent litigation, Impax would have launched its
generic Opana ER at risk, as explained below.
i.

Consideration
launch

of

at-risk

Complaint Counsel argues that Impax was
“considering” an at-risk launch in 2010. CCB at 45-46.

App-379
Even if true, however, this fact does not warrant an
inference that Impax planned to launch at risk, or was
likely to launch at risk. Such an inference is against
the weight of the contrary evidence, summarized
above, that supports the conclusion that Impax was
not going to launch its generic Opana ER at risk.
Moreover, the evidence upon which Complaint
Counsel relies to support is argument lacks probative
weight. Complaint Counsel points to evidence that Mr.
Mengler, president of Impax’s generics division,
created a presentation for the May 2010 board of
directors meeting, in which he listed an at-risk launch
of oxymorphone as a “current assumption” for
projecting sales of oxymorphone ER, and that
according to the minutes of the meeting, Mr. Mengler
“expressed the view that [o]xymorphone was a good
candidate for an at-risk launch.” F. 493-494. However,
Mr. Mengler’s assumptions with respect to possible
sales numbers did not “imply or mean that any legal
decision ha[d] been made to clear the way for a
launch.” F. 493. There was no substantive discussion
of an at-risk launch at the May 2010 board of directors
meeting; and Impax’s senior management did not
make a recommendation to the board for an at-risk
launch, did not discuss the risk or benefits of an atrisk launch, and did not ask the board to approve an
at-risk launch at the May 2010 board meeting. F. 498499. In 2010, senior management was looking at
various possible scenarios and modeled an at-risk
launch to forecast how that might impact Impax’s
budget if the decision to launch at risk were made. F.
488. Mr. Mengler raised oxymorphone ER at the May
2010 Board meeting to put oxymorphone ER “on the
radar” of the Board and to “alert the board as to the

App-380
product being out there that might get to the point of
an atrisk launch.” F. 495. As Impax’s CEO, Dr. Hsu,
explained, senior management “want[s] to alert the
board that we are considering this [as] one of the
scenario[s] so that if we do come up with a final
recommendation to the board, there will be no
surprise. ... [T]his is very typical.” F. 497. Impax’s then
CFO, Mr. Koch, who wrote the minutes of the meeting
of the May 2010 board of directors meeting, explained
that Mr. Mengler was communicating his evaluation
of the oxymorphone market and sharing that
information with the Board because senior
management was unsure of what direction it would
“ultimately take and ... [did not] want to come back to
the board seeking an at-risk launch with them never
having heard of it before.” F. 496.
ii. Launch preparedness
Complaint Counsel also argues that Impax
prepared a “launch inventory build” in 2010, and
argues that such evidence shows that Impax was
planning to launch at risk. This argument is not
supported by the evidence.
The evidence shows that it was Impax’s general
practice to have its products that have been filed with
Paragraph IV certifications ready to launch after the
expiration of the Hatch- Waxman Act’s 30-month stay.
F. 503. When a product is 18 months away from its
earliest theoretical launch, Impax’s supply chain
group begins prelaunch preparation activities. F. 506.
This includes requesting a quota from the U.S. Drug
Enforcement Agency (“DEA”) to purchase any active
pharmaceutical ingredients (“API”) that are controlled
substances; purchasing the API and other unique

App-381
materials necessary to produce the finished product;
conducting “process validation” to prove that Impax’s
manufacturing process is repeatable and makes the
product in a satisfactory manner; and producing a
“launch inventory build,” to ensure that Impax has
enough product to meet expected demand on the
launchable date. F. 508.
The evidence further shows that Impax’s practice
is to begin process validation six months before FDA
approval of the relevant drug is expected, even if the
product is the subject of active litigation. F. 511.
Impax may build pre-launch quantities of products in
its planning pipeline before either FDA approval is
granted or a formal launch decision is made. F. 512.
Impax considers its production of pre-launch
quantities “routine” and consistent with industry
practice. F. 514. Moreover, because Impax’s
operations team prepares products for launch before
FDA approval or a formal decision about launch
timing, it is not unusual for Impax to discard and
write off some of the products and raw materials in its
inventory. F. 516, 542-543.
Consistent with Impax’s general practice, Impax’s
operations team sought to be ready to launch its
generic oxymorphone ER product at the expiration of
the Hatch-Waxman Act’s 30- month stay on June 14,
2010. F. 503, 517. Impax requested a procurement
quota from the DEA for oxymorphone, which was a
necessary step before it could purchase oxymorphone
API for any reason, including to conduct process
validation of its oxymorphone ER product. F. 523. The
initial allotment of oxymorphone quota was for
product development manufacturing. F. 524. In

App-382
January 2010 and in April 2010, Impax submitted
additional requests for oxymorphone procurement
quota, which were approved. F. 525-526. By May 20,
2010, Impax had completed process validation for the
5 mg, 10 mg, 20 mg, and 40 mg dosages of generic
oxymorphone ER. F. 529. These process validation
batches that Impax had built were not sufficient,
however, to meet the market demand for a full launch
(“launch inventory”). F. 530. The time required to
produce the necessary amount of oxymorphone ER
would have made a product launch soon after FDA
approval in mid-June 2010 impossible. F. 536.
Moreover, Impax never completed a launch
inventory build for its oxymorphone ER product. F.
533. Impax’s operations team does not build launch
inventory without management approval. F. 531. In
the case of oxymorphone ER, the Impax operations
team never even received instructions from senior
management to begin a launch inventory build. F. 532.
Although Impax had solicited letters of intent from
four customers asking customers for their good faith
estimate of how much product they likely would buy if
generic oxymorphone ER came on the market, Impax
did not have any pricing contracts or agreements to
purchase with those customers. F. 537.
d.

Conclusion
launch

regarding

at-risk

The evidence supports the conclusion that, absent
a settlement, Impax would not have launched its
generic Opana ER at risk, and fails to prove Complaint
Counsel’s assertion that, absent a settlement of the
Endo-Impax patent litigation, Impax might have
launched its generic Opana ER at risk.

App-383
2.

Entry after litigation

If Impax and Endo had not settled, their patent
litigation would have continued. F. 555. Respondent’s
contention as to when the patent litigation would
likely have concluded relies on the opinions of its
intellectual property expert, E. Anthony Figg. Mr.
Figg’s extensive experience in litigating patent
matters in the federal courts makes him well qualified
to opine on this issue. Mr. Figg is an attorney
specializing in intellectual property, primarily
involving the chemical, pharmaceutical, healthcare
and biotechnology industries. His principal emphasis
is patent litigation. He has served as lead counsel in
numerous complex patent litigation matters,
including Hatch-Waxman litigation, in federal district
court and the Federal Circuit Court of Appeals, among
other venues. Mr. Figg has practiced patent law since
1978. F. 557. Accordingly, Mr. Figg’s opinions on the
likely duration of the Endo-Impax patent litigation are
entitled to, and are given, substantial weight.
Complaint Counsel’s arguments that Mr. Figg’s
opinions on this issue should be rejected as unreliable
and/or against the weight of the evidence (see, e.g.,
CCRB 73-74; CCRRFF 1075-1091) have been
considered and have been determined to be without
merit.
The evidence shows that, following a trial in the
Endo-Impax patent litigation, the parties would have
had to wait for the district court to issue findings of
fact, conclusions of law, and an order. Based on Mr.
Figg’s review of Hatch-Waxman cases from the district
court in New Jersey, a decision would have been
issued approximately four to five months after

App-384
completion of trial, in or around November 2010. F.
556. Regardless of when the district court would have
issued its decision in the Endo-Impax patent
litigation, however, an appeal was likely, and would
take 30 days to be docketed in the Federal Circuit
Court of Appeals. F. 588. Based on Mr. Figg’s review
of statistics maintained by the Federal Circuit, the
median time from docketing an appeal to issuance of
a final decision was approximately 11 months in 2010
and 2011. F. 559. Applying these statistics, Mr. Figg
estimated that an appellate decision in the EndoImpax litigation would have been issued in November
2011. F. 559. Mr. Figg’s estimate of a November 2011
issuance of an appellate decision is “very
conservative,” however, because the median time from
docketing to a final decision, reported in the Federal
Circuit statistics, includes settlements and summary
affirmances. F. 559. In addition, the Federal Circuit is
generous with briefing extensions, which increases the
time it takes to receive a decision. F. 560.
Moreover, if Impax had lost at the trial level, the
“centerpiece” of the appeal would have been the trial
court’s claim construction ruling, issued on April 5,
2010, which adopted Endo’s proposed constructions
for “hydrophobic material” and “sustained release.” F.
71, 561. Impax would have had substantial arguments
regarding this ruling on appeal. F. 561. If the
appellate court agreed with Impax’s arguments, it is
likely that the appellate court would remand to the
trial court for further development of the evidentiary
issues. F. 562. This is because the parties would need
to litigate infringement and validity under Impax’s
construction of the claims. F. 562. Because the trial
court’s claim construction ruling was in favor of Endo,

App-385
Endo never developed a record that Impax infringed
its patents under Impax’s construction of the claims.
F. 562. Thus, lacking a record on the issue of
infringement and validity, the Federal Circuit would
not decide these issues itself, but would instead direct
such decision to the trial court via remand. F. 562. If
the appellate court ruled in favor of Impax and
remanded the case to the trial court, the evidentiary
proceedings on remand would likely have taken up to
18 months to complete, and therefore would not be
concluded until a date close to January 2013. F. 563.
If Impax lost the appeal in the Federal Circuit, Impax
would have been enjoined and would not have been
able to launch its oxymorphone ER product until
Endo’s patents expired in September 2013. F. 564.
In conclusion, as explained above, the evidence
proves that, absent the settlement, ongoing litigation
would have prevented Impax’s entry until November
2011 at the earliest, and more likely until a date close
to January 2013, assuming Impax ultimately
prevailed. If Impax ultimately lost its patent challenge
against Endo, Impax would not have been able to
launch its oxymorphone ER product until the litigated
patents expired in September 2013.
3.

Weighing of anticompetitive effects
against procompetitive benefits

As explained in detail in Section III.C., the
evidence proves that the Endo-Impax Settlement
included payment to prevent the risk of competition,
which, under Actavis, is an anticompetitive harm.
Under the facts of the instant case, however, the
magnitude or extent of such harm is largely
theoretical, based on an inference that Impax’s entry

App-386
date, and therefore generic competition, would have
been earlier than January 2013, had the reverse
payment not induced the settlement. See, e.g., CCB at
47 (asserting that Challenged Agreement “eliminated
risk” of generic competition “for over two years”).
Although the Endo-Impax Settlement foreclosed the
hypothetical possibility of Impax launching its generic
Opana ER earlier than the date set forth in the SLA either at risk or after litigation - the fact is that such
earlier entry was unlikely. Moreover, pursuing
litigation, which was the alternative to the EndoImpax Settlement, would not have guaranteed the
continued availability of Impax’s generic Opana ER,
even if Impax had prevailed on its patent claim,
because, as explained in Section III.E., it is likely that
Endo would have successfully asserted after-acquired
patents to enjoin Impax, as it had against all other
sellers of generic Opana ER.
In contrast
to
the
largely
theoretical
anticompetitive harm asserted by Complaint Counsel,
the real world procompetitive benefits of the EndoImpax Settlement are substantial. As detailed in
Section III.E, the January 2013 entry date provided in
the SLA, together with the broad patent license
provisions, enabled a generic Opana ER to enter the
market eight months before Endo’s original Opana ER
patents expired, and sixteen years before Endo’s afteracquired patents expired, and to continue selling
generic Opana ER up to the present day, without
threat of patent infringement litigation relating to
original Opana ER. F. 592-596. Impax has sold generic
Opana ER without interruption for more than five
years, since launching its product in January 2013. F.
597. Furthermore, Impax’s product is not only the sole

App-387
generic oxymorphone product available to consumers,
F. 596, but the only available oxymorphone ER
product. 37 F. 598. These actual consumer benefits
outweigh the theoretical anticompetitive harm
demonstrated in this case. Indeed, Complaint
Counsel’s economic expert witness, Professor Noll,
admits that consumers are better off today because
Impax is selling oxymorphone ER. F. 599. These
actual consumer benefits are even more pronounced if
it is accepted, as Complaint Counsel urges, that
patients cannot readily switch to an alternative long
acting opioid. See, e.g., CCFF Section VIII.E., F.
Even if it is assumed that Impax would have
entered the market as early as June 2010, and that
the settlement therefore delayed generic entry (and
extended Endo’s patent monopoly) for two and a half
years, the demonstrated consumer benefits of the
settlement still outweigh the anticompetitive harm
because the settlement enabled and allowed
uninterrupted and continuous access to generic Opana
ER for more than five years. Similarly, to the extent
that Complaint Counsel argues that the no-AG
provision of the SLA deprived consumers of the benefit
of competition from an Endo authorized generic drug,
such harm would be limited to the duration of the 180day exclusivity period to which the no-AG provision
applied, and is far outweighed by the more than five

37 In March 2012, after a supply disruption affecting production
of original Opana ER, Endo launched reformulated Opana ER
and, at the direction of FDA, stopped distributing original Opana
ER. F. 227-230. On September 1, 2017, at the request of FDA,
Endo also ceased sales of reformulated Opana ER. F. 111.

App-388
years of uninterrupted and continuous access to
generic Opana ER.
Accordingly, having weighed and balanced the
anticompetitive effects and the procompetitive
benefits of the Endo-Impax Settlement, the evidence
fails to prove the “presence of significant unjustified
anticompetitive consequences,” Actavis, 133 S. Ct. at
2238, or that the agreement “engendered a net harm.”
Cal. Dental Ass’n, 224 F.3d at 957-58. Rather, the
evidence proves that the Endo-Impax Settlement was,
on balance, procompetitive. Thus, the evidence fails to
demonstrate that Endo-Impax Settlement constituted
an unreasonable restraint of trade.
G. Conclusion
Having fully considered the applicable law, the
arguments of the parties, and the entire record in this
case, and for all the foregoing reasons, the evidence
fails to prove a violation of Section 5 of the FTC Act.
Therefore, the Complaint must be DISMISSED.
IV. SUMMARY OF CONCLUSIONS OF LAW
1. Complaint Counsel bears the burden of proving
jurisdiction and liability by a preponderance of
evidence.
2. Respondent is a corporation, as “corporation” is
defined in Section 4 of the FTC Act, 15 U.S.C. §44.
3. Respondent’s challenged activities relating to
the sale of pharmaceutical drugs are in or affect
commerce in the United States, as “commerce” is
defined in Section 4 of the FTC Act, 15 U.S.C. §44.

App-389
4. The Commission has jurisdiction over
Respondent and the subject matter of this proceeding,
pursuant to Section 5 of the FTC Act.
5. The FTC Act’s prohibition of unfair methods of
competition under Section 5 of the FTC Act
encompasses violations of Section 1 of the Sherman
Act.
6. Section 1 of the Sherman Act prohibits every
contract, combination in the form of trust or
otherwise, or conspiracy, in restraint of trade or
commerce among the several States. 15 U.S.C. §1.
7. Despite its broad language, the ban on
contracts in restraint of trade extends only to
unreasonable restraints of trade, i.e., restraints that
impair competition.
8. The Supreme Court, in FTC v. Actavis, 133 S.
Ct. 2223 (2013), held that reverse payment patent
settlements are not immune from antitrust scrutiny,
anticompetitive effects should not be presumed from
the presence of a reverse payment alone, and that
reverse payment settlements are to be evaluated
under the rule of reason.
9. The Federal Food, Drug, and Cosmetic Act, 21
U.S.C. §301 et seq., as amended by the Drug Price
Competition and Patent Term Restoration Act of 1984
(the “Hatch-Waxman Act”) and the Medicare
Prescription Drug, Improvement, and Modernization
Act of 2003, 21 U.S.C. §§355(b)(2) and 355(j) and 35
U.S.C. §271(e), establishes procedures designed to
facilitate competition from lower-priced generic drugs,
while maintaining incentives for pharmaceutical
companies to invest in developing new drugs.

App-390
10. In a traditional rule-of-reason case, the
relevant market must be defined to allow a court to
determine the effect that an allegedly illegal act has
on competition. However, where a settlement of patent
litigation arises in the context of the peculiar
framework of the Hatch-Waxman Act, and where a
valid patent gives the brand holder a legal monopoly,
the appropriate market in which to assess the
anticompetitive effects of a reverse payment
settlement agreement is the market that is the subject
of that agreement - the branded pharmaceutical
product and its generic equivalents.
11. The relevant market in which to analyze the
effects of the Challenged Agreement in the instant
case is the market for oxymorphone ER, branded and
generic, which is the market that mattered to Impax
and Endo, the parties to the Challenged Agreement.
12. In a rule of reason analysis, Complaint
Counsel has the initial burden of proving
anticompetitive effects.
13. A brand patent holder’s use of a payment to
induce a generic challenger to drop its patent
challenge and agree to stay out of the market, rather
than face the risk of patent invalidation and resulting
generic competition, is an anticompetitive harm under
Actavis.
14. To meet the initial burden of proving
anticompetitive effects in a reverse payment case,
Complaint Counsel must prove payment for delay, or,
in other words, payment to prevent the risk of
competition. The likelihood of a reverse payment
bringing about anticompetitive effects depends upon
its size, its scale in relation to the payor’s anticipated

App-391
future litigation costs, its independence from other
services for which it might represent payment, and the
lack of any other convincing justification.
15. Under Actavis, a reasonable inference of harm
to consumers from lessened competition can be
established by identifying a large and otherwise
unexplained payment of cash or something else of
value made by the patent holder to the alleged
infringer in exchange for that firm’s agreement not to
enter the market for some period of time, or by direct
evidence that the patent holder paid the alleged
infringer to delay its entry into the market and
thereby restrict competition, e.g., evidence indicating
that the purpose and effect of a reverse payment was
to delay entry.
16. The formulation of the initial burden of
proving anticompetitive effects in a reverse payment
case set forth in King Drug Company of Florence v.
Cephalon, Inc., 88 F. Supp. 3d 402 (E.D. Pa. 2015),
upon which Complaint Counsel relies, is rejected, to
the extent it holds that anticompetitive effects can be
demonstrated solely by proof of a large payment and
market power. This formulation has not been adopted
by any other court and presents an unduly truncated
burden of proof.
17. Actavis did not state that a “large” reverse
payment is by nature anticompetitive. Under Actavis,
it is a large and unjustified payment that can bring
the risk of anticompetitive effects.
18. By their nature, pharmaceutical patents often
carry with them market power. A valid patent grants
the legal right to exclude generic competition and the

App-392
practical ability to profitably charge higher prices
than generic competitors would charge.
19. If the initial burden of proving anticompetitive
effects is met, the Respondent in a reverse payment
case may demonstrate that the Challenged Agreement
had offsetting procompetitive benefits.
20. Complaint Counsel’s position that the only
relevant procompetitive justifications are those that
justify the reverse payment, thereby barring all other
evidence of procompetitive benefits from the
settlement and condemning the settlement on the
basis of the reverse payment alone, is inconsistent
with Actavis and the rule of reason generally.
21. Procompetitive benefits arising in connection
with a reverse payment settlement agreement as a
whole are properly considered as part of a wellstructured rule of reason analysis.
22. Enabling a product to be marketed that might
otherwise be unavailable widens consumer choice and
is therefore procompetitive.
23. The fact that a reverse payment settlement
agreement allows generic entry prior to patent
expiration, while not dispositive, can be considered in
assessing the competitive consequences of the
agreement.
24. Where the evidence proves that an agreement
poses both anticompetitive harm and procompetitive
benefits, the harms and benefits must be weighed
against each other in order to judge whether the
challenged behavior is, on balance, reasonable.
25. Where the evidence proves that an agreement
poses both anticompetitive harm and procompetitive

App-393
benefits, Complaint Counsel has the burden of
establishing that the settlement is nevertheless
anticompetitive on balance.
26. The relevant benchmark in evaluating reverse
payment patent settlements should be no different
from the benchmark in evaluating any other
challenged agreement: What would the state of
competition have been without the agreement?
27. It is appropriate to assess the magnitude
and/or extent of delayed generic competition
attributable to a reverse payment settlement
agreement in order to balance anticompetitive harm
against demonstrated procompetitive benefits.
28. A settlement providing for entry prior to
patent expiration might enable generic competition on
or prior to the entry date that would have resulted, on
average, from litigating the patent suit to conclusion,
which at a minimum affects the magnitude of any
anticompetitive effect.
29. Based on weighing and balancing the
anticompetitive effects and the procompetitive
benefits of the Challenged Agreement, the evidence
fails to prove the presence of significant unjustified
anticompetitive consequences, or that the agreement
engendered a net harm.
30. The evidence fails to demonstrate that the
Challenged Agreement constituted an unreasonable
restraint of trade.
31. The evidence fails to prove a violation of
Section 5 of the FTC Act.
32. This Initial Decision makes no findings
concerning alleged competitive effects of the 2017

App-394
settlement agreement between Endo and Impax, and
Endo' s arguments as intervenor opposing any remedy
that would order the nullification or otherwise affect
Endo's rights under that agreement are moot.
ORDER
For the reasons stated above, IT IS ORDERED
that the Complaint be, and hereby is, DISMISSED.
ORDERED:
[handwritten:signature]
D. Michael Chappell
Chief Administrative Law Judge
Date: May 18, 2018

App-395
Appendix D
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
15 U.S.C. §1
Every contract, combination in the form of trust
or otherwise, or conspiracy, in restraint of trade or
commerce among the several States, or with foreign
nations, is declared to be illegal. Every person who
shall make any contract or engage in any combination
or conspiracy hereby declared to be illegal shall be
deemed guilty of a felony, and, on conviction thereof,
shall be punished by fine not exceeding $100,000,000
if a corporation, or, if any other person, $1,000,000, or
by imprisonment not exceeding 10 years, or by both
said punishments, in the discretion of the court.

21 U.S.C. §355
(a) Necessity of effective approval of application
No person shall introduce or deliver for
introduction into interstate commerce any new drug,
unless an approval of an application filed pursuant to
subsection (b) or (j) is effective with respect to such
drug.
(b) Filing application; contents
(1)
(A) Any person may file with the
Secretary an application with respect to any
drug subject to the provisions of subsection

App-396
(a). Such persons shall submit to the
Secretary as part of the application-(i) full reports of investigations
which have been made to show whether
such drug is safe for use and whether
such drug is effective in use;
(ii) a full list of the articles used as
components of such drug;
(iii) a full statement
composition of such drug;

of

the

(iv) a full description of the methods
used in, and the facilities and controls
used for, the manufacture, processing,
and packing of such drug;
(v) such samples of such drug and of
the articles used as components thereof
as the Secretary may require;
(vi) specimens of the labeling
proposed to be used for such drug;
(vii) any
assessments
required
under section 355c of this title; and
(viii) the
patent
number
and
expiration date of each patent for which
a claim of patent infringement could
reasonably be asserted if a person not
licensed by the owner of the patent
engaged in the manufacture, use, or sale
of the drug, and that-(I) claims the drug for which the
applicant submitted the application
and is a drug substance (active

App-397
ingredient) patent or a drug product
(formulation or composition) patent;
or
(II) claims a method of using
such drug for which approval is
sought or has been granted in the
application.
(B) If an application is filed under this
subsection for a drug, and a patent of the type
described in subparagraph (A)(viii) is issued
after the filing date but before approval of the
application, the applicant shall amend the
application to include the patent number and
expiration date.
(2) An
application
submitted
under
paragraph (1) for a drug for which the
investigations described in clause (A) of such
paragraph and relied upon by the applicant for
approval of the application were not conducted by
or for the applicant and for which the applicant
has not obtained a right of reference or use from
the person by or for whom the investigations were
conducted shall also include-(A) a certification, in the opinion of the
applicant and to the best of his knowledge,
with respect to each patent which claims the
drug for which such investigations were
conducted or which claims a use for such drug
for which the applicant is seeking approval
under this subsection and for which
information is required to be filed under
paragraph (1) or subsection (c)--

App-398
(i) that such patent information has
not been filed,
(ii) that such patent has expired,
(iii) of the date on which such patent
will expire, or
(iv) that such patent is invalid or will
not be infringed by the manufacture, use,
or sale of the new drug for which the
application is submitted; and
(B) if with respect to the drug for which
investigations described in paragraph (1)(A)
were conducted information was filed under
paragraph (1) or subsection (c) for a method
of use patent which does not claim a use for
which the applicant is seeking approval
under this subsection, a statement that the
method of use patent does not claim such a
use.
(3) Notice of opinion that patent is invalid or
will not be infringed
(A) Agreement to give notice
An applicant that makes a certification
described in paragraph (2)(A)(iv) shall
include in the application a statement that
the applicant will give notice as required by
this paragraph.
(B) Timing of notice
An applicant that makes a certification
described in paragraph (2)(A)(iv) shall give
notice as required under this paragraph--

App-399
(i) if the certification is in the
application, not later than 20 days after
the date of the postmark on the notice
with which the Secretary informs the
applicant that the application has been
filed; or
(ii) if the certification is in an
amendment or supplement to the
application, at the time at which the
applicant submits the amendment or
supplement, regardless of whether the
applicant has already given notice with
respect to another such certification
contained in the application or in an
amendment or supplement to the
application.
(C) Recipients of notice
An applicant required under this
paragraph to give notice shall give notice to-(i) each owner of the patent that is
the subject of the certification (or a
representative of the owner designated to
receive such a notice); and
(ii) the holder of the approved
application under this subsection for the
drug that is claimed by the patent or a
use of which is claimed by the patent (or
a representative of the holder designated
to receive such a notice).
(D) Contents of notice
A notice required under this paragraph
shall-

App-400
(i) state that an application that
contains data from bioavailability or
bioequivalence
studies
has
been
submitted under this subsection for the
drug with respect to which the
certification is made to obtain approval to
engage in the commercial manufacture,
use, or sale of the drug before the
expiration of the patent referred to in the
certification; and
(ii) include a detailed statement of
the factual and legal basis of the opinion
of the applicant that the patent is invalid
or will not be infringed.
(4)
(A) An applicant may not amend or
supplement an application referred to in
paragraph (2) to seek approval of a drug that
is a different drug than the drug identified in
the application as submitted to the Secretary.
(B) With respect to the drug for which
such an application is submitted, nothing in
this subsection or subsection (c)(3) prohibits
an
applicant
from
amending
or
supplementing the application to seek
approval of a different strength.
(5)
(A) The Secretary shall issue guidance
for the individuals who review applications
submitted
under
paragraph
(1)
or
under section 262 of Title 42, which shall
relate to promptness in conducting the

App-401
review, technical excellence, lack of bias and
conflict of interest, and knowledge of
regulatory and scientific standards, and
which shall apply equally to all individuals
who review such applications.
(B) The Secretary shall meet with a
sponsor of an investigation or an applicant for
approval for a drug under this subsection
or section 262 of Title 42 if the sponsor or
applicant makes a reasonable written request
for a meeting for the purpose of reaching
agreement on the design and size-(i)
(I) of clinical trials intended to
form the primary basis of an
effectiveness claim; or
(II) in the case where human
efficacy studies are not ethical or
feasible, of animal and any
associated clinical trials which, in
combination, are intended to form
the primary basis of an effectiveness
claim; or
(ii) with respect to an application for
approval of a biological product
under section 262(k) of Title 42, of any
necessary clinical study or studies.
The sponsor or applicant shall
provide information necessary for
discussion and agreement on the design
and size of the clinical trials. Minutes of
any such meeting shall be prepared by

App-402
the Secretary and made available to the
sponsor or applicant upon request.
(C) Any agreement regarding the
parameters of the design and size of clinical
trials of a new drug under this paragraph
that is reached between the Secretary and a
sponsor or applicant shall be reduced to
writing and made part of the administrative
record by the Secretary. Such agreement
shall not be changed after the testing begins,
except-(i) with the written agreement of the
sponsor or applicant; or
(ii) pursuant to a decision, made in
accordance with subparagraph (D) by the
director of the reviewing division, that a
substantial scientific issue essential to
determining the safety or effectiveness of
the drug has been identified after the
testing has begun.
(D) A decision under subparagraph
(C)(ii) by the director shall be in writing and
the Secretary shall provide to the sponsor or
applicant an opportunity for a meeting at
which the director and the sponsor or
applicant will be present and at which the
director will document the scientific issue
involved.
(E) The written decisions of the
reviewing division shall be binding upon, and
may not directly or indirectly be changed by,
the field or compliance division personnel
unless such field or compliance division

App-403
personnel demonstrate to the reviewing
division why such decision should be
modified.
(F) No action by the reviewing division
may be delayed because of the unavailability
of information from or action by field
personnel unless the reviewing division
determines that a delay is necessary to assure
the marketing of a safe and effective drug.
(G) For purposes of this paragraph, the
reviewing division is the division responsible
for the review of an application for approval
of a drug under this subsection or section 262
of Title 42 (including all scientific and
medical matters, chemistry, manufacturing,
and controls).
(6) An application submitted under this
subsection shall be accompanied by the
certification required under section 282(j)(5)(B) of
Title 42. Such certification shall not be considered
an element of such application.
(c) Period for approval of application; period for,
notice, and expedition of hearing; period for issuance
of order
(1) Within one hundred and eighty days after
the filing of an application under subsection (b),
or such additional period as may be agreed upon
by the Secretary and the applicant, the Secretary
shall either-(A) approve the application if he then
finds that none of the grounds for denying
approval specified in subsection (d) applies, or

App-404
(B) give the applicant notice of an
opportunity for a hearing before the Secretary
under subsection (d) on the question whether
such application is approvable. If the
applicant elects to accept the opportunity for
hearing by written request within thirty days
after such notice, such hearing shall
commence not more than ninety days after
the expiration of such thirty days unless the
Secretary and the applicant otherwise agree.
Any such hearing shall thereafter be
conducted on an expedited basis and the
Secretary's order thereon shall be issued
within ninety days after the date fixed by the
Secretary for filing final briefs.
(2) Not later than 30 days after the date of
approval of an application submitted under
subsection (b), the holder of the approved
application shall file with the Secretary the
patent number and the expiration date of any
patent described in subsection (b)(1)(A)(viii),
except that a patent that is identified as claiming
a method of using such drug shall be filed only if
the patent claims a method of use approved in the
application. If a patent described in subsection
(b)(1)(A)(viii) is issued after the date of approval
of an application submitted under subsection (b),
the holder of the approved application shall, not
later than 30 days after the date of issuance of the
patent, file the patent number and the expiration
date of the patent, except that a patent that
claims a method of using such drug shall be filed
only if approval for such use has been granted in
the application. If the patent information

App-405
described in subsection (b) could not be filed with
the submission of an application under subsection
(b) because the application was filed before the
patent information was required under subsection
(b) or a patent was issued after the application
was approved under such subsection, the holder
of an approved application shall file with the
Secretary the patent number and the expiration
date of any patent described in subsection
(b)(1)(A)(viii). If the holder of an approved
application could not file patent information
under subsection (b) because it was not required
at the time the application was approved, the
holder shall file such information under this
subsection not later than thirty days after
September 24, 1984, and if the holder of an
approved application could not file patent
information under subsection (b) because no
patent of the type for which information is
required to be submitted in subsection
(b)(1)(A)(viii) had been issued when an
application was filed or approved, the holder shall
file such information under this subsection not
later than thirty days after the date the patent
involved is issued. Upon the submission of patent
information under this subsection, the Secretary
shall publish it. Patent information that is not the
type of patent information required by subsection
(b)(1)(A)(viii) shall not be submitted under this
paragraph.
(3) The approval of an application filed under
subsection (b) which contains a certification
required by paragraph (2) of such subsection shall
be made effective on the last applicable date

App-406
determined by applying the following to each
certification made under subsection (b)(2)(A):
(A) If the applicant only made a
certification described in clause (i) or (ii) of
subsection (b)(2)(A) or in both such clauses,
the approval may be made effective
immediately.
(B) If the applicant made a certification
described in clause (iii) of subsection (b)(2)(A),
the approval may be made effective on the
date certified under clause (iii).
(C) If the applicant made a certification
described in clause (iv) of subsection (b)(2)(A),
the approval shall be made effective
immediately unless, before the expiration of
45 days after the date on which the notice
described in subsection (b)(3) is received, an
action is brought for infringement of the
patent that is the subject of the certification
and for which information was submitted to
the Secretary under paragraph (2) or
subsection (b)(1) before the date on which the
application (excluding an amendment or
supplement to the application) was
submitted. If such an action is brought before
the expiration of such days, the approval may
be made effective upon the expiration of the
thirty-month period beginning on the date of
the receipt of the notice provided under
subsection (b)(3) or such shorter or longer
period as the court may order because either
party to the action failed to reasonably

App-407
cooperate in expediting the action, except
that-(i) if before the expiration of such
period the district court decides that the
patent is invalid or not infringed
(including
any
substantive
determination that there is no cause of
action for patent infringement or
invalidity), the approval shall be made
effective on-(I) the date on which the court
enters judgment reflecting the
decision; or
(II) the date of a settlement
order or consent decree signed and
entered by the court stating that the
patent that is the subject of the
certification is invalid or not
infringed;
(ii) if before the expiration of such
period the district court decides that the
patent has been infringed-(I) if the judgment of the
district court is appealed, the
approval shall be made effective on(aa) the date on which the
court of appeals decides that the
patent is invalid or not infringed
(including
any
substantive
determination that there is no
cause of action for patent
infringement or invalidity); or

App-408
(bb) the
date
of
a
settlement order or consent
decree signed and entered by the
court of appeals stating that the
patent that is the subject of the
certification is invalid or not
infringed; or
(II) if the judgment of the
district court is not appealed or is
affirmed, the approval shall be made
effective on the date specified by the
district court in a court order
under section 271(e)(4)(A) of Title
35;
(iii) if before the expiration of such
period the court grants a preliminary
injunction prohibiting the applicant from
engaging in the commercial manufacture
or sale of the drug until the court decides
the issues of patent validity and
infringement and if the court decides that
such patent is invalid or not infringed,
the approval shall be made effective as
provided in clause (i); or
(iv) if before the expiration of such
period the court grants a preliminary
injunction prohibiting the applicant from
engaging in the commercial manufacture
or sale of the drug until the court decides
the issues of patent validity and
infringement and if the court decides that
such patent has been infringed, the

App-409
approval shall be made effective as
provided in clause (ii).
In such an action, each of the parties
shall reasonably cooperate in expediting
the action.
(D) Civil action to obtain patent
certainty
(i) Declaratory judgment absent
infringement action
(I) In general
No action may be brought
under section 2201 of Title 28 by an
applicant referred to in subsection
(b)(2) for a declaratory judgment
with respect to a patent which is the
subject of the certification referred
to in subparagraph (C) unless-(aa) the
45-day
period
referred
to
in
such
subparagraph has expired;
(bb) neither the owner of
such patent nor the holder of the
approved application under
subsection (b) for the drug that
is claimed by the patent or a use
of which is claimed by the patent
brought a civil action against
the applicant for infringement of
the patent before the expiration
of such period; and
the

(cc) in any case in which
notice provided under

App-410
paragraph (2)(B) relates to
noninfringement, the notice was
accompanied by a document
described in subclause (III).
(II) Filing of civil action
If the conditions described in
items (aa), (bb), and as applicable,
(cc) of subclause (I) have been met,
the applicant referred to in such
subclause may, in accordance
with section 2201 of Title 28, bring a
civil action under such section
against the owner or holder referred
to in such subclause (but not against
any owner or holder that has
brought such a civil action against
the applicant, unless that civil
action was dismissed without
prejudice)
for
a
declaratory
judgment that the patent is invalid
or will not be infringed by the drug
for which the applicant seeks
approval, except that such civil
action may be brought for a
declaratory judgment that the
patent will not be infringed only in a
case in which the condition
described in subclause (I)(cc) is
applicable. A civil action referred to
in this subclause shall be brought in
the judicial district where the
defendant has its principal place of

App-411
business
or
a
regular
established place of business.

and

(III) Offer of confidential
access to application
For purposes of subclause
(I)(cc), the document described in
this subclause is a document
providing an offer of confidential
access to the application that is in
the custody of the applicant referred
to in subsection (b)(2) for the
purpose of determining whether an
action referred to in subparagraph
(C) should be brought. The
document providing the offer of
confidential access shall contain
such restrictions as to persons
entitled to access, and on the use
and disposition of any information
accessed, as would apply had a
protective order been entered for the
purpose of protecting trade secrets
and other confidential business
information. A request for access to
an application under an offer of
confidential
access
shall
be
considered acceptance of the offer of
confidential
access
with
the
restrictions as to persons entitled to
access, and on the use and
disposition of any information
accessed, contained in the offer of
confidential access, and those

App-412
restrictions and other terms of the
offer of confidential access shall be
considered terms of an enforceable
contract. Any person provided an
offer of confidential access shall
review the application for the sole
and limited purpose of evaluating
possible infringement of the patent
that is the subject of the certification
under subsection (b)(2)(A)(iv) and
for no other purpose, and may not
disclose information of no relevance
to any issue of patent infringement
to any person other than a person
provided an offer of confidential
access. Further, the application may
be redacted by the applicant to
remove any information of no
relevance to any issue of patent
infringement.
(ii) Counterclaim
infringement action

to

(I) In general
If an owner of the patent or the
holder of the approved application
under subsection (b) for the drug
that is claimed by the patent or a use
of which is claimed by the patent
brings a patent infringement action
against the applicant, the applicant
may assert a counterclaim seeking
an order requiring the holder to
correct or delete the patent

App-413
information submitted by the holder
under subsection (b) or this
subsection on the ground that the
patent does not claim either-(aa) the drug for which the
application was approved; or
(bb) an approved method of
using the drug.
(II) No independent cause of
action
Subclause (I) does not authorize
the assertion of a claim described in
subclause (I) in any civil action or
proceeding
other
than
a
counterclaim described in subclause
(I).
(iii) No damages
An applicant shall not be entitled to
damages in a civil action under clause (i)
or a counterclaim under clause (ii).
(E)
(i) Repealed. Pub.L.
117-9, §
1(b)(1)(A), Apr. 23, 2019, 135 Stat. 258
(ii) If an application submitted
under subsection (b) for a drug, no active
moiety (as defined by the Secretary
in section 314.3 of title 21, Code of
Federal Regulations (or any successor
regulations)) of which has been approved
in any other application under subsection
(b), is approved after September 24, 1984,

App-414
no application which refers to the drug
for which the subsection (b) application
was submitted and for which the
investigations described in subsection
(b)(1)(A)(i) and relied upon by the
applicant for approval of the application
were not conducted by or for the
applicant and for which the applicant has
not obtained a right of reference or use
from the person by or for whom the
investigations were conducted may be
submitted under subsection (b) before the
expiration of five years from the date of
the approval of the application under
subsection (b), except that such an
application may be submitted under
subsection (b) after the expiration of four
years from the date of the approval of the
subsection (b) application if it contains a
certification of patent invalidity or
noninfringement described in clause (iv)
of subsection (b)(2)(A). The approval of
such an application shall be made
effective in accordance with this
paragraph except that, if an action for
patent infringement is commenced
during the one-year period beginning
forty-eight months after the date of the
approval
of
the
subsection
(b)
application, the thirty-month period
referred to in subparagraph (C) shall be
extended by such amount of time (if any)
which is required for seven and one-half
years to have elapsed from the date of

App-415
approval
of
application.

the

subsection

(b)

(iii) If an application submitted
under subsection (b) for a drug, which
includes an active moiety (as defined by
the Secretary in section 314.3 of title 21,
Code of Federal Regulations (or any
successor regulations)) that has been
approved
in
another
application
approved under subsection (b), is
approved after September 24, 1984, and
if such application contains reports of
new clinical investigations (other than
bioavailability studies) essential to the
approval of the application and
conducted or sponsored by the applicant,
the Secretary may not make the approval
of an application submitted under
subsection (b) for the conditions of
approval of such drug in the approved
subsection (b) application effective before
the expiration of three years from the
date of the approval of the application
under subsection (b) if the investigations
described in subsection (b)(1)(A)(i) and
relied upon by the applicant for approval
of the application were not conducted by
or for the applicant and if the applicant
has not obtained a right of reference or
use from the person by or for whom the
investigations were conducted.
(iv) If
a
supplement
to
an
application approved under subsection

App-416
(b) is approved after September 24, 1984,
and the supplement contains reports of
new clinical investigations (other than
bioavailabilty1 studies) essential to the
approval of the supplement and
conducted or sponsored by the person
submitting
the
supplement,
the
Secretary may not make the approval of
an
application
submitted
under
subsection (b) for a change approved in
the supplement effective before the
expiration of three years from the date of
the approval of the supplement under
subsection (b) if the investigations
described in subsection (b)(1)(A)(i) and
relied upon by the applicant for approval
of the application were not conducted by
or for the applicant and if the applicant
has not obtained a right of reference or
use from the person by or for whom the
investigations were conducted.
(v) If an application (or supplement
to an application) submitted under
subsection (b) for a drug, which includes
an active moiety (as defined by the
Secretary in section 314.3 of title 21,
Code of Federal Regulations (or any
successor regulations)) that has been
approved in another application under
subsection (b), was approved during the
period beginning January 1, 1982, and
ending on September 24, 1984, the
Secretary may not make the approval of
an application submitted under this

App-417
subsection
and
for
which
the
investigations described in subsection
(b)(1)(A)(i) and relied upon by the
applicant for approval of the application
were not conducted by or for the
applicant and for which the applicant has
not obtained a right of reference or use
from the person by or for whom the
investigations were conducted and which
refers to the drug for which the
subsection (b) application was submitted
effective before the expiration of two
years from September 24, 1984.
(4) A drug manufactured in a pilot or other
small facility may be used to demonstrate the
safety and effectiveness of the drug and to obtain
approval for the drug prior to manufacture of the
drug in a larger facility, unless the Secretary
makes a determination that a full scale
production facility is necessary to ensure the
safety or effectiveness of the drug.
(5)
(A) The Secretary may rely upon
qualified data summaries to support the
approval of a supplemental application, with
respect to a qualified indication for a drug,
submitted under subsection (b), if such
supplemental application complies with
subparagraph (B).
(B) A supplemental application
eligible for review as described
subparagraph (A) only if--

is
in

App-418
(i) there is existing data available
and acceptable to the Secretary
demonstrating the safety of the drug; and
(ii) all data used to develop the
qualified data summaries are submitted
to the Secretary as part of the
supplemental application.
(C) The Secretary shall post on the
Internet website of the Food and Drug
Administration and update annually-(i) the number of applications
reviewed solely under subparagraph (A)
or section 262(a)(2)(E) of Title 42;
(ii) the average time for completion
of review under subparagraph (A) or
section 262(a)(2)(E) of Title 42;
(iii) the average time for review of
supplemental applications where the
Secretary did not use review flexibility
under subparagraph (A) or section
262(a)(2)(E) of Title 42; and
(iv) the number of applications
reviewed under subparagraph (A) or
section 262(a)(2)(E) of Title 42 for which
the Secretary made use of full data sets
in addition to the qualified data
summary.
(D) In this paragraph-(i) the term “qualified indication”
means an indication for a drug that the
Secretary determines to be appropriate

App-419
for summary level review under this
paragraph; and
(ii) the
term
“qualified
data
summary” means a summary of clinical
data that demonstrates the safety and
effectiveness of a drug with respect to a
qualified indication.
(d) Grounds
for
refusing
application;
approval of application; “substantial evidence”
defined
If the Secretary finds, after due notice to the
applicant in accordance with subsection (c) and giving
him an opportunity for a hearing, in accordance with
said subsection, that (1) the investigations, reports of
which are required to be submitted to the Secretary
pursuant to subsection (b), do not include adequate
tests by all methods reasonably applicable to show
whether or not such drug is safe for use under the
conditions prescribed, recommended, or suggested in
the proposed labeling thereof; (2) the results of such
tests show that such drug is unsafe for use under such
conditions or do not show that such drug is safe for use
under such conditions; (3) the methods used in, and
the facilities and controls used for, the manufacture,
processing, and packing of such drug are inadequate
to preserve its identity, strength, quality, and purity;
(4) upon the basis of the information submitted to him
as part of the application, or upon the basis of any
other information before him with respect to such
drug, he has insufficient information to determine
whether such drug is safe for use under such
conditions; or (5) evaluated on the basis of the
information submitted to him as part of the

App-420
application and any other information before him with
respect to such drug, there is a lack of substantial
evidence that the drug will have the effect it purports
or is represented to have under the conditions of use
prescribed, recommended, or suggested in the
proposed labeling thereof; or (6) the application failed
to contain the patent information prescribed by
subsection (b); or (7) based on a fair evaluation of all
material facts, such labeling is false or misleading in
any particular; he shall issue an order refusing to
approve the application. If, after such notice and
opportunity for hearing, the Secretary finds that
clauses (1) through (6) do not apply, he shall issue an
order approving the application. As used in this
subsection and subsection (e), the term “substantial
evidence” means evidence consisting of adequate and
well-controlled investigations, including clinical
investigations, by experts qualified by scientific
training and experience to evaluate the effectiveness
of the drug involved, on the basis of which it could
fairly and responsibly be concluded by such experts
that the drug will have the effect it purports or is
represented to have under the conditions of use
prescribed, recommended, or suggested in the labeling
or proposed labeling thereof. If the Secretary
determines, based on relevant science, that data from
one adequate and well-controlled clinical investigation
and confirmatory evidence (obtained prior to or after
such investigation) are sufficient to establish
effectiveness, the Secretary may consider such data
and evidence to constitute substantial evidence for
purposes of the preceding sentence. The Secretary
shall implement a structured risk-benefit assessment
framework in the new drug approval process to

App-421
facilitate the balanced consideration of benefits and
risks, a consistent and systematic approach to the
discussion and regulatory decisionmaking, and the
communication of the benefits and risks of new drugs.
Nothing in the preceding sentence shall alter the
criteria for evaluating an application for marketing
approval of a drug.
(e) Withdrawal
of
approval;
grounds;
immediate suspension upon finding imminent
hazard to public health
The Secretary shall, after due notice and
opportunity for hearing to the applicant, withdraw
approval of an application with respect to any drug
under this section if the Secretary finds (1) that
clinical or other experience, tests, or other scientific
data show that such drug is unsafe for use under the
conditions of use upon the basis of which the
application was approved; (2) that new evidence of
clinical experience, not contained in such application
or not available to the Secretary until after such
application was approved, or tests by new methods, or
tests by methods not deemed reasonably applicable
when such application was approved, evaluated
together with the evidence available to the Secretary
when the application was approved, shows that such
drug is not shown to be safe for use under the
conditions of use upon the basis of which the
application was approved; or (3) on the basis of new
information before him with respect to such drug,
evaluated together with the evidence available to him
when the application was approved, that there is a
lack of substantial evidence that the drug will have
the effect it purports or is represented to have under

App-422
the conditions of use prescribed, recommended, or
suggested in the labeling thereof; or (4) the patent
information prescribed by subsection (c) was not filed
within thirty days after the receipt of written notice
from the Secretary specifying the failure to file such
information; or (5) that the application contains any
untrue statement of a material fact: Provided, That if
the Secretary (or in his absence the officer acting as
Secretary) finds that there is an imminent hazard to
the public health, he may suspend the approval of
such application immediately, and give the applicant
prompt notice of his action and afford the applicant
the opportunity for an expedited hearing under this
subsection; but the authority conferred by this proviso
to suspend the approval of an application shall not be
delegated. The Secretary may also, after due notice
and opportunity for hearing to the applicant,
withdraw the approval of an application submitted
under subsection (b) or (j) with respect to any drug
under this section if the Secretary finds (1) that the
applicant has failed to establish a system for
maintaining required records, or has repeatedly or
deliberately failed to maintain such records or to make
required reports, in accordance with a regulation or
order under subsection (k) or to comply with the notice
requirements of section 360(k)(2) of this title, or the
applicant has refused to permit access to, or copying
or verification of, such records as required by
paragraph (2) of such subsection; or (2) that on the
basis of new information before him, evaluated
together with the evidence before him when the
application was approved, the methods used in, or the
facilities and controls used for, the manufacture,
processing, and packing of such drug are inadequate

App-423
to assure and preserve its identity, strength, quality,
and purity and were not made adequate within a
reasonable time after receipt of written notice from the
Secretary specifying the matter complained of; or (3)
that on the basis of new information before him,
evaluated together with the evidence before him when
the application was approved, the labeling of such
drug, based on a fair evaluation of all material facts,
is false or misleading in any particular and was not
corrected within a reasonable time after receipt of
written notice from the Secretary specifying the
matter complained of. Any order under this subsection
shall state the findings upon which it is based. The
Secretary may withdraw the approval of an
application submitted under this section, or suspend
the approval of such an application, as provided under
this subsection, without first ordering the applicant to
submit an assessment of the approved risk evaluation
and mitigation strategy for the drug under section
355-1(g)(2)(D) of this title.
(f) Revocation
withdrawing or
application

of
order
refusing,
suspending approval of

Whenever the Secretary finds that the facts so
require, he shall revoke any previous order under
subsection (d) or (e) refusing, withdrawing, or
suspending approval of an application and shall
approve such application or reinstate such approval,
as may be appropriate.
(g) Service of orders
Orders of the Secretary issued under this section
shall be served (1) in person by any officer or employee
of the department designated by the Secretary or (2)

App-424
by mailing the order by registered mail or by certified
mail addressed to the applicant or respondent at his
last-known address in the records of the Secretary.
(h) Appeal from order
An appeal may be taken by the applicant from an
order of the Secretary refusing or withdrawing
approval of an application under this section. Such
appeal shall be taken by filing in the United States
court of appeals for the circuit wherein such applicant
resides or has his principal place of business, or in the
United States Court of Appeals for the District of
Columbia Circuit, within sixty days after the entry of
such order, a written petition praying that the order
of the Secretary be set aside. A copy of such petition
shall be forthwith transmitted by the clerk of the court
to the Secretary, or any officer designated by him for
that purpose, and thereupon the Secretary shall
certify and file in the court the record upon which the
order complained of was entered, as provided
in section 2112 of Title 28. Upon the filing of such
petition such court shall have exclusive jurisdiction to
affirm or set aside such order, except that until the
filing of the record the Secretary may modify or set
aside his order. No objection to the order of the
Secretary shall be considered by the court unless such
objection shall have been urged before the Secretary
or unless there were reasonable grounds for failure so
to do. The finding of the Secretary as to the facts, if
supported by substantial evidence, shall be
conclusive. If any person shall apply to the court for
leave to adduce additional evidence, and shall show to
the satisfaction of the court that such additional
evidence is material and that there were reasonable

App-425
grounds for failure to adduce such evidence in the
proceeding before the Secretary, the court may order
such additional evidence to be taken before the
Secretary and to be adduced upon the hearing in such
manner and upon such terms and conditions as to the
court may seem proper. The Secretary may modify his
findings as to the facts by reason of the additional
evidence so taken, and he shall file with the court such
modified findings which, if supported by substantial
evidence,
shall
be
conclusive,
and
his
recommendation, if any, for the setting aside of the
original order. The judgment of the court affirming or
setting aside any such order of the Secretary shall be
final, subject to review by the Supreme Court of the
United States upon certiorari or certification as
provided in section 1254 of Title 28. The
commencement of proceedings under this subsection
shall not, unless specifically ordered by the court to
the contrary, operate as a stay of the Secretary's order.
(i) Exemptions of drugs for research;
discretionary and mandatory conditions; direct
reports to Secretary
(1) The
Secretary
shall
promulgate
regulations for exempting from the operation of
the foregoing subsections of this section drugs
intended solely for investigational use by experts
qualified by scientific training and experience to
investigate the safety and effectiveness of drugs.
Such regulations may, within the discretion of the
Secretary, among other conditions relating to the
protection of the public health, provide for
conditioning such exemption upon--

App-426
(A) the submission to the Secretary,
before any clinical testing of a new drug is
undertaken, of reports, by the manufacturer
or the sponsor of the investigation of such
drug, of preclinical tests (including tests on
animals) of such drug adequate to justify the
proposed clinical testing;
(B) the manufacturer or the sponsor of
the investigation of a new drug proposed to be
distributed to investigators for clinical testing
obtaining a signed agreement from each of
such investigators that patients to whom the
drug is administered will be under his
personal
supervision,
or
under
the
supervision of investigators responsible to
him, and that he will not supply such drug to
any other investigator, or to clinics, for
administration to human beings;
(C) the establishment and maintenance
of such records, and the making of such
reports to the Secretary, by the manufacturer
or the sponsor of the investigation of such
drug, of data (including but not limited to
analytical reports by investigators) obtained
as the result of such investigational use of
such drug, as the Secretary finds will enable
him to evaluate the safety and effectiveness
of such drug in the event of the filing of an
application pursuant to subsection (b); and
(D) the submission to the Secretary by
the manufacturer or the sponsor of the
investigation of a new drug of a statement of
intent regarding whether the manufacturer

App-427
or sponsor has plans for assessing pediatric
safety and efficacy.
(2) Subject to paragraph (3), a clinical
investigation of a new drug may begin 30 days
after the Secretary has received from the
manufacturer or sponsor of the investigation a
submission containing such information about the
drug and the clinical investigation, including-(A) information on design of the
investigation and adequate reports of basic
information, certified by the applicant to be
accurate reports, necessary to assess the
safety of the drug for use in clinical
investigation; and
(B) adequate
information
on
the
chemistry and manufacturing of the drug,
controls available for the drug, and primary
data tabulations from animal or human
studies.
(3)
(A) At any time, the Secretary may
prohibit the sponsor of an investigation from
conducting the investigation (referred to in
this paragraph as a “clinical hold”) if the
Secretary makes a determination described
in subparagraph (B). The Secretary shall
specify the basis for the clinical hold,
including the specific information available to
the Secretary which served as the basis for
such clinical hold, and confirm such
determination in writing.

App-428
(B) For purposes of subparagraph (A), a
determination
described
in
this
subparagraph with respect to a clinical hold
is that-(i) the drug involved represents an
unreasonable risk to the safety of the
persons who are the subjects of the
clinical investigation, taking into account
the qualifications of the clinical
investigators, information about the
drug, the design of the clinical
investigation, the condition for which the
drug is to be investigated, and the health
status of the subjects involved; or
(ii) the clinical hold should be issued
for such other reasons as the Secretary
may by regulation establish (including
reasons established by regulation before
November 21, 1997).
(C) Any written request to the Secretary
from the sponsor of an investigation that a
clinical hold be removed shall receive a
decision, in writing and specifying the
reasons therefor, within 30 days after receipt
of such request. Any such request shall
include sufficient information to support the
removal of such clinical hold.
(4) Regulations under paragraph (1) shall
provide that such exemption shall be conditioned
upon the manufacturer, or the sponsor of the
investigation, requiring that experts using such
drugs for investigational purposes certify to such
manufacturer or sponsor that they will inform any

App-429
human beings to whom such drugs, or any
controls used in connection therewith, are being
administered, or their representatives, that such
drugs are being used for investigational purposes
and will obtain the consent of such human beings
or their representatives, except where it is not
feasible, it is contrary to the best interests of such
human beings, or the proposed clinical testing
poses no more than minimal risk to such human
beings and includes appropriate safeguards as
prescribed to protect the rights, safety, and
welfare of such human beings. Nothing in this
subsection shall be construed to require any
clinical investigator to submit directly to the
Secretary reports on the investigational use of
drugs. The Secretary shall update such
regulations to require inclusion in the informed
consent documents and process a statement that
clinical trial information for such clinical
investigation has been or will be submitted for
inclusion in the registry data bank pursuant
to subsection (j) of section 282 of Title 42.
(j) Abbreviated new drug applications
(1) Any person may file with the Secretary an
abbreviated application for the approval of a new
drug.
(2)
(A) An abbreviated application for a new
drug shall contain-(i) information to show that the
conditions
of
use
prescribed,
recommended, or suggested in the
labeling proposed for the new drug have

App-430
been previously approved for a drug
listed under paragraph (7) (hereinafter in
this subsection referred to as a “listed
drug”);
(ii)
(I) if the listed drug referred to
in clause (i) has only one active
ingredient, information to show that
the active ingredient of the new drug
is the same as that of the listed drug;
(II) if the listed drug referred to
in clause (i) has more than one
active ingredient, information to
show that the active ingredients of
the new drug are the same as those
of the listed drug, or
(III) if the listed drug referred
to in clause (i) has more than one
active ingredient and if one of the
active ingredients of the new drug is
different and the application is filed
pursuant to the approval of a
petition filed under subparagraph
(C), information to show that the
other active ingredients of the new
drug are the same as the active
ingredients of the listed drug,
information to show that the
different active ingredient is an
active ingredient of a listed drug or
of a drug which does not meet the
requirements of section 321(p) of
this
title,
and
such
other

App-431
information respecting the different
active ingredient with respect to
which the petition was filed as the
Secretary may require;
(iii) information to show that the
route of administration, the dosage form,
and the strength of the new drug are the
same as those of the listed drug referred
to in clause (i) or, if the route of
administration, the dosage form, or the
strength of the new drug is different and
the application is filed pursuant to the
approval of a petition filed under
subparagraph (C), such information
respecting the route of administration,
dosage form, or strength with respect to
which the petition was filed as the
Secretary may require;
(iv) information to show that the
new drug is bioequivalent to the listed
drug referred to in clause (i), except that
if the application is filed pursuant to the
approval of a petition filed under
subparagraph (C), information to show
that the active ingredients of the new
drug are of the same pharmacological or
therapeutic class as those of the listed
drug referred to in clause (i) and the new
drug can be expected to have the same
therapeutic effect as the listed drug when
administered to patients for a condition
of use referred to in clause (i);

App-432
(v) information to show that the
labeling proposed for the new drug is the
same as the labeling approved for the
listed drug referred to in clause (i) except
for changes required because of
differences approved under a petition
filed under subparagraph (C) or because
the new drug and the listed drug are
produced or distributed by different
manufacturers;
(vi) the items specified in clauses (ii)
through (vi) of subsection (b)(1)(A);
(vii) a certification, in the opinion of
the applicant and to the best of his
knowledge, with respect to each patent
which claims the listed drug referred to
in clause (i) or which claims a use for such
listed drug for which the applicant is
seeking approval under this subsection
and for which information is required to
be filed under subsection (b) or (c)-(I) that such patent information
has not been filed,
(II) that
expired,

such

patent

has

(III) of the date on which such
patent will expire, or
(IV) that such patent is invalid
or will not be infringed by the
manufacture, use, or sale of the new
drug for which the application is
submitted; and

App-433
(viii) if with respect to the listed
drug referred to in clause (i) information
was filed under subsection (b) or (c) for a
method of use patent which does not
claim a use for which the applicant is
seeking approval under this subsection, a
statement that the method of use patent
does not claim such a use.
The Secretary may not require that
an abbreviated application contain
information in addition to that required
by clauses (i) through (viii).
(B) Notice of opinion that patent is
invalid or will not be infringed
(i) Agreement to give notice
An applicant that makes a
certification described in subparagraph
(A)(vii)(IV) shall include in the
application a statement that the
applicant will give notice as required by
this subparagraph.
(ii) Timing of notice
An applicant that makes a
certification described in subparagraph
(A)(vii)(IV) shall give notice as required
under this subparagraph-(I) if the certification is in the
application, not later than 20 days
after the date of the postmark on the
notice with which the Secretary
informs the applicant that the
application has been filed; or

App-434
(II) if the certification is in an
amendment or supplement to the
application, at the time at which the
applicant submits the amendment
or supplement, regardless of
whether the applicant has already
given notice with respect to another
such certification contained in the
application or in an amendment or
supplement to the application.
(iii) Recipients of notice
An applicant required under this
subparagraph to give notice shall give
notice to-(I) each owner of the patent
that is the subject of the certification
(or a representative of the owner
designated to receive such a notice);
and
(II) the holder of the approved
application under subsection (b) for
the drug that is claimed by the
patent or a use of which is claimed
by the patent (or a representative of
the holder designated to receive
such a notice).
(iv) Contents of notice
A notice required
subparagraph shall--

under

this

(I) state that an application
that
contains
data
from
bioavailability or bioequivalence

App-435
studies has been submitted under
this subsection for the drug with
respect to which the certification is
made to obtain approval to engage
in the commercial manufacture, use,
or sale of the drug before the
expiration of the patent referred to
in the certification; and
(II) include
a
detailed
statement of the factual and legal
basis of the opinion of the applicant
that the patent is invalid or will not
be infringed.
(C) If a person wants to submit an
abbreviated application for a new drug which
has a different active ingredient or whose
route of administration, dosage form, or
strength differ from that of a listed drug, such
person shall submit a petition to the
Secretary seeking permission to file such an
application. The Secretary shall approve or
disapprove a petition submitted under this
subparagraph within ninety days of the date
the petition is submitted. The Secretary shall
approve such a petition unless the Secretary
finds-(i) that investigations must be
conducted to show the safety and
effectiveness of the drug or of any of its
active ingredients, the route of
administration, the dosage form, or
strength which differ from the listed
drug; or

App-436
(ii) that any drug with a different
active ingredient may not be adequately
evaluated for approval as safe and
effective on the basis of the information
required to be submitted in an
abbreviated application.
(D)
(i) An applicant may not amend or
supplement an application to seek
approval of a drug referring to a different
listed drug from the listed drug identified
in the application as submitted to the
Secretary.
(ii) With respect to the drug for
which an application is submitted,
nothing in this subsection prohibits an
applicant
from
amending
or
supplementing the application to seek
approval of a different strength.
(iii) Within 60 days after December
8, 2003, the Secretary shall issue
guidance defining the term “listed drug”
for purposes of this subparagraph.
(3)
(A) The Secretary shall issue guidance
for the individuals who review applications
submitted under paragraph (1), which shall
relate to promptness in conducting the
review, technical excellence, lack of bias and
conflict of interest, and knowledge of
regulatory and scientific standards, and

App-437
which shall apply equally to all individuals
who review such applications.
(B) The Secretary shall meet with a
sponsor of an investigation or an applicant for
approval for a drug under this subsection if
the sponsor or applicant makes a reasonable
written request for a meeting for the purpose
of reaching agreement on the design and size
of bioavailability and bioequivalence studies
needed for approval of such application. The
sponsor
or
applicant
shall
provide
information necessary for discussion and
agreement on the design and size of such
studies. Minutes of any such meeting shall be
prepared by the Secretary and made
available to the sponsor or applicant.
(C) Any agreement regarding the
parameters of design and size of
bioavailability and bioequivalence studies of
a drug under this paragraph that is reached
between the Secretary and a sponsor or
applicant shall be reduced to writing and
made part of the administrative record by the
Secretary. Such agreement shall not be
changed after the testing begins, except-(i) with the written agreement of the
sponsor or applicant; or
(ii) pursuant to a decision, made in
accordance with subparagraph (D) by the
director of the reviewing division, that a
substantial scientific issue essential to
determining the safety or effectiveness of

App-438
the drug has been identified after the
testing has begun.
(D) A decision under subparagraph
(C)(ii) by the director shall be in writing and
the Secretary shall provide to the sponsor or
applicant an opportunity for a meeting at
which the director and the sponsor or
applicant will be present and at which the
director will document the scientific issue
involved.
(E) The written decisions of the
reviewing division shall be binding upon, and
may not directly or indirectly be changed by,
the field or compliance office personnel unless
such field or compliance office personnel
demonstrate to the reviewing division why
such decision should be modified.
(F) No action by the reviewing division
may be delayed because of the unavailability
of information from or action by field
personnel unless the reviewing division
determines that a delay is necessary to assure
the marketing of a safe and effective drug.
(G) For purposes of this paragraph, the
reviewing division is the division responsible
for the review of an application for approval
of a drug under this subsection (including
scientific matters, chemistry, manufacturing,
and controls).
(4) Subject to paragraph (5), the Secretary
shall approve an application for a drug unless the
Secretary finds--

App-439
(A) the methods used in, or the facilities
and controls used for, the manufacture,
processing, and packing of the drug are
inadequate to assure and preserve its
identity, strength, quality, and purity;
(B) information submitted with the
application is insufficient to show that each of
the proposed conditions of use have been
previously approved for the listed drug
referred to in the application;
(C)
(i) if the listed drug has only one
active ingredient, information submitted
with the application is insufficient to
show that the active ingredient is the
same as that of the listed drug;
(ii) if the listed drug has more than
one active ingredient, information
submitted with the application is
insufficient to show that the active
ingredients are the same as the active
ingredients of the listed drug, or
(iii) if the listed drug has more than
one active ingredient and if the
application is for a drug which has an
active ingredient different from the listed
drug, information submitted with the
application is insufficient to show-(I) that
the
other
active
ingredients are the same as the
active ingredients of the listed drug,
or

App-440
(II) that the different active
ingredient is an active ingredient of
a listed drug or a drug which does
not meet the requirements of section
321(p) of this title,
or no petition to file an
application for the drug with the
different ingredient was approved
under paragraph (2)(C);
(D)
(i) if the application is for a drug
whose route of administration, dosage
form, or strength of the drug is the same
as the route of administration, dosage
form, or strength of the listed drug
referred
to
in
the
application,
information submitted in the application
is insufficient to show that the route of
administration, dosage form, or strength
is the same as that of the listed drug, or
(ii) if the application is for a drug
whose route of administration, dosage
form, or strength of the drug is different
from that of the listed drug referred to in
the application, no petition to file an
application for the drug with the
different route of administration, dosage
form, or strength was approved under
paragraph (2)(C);
(E) if the application was filed pursuant
to the approval of a petition under paragraph
(2)(C), the application did not contain the
information required by the Secretary

App-441
respecting the active ingredient, route of
administration, dosage form, or strength
which is not the same;
(F) information
submitted
in
the
application is insufficient to show that the
drug is bioequivalent to the listed drug
referred to in the application or, if the
application was filed pursuant to a petition
approved
under
paragraph
(2)(C),
information submitted in the application is
insufficient to show that the active
ingredients of the new drug are of the same
pharmacological or therapeutic class as those
of the listed drug referred to in paragraph
(2)(A)(i) and that the new drug can be
expected to have the same therapeutic effect
as the listed drug when administered to
patients for a condition of use referred to in
such paragraph;
(G) information submitted in the
application is insufficient to show that the
labeling proposed for the drug is the same as
the labeling approved for the listed drug
referred to in the application except for
changes required because of differences
approved under a petition filed under
paragraph (2)(C) or because the drug and the
listed drug are produced or distributed by
different manufacturers;
(H) information submitted in the
application or any other information
available to the Secretary shows that (i) the
inactive ingredients of the drug are unsafe for

App-442
use under the conditions prescribed,
recommended, or suggested in the labeling
proposed for the drug, or (ii) the composition
of the drug is unsafe under such conditions
because of the type or quantity of inactive
ingredients included or the manner in which
the inactive ingredients are included;
(I) the approval under subsection (c) of
the listed drug referred to in the application
under this subsection has been withdrawn or
suspended for grounds described in the first
sentence of subsection (e), the Secretary has
published a notice of opportunity for hearing
to withdraw approval of the listed drug under
subsection (c) for grounds described in the
first sentence of subsection (e), the approval
under this subsection of the listed drug
referred to in the application under this
subsection has been withdrawn or suspended
under paragraph (6), or the Secretary has
determined that the listed drug has been
withdrawn from sale for safety or
effectiveness reasons;
(J) the application does not meet any
other requirement of paragraph (2)(A); or
(K) the application contains an untrue
statement of material fact.
(5)
(A) Within one hundred and eighty days
of the initial receipt of an application under
paragraph (2) or within such additional
period as may be agreed upon by the

App-443
Secretary and the applicant, the Secretary
shall approve or disapprove the application.
(B) The approval of an application
submitted under paragraph (2) shall be made
effective on the last applicable date
determined by applying the following to each
certification
made
under
paragraph
(2)(A)(vii):
(i) If the applicant only made a
certification described in subclause (I) or
(II) of paragraph (2)(A)(vii) or in both
such subclauses, the approval may be
made effective immediately.
(ii) If the applicant made a
certification described in subclause (III)
of paragraph (2)(A)(vii), the approval
may be made effective on the date
certified under subclause (III).
(iii) If the applicant made a
certification described in subclause (IV)
of paragraph (2)(A)(vii), the approval
shall be made effective immediately
unless, before the expiration of 45 days
after the date on which the notice
described in paragraph (2)(B) is received,
an action is brought for infringement of
the patent that is the subject of the
certification and for which information
was submitted to the Secretary under
subsection (b)(1) or (c)(2) before the date
on which the application (excluding an
amendment or supplement to the
application), which the Secretary later

App-444
determines to be substantially complete,
was submitted. If such an action is
brought before the expiration of such
days, the approval shall be made
effective upon the expiration of the
thirty-month period beginning on the
date of the receipt of the notice provided
under paragraph (2)(B)(i) or such shorter
or longer period as the court may order
because either party to the action failed
to reasonably cooperate in expediting the
action, except that-(I) if before the expiration of
such period the district court decides
that the patent is invalid or not
infringed (including any substantive
determination that there is no cause
of action for patent infringement or
invalidity), the approval shall be
made effective on-(aa) the date on which the
court enters judgment reflecting
the decision; or
(bb) the
date
of
a
settlement order or consent
decree signed and entered by the
court stating that the patent
that is the subject of the
certification is invalid or not
infringed;
(II) if before the expiration of
such period the district court decides
that the patent has been infringed--

App-445
(aa) if the judgment of the
district court is appealed, the
approval shall be made effective
on-(AA) the date on which
the court of appeals decides
that the patent is invalid or
not infringed (including any
substantive determination
that there is no cause of
action
for
patent
infringement or invalidity);
or
(BB) the date of a
settlement order or consent
decree signed and entered
by the court of appeals
stating that the patent that
is the subject of the
certification is invalid or not
infringed; or
(bb) if the judgment of the
district court is not appealed or
is affirmed, the approval shall
be made effective on the date
specified by the district court in
a court order under section
271(e)(4)(A) of Title 35;
(III) if before the expiration of
such period the court grants a
preliminary injunction prohibiting
the applicant from engaging in the
commercial manufacture or sale of

App-446
the drug until the court decides the
issues of patent validity and
infringement and if the court
decides that such patent is invalid or
not infringed, the approval shall be
made effective as provided in
subclause (I); or
(IV) if before the expiration of
such period the court grants a
preliminary injunction prohibiting
the applicant from engaging in the
commercial manufacture or sale of
the drug until the court decides the
issues of patent validity and
infringement and if the court
decides that such patent has been
infringed, the approval shall be
made effective as provided in
subclause (II).
In such an action, each of the
parties shall reasonably cooperate
in expediting the action.
(iv) 180-day exclusivity period
(I) Effectiveness
application

of

Subject to subparagraph (D), if
the
application
contains
a
certification described in paragraph
(2)(A)(vii)(IV) and is for a drug for
which a first applicant has
submitted an application containing
such a certification, the application
shall be made effective on the date

App-447
that is 180 days after the date of the
first commercial marketing of the
drug (including the commercial
marketing of the listed drug) by any
first applicant.
(II) Definitions
In this paragraph:
(aa) 180-day
period

exclusivity

The
term
“180-day
exclusivity period” means the
180-day period ending on the
day before the date on which an
application submitted by an
applicant other than a first
applicant could become effective
under this clause.
(bb) First applicant
As used in this subsection,
the term “first applicant” means
an applicant that, on the first
day on which a substantially
complete application containing
a certification described in
paragraph
(2)(A)(vii)(IV)
is
submitted for approval of a
drug, submits a substantially
complete
application
that
contains and lawfully maintains
a certification described in
paragraph (2)(A)(vii)(IV) for the
drug.

App-448
(cc) Substantially
complete application
As used in this subsection,
the
term
“substantially
complete application” means an
application
under
this
subsection that on its face is
sufficiently complete to permit a
substantive review and contains
all the information required by
paragraph (2)(A).
(dd) Tentative approval
(AA) In general
The term “tentative
approval”
means
notification to an applicant
by the Secretary that an
application
under
this
subsection
meets
the
requirements of paragraph
(2)(A), but cannot receive
effective approval because
the application does not
meet the requirements of
this subparagraph, there is
a period of exclusivity for
the listed drug under
subparagraph (F) or section
355a of this title, or there is
a
7-year
period
of
exclusivity for the listed
drug under section 360cc of
this title.

App-449
(BB) Limitation
A drug that is granted
tentative approval by the
Secretary
is
not
an
approved drug and shall not
have an effective approval
until the Secretary issues
an approval after any
necessary additional review
of the application.
(v) 180-day exclusivity period for
competitive generic therapies
(I) Effectiveness
application

of

Subject to subparagraph (D)(iv),
if the application is for a drug that is
the same as a competitive generic
therapy for which any first approved
applicant
has
commenced
commercial
marketing,
the
application shall be made effective
on the date that is 180 days after the
date of the first commercial
marketing of the competitive
generic therapy (including the
commercial marketing of the listed
drug) by any first approved
applicant.
(II) Limitation
The exclusivity period under
subclause (I) shall not apply with
respect to a competitive generic

App-450
therapy that has previously received
an
exclusivity
period
under
subclause (I).
(III) Definitions
In
this
clause
subparagraph (D)(iv):

and

(aa) The term “competitive
generic therapy” means a drug-(AA) that is designated
as a competitive generic
therapy
under section
356h of this title; and
(BB) for which there
are no unexpired patents or
exclusivities on the list of
products
described
in
section 355(j)(7)(A) of this
title at the time of
submission.
(bb) The
term
“first
approved applicant” means any
applicant that has submitted an
application that-(AA) is
for
a
competitive generic therapy
that is approved on the first
day
on
which
any
application
for
such
competitive generic therapy
is approved;
(BB) is not eligible for a
180-day exclusivity period

App-451
under clause (iv) for the
drug that is the subject of
the application for the
competitive
generic
therapy; and
(CC) is not for a drug
for which all drug versions
have forfeited eligibility for
a 180-day exclusivity period
under clause (iv) pursuant
to subparagraph (D).
(C) Civil action to obtain patent
certainty
(i) Declaratory judgment absent
infringement action
(I) In general
No action may be brought
under section 2201 of Title 28, by an
applicant under paragraph (2) for a
declaratory judgment with respect
to a patent which is the subject of
the certification referred to in
subparagraph (B)(iii) unless-(aa) the
45-day
period
referred
to
in
such
subparagraph has expired;
(bb) neither the owner of
such patent nor the holder of the
approved application under
subsection (b) for the drug that
is claimed by the patent or a use
of which is claimed by the patent

App-452
brought a civil action against
the applicant for infringement of
the patent before the expiration
of such period; and
(cc) in any case in which
the notice provided under
paragraph (2)(B) relates to
noninfringement, the notice was
accompanied by a document
described in subclause (III).
(II) Filing of civil action
If the conditions described in
items (aa), (bb), and as applicable,
(cc) of subclause (I) have been met,
the applicant referred to in such
subclause may, in accordance
with section 2201 of Title 28, bring a
civil action under such section
against the owner or holder referred
to in such subclause (but not against
any owner or holder that has
brought such a civil action against
the applicant, unless that civil
action was dismissed without
prejudice)
for
a
declaratory
judgment that the patent is invalid
or will not be infringed by the drug
for which the applicant seeks
approval, except that such civil
action may be brought for a
declaratory judgment that the
patent will not be infringed only in a
case in which the condition

App-453
described in subclause (I)(cc) is
applicable. A civil action referred to
in this subclause shall be brought in
the judicial district where the
defendant has its principal place of
business
or
a
regular
and
established place of business.
(III) Offer of confidential
access to application
For purposes of subclause
(I)(cc), the document described in
this subclause is a document
providing an offer of confidential
access to the application that is in
the custody of the applicant under
paragraph (2) for the purpose of
determining whether an action
referred to in subparagraph (B)(iii)
should be brought. The document
providing the offer of confidential
access
shall
contain
such
restrictions as to persons entitled to
access, and on the use and
disposition of any information
accessed, as would apply had a
protective order been entered for the
purpose of protecting trade secrets
and other confidential business
information. A request for access to
an application under an offer of
confidential
access
shall
be
considered acceptance of the offer of
confidential
access
with
the

App-454
restrictions as to persons entitled to
access, and on the use and
disposition of any information
accessed, contained in the offer of
confidential access, and those
restrictions and other terms of the
offer of confidential access shall be
considered terms of an enforceable
contract. Any person provided an
offer of confidential access shall
review the application for the sole
and limited purpose of evaluating
possible infringement of the patent
that is the subject of the certification
under paragraph (2)(A)(vii)(IV) and
for no other purpose, and may not
disclose information of no relevance
to any issue of patent infringement
to any person other than a person
provided an offer of confidential
access. Further, the application may
be redacted by the applicant to
remove any information of no
relevance to any issue of patent
infringement.
(ii) Counterclaim
infringement action

to

(I) In general
If an owner of the patent or the
holder of the approved application
under subsection (b) for the drug
that is claimed by the patent or a use
of which is claimed by the patent

App-455
brings a patent infringement action
against the applicant, the applicant
may assert a counterclaim seeking
an order requiring the holder to
correct or delete the patent
information submitted by the holder
under subsection (b) or (c) on the
ground that the patent does not
claim either-(aa) the drug for which the
application was approved; or
(bb) an approved method of
using the drug.
(II) No independent cause of
action
Subclause (I) does not authorize
the assertion of a claim described in
subclause (I) in any civil action or
proceeding
other
than
a
counterclaim described in subclause
(I).
(iii) No damages
An applicant shall not be entitled to damages in a
civil action under clause (i) or a counterclaim under
clause (ii).
(D) Forfeiture of 180-day exclusivity
period
(i) Definition of forfeiture event
In this subparagraph, the term
“forfeiture event”, with respect to an

App-456
application under this subsection, means
the occurrence of any of the following:
(I) Failure to market
The first applicant fails to
market the drug by the later of-(aa) the earlier of the date
that is-(AA) 75 days after the
date on which the approval
of the application of the first
applicant is made effective
under
subparagraph
(B)(iii); or
(BB) 30 months after
the date of submission of
the application of the first
applicant; or
(bb) with respect to the first
applicant or any other applicant
(which other applicant has received
tentative approval), the date that is
75 days after the date as of which, as
to each of the patents with respect to
which the first applicant submitted
and
lawfully
maintained
a
certification qualifying the first
applicant for the 180-day exclusivity
period under subparagraph (B)(iv),
at least 1 of the following has
occurred:
(AA) In
infringement

an
action

App-457
brought
against
that
applicant with respect to
the patent or in a
declaratory judgment action
brought by that applicant
with respect to the patent, a
court enters a final decision
from which no appeal (other
than a petition to the
Supreme Court for a writ of
certiorari) has been or can
be taken that the patent is
invalid or not infringed.
(BB) In
an
infringement action or a
declaratory judgment action
described in subitem (AA), a
court signs a settlement
order or consent decree that
enters a final judgment that
includes a finding that the
patent is invalid or not
infringed.
(CC) The
patent
information
submitted
under subsection (b) or (c) is
withdrawn by the holder of
the application approved
under subsection (b).
(II) Withdrawal
application

of

The first applicant withdraws
the application or the Secretary

App-458
considers the application to have
been withdrawn as a result of a
determination by the Secretary that
the application does not meet the
requirements for approval under
paragraph (4).
(III) Amendment
certification

of

The first applicant amends or
withdraws the certification for all of
the patents with respect to which
that
applicant
submitted
a
certification
qualifying
the
applicant for the 180-day exclusivity
period.
(IV) Failure
to
tentative approval

obtain

The first applicant fails to
obtain tentative approval of the
application within 30 months after
the date on which the application is
filed, unless the failure is caused by
a change in or a review of the
requirements for approval of the
application imposed after the date
on which the application is filed.
(V) Agreement with another
applicant, the listed drug
application holder, or a patent
owner
an

The first applicant enters into
agreement
with
another

App-459
applicant under this subsection for
the drug, the holder of the
application for the listed drug, or an
owner of the patent that is the
subject of the certification under
paragraph
(2)(A)(vii)(IV),
the
Federal Trade Commission or the
Attorney General files a complaint,
and there is a final decision of the
Federal Trade Commission or the
court with regard to the complaint
from which no appeal (other than a
petition to the Supreme Court for a
writ of certiorari) has been or can be
taken that the agreement has
violated the antitrust laws (as
defined in section 12 of Title 15,
except
that
the
term
includes section 45 of Title 15 to the
extent that that section applies to
unfair methods of competition).
(VI) Expiration
patents

of

all

All of the patents as to which
the
applicant
submitted
a
certification qualifying it for the
180-day exclusivity period have
expired.
(ii) Forfeiture
The 180-day exclusivity period
described in subparagraph (B)(iv) shall
be forfeited by a first applicant if a

App-460
forfeiture event occurs with respect to
that first applicant.
(iii) Subsequent applicant
If all first applicants forfeit the 180day exclusivity period under clause (ii)-(I) approval of any application
containing a certification described
in paragraph (2)(A)(vii)(IV) shall be
made effective in accordance with
subparagraph (B)(iii); and
(II) no applicant shall be
eligible for a 180-day exclusivity
period.
(iv) Special forfeiture rule for
competitive generic therapy
The 180-day exclusivity period
described in subparagraph (B)(v) shall be
forfeited by a first approved applicant if
the applicant fails to market the
competitive generic therapy within 75
days after the date on which the approval
of the first approved applicant's
application for the competitive generic
therapy is made effective.
(E) If the Secretary decides to disapprove
an application, the Secretary shall give the
applicant notice of an opportunity for a
hearing before the Secretary on the question
of whether such application is approvable. If
the applicant elects to accept the opportunity
for hearing by written request within thirty
days after such notice, such hearing shall

App-461
commence not more than ninety days after
the expiration of such thirty days unless the
Secretary and the applicant otherwise agree.
Any such hearing shall thereafter be
conducted on an expedited basis and the
Secretary's order thereon shall be issued
within ninety days after the date fixed by the
Secretary for filing final briefs.
(F)
(i) Repealed. Pub.L.
117-9, §
1(b)(1)(B), Apr. 23, 2021, 135 Stat. 258
(ii) If an application submitted
under subsection (b) for a drug, no active
moiety (as defined by the Secretary
in section 314.3 of title 21, Code of
Federal Regulations (or any successor
regulations)) of which has been approved
in any other application under subsection
(b), is approved after September 24, 1984,
no application may be submitted under
this subsection which refers to the drug
for which the subsection (b) application
was submitted before the expiration of
five years from the date of the approval
of the application under subsection (b),
except that such an application may be
submitted under this subsection after the
expiration of four years from the date of
the approval of the subsection (b)
application if it contains a certification of
patent invalidity or noninfringement
described in subclause (IV) of paragraph
(2)(A)(vii). The approval of such an

App-462
application shall be made effective in
accordance with subparagraph (B) except
that, if an action for patent infringement
is commenced during the one-year period
beginning forty-eight months after the
date of the approval of the subsection (b)
application, the thirty-month period
referred to in subparagraph (B)(iii) shall
be extended by such amount of time (if
any) which is required for seven and onehalf years to have elapsed from the date
of approval of the subsection (b)
application.
(iii) If an application submitted
under subsection (b) for a drug, which
includes an active moiety (as defined by
the Secretary in section 314.3 of title 21,
Code of Federal Regulations (or any
successor regulations)) that has been
approved
in
another
application
approved under subsection (b), is
approved after September 24, 1984, and
if such application contains reports of
new clinical investigations (other than
bioavailability studies) essential to the
approval of the application and
conducted or sponsored by the applicant,
the Secretary may not make the approval
of an application submitted under this
subsection for the conditions of approval
of such drug in the subsection (b)
application
effective
before
the
expiration of three years from the date of

App-463
the approval of the application under
subsection (b) for such drug.
(iv) If
a
supplement
to
an
application approved under subsection
(b) is approved after September 24, 1984,
and the supplement contains reports of
new clinical investigations (other than
bioavailability studies) essential to the
approval of the supplement and
conducted or sponsored by the person
submitting
the
supplement,
the
Secretary may not make the approval of
an application submitted under this
subsection for a change approved in the
supplement
effective
before
the
expiration of three years from the date of
the approval of the supplement under
subsection (b).
(v) If an application (or supplement
to an application) submitted under
subsection (b) for a drug, which includes
an active moiety (as defined by the
Secretary in section 314.3 of title 21,
Code of Federal Regulations (or any
successor regulations)) that has been
approved in another application under
subsection (b), was approved during the
period beginning January 1, 1982, and
ending on September 24, 1984, the
Secretary may not make the approval of
an application submitted under this
subsection which refers to the drug for
which the subsection (b) application was

App-464
submitted or which refers to a change
approved in a supplement to the
subsection (b) application effective before
the expiration of two years from
September 24, 1984.
(6) If a drug approved under this subsection
refers in its approved application to a drug the
approval of which was withdrawn or suspended
for grounds described in the first sentence of
subsection (e) or was withdrawn or suspended
under this paragraph or which, as determined by
the Secretary, has been withdrawn from sale for
safety or effectiveness reasons, the approval of the
drug under this subsection shall be withdrawn or
suspended-(A) for the same period as the
withdrawal or suspension under subsection
(e) or this paragraph, or
(B) if the listed drug has been withdrawn
from sale, for the period of withdrawal from
sale or, if earlier, the period ending on the
date the Secretary determines that the
withdrawal from sale is not for safety or
effectiveness reasons.
(7)
(A)
(i) Within sixty days of September
24, 1984, the Secretary shall publish and
make available to the public-(I) a list in alphabetical order of
the official and proprietary name of
each drug which has been approved

App-465
for safety and effectiveness under
subsection (c) before September 24,
1984;
(II) the date of approval if the
drug is approved after 1981 and the
number of the application which
was approved; and
(III) whether in vitro or in vivo
bioequivalence studies, or both such
studies,
are
required
for
applications
filed
under
this
subsection which will refer to the
drug published.
(ii) Every thirty days after the
publication of the first list under clause
(i) the Secretary shall revise the list to
include each drug which has been
approved for safety and effectiveness
under subsection (c) or approved under
this subsection during the thirty-day
period.
(iii) When
patent
information
submitted
under
subsection
(c)
respecting a drug included on the list is
to be published by the Secretary, the
Secretary shall, in revisions made under
clause (ii), include such information for
such drug.
(iv) For each drug included on the
list, the Secretary shall specify any
exclusivity period that is applicable, for
which the Secretary has determined the

App-466
expiration date, and for which such
period has not yet expired, under-(I) clause (ii), (iii), or (iv) of
subsection (c)(3)(E);
(II) clause (iv)
paragraph (5)(B);

or

(v)

of

(III) clause (ii), (iii), or (iv) of
paragraph (5)(F);
(IV) section 355a of this title;
(V) section 355f of this title;
(VI) section
title; or

360cc(a) of

this

(VII) subsection (u).
(B) A drug approved for safety and
effectiveness under subsection (c) or approved
under this subsection shall, for purposes of
this subsection, be considered to have been
published under subparagraph (A) on the
date of its approval or September 24, 1984,
whichever is later.
(C) If the approval of a drug was
withdrawn or suspended for grounds
described in the first sentence of subsection
(e) or was withdrawn or suspended under
paragraph (6) or if the Secretary determines
that a drug has been withdrawn from sale for
safety or effectiveness reasons, it may not be
published in the list under subparagraph (A)
or, if the withdrawal or suspension occurred
after its publication in such list, it shall be
immediately removed from such list--

App-467
(i) for the same period as the
withdrawal
or
suspension
under
subsection (e) or paragraph (6), or
(ii) if the listed drug has been
withdrawn from sale, for the period of
withdrawal from sale or, if earlier, the
period ending on the date the Secretary
determines that the withdrawal from
sale is not for safety or effectiveness
reasons.
A notice of the removal shall be
published in the Federal Register.
(D) In the case of a listed drug for which
the list under subparagraph (A)(i) includes a
patent for such drug, and any claim of the
patent has been cancelled or invalidated
pursuant to a final decision issued by the
Patent Trial and Appeal Board of the United
States Patent and Trademark Office or by a
court, from which no appeal has been, or can
be, taken, if the holder of the applicable
application approved under subsection (c)
determines that a patent for such drug, or any
patent information for such drug, no longer
meets the listing requirements under this
section-(i) the holder of such approved
application shall notify the Secretary, in
writing, within 14 days of such decision
of such cancellation or invalidation and
request that such patent or patent
information, as applicable, be amended
or withdrawn in accordance with the

App-468
decision issued by the Patent Trial and
Appeal Board or a court;
(ii) the holder of such approved
application shall include in any
notification under clause (i) information
related to such patent cancellation or
invalidation decision and submit such
information, including a copy of such
decision, to the Secretary; and
(iii) the Secretary shall, in response
to a notification under clause (i), amend
or remove patent or patent information
in accordance with the relevant decision
from the Patent Trial and Appeals Board
or court, as applicable, except that the
Secretary shall not remove from the list
any patent or patent information before
the expiration of any 180-day exclusivity
period under paragraph (5)(B)(iv) that
relies on a certification described in
paragraph (2)(A)(vii)(IV).
(8) For purposes of this subsection:
(A)
(i) The term “bioavailability” means
the rate and extent to which the active
ingredient or therapeutic ingredient is
absorbed from a drug and becomes
available at the site of drug action.
(ii) For a drug that is not intended to
be absorbed into the bloodstream, the
Secretary may assess bioavailability by
scientifically
valid
measurements

App-469
intended to reflect the rate and extent to
which
the
active
ingredient
or
therapeutic ingredient becomes available
at the site of drug action.
(B) A drug shall be considered to be
bioequivalent to a listed drug if-(i) the rate and extent of absorption
of the drug do not show a significant
difference from the rate and extent of
absorption of the listed drug when
administered at the same molar dose of
the therapeutic ingredient under similar
experimental conditions in either a single
dose or multiple doses; or
(ii) the extent of absorption of the
drug does not show a significant
difference from the extent of absorption
of the listed drug when administered at
the same molar dose of the therapeutic
ingredient under similar experimental
conditions in either a single dose or
multiple doses and the difference from
the listed drug in the rate of absorption
of the drug is intentional, is reflected in
its proposed labeling, is not essential to
the attainment of effective body drug
concentrations on chronic use, and is
considered medically insignificant for the
drug.
(C) For a drug that is not intended to be
absorbed into the bloodstream, the Secretary
may establish alternative, scientifically valid
methods to show bioequivalence if the

App-470
alternative methods are expected to detect a
significant difference between the drug and
the listed drug in safety and therapeutic
effect.
(9) The Secretary shall, with respect to each
application submitted under this subsection,
maintain a record of-(A) the name of the applicant,
(B) the name of the drug covered by the
application,
(C) the name of each person to whom the
review of the chemistry of the application was
assigned and the date of such assignment,
and
(D) the name of each person to whom the
bioequivalence review for such application
was assigned and the date of such
assignment.
The information the Secretary is
required to maintain under this paragraph
with respect to an application submitted
under this subsection shall be made available
to the public after the approval of such
application.
(10)
(A) If the proposed labeling of a drug that
is the subject of an application under this
subsection differs from the listed drug due to
a labeling revision described under clause (i),
the drug that is the subject of such
application shall, notwithstanding any other
provision of this chapter, be eligible for

App-471
approval and shall not be considered
misbranded under section 352 of this title if-(i) the application is otherwise
eligible for approval under this
subsection but for expiration of patent,
an exclusivity period, or of a delay in
approval
described
in
paragraph
(5)(B)(iii), and a revision to the labeling
of the listed drug has been approved by
the Secretary within 60 days of such
expiration;
(ii) the labeling revision described
under clause (i) does not include a change
to the “Warnings” section of the labeling;
(iii) the sponsor of the application
under this subsection agrees to submit
revised labeling of the drug that is the
subject of such application not later than
60 days after the notification of any
changes to such labeling required by the
Secretary; and
(iv) such
application
otherwise
meets the applicable requirements for
approval under this subsection.
(B) If, after a labeling revision described
in subparagraph (A)(i), the Secretary
determines that the continued presence in
interstate commerce of the labeling of the
listed drug (as in effect before the revision
described in subparagraph (A)(i)) adversely
impacts the safe use of the drug, no
application under this subsection shall be
eligible for approval with such labeling.

App-472
(11)
(A) Subject to subparagraph (B), the
Secretary shall prioritize the review of, and
act within 8 months of the date of the
submission of, an original abbreviated new
drug application submitted for review under
this subsection that is for a drug-(i) for which there are not more than
3 approved drug products listed under
paragraph (7) and for which there are no
blocking patents and exclusivities; or
(ii) that has been included on the list
under section 356e of this title.
(B) To qualify for priority review under
this paragraph, not later than 60 days prior
to the submission of an application described
in subparagraph (A) or that the Secretary
may prioritize pursuant to subparagraph (D),
the applicant shall provide complete,
accurate information regarding facilities
involved in manufacturing processes and
testing of the drug that is the subject of the
application,
including
facilities
in
corresponding Type II active pharmaceutical
ingredients drug master files referenced in an
application and sites or organizations
involved in bioequivalence and clinical
studies used to support the application, to
enable the Secretary to make a determination
regarding whether an inspection of a facility
is necessary. Such information shall include
the relevant (as determined by the Secretary)
sections of such application, which shall be

App-473
unchanged relative to the date of the
submission of such application, except to the
extent that a change is made to such
information to exclude a facility that was not
used to generate data to meet any application
requirements for such submission and that is
not the only facility intended to conduct one
or more unit operations in commercial
production. Information provided by an
applicant under this subparagraph shall not
be considered the submission of an
application under this subsection.
(C) The Secretary may expedite an
inspection or reinspection under section
374 of this title of an establishment that
proposes to manufacture a drug described in
subparagraph (A).
(D) Nothing in this paragraph shall
prevent the Secretary from prioritizing the
review of other applications as the Secretary
determines appropriate.
(12) The Secretary shall publish on the
internet website of the Food and Drug
Administration, and update at least once every 6
months, a list of all drugs approved under
subsection (c) for which all patents and periods of
exclusivity under this chapter have expired and
for which no application has been approved under
this subsection.
(13) Upon the request of an applicant
regarding one or more specified pending
applications under this subsection, the Secretary
shall, as appropriate, provide review status

App-474
updates indicating the categorical status of the
applications by each relevant review discipline.
(k) Records
and
reports;
required
information; regulations and orders; access to
records
(1) In the case of any drug for which an
approval of an application filed under subsection
(b) or (j) is in effect, the applicant shall establish
and maintain such records, and make such
reports to the Secretary, of data relating to
clinical experience and other data or information,
received or otherwise obtained by such applicant
with respect to such drug, as the Secretary may
by general regulation, or by order with respect to
such application, prescribe on the basis of a
finding that such records and reports are
necessary in order to enable the Secretary to
determine, or facilitate a determination, whether
there is or may be ground for invoking subsection
(e). Regulations and orders issued under this
subsection and under subsection (i) shall have due
regard for the professional ethics of the medical
profession and the interests of patients and shall
provide, where the Secretary deems it to be
appropriate, for the examination, upon request,
by the persons to whom such regulations or orders
are applicable, of similar information received or
otherwise obtained by the Secretary.
(2) Every person required under this section
to maintain records, and every person in charge
or custody thereof, shall, upon request of an officer
or employee designated by the Secretary, permit

App-475
such officer or employee at all reasonable times to
have access to and copy and verify such records.
(3) Active postmarket risk identification
(A) Definition
In this paragraph, the term “data” refers
to information with respect to a drug
approved under this section or under section
262 of Title 42, including claims data, patient
survey data, standardized analytic files that
allow for the pooling and analysis of data
from disparate data environments, and any
other data deemed appropriate by the
Secretary.
(B) Development of postmarket risk
identification and analysis methods
The Secretary shall, not later than 2
years after September 27, 2007, in
collaboration with public, academic, and
private entities-(i) develop methods to obtain access
to disparate data sources including the
data sources specified in subparagraph
(C);
(ii) develop validated methods for
the establishment of a postmarket risk
identification and analysis system to link
and analyze safety data from multiple
sources, with the goals of including, in
aggregate-(I) at least 25,000,000 patients
by July 1, 2010; and

App-476
(II) at
least
100,000,000
patients by July 1, 2012; and
(iii) convene a committee of experts,
including individuals who are recognized
in the field of protecting data privacy and
security, to make recommendations to
the Secretary on the development of tools
and methods for the ethical and scientific
uses for, and communication of,
postmarketing data specified under
subparagraph
(C),
including
recommendations on the development of
effective research methods for the study
of drug safety questions.
(C) Establishment of the postmarket
risk identification and analysis system
(i) In general
The Secretary shall, not later than 1
year after the development of the risk
identification and analysis methods
under subparagraph (B), establish and
maintain procedures-(I) for risk identification and
analysis based on electronic health
data, in compliance with the
regulations promulgated under
section 264(c) of the Health
Insurance
Portability
and
Accountability Act of 1996, and in a
manner that does not disclose
individually identifiable health
information
in
violation
of
paragraph (4)(B);

App-477
(II) for the reporting (in a
standardized form) of data on all
serious adverse drug experiences (as
defined in section 355-1(b) of this
title) submitted to the Secretary
under paragraph (1), and those
adverse events submitted by
patients, providers, and drug
sponsors, when appropriate;
(III) to provide for active
adverse event surveillance using the
following data sources, as available:
(aa) Federal health-related
electronic data (such as data
from the Medicare program and
the health systems of the
Department
of
Veterans
Affairs);
(bb) private sector healthrelated electronic data (such as
pharmaceutical purchase data
and health insurance claims
data); and
(cc) other data as the
Secretary deems necessary to
create a robust system to
identify adverse events and
potential drug safety signals;
(IV) to identify certain trends
and patterns with respect to data
accessed by the system;

App-478
(V) to provide regular reports to
the Secretary concerning adverse
event
trends,
adverse
event
patterns, incidence and prevalence
of adverse events, and other
information
the
Secretary
determines appropriate, which may
include data on comparative
national adverse event trends; and
(VI) to enable the program to
export data in a form appropriate for
further aggregation,
statistical
analysis, and reporting.
(ii) Timeliness of reporting
The procedures established under
clause (i) shall ensure that such data are
accessed, analyzed, and reported in a
timely, routine, and systematic manner,
taking into consideration the need for
data completeness, coding, cleansing,
and
standardized
analysis
and
transmission.
(iii) Private sector resources
To ensure the establishment of the
active postmarket risk identification and
analysis system under this subsection
not later than 1 year after the
development of the risk identification
and
analysis
methods
under
subparagraph (B), as required under
clause (i), the Secretary may, on a
temporary
or
permanent
basis,

App-479
implement
systems
or
developed by private entities.

products

(iv) Complementary approaches
To the extent the active postmarket
risk identification and analysis system
under this subsection is not sufficient to
gather data and information relevant to
a priority drug safety question, the
Secretary shall develop, support, and
participate
in
complementary
approaches to gather and analyze such
data and information, including-(I) approaches
that
are
complementary with respect to
assessing the safety of use of a drug
in
domestic
populations
not
included, or underrepresented, in
the trials used to approve the drug
(such as older people, people with
comorbidities, pregnant women, or
children); and
(II) existing approaches such as
the
Vaccine
Adverse
Event
Reporting System and the Vaccine
Safety Datalink or successor
databases.
(v) Authority for contracts
The Secretary may enter into
contracts with public and private entities
to fulfill the requirements of this
subparagraph.

App-480
(4) Advanced analysis of drug safety
data
(A) Purpose
The
Secretary
shall
establish
collaborations with public, academic, and
private entities, which may include the
Centers for Education and Research on
Therapeutics under section 299b-1 of Title 42,
to provide for advanced analysis of drug
safety data described in paragraph (3)(C) and
other information that is publicly available or
is provided by the Secretary, in order to-(i) improve the quality and efficiency
of postmarket drug safety risk-benefit
analysis;
(ii) provide the Secretary with
routine access to outside expertise to
study advanced drug safety questions;
and
(iii) enhance the ability of the
Secretary to make timely assessments
based on drug safety data.
(B) Privacy
Such analysis shall not disclose
individually identifiable health information
when presenting such drug safety signals and
trends or when responding to inquiries
regarding such drug safety signals and
trends.

App-481
(C) Public
questions

process

for

priority

At least biannually, the Secretary shall
seek recommendations from the Drug Safety
and Risk Management Advisory Committee
(or any successor committee) and from other
advisory committees, as appropriate, to the
Food and Drug Administration onand

(i) priority drug safety questions;

(ii) mechanisms for answering such
questions, including through-(I) active risk identification
under paragraph (3); and
(II) when
such
risk
identification is not sufficient,
postapproval studies and clinical
trials under subsection (o)(3).
(D) Procedures for the development
of drug safety collaborations
(i) In general
Not later than 180 days after the
date of the establishment of the active
postmarket risk identification and
analysis system under this subsection,
the Secretary shall establish and
implement procedures under which the
Secretary may routinely contract with
one or more qualified entities to-(I) classify,
aggregate
data

analyze,
described

or
in

App-482
paragraph (3)(C) and information
that is publicly available or is
provided by the Secretary;
(II) allow
for
prompt
investigation of priority drug safety
questions, including-(aa) unresolved
safety
questions for drugs or classes of
drugs; and
(bb) for a newly-approved
drugs,2 safety
signals
from
clinical trials used to approve
the drug and other preapproval
trials; rare, serious drug side
effects; and the safety of use in
domestic
populations
not
included, or underrepresented,
in the trials used to approve the
drug (such as older people,
people
with
comorbidities,
pregnant women, or children);
(III) perform
advanced
research and analysis on identified
drug safety risks;
(IV) focus postapproval studies
and clinical trials under subsection
(o)(3) more effectively on cases for
which reports under paragraph (1)
and other safety signal detection is
not sufficient to resolve whether
there is an elevated risk of a serious
adverse event associated with the
use of a drug; and

App-483
(V) carry out other activities as
the Secretary deems necessary to
carry out the purposes of this
paragraph.
(ii) Request
methodology

for

specific

The procedures described in clause
(i) shall permit the Secretary to request
that a specific methodology be used by
the qualified entity. The qualified entity
shall work with the Secretary to finalize
the methodology to be used.
(E) Use of analyses
The Secretary shall provide the analyses
described in this paragraph, including the
methods and results of such analyses, about
a drug to the sponsor or sponsors of such
drug.
(F) Qualified entities
(i) In general
The Secretary shall enter into
contracts with a sufficient number of
qualified entities to develop and provide
information to the Secretary in a timely
manner.
(ii) Qualification
The Secretary shall enter into a
contract with an entity under clause (i)
only if the Secretary determines that the
entity has a significant presence in the

App-484
United States and has one or more of the
following qualifications:
(I) The research, statistical,
epidemiologic, or clinical capability
and expertise to conduct and
complete the activities under this
paragraph, including the capability
and expertise to provide the
Secretary
de-identified
data
consistent with the requirements of
this subsection.
(II) An information technology
infrastructure in place to support
electronic data and operational
standards to provide security for
such data.
(III) Experience
with,
and
expertise on, the development of
drug safety and effectiveness
research using electronic population
data.
(IV) An understanding of drug
development
or
risk/benefit
balancing in a clinical setting.
(V) Other expertise which the
Secretary deems necessary to fulfill
the activities under this paragraph.
(G) Contract requirements
Each contract with a qualified entity
under subparagraph (F)(i) shall contain the
following requirements:

App-485
(i) Ensuring privacy
The qualified entity shall ensure
that the entity will not use data under
this subsection in a manner that-(I) violates the regulations
promulgated under section 264(c) of
the Health Insurance Portability
and Accountability Act of 1996;
(II) violates sections
552 or 552a of Title 5 with regard to
the
privacy
of
individuallyidentifiable
beneficiary
health
information; or
(III) discloses
individually
identifiable health information
when presenting drug safety signals
and trends or when responding to
inquiries regarding drug safety
signals and trends.
Nothing in this clause prohibits
lawful disclosure for other purposes.
(ii) Component
organization

of

another

If a qualified entity is a component of
another organization-(I) the qualified entity shall
establish
appropriate
security
measures
to
maintain
the
confidentiality and privacy of such
data; and

App-486
(II) the entity shall not make an
unauthorized disclosure of such
data to the other components of the
organization in breach of such
confidentiality
and
privacy
requirement.
(iii) Termination or nonrenewal
If a contract with a qualified entity
under this subparagraph is terminated
or
not
renewed,
the
following
requirements shall apply:
(I) Confidentiality
privacy protections

and

The entity shall continue to
comply with the confidentiality and
privacy requirements under this
paragraph with respect to all data
disclosed to the entity.
(II) Disposition of data
The entity shall return any data
disclosed to such entity under this
subsection to which it would not
otherwise have access or, if
returning
the
data
is
not
practicable, destroy the data.
(H) Competitive procedures
The Secretary shall use competitive
procedures (as defined in section 132 of Title
41) to enter into contracts under
subparagraph (G).

App-487
(I) Review of contract in the event of
a merger or acquisition
The Secretary shall review the contract
with a qualified entity under this paragraph
in the event of a merger or acquisition of the
entity in order to ensure that the
requirements under this paragraph will
continue to be met.
(J) Coordination
In carrying out this paragraph, the
Secretary shall provide for appropriate
communications to the public, scientific,
public health, and medical communities, and
other key stakeholders, and to the extent
practicable shall coordinate with the
activities of private entities, professional
associations, or other entities that may have
sources of drug safety data.
(5) The Secretary shall-(A) conduct regular screenings of the
Adverse Event Reporting System database
and post a quarterly report on the Adverse
Event Reporting System Web site of any new
safety information or potential signal of a
serious risk identified by Adverse3 Event
Reporting System within the last quarter;
and4
(B) on an annual basis, review the entire
backlog of postmarket safety commitments to
determine which commitments require
revision or should be eliminated, report to the
Congress on these determinations, and assign

App-488
start dates and estimated completion dates
for such commitments; and
(C) make available on the Internet
website of the Food and Drug Administration(i) guidelines, developed with input
from experts qualified by scientific
training and experience to evaluate the
safety and effectiveness of drugs, that
detail best practices for drug safety
surveillance using the Adverse Event
Reporting System; and
(ii) criteria for public posting of
adverse event signals.
(l) Public
disclosure
of
safety
effectiveness data and action package

and

(1) Safety and effectiveness data and
information which has been submitted in an
application under subsection (b) for a drug and
which has not previously been disclosed to the
public shall be made available to the public, upon
request, unless extraordinary circumstances are
shown-(A) if no work is being or will be
undertaken to have the application approved,
(B) if the Secretary has determined that
the application is not approvable and all legal
appeals have been exhausted,
(C) if approval of the application under
subsection (c) is withdrawn and all legal
appeals have been exhausted,

App-489
(D) if the Secretary has determined that
such drug is not a new drug, or
(E) upon the effective date of the
approval of the first application under
subsection (j) which refers to such drug or
upon the date upon which the approval of an
application under subsection (j) which refers
to such drug could be made effective if such
an application had been submitted.
(2) Action package for approval
(A) Action package
The Secretary shall publish the action
package for approval of an application
under subsection (b) or section 262 of Title
42 on the Internet Web site of the Food and
Drug Administration-(i) not later than 30 days after the
date of approval of such applications-(I) for a drug, no active moiety
(as defined by the Secretary
in section 314.3 of title 21, Code of
Federal
Regulations (or
any
successor regulations)) of which has
been approved in any other
application under this section; or
(II) for a biological product, no
active ingredient of which has been
approved in any other application
under section 262 of Title 42; and
(ii) not later than 30 days after the
third request for such action package for
approval received under section 552 of

App-490
Title 5 for any other drug or biological
product.
(B) Immediate
summary review

publication

of

Notwithstanding subparagraph (A), the
Secretary shall publish, on the Internet Web
site of the Food and Drug Administration, the
materials described in subparagraph (C)(iv)
not later than 48 hours after the date of
approval of the drug, except where such
materials require redaction by the Secretary.
(C) Contents
An action package for approval of an
application under subparagraph (A) shall be
dated and shall include the following:
(i) Documents generated by the Food
and Drug Administration related to
review of the application.
(ii) Documents pertaining to the
format and content of the application
generated during drug development.
(iii) Labeling
applicant.

submitted

by

the

(iv) A
summary
review
that
documents
conclusions
from
all
reviewing disciplines about the drug,
noting
any
critical
issues
and
disagreements with the applicant and
within the review team and how they
were resolved, recommendations for
action, and an explanation of any
nonconcurrence with review conclusions.

App-491
(v) The Division Director and Office
Director's decision document which
includes-(I) a
brief
statement
of
concurrence with the summary
review;
(II) a separate review or
addendum to the review if
disagreeing with the summary
review; and
(III) a separate review or
addendum to the review to add
further analysis.
(vi) Identification by name of each
officer or employee of the Food and Drug
Administration who-(I) participated in the decision
to approve the application; and
(II) consents to have his or her
name included in the package.
(D) Review
A scientific review of an application is
considered the work of the reviewer and shall
not be altered by management or the
reviewer once final.
(E) Confidential information
This paragraph does not authorize the
disclosure of any trade secret, confidential
commercial or financial information, or other
matter listed in section 552(b) of Title 5.

App-492
(m) “Patent” defined
For purposes of this section, the term “patent”
means a patent issued by the United States Patent
and Trademark Office.
(n) Scientific advisory panels
(1) For the purpose of providing expert
scientific advice and recommendations to the
Secretary regarding a clinical investigation of a
drug or the approval for marketing of a drug
under this section or section 262 of Title 42, the
Secretary shall establish panels of experts or use
panels of experts established before November 21,
1997, or both.
(2) The Secretary may delegate the
appointment and oversight authority granted
under section 394 of this title to a director of a
center or successor entity within the Food and
Drug Administration.
(3) The Secretary shall make appointments
to each panel established under paragraph (1) so
that each panel shall consist of-(A) members who are qualified by
training and experience to evaluate the safety
and effectiveness of the drugs to be referred
to the panel and who, to the extent feasible,
possess skill and experience in the
development, manufacture, or utilization of
such drugs;
(B) members with diverse expertise in
such fields as clinical and administrative
medicine,
pharmacy,
pharmacology,

App-493
pharmacoeconomics, biological and physical
sciences, and other related professions;
(C) a
representative
of consumer
interests, and a representative of interests of
the drug manufacturing industry not directly
affected by the matter to be brought before
the panel; and
(D) two or more members who are
specialists or have other expertise in the
particular disease or condition for which the
drug under review is proposed to be indicated.
Scientific,
trade,
and
consumer
organizations
shall
be
afforded
an
opportunity to nominate individuals for
appointment to the panels. No individual who
is in the regular full-time employ of the
United States and engaged in the
administration of this chapter may be a
voting member of any panel. The Secretary
shall designate one of the members of each
panel to serve as chairman thereof.
(4) The Secretary shall, as appropriate,
provide education and training to each new panel
member before such member participates in a
panel's activities, including education regarding
requirements under this chapter and related
regulations of the Secretary, and the
administrative processes and procedures related
to panel meetings.
(5) Panel members (other than officers or
employees of the United States), while attending
meetings or conferences of a panel or otherwise
engaged in its business, shall be entitled to

App-494
receive compensation for each day so engaged,
including traveltime, at rates to be fixed by the
Secretary, but not to exceed the daily equivalent
of the rate in effect for positions classified above
grade GS-15 of the General Schedule. While
serving away from their homes or regular places
of business, panel members may be allowed travel
expenses (including per diem in lieu of
subsistence) as authorized by section 5703 of Title
5, for persons in the Government service
employed intermittently.
(6) The Secretary shall ensure that scientific
advisory panels meet regularly and at appropriate
intervals so that any matter to be reviewed by
such a panel can be presented to the panel not
more than 60 days after the matter is ready for
such review. Meetings of the panel may be held
using electronic communication to convene the
meetings.
(7) Within 90 days after a scientific advisory
panel makes recommendations on any matter
under its review, the Food and Drug
Administration official responsible for the matter
shall
review
the
conclusions
and
recommendations of the panel, and notify the
affected persons of the final decision on the
matter, or of the reasons that no such decision has
been reached. Each such final decision shall be
documented including the rationale for the
decision.

App-495
(o) Postmarket studies and clinical trials;
labeling
(1) In general
A responsible person may not introduce or
deliver for introduction into interstate commerce
the new drug involved if the person is in violation
of a requirement established under paragraph (3)
or (4) with respect to the drug.
(2) Definitions
For purposes of this subsection:
(A) Responsible person
The term “responsible person” means a
person who-(i) has submitted to the Secretary a
covered application that is pending; or
(ii) is the holder of an approved
covered application.
(B) Covered application
The term “covered application” means-(i) an application under subsection
(b) for a drug that is subject to section
353(b) of this title; and
(ii) an application under section 262
of Title 42.
(C) New safety information; serious
risk
The terms “new safety information”,
“serious risk”, and “signal of a serious risk”
have the meanings given such terms
in section 355-1(b) of this title.

App-496
(3) Studies and clinical trials
(A) In general
For any or all of the purposes specified in
subparagraph (B), the Secretary may, subject
to subparagraph (D), require a responsible
person for a drug to conduct a postapproval
study or studies of the drug, or a postapproval
clinical trial or trials of the drug, on the basis
of scientific data deemed appropriate by the
Secretary, including information regarding
chemically-related or pharmacologicallyrelated drugs.
(B) Purposes of study or clinical trial
The purposes referred to in this
subparagraph with respect to a postapproval
study or postapproval clinical trial are the
following:
(i) To assess a known serious risk
related to the use of the drug involved.
(ii) To assess signals of serious risk
related to the use of the drug.
(iii) To identify an unexpected
serious risk when available data
indicates the potential for a serious risk.
(C) Establishment of requirement
after approval of covered application
The
Secretary
may
require
a
postapproval study or studies or postapproval
clinical trial or trials for a drug for which an
approved covered application is in effect as of
the date on which the Secretary seeks to

App-497
establish such requirement only if the
Secretary becomes aware of new safety
information.
(D) Determination by Secretary
(i) Postapproval studies
The Secretary may not require the
responsible person to conduct a study
under this paragraph, unless the
Secretary makes a determination that
the reports under subsection (k)(1) and
the active postmarket risk identification
and analysis system as available under
subsection (k)(3) will not be sufficient to
meet the purposes set forth in
subparagraph (B).
(ii) Postapproval clinical trials
The Secretary may not require the
responsible person to conduct a clinical
trial under this paragraph, unless the
Secretary makes a determination that a
postapproval study or studies will not be
sufficient to meet the purposes set forth
in subparagraph (B).
(E) Notification; timetables; periodic
reports
(i) Notification
The Secretary shall notify the
responsible
person
regarding
a
requirement under this paragraph to
conduct a postapproval study or clinical
trial
by
the
target
dates
for
communication of feedback from the

App-498
review team to the responsible person
regarding
proposed
labeling
and
postmarketing study commitments as set
forth in the letters described in section
101(c) of the Food and Drug
Administration Amendments Act of
2007.
(ii) Timetable; periodic reports

For each study or clinical trial
required to be conducted under this
paragraph, the Secretary shall require
that the responsible person submit a
timetable for completion of the study or
clinical trial. With respect to each study
required to be conducted under this
paragraph or otherwise undertaken by
the responsible person to investigate a
safety issue, the Secretary shall require
the responsible person to periodically
report to the Secretary on the status of
such study including whether any
difficulties in completing the study have
been encountered. With respect to each
clinical trial required to be conducted
under this paragraph or otherwise
undertaken by the responsible person to
investigate a safety issue, the Secretary
shall require the responsible person to
periodically report to the Secretary on
the status of such clinical trial including
whether enrollment has begun, the
number of participants enrolled, the
expected completion date, whether any

App-499
difficulties completing the clinical trial
have been encountered, and registration
information with respect to the
requirements under section 282(j) of
Title 42. If the responsible person fails to
comply with such timetable or violates
any
other
requirement
of
this
subparagraph, the responsible person
shall be considered in violation of this
subsection, unless the responsible person
demonstrates good cause for such
noncompliance or such other violation.
The Secretary shall determine what
constitutes good cause under the
preceding sentence.
(F) Dispute resolution
The responsible person may appeal a
requirement to conduct a study or clinical
trial under this paragraph using dispute
resolution procedures established by the
Secretary in regulation and guidance.
(4) Safety labeling changes requested by
Secretary
(A) New safety or new effectiveness
information
If the Secretary becomes aware of new
information, including any new safety
information or information related to reduced
effectiveness, that the Secretary determines
should be included in the labeling of the drug,
the Secretary shall promptly notify the
responsible person or, if the same drug
approved under subsection (b) is not

App-500
currently marketed, the holder of an
approved application under subsection (j).
(B) Response to notification
Following notification pursuant to
subparagraph (A), the responsible person or
the holder of the approved application under
subsection (j) shall within 30 days-(i) submit a supplement proposing
changes to the approved labeling to
reflect the new safety information,
including changes to boxed warnings,
contraindications,
warnings,
precautions, or adverse reactions, or new
effectiveness information; or
(ii) notify the Secretary that the
responsible person or the holder of the
approved application under subsection (j)
does not believe a labeling change is
warranted and submit a statement
detailing the reasons why such a change
is not warranted.
(C) Review
Upon receipt of such supplement, the
Secretary shall promptly review and act upon
such supplement. If the Secretary disagrees
with the proposed changes in the supplement
or with the statement setting forth the
reasons why no labeling change is necessary,
the Secretary shall initiate discussions to
reach agreement on whether the labeling for
the drug should be modified to reflect the new

App-501
safety or new effectiveness information, and
if so, the contents of such labeling changes.
(D) Discussions
Such discussions shall not extend for
more than 30 days after the response to the
notification under subparagraph (B), unless
the Secretary determines an extension of
such discussion period is warranted.
(E) Order
Within 15 days of the conclusion of the
discussions under subparagraph (D), the
Secretary may issue an order directing the
responsible person or the holder of the
approved application under subsection (j) to
make such a labeling change as the Secretary
deems appropriate to address the new safety
or new effectiveness information. Within 15
days of such an order, the responsible person
or the holder of the approved application
under subsection (j) shall submit a
supplement containing the labeling change.
(F) Dispute resolution
Within 5 days of receiving an order under
subparagraph (E), the responsible person or
the holder of the approved application under
subsection (j) may appeal using dispute
resolution procedures established by the
Secretary in regulation and guidance.
(G) Violation
If the responsible person or the holder of
the approved application under subsection (j)
has not submitted a supplement within 15

App-502
days of the date of such order under
subparagraph (E), and there is no appeal or
dispute resolution proceeding pending, the
responsible person or holder shall be
considered to be in violation of this
subsection. If at the conclusion of any dispute
resolution
procedures
the
Secretary
determines that a supplement must be
submitted and such a supplement is not
submitted within 15 days of the date of that
determination, the responsible person or
holder shall be in violation of this subsection.
(H) Public health threat
Notwithstanding subparagraphs (A)
through (F), if the Secretary concludes that
such a labeling change is necessary to protect
the public health, the Secretary may
accelerate
the
timelines
in
such
subparagraphs.
(I) Rule of construction
This paragraph shall not be construed to
affect the responsibility of the responsible
person or the holder of the approved
application under subsection (j) to maintain
its label in accordance with existing
requirements, including subpart B of part 201
and sections 314.70 and 601.12 of title 21,
Code of Federal Regulations (or any successor
regulations).
(5) Non-delegation
Determinations by the Secretary under this
subsection for a drug shall be made by individuals

App-503
at or above the level of individuals empowered to
approve a drug (such as division directors within
the Center for Drug Evaluation and Research).
(p) Risk evaluation and mitigation strategy
(1) In general
A person may not introduce or deliver for
introduction into interstate commerce a new drug
if-(A)
(i) the application for such drug is
approved under subsection (b) or (j) and
is subject to section 353(b) of this title; or
(ii) the application for such drug is
approved under section 262 of Title 42;
and
(B) a risk evaluation and mitigation
strategy is required under section 355-1 of
this title with respect to the drug and the
person fails to maintain compliance with the
requirements of the approved strategy or
with other requirements under section 3551 of this title, including requirements
regarding
assessments
of
approved
strategies.
(2) Certain postmarket studies
The failure to conduct a postmarket study
under section 356 of this title, subpart H of part
314, or subpart E of part 601 of title 21, Code of
Federal
Regulations
(or
any
successor
regulations), is deemed to be a violation of
paragraph (1).

App-504
(q) Petitions and civil actions regarding
approval of certain applications
(1) In general
(A) Determination
The Secretary shall not delay approval of
a pending application submitted under
subsection (b)(2) or (j) of this section
or section 262(k) of Title 42 because of any
request to take any form of action relating to
the application, either before or during
consideration of the request, unless-(i) the request is in writing and is a
petition submitted to the Secretary
pursuant to section 10.30 or 10.35 of title
21, Code of Federal Regulations (or any
successor regulations); and
(ii) the Secretary determines, upon
reviewing the petition, that a delay is
necessary to protect the public health.
Consideration of the petition shall be
separate and apart from review and
approval of any application.
(B) Notification
If the Secretary determines under
subparagraph (A) that a delay is necessary
with respect to an application, the Secretary
shall provide to the applicant, not later than
30 days after making such determination, the
following information:

App-505
(i) Notification of the fact that a
determination under subparagraph (A)
has been made.
(ii) If applicable, any clarification or
additional data that the applicant should
submit to the docket on the petition to
allow the Secretary to review the petition
promptly.
(iii) A brief summary of the specific
substantive issues raised in the petition
which
form
the
basis
of
the
determination.
(C) Format
The
information
described
in
subparagraph (B) shall be conveyed via
either, at the discretion of the Secretary-(i) a document; or
(ii) a meeting with the applicant
involved.
(D) Public disclosure
Any information conveyed by the
Secretary under subparagraph (C) shall be
considered part of the application and shall
be subject to the disclosure requirements
applicable to information in such application.
(E) Denial based on intent to delay
If the Secretary determines that a
petition or a supplement to the petition was
submitted with the primary purpose of
delaying the approval of an application and
the petition does not on its face raise valid

App-506
scientific or regulatory issues, the Secretary
may deny the petition at any point based on
such determination. The Secretary may issue
guidance to describe the factors that will be
used to determine under this subparagraph
whether a petition is submitted with the
primary purpose of delaying the approval of
an application.
(F) Final agency action
The Secretary shall take final agency
action on a petition not later than 150 days
after the date on which the petition is
submitted. The Secretary shall not extend
such period for any reason, including-(i) any determination made under
subparagraph (A);
(ii) the submission of comments
relating to the petition or supplemental
information supplied by the petitioner; or
(iii) the consent of the petitioner.
(G) Extension of 30-month period
If the filing of an application resulted in
first-applicant status under subsection
(j)(5)(D)(i)(IV) and approval of the application
was delayed because of a petition, the 30month period under such subsection is
deemed to be extended by a period of time
equal to the period beginning on the date on
which the Secretary received the petition and
ending on the date of final agency action on
the petition (inclusive of such beginning and
ending dates), without regard to whether the

App-507
Secretary grants, in whole or in part, or
denies, in whole or in part, the petition.
(H) Certification
The Secretary shall not consider a
petition for review unless the party
submitting such petition does so in written
form and the subject document is signed and
contains the following certification: “I certify
that, to my best knowledge and belief: (a) this
petition includes all information and views
upon which the petition relies; (b) this
petition includes representative data and/or
information known to the petitioner which
are unfavorable to the petition; and (c) I have
taken reasonable steps to ensure that any
representative data and/or information which
are unfavorable to the petition were disclosed
to me. I further certify that the information
upon which I have based the action requested
herein first became known to the party on
whose behalf this petition is submitted on or
about the following date: __________. If I
received or expect to receive payments,
including cash and other forms of
consideration, to file this information or its
contents, I received or expect to receive those
payments from the following persons or
organizations: __________. I verify under
penalty of perjury that the foregoing is true
and correct as of the date of the submission of
this petition.”, with the date on which such
information first became known to such party
and the names of such persons or

App-508
organizations inserted in the first and second
blank space, respectively.
(I) Verification
The Secretary shall not accept for review
any supplemental information or comments
on a petition unless the party submitting
such information or comments does so in
written form and the subject document is
signed
and
contains
the
following
verification: “I certify that, to my best
knowledge and belief: (a) I have not
intentionally delayed submission of this
document or its contents; and (b) the
information upon which I have based the
action requested herein first became known
to me on or about __________. If I received or
expect to receive payments, including cash
and other forms of consideration, to file this
information or its contents, I received or
expect to receive those payments from the
following
persons
or
organizations:
__________. I verify under penalty of perjury
that the foregoing is true and correct as of the
date of the submission of this petition.”, with
the date on which such information first
became known to the party and the names of
such persons or organizations inserted in the
first and second blank space, respectively.

App-509
(2) Exhaustion
remedies

of

administrative

(A) Final agency action within 150
days
The Secretary shall be considered to have
taken final agency action on a petition if-(i) during the 150-day period
referred to in paragraph (1)(F), the
Secretary makes a final decision within
the meaning of section 10.45(d) of title
21, Code of Federal Regulations (or any
successor regulation); or
(ii) such period expires without the
Secretary having made such a final
decision.
(B) Dismissal of certain civil actions
If a civil action is filed against the
Secretary with respect to any issue raised in
the petition before the Secretary has taken
final agency action on the petition within the
meaning of subparagraph (A), the court shall
dismiss without prejudice the action for
failure to exhaust administrative remedies.
(C) Administrative record
For purposes of judicial review related to
the approval of an application for which a
petition under paragraph (1) was submitted,
the administrative record regarding any issue
raised by the petition shall include--

App-510
(i) the
petition
filed
under
paragraph (1) and any supplements and
comments thereto;
(ii) the Secretary's response to such
petition, if issued; and
(iii) other
information,
as
designated by the Secretary, related to
the Secretary's determinations regarding
the issues raised in such petition, as long
as the information was considered by the
agency no later than the date of final
agency action as defined under
subparagraph (2)(A), and regardless of
whether the Secretary responded to the
petition at or before the approval of the
application at issue in the petition.
(3) Annual report on delays in approvals
per petitions
The Secretary shall annually submit to the
Congress a report that specifies-(A) the number of applications that were
approved during the preceding 12-month
period;
(B) the number of such applications
whose effective dates were delayed by
petitions referred to in paragraph (1) during
such period;
(C) the number of days by which such
applications were so delayed; and
(D) the number of such petitions that
were submitted during such period.

App-511
(4) Exceptions
(A) This subsection does not apply to-(i) a petition that relates solely to
the timing of the approval of an
application pursuant to subsection
(j)(5)(B)(iv); or
(ii) a petition that is made by the
sponsor of an application and that seeks
only to have the Secretary take or refrain
from taking any form of action with
respect to that application.
(B) Paragraph (2) does not apply to a
petition addressing issues concerning an
application submitted pursuant to section
262(k) of Title 42.
(5) Definitions
(A) Application
For purposes of this subsection, the term
“application” means an application submitted
under subsection (b)(2) or (j) of this section
or section 262(k) of Title 42.
(B) Petition
For purposes of this subsection, other
than paragraph (1)(A)(i), the term “petition”
means a request described in paragraph
(1)(A)(i).
(r) Postmarket drug safety information for
patients and providers
(1) Establishment
Not later than 1 year after September 27,
2007, the Secretary shall improve the

App-512
transparency of information about drugs and
allow patients and health care providers better
access to information about drugs by developing
and maintaining an Internet Web site that-(A) provides links to drug safety
information listed in paragraph (2) for
prescription drugs that are approved under
this section or licensed under section 262 of
Title 42; and
(B) improves communication of drug
safety information to patients and providers.
(2) Internet Web site
by--

The Secretary shall carry out paragraph (1)
(A) developing and maintaining an
accessible, consolidated Internet Web site
with
easily
searchable
drug
safety
information, including the information found
on United States Government Internet Web
sites, such as the United States National
Library of Medicine's Daily Med and Medline
Plus Web sites, in addition to other such Web
sites maintained by the Secretary;
(B) ensuring that the information
provided on the Internet Web site is
comprehensive and includes, when available
and appropriate-(i) patient labeling
packaging inserts;

and

patient

(ii) a link to a list of each drug,
whether approved under this section or
licensed under such section 262, for

App-513
which a Medication Guide, as provided
for under part 208 of title 21, Code of
Federal Regulations (or any successor
regulations), is required;
(iii) a link to the registry and results
data bank provided for under subsections
(i) and (j) of section 282 of Title 42;
(iv) the
most
recent
safety
information and alerts issued by the Food
and Drug Administration for drugs
approved by the Secretary under this
section, such as product recalls, warning
letters, and import alerts;
(v) publicly available information
about implemented RiskMAPs and risk
evaluation and mitigation strategies
under subsection (o);
(vi) guidance
documents
and
regulations related to drug safety; and
(vii) other material determined
appropriate by the Secretary;
(C) providing access to summaries of the
assessed and aggregated data collected from
the active surveillance infrastructure under
subsection (k)(3) to provide information of
known and serious side-effects for drugs
approved under this section or licensed under
such section 262;
(D) preparing and making publicly
available on the Internet website established
under paragraph (1) best practices for drug
safety surveillance activities for drugs

App-514
approved under this section or section 262 of
Title 42;
(E) enabling patients, providers, and
drug sponsors to submit adverse event
reports through the Internet Web site;
(F) providing educational materials for
patients and providers about the appropriate
means of disposing of expired, damaged, or
unusable medications; and
(G) supporting initiatives that the
Secretary determines to be useful to fulfill the
purposes of the Internet Web site.
(3) Posting of drug labeling
The Secretary shall post on the Internet Web
site established under paragraph (1) the approved
professional labeling and any required patient
labeling of a drug approved under this section or
licensed under such section 262 not later than 21
days after the date the drug is approved or
licensed, including in a supplemental application
with respect to a labeling change.
(4) Private sector resources
To ensure development of the Internet Web
site by the date described in paragraph (1), the
Secretary may, on a temporary or permanent
basis, implement systems or products developed
by private entities.
(5) Authority for contracts
The Secretary may enter into contracts with
public and private entities to fulfill the
requirements of this subsection.

App-515
(6) Review
The
Advisory
Committee
on
Risk
Communication under section 360bbb-6 of this
title shall, on a regular basis, perform a
comprehensive review and evaluation of the types
of risk communication information provided on
the Internet Web site established under
paragraph (1) and, through other means, shall
identify, clarify, and define the purposes and
types of information available to facilitate the
efficient flow of information to patients and
providers, and shall recommend ways for the Food
and Drug Administration to work with outside
entities to help facilitate the dispensing of risk
communication information to patients and
providers.
(s) Referral to advisory committee
The Secretary shall-(1) refer a drug or biological product to a Food
and Drug Administration advisory committee for
review at a meeting of such advisory committee
prior to the approval of such drug or biological if
it is-(A) a drug, no active moiety (as defined
by the Secretary in section 314.3 of title 21,
Code of Federal Regulations (or any successor
regulations)) of which has been approved in
any other application under this section; or
(B) a biological product, no active
ingredient of which has been approved in any
other application under section 262 of Title
42; or

App-516
(2) if the Secretary does not refer a drug or
biological product described in paragraph (1) to a
Food and Drug Administration advisory
committee prior to such approval, provide in the
action letter on the application for the drug or
biological product a summary of the reasons why
the Secretary did not refer the drug or biological
product to an advisory committee prior to
approval.
(t) Database for authorized generic drugs
(1) In general
(A) Publication
The Commissioner shall-(i) not later than 9 months after
September 27, 2007, publish a complete
list on the Internet Web site of the Food
and Drug Administration of all
authorized generic drugs (including drug
trade
name,
brand
company
manufacturer, and the date the
authorized generic drug entered the
market); and
(ii) update the list quarterly to
include each authorized generic drug
included in an annual report submitted
to the Secretary by the sponsor of a listed
drug during the preceding 3-month
period.
(B) Notification
The Commissioner shall notify relevant
Federal agencies, including the Centers for
Medicare & Medicaid Services and the

App-517
Federal Trade Commission, when the
Commissioner first publishes the information
described in subparagraph (A) that the
information has been published and that the
information will be updated quarterly.
(2) Inclusion
The Commissioner shall include in the list
described in paragraph (1) each authorized
generic drug included in an annual report
submitted to the Secretary by the sponsor of a
listed drug after January 1, 1999.
(3) Authorized generic drug
In this section, the term “authorized generic
drug” means a listed drug (as that term is used in
subsection (j)) that-(A) has been approved under subsection
(c); and
(B) is marketed, sold, or distributed
directly or indirectly to retail class of trade
under a different labeling, packaging (other
than repackaging as the listed drug in blister
packs, unit doses, or similar packaging for
use in institutions), product code, labeler
code, trade name, or trade mark than the
listed drug.
(u) Certain
enantiomers

drugs

containing

single

(1) In general
For purposes of subsections (c)(3)(E)(ii) and
(j)(5)(F)(ii), if an application is submitted under
subsection (b) for a non-racemic drug containing

App-518
as an active moiety (as defined by the Secretary
in section 314.3 of title 21, Code of Federal
Regulations (or any successor regulations)) a
single enantiomer that is contained in a racemic
drug approved in another application under
subsection (b), the applicant may, in the
application for such non-racemic drug, elect to
have the single enantiomer not be considered the
same active moiety as that contained in the
approved racemic drug, if-(A)
(i) the single enantiomer has not
been previously approved except in the
approved racemic drug; and
(ii) the application submitted under
subsection (b) for such non-racemic drug(I) includes full reports of new
clinical investigations (other than
bioavailability studies)-(aa) necessary
for
the
approval of the application
under subsections (c) and (d);
and
(bb) conducted
or
sponsored by the applicant; and
(II) does not rely on any clinical
investigations that are part of an
application
submitted
under
subsection (b) for approval of the
approved racemic drug; and

App-519
(B) the application submitted under
subsection (b) for such non-racemic drug is
not submitted for approval of a condition of
use-(i) in a therapeutic category in which
the approved racemic drug has been
approved; or
(ii) for which any other enantiomer
of the racemic drug has been approved.
(2) Limitation
(A) No
approval
therapeutic categories

in

certain

Until the date that is 10 years after the
date of approval of a non-racemic drug
described in paragraph (1) and with respect
to which the applicant has made the election
provided for by such paragraph, the Secretary
shall not approve such non-racemic drug for
any condition of use in the therapeutic
category in which the racemic drug has been
approved.
(B) Labeling
If applicable, the labeling of a nonracemic drug described in paragraph (1) and
with respect to which the applicant has made
the election provided for by such paragraph
shall include a statement that the nonracemic drug is not approved, and has not
been shown to be safe and effective, for any
condition of use of the racemic drug.

App-520
(3) Definition
(A) In general
For purposes of this subsection, the term
“therapeutic category” means a therapeutic
category identified in the list developed by the
United States Pharmacopeia pursuant
to section 1395w-104(b)(3)(C)(ii) of Title 42
and as in effect on September 27, 2007.
(B) Publication by Secretary
The Secretary shall publish the list
described in subparagraph (A) and may
amend such list by regulation.
(4) Availability
The election referred to in paragraph (1) may
be made only in an application that is submitted
to the Secretary after September 27, 2007, and
before October 1, 2022.
(v) Antibiotic drugs
November 21, 1997

submitted

before

(1) Antibiotic drugs approved before
November 21, 1997
(A) In general
Notwithstanding any provision of the
Food
and
Drug
Administration
Modernization Act of 1997 or any other
provision of law, a sponsor of a drug that is
the subject of an application described in
subparagraph (B)(i) shall be eligible for, with
respect to the drug, the 3-year exclusivity
period referred to under clauses (iii) and (iv)
of subsection (c)(3)(E) and under clauses (iii)

App-521
and (iv) of subsection (j)(5)(F), subject to the
requirements of such clauses, as applicable.
(B) Application;
described

antibiotic

drug

(i) Application
An application described in this
clause is an application for marketing
submitted under this section after
October 8, 2008, in which the drug that is
the subject of the application contains an
antibiotic drug described in clause (ii).
(ii) Antibiotic drug
An antibiotic drug described in this
clause is an antibiotic drug that was the
subject of an application approved by the
Secretary under section 357 of this title
(as in effect before November 21, 1997).
(2) Antibiotic drugs submitted before
November 21, 1997, but not approved
(A) In general
Notwithstanding any provision of the
Food
and
Drug
Administration
Modernization Act of 1997 or any other
provision of law, a sponsor of a drug that is
the subject of an application described in
subparagraph (B)(i) may elect to be eligible
for, with respect to the drug-(i)
(I) the 3-year exclusivity period
referred to under clauses (iii) and
(iv) of subsection (c)(3)(E) and under

App-522
clauses (iii) and (iv) of subsection
(j)(5)(F), subject to the requirements
of such clauses, as applicable; and
(II) the
5-year
exclusivity
period referred to under clause (ii) of
subsection (c)(3)(E) and under
clause (ii) of subsection (j)(5)(F),
subject to the requirements of such
clauses, as applicable; or
(ii) a
patent
term
extension
under section 156 of Title 35, subject to
the requirements of such section.
(B) Application;
described

antibiotic

drug

(i) Application
An application described in this
clause is an application for marketing
submitted under this section after
October 8, 2008, in which the drug that is
the subject of the application contains an
antibiotic drug described in clause (ii).
(ii) Antibiotic drug
An antibiotic drug described in this
clause is an antibiotic drug that was the
subject of 1 or more applications received
by the Secretary under section 357 of this
title (as in effect before November 21,
1997), none of which was approved by the
Secretary under such section.

App-523
(3) Limitations
(A) Exclusivities and extensions
Paragraphs (1)(A) and (2)(A) shall not be
construed to entitle a drug that is the subject
of an approved application described in
subparagraphs5 (1)(B)(i) or (2)(B)(i), as
applicable, to any market exclusivities or
patent extensions other than those
exclusivities or extensions described in
paragraph (1)(A) or (2)(A).
(B) Conditions of use
Paragraphs (1)(A) and (2)(A)(i) shall not
apply to any condition of use for which the
drug referred to in subparagraph (1)(B)(i) or
(2)(B)(i), as applicable, was approved before
October 8, 2008.
(4) Application of certain provisions
Notwithstanding section 125, or any other
provision, of the Food and Drug Administration
Modernization Act of 1997, or any other provision
of law, and subject to the limitations in
paragraphs (1), (2), and (3), the provisions of the
Drug Price Competition and Patent Term
Restoration Act of 1984 shall apply to any drug
subject to paragraph (1) or any drug with respect
to which an election is made under paragraph
(2)(A).
(w) Deadline for determination on certain
petitions
The Secretary shall issue a final, substantive
determination on a petition submitted pursuant
to subsection (b) of section 314.161 of title 21, Code of

App-524
Federal Regulations (or any successor regulations), no
later than 270 days after the date the petition is
submitted.
(x) Date of approval in the case
recommended controls under the CSA

of

(1) In general

In the case of an application under subsection
(b) with respect to a drug for which the Secretary
provides notice to the sponsor that the Secretary
intends to issue a scientific and medical
evaluation and recommend controls under the
Controlled Substances Act, approval of such
application shall not take effect until the interim
final rule controlling the drug is issued in
accordance with section 201(j) of the Controlled
Substances Act.
(2) Date of approval
For purposes of this section, with respect to
an application described in paragraph (1), the
term “date of approval” shall mean the later of-(A) the date an application under
subsection (b) is approved under subsection
(c); or
(B) the date of issuance of the interim
final rule controlling the drug.
(y) Contrast agents intended for use with
applicable medical imaging devices
(1) In general
The sponsor of a contrast agent for which an
application has been approved under this section
may submit a supplement to the application

App-525
seeking approval for a new use following the
authorization of a premarket submission for an
applicable medical imaging device for that use
with the contrast agent pursuant to section
360j(p)(1) of this title.
(2) Review of supplement
In reviewing a supplement submitted under
this subsection, the agency center charged with
the premarket review of drugs may-(A) consult with the center charged with
the premarket review of devices; and
(B) review
information
and
data
submitted to the Secretary by the sponsor of
an applicable medical imaging device
pursuant
to section
360e, 360(k),
or 360c(f)(2) of this title so long as the sponsor
of such applicable medical imaging device has
provided to the sponsor of the contrast agent
a right of reference.
(3) Definitions
For purposes of this subsection-(A) the term “new use” means a use of a
contrast agent that is described in the
approved labeling of an applicable medical
imaging device described in section 360j(p) of
this title, but that is not described in the
approved labeling of the contrast agent; and
(B) the terms “applicable medical
imaging device” and “contrast agent” have the
meanings given such terms in section
360j(p) of this title.

App-526

35 U.S.C. §271
(a) Except as otherwise provided in this title,
whoever without authority makes, uses, offers to sell,
or sells any patented invention, within the United
States or imports into the United States any patented
invention during the term of the patent therefor,
infringes the patent.
(b) Whoever actively induces infringement of a
patent shall be liable as an infringer.
(c) Whoever offers to sell or sells within the
United States or imports into the United States a
component of a patented machine, manufacture,
combination or composition, or a material or
apparatus for use in practicing a patented process,
constituting a material part of the invention, knowing
the same to be especially made or especially adapted
for use in an infringement of such patent, and not a
staple article or commodity of commerce suitable for
substantial noninfringing use, shall be liable as a
contributory infringer.
(d) No patent owner otherwise entitled to relief
for infringement or contributory infringement of a
patent shall be denied relief or deemed guilty of
misuse or illegal extension of the patent right by
reason of his having done one or more of the following:
(1) derived revenue from acts which if performed by
another without his consent would constitute
contributory infringement of the patent; (2) licensed or
authorized another to perform acts which if performed
without his consent would constitute contributory
infringement of the patent; (3) sought to enforce his
patent rights against infringement or contributory

App-527
infringement; (4) refused to license or use any rights
to the patent; or (5) conditioned the license of any
rights to the patent or the sale of the patented product
on the acquisition of a license to rights in another
patent or purchase of a separate product, unless, in
view of the circumstances, the patent owner has
market power in the relevant market for the patent or
patented product on which the license or sale is
conditioned.
(e)
(1) It shall not be an act of infringement to
make, use, offer to sell, or sell within the United
States or import into the United States a patented
invention (other than a new animal drug or
veterinary biological product (as those terms are
used in the Federal Food, Drug, and Cosmetic Act
and the Act of March 4, 1913) which is primarily
manufactured
using
recombinant
DNA,
recombinant RNA, hybridoma technology, or
other processes involving site specific genetic
manipulation techniques) solely for uses
reasonably related to the development and
submission of information under a Federal law
which regulates the manufacture, use, or sale of
drugs or veterinary biological products.
(2) It shall be an act of infringement to
submit-(A) an application under section 505(j) of
the Federal Food, Drug, and Cosmetic Act or
described in section 505(b)(2) of such Act for
a drug claimed in a patent or the use of which
is claimed in a patent,

App-528
(B) an application under section 512 of
such Act or under the Act of March 4, 1913
(21 U.S.C. 151-158) for a drug or veterinary
biological product which is not primarily
manufactured using recombinant DNA,
recombinant RNA, hybridoma technology, or
other processes involving site specific genetic
manipulation techniques and which is
claimed in a patent or the use of which is
claimed in a patent, or
(C)
(i) with respect to a patent that is
identified in the list of patents described
in section 351(l)(3) of the Public Health
Service Act (including as provided under
section 351(l)(7) of such Act), an
application seeking approval of a
biological product, or
(ii) if the applicant for the
application fails to provide the
application and information required
under section 351(l)(2)(A) of such Act, an
application seeking approval of a
biological product for a patent that could
be identified pursuant to section
351(l)(3)(A)(i) of such Act,
if the purpose of such submission is to obtain
approval under such Act to engage in the
commercial manufacture, use, or sale of a drug,
veterinary biological product, or biological
product claimed in a patent or the use of which is
claimed in a patent before the expiration of such
patent.

App-529
(3) In any action for patent infringement
brought under this section, no injunctive or other
relief may be granted which would prohibit the
making, using, offering to sell, or selling within
the United States or importing into the United
States of a patented invention under paragraph
(1).
(4) For an act of infringement described in
paragraph (2)-(A) the court shall order the effective
date of any approval of the drug or veterinary
biological
product
involved
in
the
infringement to be a date which is not earlier
than the date of the expiration of the patent
which has been infringed,
(B) injunctive relief may be granted
against an infringer to prevent the
commercial manufacture, use, offer to sell, or
sale within the United States or importation
into the United States of an approved drug,
veterinary biological product, or biological
product,
(C) damages or other monetary relief
may be awarded against an infringer only if
there has been commercial manufacture, use,
offer to sell, or sale within the United States
or importation into the United States of an
approved drug, veterinary biological product,
or biological product, and
(D) the court shall order a permanent
injunction prohibiting any infringement of
the patent by the biological product involved
in the infringement until a date which is not

App-530
earlier than the date of the expiration of the
patent that has been infringed under
paragraph (2)(C), provided the patent is the
subject of a final court decision, as defined in
section 351(k)(6) of the Public Health Service
Act, in an action for infringement of the
patent under section 351(l)(6) of such Act, and
the biological product has not yet been
approved because of section 351(k)(7) of such
Act.
The
remedies
prescribed
by
subparagraphs (A), (B), (C), and (D) are the
only remedies which may be granted by a
court for an act of infringement described in
paragraph (2), except that a court may award
attorney fees under section 285.
(5) Where a person has filed an application
described in paragraph (2) that includes a
certification under subsection (b)(2)(A)(iv) or
(j)(2)(A)(vii)(IV) of section 505 of the Federal Food,
Drug, and Cosmetic Act (21 U.S.C. 355), and
neither the owner of the patent that is the subject
of the certification nor the holder of the approved
application under subsection (b) of such section
for the drug that is claimed by the patent or a use
of which is claimed by the patent brought an
action for infringement of such patent before the
expiration of 45 days after the date on which the
notice given under subsection (b)(3) or (j)(2)(B) of
such section was received, the courts of the United
States shall, to the extent consistent with the
Constitution, have subject matter jurisdiction in
any action brought by such person under section

App-531
2201 of title 28 for a declaratory judgment that
such patent is invalid or not infringed.
(6)
(A) Subparagraph (B) applies, in lieu of
paragraph (4), in the case of a patent-(i) that is identified, as applicable, in
the list of patents described in section
351(l)(4) of the Public Health Service Act
or the lists of patents described in section
351(l)(5)(B) of such Act with respect to a
biological product; and
(ii) for which an action for
infringement of the patent with respect
to the biological product-(I) was brought after the
expiration of the 30-day period
described in subparagraph (A) or
(B), as applicable, of section 351(l)(6)
of such Act; or
(II) was brought before the
expiration of the 30-day period
described in subclause (I), but which
was dismissed without prejudice or
was not prosecuted to judgment in
good faith.
(B) In an action for infringement of a
patent described in subparagraph (A), the
sole and exclusive remedy that may be
granted by a court, upon a finding that the
making, using, offering to sell, selling, or
importation into the United States of the
biological product that is the subject of the

App-532
action infringed the patent, shall be a
reasonable royalty.
(C) The owner of a patent that should
have been included in the list described in
section 351(l)(3)(A) of the Public Health
Service Act, including as provided under
section 351(l)(7) of such Act for a biological
product, but was not timely included in such
list, may not bring an action under this
section for infringement of the patent with
respect to the biological product.
(f)

(1) Whoever without authority supplies or
causes to be supplied in or from the United States
all or a substantial portion of the components of a
patented invention, where such components are
uncombined in whole or in part, in such manner
as to actively induce the combination of such
components outside of the United States in a
manner that would infringe the patent if such
combination occurred within the United States,
shall be liable as an infringer.
(2) Whoever without authority supplies or
causes to be supplied in or from the United States
any component of a patented invention that is
especially made or especially adapted for use in
the invention and not a staple article or
commodity of commerce suitable for substantial
noninfringing use, where such component is
uncombined in whole or in part, knowing that
such component is so made or adapted and
intending that such component will be combined
outside of the United States in a manner that

App-533
would infringe the patent if such combination
occurred within the United States, shall be liable
as an infringer.
(g) Whoever without authority imports into the
United States or offers to sell, sells, or uses within the
United States a product which is made by a process
patented in the United States shall be liable as an
infringer, if the importation, offer to sell, sale, or use
of the product occurs during the term of such process
patent. In an action for infringement of a process
patent, no remedy may be granted for infringement on
account of the noncommercial use or retail sale of a
product unless there is no adequate remedy under this
title for infringement on account of the importation or
other use, offer to sell, or sale of that product. A
product which is made by a patented process will, for
purposes of this title, not be considered to be so made
after-(1) it is materially changed by subsequent
processes; or
(2) it becomes a trivial and nonessential
component of another product.
(h) As used in this section, the term “whoever”
includes any State, any instrumentality of a State,
and any officer or employee of a State or
instrumentality of a State acting in his official
capacity. Any State, and any such instrumentality,
officer, or employee, shall be subject to the provisions
of this title in the same manner and to the same extent
as any nongovernmental entity.
(i) As used in this section, an “offer for sale” or an
“offer to sell” by a person other than the patentee, or
any designee of the patentee, is that in which the sale
will occur before the expiration of the term of the
patent.

